<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-800]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-800

    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2017

=======================================================================

                                HEARINGS

                                BEFORE A

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                           H.R. 5055/S. 2804

 AN ACT MAKING APPROPRIATIONS FOR ENERGY AND WATER DEVELOPMENT FOR THE 
     FISCAL YEAR ENDING SEPTEMBER 30, 2017, AND FOR OTHER PURPOSES

                               __________

                      Department of Defense--Civil
                          Department of Energy
                       Department of the Interior

                               __________

         Printed for the use of the Committee on Appropriations


   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations

                               __________
                               
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-304 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a9ced9c6e9cadcdaddc1ccc5d987cac6c487">[email&#160;protected]</a>                               
                               
                               
                      COMMITTEE ON APPROPRIATIONS

                   THAD COCHRAN, Mississippi Chairman
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland, 
RICHARD C. SHELBY, Alabama               Vice Chairwoman
LAMAR ALEXANDER, Tennessee           PATRICK J. LEAHY, Vermont
SUSAN M. COLLINS, Maine              PATTY MURRAY, Washington
LISA MURKOWSKI, Alaska               DIANNE FEINSTEIN, California
LINDSEY GRAHAM, South Carolina       RICHARD J. DURBIN, Illinois
MARK KIRK, Illinois                  JACK REED, Rhode Island
ROY BLUNT, Missouri                  JON TESTER, Montana
JERRY MORAN, Kansas                  TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            JEANNE SHAHEEN, New Hampshire
JOHN BOOZMAN, Arkansas               JEFF MERKLEY, Oregon
SHELLEY MOORE CAPITO, West Virginia  CHRISTOPHER A. COONS, Delaware
BILL CASSIDY, Louisiana              BRAIN SCHATZ, Hawaii
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
STEVE DAINES, Montana                CHRISTOPHER MURPHY, Connecticut

                      Bruce Evans, Staff Director
              Charles E. Kieffer, Minority Staff Director
                                 
                                 ------                                

              Subcommittee on Energy and Water Development

                  LAMAR ALEXANDER, Tennessee, Chairman
THAD COCHRAN, Mississippi            DIANNE FEINSTEIN, California, 
MITCH McCONNELL, Kentucky                Ranking
RICHARD C. SHELBY, Alabama           PATTY MURRAY, Washington
SUSAN M. COLLINS, Maine              JON TESTER, Montana
LISA MURKOWSKI, Alaska               RICHARD J. DURBIN, Illinois
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            JEANNE SHAHEEN, New Hampshire
JAMES LANKFORD, Oklahoma             JEFF MERKLEY, Oregon
                                     CHRISTOPHER A. COONS, Delaware
                                     BARBARA A. MIKULSKI, Maryland (ex 
                                         officio)

                           Professional Staff

                              Tyler Owens
                              Adam DeMella
                             Meyer Seligman
                            Hayley Alexander
                         Doug Clapp (Minority)
                        Chris Hanson (Minority)
                       Samantha Nelson (Minority)
                            
                            C O N T E N T S

                              ----------                              

                                HEARINGS
                      Wednesday, February 24, 2016

                                                                   Page

Nuclear Regulatory Commission....................................     1

                        Wednesday, March 2, 2016

U.S. Army Corps of Engineers and Bureau of Reclamation...........    31

                        Wednesday, March 9, 2016

Department of Energy: Office of the Secretary....................   101

                       Wednesday, March 16, 2016

Department of Energy: National Nuclear Security Administration...   169

                              ----------                              

                              BACK MATTER

List of Witnesses, Communications, and Prepared Statements.......   201

Subject Index....................................................   203
    Department of Energy.........................................   203
        National Nuclear Security Administration.................   203
        Office of the Secretary..................................   203
Nuclear Regulatory Commission....................................   204
U.S. Army Corps and Engineers and Bureau of Reclamation..........   204

 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:34 p.m. in room SD-138, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Murkowski, and Feinstein.

                     NUCLEAR REGULATORY COMMISSION

STATEMENT OF HON. STEPHEN G. BURNS, CHAIRMAN
ACCOMPANIED BY:
        HON. KRISTINE SVINICKI, COMMISSIONER
        HON. WILLIAM OSTENDORFF, COMMISSIONER
        HON. JEFF BARAN, COMMISSIONER


              opening statement of senator lamar alexander


    Senator Alexander. The Subcommittee on Energy and Water 
Development please come to order.
    Today's hearing will review the President's fiscal year 
2017 budget request for the Nuclear Regulatory Commission.
    This is our first budget hearing this year. We expect to 
have three more budget hearings in the coming weeks. Senator 
Feinstein and I will each have an opening statement, and let 
me--it gives me an opportunity to say again what a delight it 
is to serve with her, to serve with somebody who has such good, 
strong knowledge of the subject, but also who, as a former 
mayor of a big city, knows how to make a decision. So it's nice 
to work with her in an effective and bipartisan way. And we 
find areas where we can put our heads together and come to an 
agreement and get a result, which makes service in the Senate 
much more satisfying to me. So I thank her for the way she does 
things.
    I will then recognize each Senator for up to 5 minutes 
after we have our opening statement for an opening statement, 
alternating between the majority and minority in the order in 
which they arrive, and will then turn to Chairman Burns to 
present testimony on behalf of the Commission. I will then 
recognize the Senators for 5 minutes of questions each, 
alternating from side to side.
    Our witnesses today include Stephen Burns, chairman of the 
Nuclear Regulatory Commission.
    Welcome, Mr. Chairman.
    Commissioner Kristine Svinicki, welcome. Good to see you 
again.
    Commissioner William Ostendorff. This will be the last 
hearing for Commissioner Ostendorff because he has announced he 
will be leaving the Commission at the end of his term in June, 
and returning to teach at the U.S. Naval Academy. He has been a 
strong and effective member of the Commission, and we thank him 
for that and wish him well in his new role.
    Commissioner Jeff Baran. Welcome to you, Jeff.
    As I said, we are here to review the proposed 2017 budget 
request for the Commission, which is the independent Federal 
agency responsible for regulating the safety of our Nation's 
commercial nuclear power plants and other nuclear materials.
    The budget request is $970.2 million. That's a decrease of 
$19.8 million from fiscal year 2016. The decrease is, in my 
opinion, a positive step toward making the Commission's budget 
reflect its actual workload.
    I also thank the chairman and the Commission for working 
together to identify more ways to reduce spending and reduce 
the NRC (Nuclear Regulatory Commission) funding needs for the 
coming year. And long as I talk about it, I thank you for 
working together because there was a time on the Commission 
when that wasn't going on, and for the last few years, it's 
been obvious to me that there is a collegial atmosphere there, 
and that obviously makes for a better functioning entity.
    We want to work closely with the Commission to make sure 
our bill reflects the savings, making the best use of taxpayer 
dollars. However, we want to make sure we continue to invest in 
nuclear power, which provides more than 60 percent of our 
country's carbon-free electricity.
    At a time when the President and many in the country see 
climate change as a major issue, it's difficult for me to see 
why we should not make nuclear power a primary solution, or one 
of the primary solutions, to dealing with that problem because 
of our expertise at it and because of the amount of carbon-free 
electricity it produces.
    Safely extending our existing reactors, licensing new 
reactors, including small reactors, solving the nuclear waste 
stalemate, are all important to the future of the industry--of 
nuclear energy. And I will focus my question on four main 
areas: solving the nuclear waste stalemate is something Senator 
Feinstein and I are dedicated to; safely extending licenses for 
existing reactors, which seems to me to be the logical way, at 
least for the next 20 years or so, to produce the largest 
amount of carbon-free electricity in the country; licensing new 
reactors; and making sure that the Commission is operating 
efficiently. Let me take those one by one.
    To be sure that we have a strong future for nuclear energy, 
we must solve the 25-year-old stalemate about what to do about 
waste from the reactors. Last year, Senator Feinstein and 
Senators Murkowski, Cantwell, and I reintroduced bipartisan 
legislation to create temporary and permanent facilities to 
store and dispose of our nuclear fuel. Our bill was consistent 
with the recommendations of the President's Blue Ribbon 
Commission on America's Nuclear Future.
    Senator Feinstein and I, with the support of leaders of the 
authorizing committee, plan to include in the Energy and Water 
bill we're drafting this year, a pilot program for nuclear 
waste storage and language that allows the Secretary of Energy 
to contract with private storage facilities, as we have in the 
past. These new storage facilities and repositories would not 
take the place of Yucca Mountain in my opinion--we have more 
than enough waste to fill Yucca Mountain to its legal 
capacity--but, rather, would complement it.
    I strongly believe that Yucca Mountain can and should be 
part of the solution. Federal law designates Yucca Mountain as 
the Nation's repository for nuclear fuel. The Commission's own 
scientists have told us that we can safely store nuclear waste 
there for up to 1 million years. But regardless of where we 
build permanent repositories, we still need facilities where we 
can consolidate all of the used fuel that is currently located 
at more than 75 sites around the country. The Blue Ribbon 
Commission concluded, ``That it would be prudent to pursue the 
development of consolidated storage capability without further 
delay,'' and Senator Feinstein and I agree with that 
recommendation.
    Over the last 4 years, we have heard from communities and 
States who are interested in hosting a consolidated storage 
site. I support moving forward with a consolidated storage on 
as many tracks as we can at once, whether it's at a private 
facility or one built under our own pilot program. And it's 
important to make sure the Commission is ready to act 
expeditiously.
    I understand that at least one private company is planning 
to submit an application to the Commission later this year for 
a license to build and operate a consolidated storage facility, 
and there may be others. I want to make sure the Commission has 
all the resources it needs in fiscal year 2017 to complete a 
review of such applications.
    And I also want to be clear that, in my opinion, the 
Commission should continue licensing activities for Yucca 
Mountain. The Nuclear Waste Fund, which is money that utilities 
have collected from customers on their monthly bills from 1983 
until 2013, and paid to the Government to dispose of their used 
nuclear fuel, plus accrued interest, will have a balance of 
about $37.5 billion at the end of the year, and there are still 
several steps to go in the licensing process of Yucca Mountain.
    The Government has been prevented from collecting fees 
since 2013, when the Court of Appeals for the D.C. Circuit said 
the Federal Government should comply with the Nuclear Waste 
Policy Act as it's currently written--that is, open Yucca 
Mountain--or until Congress enacts an alternative nuclear waste 
management plan. Yet, for the sixth year, the Commission has 
not requested any funding to continue licensing activities for 
Yucca even though the Commission will run out of money later 
this year for that purpose, and there are still several more 
steps that need to be taken.
    Number two, safely extending licenses for existing 
reactors. Instead of building more windmills, which only 
produce 14 percent of our carbon-free electricity despite 25 
years of multibillion dollar subsidies, or solar farms, which 
produce 1 percent of our carbon-free electricity, the best way 
to make sure the United States has a reliable source of cheap, 
efficient, carbon-free electricity is to extend the licenses of 
the nuclear reactors that are today already operating and 
producing 60 percent of our carbon-free electricity. Most of 
our 100 reactors have already extended their operating licenses 
from 40 to 60 years. Some utilities are planning to begin the 
process to extend these licenses from 60 to 80 years.
    The Commission told the subcommittee in last year's hearing 
that it had already developed the framework to safely extend 
licenses beyond 60 years, and I want to make sure the 
Commission has the resources it needs to take any final--any 
additional steps prior to receiving those applications.
    Number three, licensing new reactors. In addition to the 
reactors we already have, the Commission needs to be ready to 
review applications for new reactors, especially including 
small modular reactors. I understand that NuScale may file an 
application for design certification of a small reactor with 
the Commission later this year. Last week, NuScale received a 
permit from the Department of Energy, which will allow the 
company to build a small modular reactor module within 10 years 
on the property of the Idaho National Laboratory and use the 
site for 99 years for its operation.
    This new reactor design has been supported by the 
Department of Energy's small modular reactor program, which 
this subcommittee has funded since 2012. The subcommittee has 
also provided the NRC with funding to prepare to receive 
applications for small modular reactors. I want to make sure 
the Commission is ready to review this new technology once it 
receives its application. I also understand the Commission has 
requested $5 million to look at advanced reactor designs, and I 
would like to understand more about your plans for those funds.
    And, finally, making sure that the Commission is running 
efficiently. One of the challenges is to make sure the agency 
is running efficiently and focusing on the right goals. That's 
part of management.
    In the 2000s, the Commission began planning to receive a 
large number of applications for new reactor licenses, and the 
Congress increased the Commission's funding from $470 million 
in fiscal year 2000 to a high of $1.043 billion in 2014, a 
doubling of funding. But most of these expected licenses were 
never actually submitted, which has left the Commission's 
workforce and budget out of balance with its actual workload.
    In June 2014, the Commission began an effort, known as 
Project Aim, to address this imbalance by looking at the work 
that would be needed over the next several years and then 
aligning its workforce and budget with that forecast. As a 
result of this effort, the Commission's budget has decreased. 
In fact, this year's budget request is about $74 million less 
than what the Commission received in 2014.
    Last year, we worked with the Commission to cut its budget 
request by about $30 million. I am pleased that this year's 
budget request continues in that direction. I understand the 
Commission's staff has identified an additional $32 million in 
savings that could be applied to this year's budget request. I 
want to make sure the bill that Senator Feinstein and I and the 
committee members will be drafting reflects these additional 
savings so taxpayer money is wisely and effectively spent.
    I look forward to working with the Commission as we begin 
putting together our Energy and Water Appropriations bills. My 
hope would be that our bill would be one of the first on the 
floor, and that Senator McConnell and Senator Reid can put it 
up there and we can begin an appropriations process of the kind 
the Senate should have, and that we haven't had for a while.
    And I will now recognize my distinguished Ranking Member, 
Senator Feinstein, for an opening statement.
    [The statement follows:]
             Prepared Statement of Senator Lamar Alexander
    We're here today to review the President's fiscal year 2017 budget 
request for the Nuclear Regulatory Commission, the independent Federal 
agency responsible for regulating the safety of our Nation's commercial 
nuclear power plants and other nuclear materials.
    The budget request for the Nuclear Regulatory Commission is $970.2 
million dollars. This is a decrease of $19.8 million dollars from 
fiscal year 2016. This decrease from last year's appropriations bill is 
a positive step toward making the Commission's budget reflect its 
actual workload.
    I also appreciate the Commission's efforts to identify more ways to 
reduce spending and reduce the NRC's funding needs for the coming year. 
We want to work closely with the Commission to make sure the Energy and 
Water Appropriations bill we are drafting reflects those savings, 
making the best use of taxpayer dollars.
    However, we also want to make sure we continue to invest in nuclear 
power, which provides more than 60 percent of our country's carbon-free 
electricity. Safely extending licenses for our existing reactors, 
licensing new reactors, including small modular reactors, and solving 
the nuclear waste stalemate are all important to the future of nuclear 
energy.
    Today, I will focus my questions on four main areas:
    1)  Licensing facilities for used nuclear fuel and solving the 
        nuclear waste stalemate;
    2) Safely extending licenses for existing reactors;
    3) Licensing new reactors; and
    4) Making sure the Nuclear Regulatory Commission is operating 
        efficiently.
               licensing facilities for used nuclear fuel
    To ensure that nuclear power has a strong future in this country, 
we must solve the 25-year-old stalemate about what to do with used fuel 
from our nuclear reactors.
    Last year, Senators Feinstein, Murkowski, Cantwell, and I 
reintroduced bipartisan legislation, to create temporary and permanent 
facilities to store and dispose of our used nuclear fuel, consistent 
with the recommendations of the Blue Ribbon Commission on America's 
Nuclear Future.
    Senator Feinstein and I, with the support of the leaders of the 
authorizing committee, plan to include in the Energy and Water bill 
we're drafting this year, a pilot program for nuclear waste storage and 
language that allows the Secretary of Energy to contract with private 
storage facilities, as we have in the past. These new storage 
facilities and repositories would not take the place of Yucca 
Mountain--we have more than enough waste to fill Yucca Mountain to its 
legal capacity--but rather would complement it.
    I strongly believe that Yucca Mountain can and should be part of 
the solution. Federal law designates Yucca Mountain as the Nation's 
repository for used nuclear fuel, and the Commission's own scientists 
have told us that we can safely store nuclear waste there for up to 1 
million years.
    But regardless of where we build permanent repositories, we still 
need facilities where we can consolidate all of the used fuel that is 
currently located at more than 75 sites around the country. The Blue 
Ribbon Commission concluded that ``it would be prudent to pursue the 
development of consolidated storage capability without further delay,'' 
and Sen. Feinstein and I agree with that recommendation.
    Over the last 4 years, we have heard from communities and States 
who are interested in hosting a consolidated storage site. I support 
moving forward with consolidated storage on as many tracks as we can, 
whether it's at a private facility or one built under our pilot 
program, and it is important to make sure that the Commission is ready 
to act expeditiously.
    I understand that at least one private company is planning to 
submit an application to the Commission later this year for a license 
to build and operate a consolidated storage facility, and there may be 
others. I want to make sure that the Commission has all the resources 
it needs in fiscal year 2017 to complete a review of these 
applications. I also want to be clear that the Commission should 
continue licensing activities for Yucca Mountain.
    The Nuclear Waste Fund, which is money that utilities have 
collected from customers on their monthly bills from 1983 until 2013 
and paid to the government to dispose of their used nuclear fuel plus 
accrued interest, will have a balance of about $37.5 billion at the end 
of the year, and there are still several steps to go in the licensing 
process for Yucca Mountain.
    The government has been prevented from collecting fees since 2013, 
when the Court of Appeals for the D.C. Circuit Court said the Federal 
government should comply with the Nuclear Waste Policy Act as it is 
currently written--i.e. open Yucca Mountain--or until Congress enacts 
an alternative nuclear waste management plan.
    Yet for the sixth year, the Commission has not requested any 
funding to continue licensing activities for Yucca Mountain, even 
though the Commission will run out of money later this year for that 
purpose and there are still several more steps that need to be taken.
            safely extending licenses for existing reactors
    Instead of building more windmills, which only produce 14 percent 
of our carbon-free electricity, or solar farms, which only produce 1 
percent of our carbon-free electricity, the best way to make sure the 
United States has a reliable source of cheap, efficient, carbon-free 
electricity is to extend the licenses of the nuclear reactors that are 
already operating.
    Most of our 100 reactors have already extended their operating 
licenses from 40 to 60 years, and some utilities are planning to begin 
the process to extend these licenses from 60 to 80 years.
    The Commission told the Subcommittee in last year's hearing that it 
had already developed the framework to safely extend licenses beyond 60 
years, and I want to make sure that the Commission has the resources it 
needs to take any additional steps it needs prior to receiving those 
applications.
                         licensing new reactors
    In addition to the reactors we already have, the Commission also 
needs to be ready to review applications for new reactors, including 
small modular reactors.
    I understand that NuScale may file an application for design 
certification of a small modular reactor with the Commission later this 
year. Last week, NuScale received a permit from the Department of 
Energy, which will allow the company to build a small modular reactor 
module within 10 years on the property of Idaho National Laboratory and 
to use the site for 99 years for its operation.
    This new reactor design has been supported by the Department of 
Energy's small modular reactor program, which this subcommittee has 
funded since 2012. The subcommittee has also provided the NRC with 
funding to prepare to receive applications for small modular reactors. 
I want to make sure the Commission is ready to review this new 
technology once it receives an application.
    I also understand that the Commission has requested $5 million to 
look at advanced reactor designs, and I'd like to understand more about 
the Commission's plans for these funds.
  making sure the nuclear regulatory commission is running efficiently
    One of the challenges for the Nuclear Regulatory Commission is to 
make sure the agency is running effectively and focusing on the right 
goals.
    In the early 2000s, the Commission began planning to receive a 
large number of applications for new reactor licenses, and Congress 
increased the Commission's funding from $470 million in fiscal year 
2000 to a high of $1.043 billion in fiscal year 2014. But most of these 
expected licenses were never actually submitted, which has left the 
Commission's workforce and budget out of balance with its actual 
workload.
    In June 2014, the Commission began an effort, known as Project Aim, 
to address this imbalance by looking at the work that would be needed 
over the next several years and then aligning its workforce and budget 
with that forecast. As a result of the first step of this effort, the 
Commission's budget has decreased. In fact, this year's budget request 
is about $74 million dollars less than what the Commission received in 
2014.
    Last year, we worked with the Commission to cut its budget request 
by about $30 million dollars, and I'm pleased this year's budget 
request continues in the right direction. I understand that the 
Commission's staff has identified an additional $32 million in savings 
that could be applied to this year's budget request. I want to make 
sure the bill Sen. Feinstein and I are drafting this year reflects 
those additional savings so taxpayer money is used effectively.
    I look forward to working with the Commission as we begin putting 
together our Energy and Water Appropriations bill for fiscal year 2017, 
and also with my Ranking Member, Senator Feinstein, who I will now 
recognize for an opening statement.
    Senator Alexander. Senator Feinstein.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Well, thanks very much, Mr. Chairman. I 
think you have made a very erudite and important statement, and 
I tried to listen to it carefully. I have come to have great 
respect for your knowledge, your acumen, and your ability to 
sit down and work out a solution. So, unfortunately, we have 
tried with the House, and not been as successful as we might 
have been, but, you know, hope springs eternal----
    Senator Alexander. Right.
    Senator Feinstein [continuing]. And I would really hope 
that this year we could make some progress with respect to a 
nuclear waste policy. And I understand your priorities.
    And I guess what I ask you to do, and others to do, is 
understand that I was a young child when the bombs were leveled 
at Hiroshima and Nagasaki. And I was old enough to read, so I 
read every newspaper I could get and saw pictures that were 
etched in my consciousness for the rest of my life. So I became 
very much aware, and I tried to follow Chernobyl and people 
going back to Chernobyl even after all these decades and 
finding how hot the radiation is. I remember watching a 
television program on it when they went to where the uniforms 
were stored in a building from the first people onsite, Russian 
soldiers and others, that first went into Chernobyl. And I 
don't know how many of them lived, but the uniforms all these 
decades later--they had Geiger counters, and the Geiger 
counters just went ballistic. So they're all still very, very 
hot. And I think we have to really at times be brought back to 
the reality.
    I think a lot of my concern is because I'm on the Pacific, 
I'm a westerner, and I happen to believe that the Pacific Ocean 
is in fact a ring of fire for big earthquakes, and, therefore, 
seeing that waste is properly disposed of so that it can't be 
done or the spent fuel pools won't split, as they have in 
Fukushima, and the other problems that Fukushima has had have 
been solved.
    Since our last meeting--and I want to very much compliment 
Southern California Edison because they have--are in the 
process of decommissioning with the NRC their two big reactors. 
And I think as the Commission knows, and we know, they have 
maybe 4,000 elements in spent fuel pools that are just a few 
yards from the beach, and 6 million people live on the other 
side. I know what the problem was in the faulty steam 
generator, and I think they did the right thing by 
decommissioning those reactors, but there is still a lot to 
worry about.
    We have another utility company that is located, again, on 
the ocean. I've been there. And they have taken a lot of 
precautions, but there are earthquake fractures and faults that 
run not too far away. So all of that is an increasing concern 
for me. But the need for a nuclear waste policy, which you have 
so well described and which we together, as well as with the 
authorizers, have worked on for, what, 4 years now?
    Senator Alexander. Yes.
    Senator Feinstein. And we've gone through three chairs of 
the Energy Committee, and it's still sitting there, and it's 
sitting there because of a conflict with Yucca. And I'm really 
concerned about that because we cannot be stopped by Yucca from 
doing good public policy around nuclear. You pointed out that 
it's 60 percent of our clean power, and it's very cheap. Well, 
if we're moribund, if we're in stasis, and we can't do anything 
to see that we can fix the problems, it's a very difficult time 
that we're going to have.
    So I couldn't ask for anyone more reasonable, more 
informed. And I really hope that we can spend some time and try 
to see if we can't get these problems resolved. We've tried 
before, but we have to succeed. So that's the need for our 
nuclear waste policy, and as you pointed out, ensuring the 
safety of nuclear plants, particularly after Fukushima, and 
applying the regulations to aging plants.
    It's my understanding that spent nuclear fuel is piling up 
at reactor sites around the country, 74,000 metric tons of it 
to date. Approximately 130 million people live within 50 miles 
of a storage site for commercial or government-owned spent 
nuclear fuel and other high-level waste. I mentioned in 
California alone, they shut down San Onofre Nuclear Generating 
Station, stores the 4,000 highly radioactive spent fuel 
assemblies just yards from the ocean. Reactors are being given 
license extensions, even though we have no long-term plan to 
store the waste they produce. This is very hard for me.
    So I think NRC needs to play a key role in helping us solve 
that problem, notably by being ready to review license 
applications for spent fuel storage sites as we envision in our 
Appropriation bill. NRC will also need to ensure that storage 
and transportation equipment and the procedures for handling 
spent fuel are fully protective of human health and the 
environment.
    So what Senator Alexander and I have done, and Senators 
Murkowski and Cantwell, we hope we can push to get that Nuclear 
Waste Policy Act into law. But we're nearing the fifth 
anniversary of the Fukushima disaster, which showed us how 
nature can quickly overwhelm even the best designed safety 
systems.
    Diablo Canyon, as I mentioned, sits on two major faults, 
and it could be subject to some of the same risks as Fukushima. 
Some post-Fukushima analysis argued that the Japanese 
regulatory structure was too close to the nuclear industry it 
was regulating, which contributed to the disaster, and so we 
can't allow that to happen here. The NRC must be independent, 
tough-nosed, and puts reactor operations above all.
    Finally, the fleet of nuclear reactors in our country is 
aging. Of the 99 operating reactors, as you pointed out, Mr. 
Chairman, 81 have been granted license extensions to operate 
for 60 years; another 11 have applications pending before the 
Commission. In addition, NRC has implemented the subsequent 
license renewal program to license reactors out to 80 years, 
and expects its first application in 2019.
    To me, this gives me pause, and I think it should give us 
all pause. As these plants age, and the stresses of operations 
and exposure to radioactivity take their toll, I hope that the 
NRC takes a rigorous, evidence-based approach to ensuring that 
all of the systems that comprise a nuclear power plant function 
are safe and secure. The consequences of failure, however small 
the chances, are really too grave to ignore.
    I understand the NRC has undertaken an effort called 
Project Aim--A-I-M--to make sure its budget and workforce are 
in line with the agency's future needs. The goal of the 
project, as I understand it, is to reduce funding and staffing 
levels by 10 percent by 2020. With its 2017 budget request, the 
NRC will have reduced staff by 280 employees, and funding by 
$74 million from 2014 levels. That's a very big decline. The 
nuclear industry has applauded this effort and called for 
deeper cuts.
    Now, I'm all for increasing Government efficiency, but I 
really grow concerned when an industry champions less oversight 
of its operations. So let me repeat: the American people need 
NRC to be a strong, independent, and capable regulator, and the 
nuclear industry should be held accountable to it for the 
safety of all reactors, both operating and retired.
    So I think we should sit down and talk about this. You 
know, I still--I went to San Onofre. I looked at the steam 
generator that was a Mitsubishi product. It was not like-for-
like, but believed to have alloys that were much improved. I 
was told about where the punctures were, and at that time, it 
was limited to one of the pair. Well, the other one began then 
to develop punctures. I'm not an expert, so I don't know. I 
know whether it's vibration or exactly what it was. And 
apparently the company felt it strongly enough to shut them 
both down and decommission them. Right in my State, that's a 
very major occurrence because this is a huge company, which I 
think they serve 16, 19 million people. It's enormous. And so 
they have had to find substitute power, which they have been 
able to do I think in a very solid way. But I am really worried 
about all this waste.
    And I'll say one other thing. As we have kind of looked 
into the WIPP (Waste Isolation Pilot Plant) facility in New 
Mexico, and we found that this most revered lab, Los Alamos, 
contracted with a contractor that put the wrong kitty litter in 
these drums, so they began to explode, and the facility is now 
out of--not out of business, but out of business temporarily 
for I think--how many years is it?
    Senator Alexander. It's been 2 years so far.
    Senator Feinstein. Two years so far, and I gather another 2 
at least.
    Senator Alexander. Well, it should be back this year.
    Senator Feinstein. It should be back this year. Well, 
that's good news. I did not know that. But to think that the 
most capable people in a nuclear-related lab contracted out and 
made a mistake. See, I can't forget that, and it does condition 
my thinking.
    Accidents do happen, and I think maintaining a robust NRC 
is our stop against incidents. So I'll be very--I don't want to 
see the NRC, in any way, shape, or form, be able to come in, in 
a year and say, ``Well, you cut us back, so we couldn't do this 
or that or the other thing.'' And I think we need to take a 
very sober appraisal of, A, what we believe they should be 
doing, the priority items, and see that they are well and 
professionally staffed to do that.
    So I hope we can make progress this year on our nuclear 
waste policy. I know that I am grateful to you because you have 
put the pilot in the bill every year, and I have kind of come 
down off my high horse on the advanced modular nuclear reactors 
a little bit.
    Senator Alexander. You did exactly that. Yes.
    Senator Feinstein. But the high horse is still there about 
more when you don't have a place for the waste.
    Senator Alexander. Yes.
    Senator Feinstein. So it's a great treat to work with you, 
Mr. Chairman. Thank you very much.
    Senator Alexander. Thank you, Senator Feinstein. We 
certainly don't want you back on your high horse. That would 
not be good, so we'll redouble our efforts.
    Well, that's a very compelling statement, and I thank you 
for it. And I think--let me suggest that we each take about 10 
minutes with our questions. We're the only two here--and if the 
other Senators come, why, we'll let them--we'll cut it back to 
five when they get here. But that will give us a chance to have 
more of a conversation.
    Let me start--oh, that's right. I forgot. The next thing is 
for Chairman Burns to give his testimony, and then we will ask 
our questions, and maybe by that time there will be other 
Senators.
    So, Mr. Chairman, welcome.

               SUMMARY STATEMENT OF HON. STEPHEN G. BURNS

    Mr. Burns. Thank you, Chairman Alexander and Ranking Member 
Feinstein. We appreciate the opportunity to appear before you 
to discuss our budget request for fiscal year 2017.
    As you know, and you said, the NRC is an independent agency 
established to license and regulate and oversee the civilian 
use of radioactive material and facilities in the United 
States. And the resources we're asking for in fiscal year 2017 
will allow us to continue to uphold our important safety and 
security mission.
    The proposed budget is $970.2 million and 3,462 full-time 
equivalent staff, which represents a decrease of $20 million 
and about 90 full-time equivalents from the fiscal year 2016 
enacted budget. In addition, there is a provision for about 
$12.1 million for the budget for our inspector general.
    For further context, our request is $74 million and 280 
FTEs less than our fiscal year 2014 enacted budget. And the 
request reflects our continued focus on our mission, our 
important safety and security mission, while it also achieves 
some resource savings and improves our efficiency. As we 
continue to work through the Project Aim initiative, we 
anticipate additional savings.
    We are required to recover, by law, approximately 90 
percent of our budget through fees, and, accordingly, about 
$861.2 million of the fiscal year 2017 budget request would be 
recovered from NRC licensees, resulting in a net appropriation 
of $121.1 million.
    Let me highlight some of the work we will achieve. We will 
continue our licensing and oversight activities for 100 
operating nuclear power reactors, and 31 research and test 
reactors. The NRC expects to continue reviewing three new 
reactor combined license applications, and, additionally, the 
NRC will continue the inspections of four nuclear--new nuclear 
units under construction in Georgia and South Carolina, and 
will also continue our vendor inspection program.
    We expect to review one small modular reactor design 
certification, that's the NuScale design that was mentioned 
earlier, and we will review three applications for medical 
isotope facilities.
    The budget request provides funding for licensing reviews 
and oversight activities at reactors undergoing 
decommissioning, as well as continued oversight over waste and 
spent fuel storage facilities. We expect to review one 
application for a spent fuel storage facility.
    We'll continue to license and oversee the safe and secure 
use of radioactive materials. In fiscal year 2017, the NRC will 
complete about 2,000 materials licensing actions and about 900 
routine health and safety inspections in this area.
    Of note, our budget request includes $5 million in non-fee 
billable activities to develop regulatory infrastructure to 
effectively review advanced reactor applications.
    As we continue to work through the Project Aim initiative, 
we are confident the agency is on the right track. We have 
already identified savings through a comprehensive evaluation 
that involves staff and stakeholder input. Still, we remain 
mindful of the importance of our highly skilled technical staff 
in carrying out our mission, and while our size may change to 
reflect efficiency gains, the need for the service we provide 
to the American people remains unchanged.
    I want to highlight one other area where we are focusing on 
improvement. We're cognizant of the committee's concerns 
regarding early Commission involvement in rulemaking, and we 
have approved a new approach to do so, to enhance the 
involvement of the Commission, and we'll provide requested 
information to the committee next month, as provided in the 
committee's report on the fiscal year 2016 appropriation.
    On behalf of the Commission, I thank you for the 
opportunity to appear before you today, and I know you share 
our dedication to the vital mission of the NRC. And we'd be 
pleased to answer your questions.
    Thank you.
    [The statement follows:]
                 Prepared Statement of Stephen G. Burns
    Good afternoon, Chairman Alexander, Ranking Member Feinstein, and 
distinguished Members of the Subcommittee. My colleagues and I 
appreciate the opportunity to appear before you today to discuss the U. 
S. Nuclear Regulatory Commission's (NRC) fiscal year 2017 budget 
request.
    As you know, the NRC is an independent agency established to 
license and regulate the civilian use of radioactive materials in the 
United States to ensure adequate protection of public health and 
safety, promote the common defense and security, and protect the 
environment. The resources we are requesting for fiscal year 2017 will 
allow the NRC to continue to uphold our important safety and security 
mission.
    We'd like to underscore that this budget request reflects a 
substantial reduction from the 2016 enacted budget. Project Aim is 
delivering on the promise to achieve efficiencies in both corporate and 
programmatic areas. The NRC has taken a hard look at the proposed 
budget, and is proposing reductions in both full-time equivalents (FTE) 
and contract support dollars that represent real savings. As we 
continue our work through the Project Aim initiative, we anticipate 
additional savings and efficiencies to come.
    To put this in context, the fiscal year 2017 budget request 
reflects a decrease of $73.7 million and 279.7 full-time equivalent 
employees from the fiscal year 2014 enacted budget. We believe this 
fiscal year 2017 budget request reflects our continuing focus on our 
important mission while achieving resource savings and improving the 
agency's efficiency and effectiveness.
    In fiscal year 2017, the NRC will continue licensing and oversight 
activities for 100 operating commercial nuclear power reactors, 
including the Watts Bar Unit 2 nuclear power station slated to begin 
commercial operation later in calendar year 2016, and 31 research and 
test reactors. The resources we have requested for fiscal year 2017 
also support ongoing work associated with implementing lessons learned 
from the Fukushima Dai-ichi Nuclear Power Plant accident in Japan. 
While we expect the bulk of the most safety significant enhancements to 
be completed in calendar year 2016 and to bring to closure our work on 
most of the longer-term ``Tier 2 and 3'' issues, resources requested 
for fiscal year 2017 support the continued implementation of the ``Tier 
1'' enhancements, including seismic and flooding hazard reevaluations, 
spent fuel pool instrumentation and mitigation of beyond design basis 
events.
    During fiscal year 2017, the NRC expects to continue reviewing 
three new reactor combined license applications. Additionally, the NRC 
will continue to conduct inspections of four new reactor units under 
construction--Vogtle Electric Generating Plant, Units 3 and 4, and 
Virgil C. Summer Nuclear Station, Units 2 and 3--and will continue to 
carry out its vendor inspection program for both new and operating 
reactors. The NRC also expects to receive and begin review of one small 
modular reactor design certification application from NuScale.
    Further, the NRC plans to review three applications for medical 
isotope production facilities, including reviewing an operating license 
for one facility and conducting environmental and safety reviews of 
construction permits at two others.
    The fiscal year 2017 budget request includes $5 million in non-fee 
billable activities related to developing the regulatory infrastructure 
for advanced nuclear reactor technologies. This funding would prepare 
the NRC to undertake effective and efficient licensing reviews of 
advanced reactor technologies consistent with the maturity and 
development pace of the technologies. The intended activities to be 
initiated in fiscal year 2017 would fall into three categories: 
licensing infrastructure, technical preparation, and outreach.
    Additionally, the fiscal year 2017 budget request provides funding 
for licensing reviews and oversight activities at power reactors 
undergoing decommissioning, including Kewaunee Power Station, San 
Onofre Nuclear Generating Station Units 2 and 3, Crystal River 3 
Nuclear Power Plant and Vermont Yankee Nuclear Power Plant.
    The fiscal year 2017 budget request also ensures the NRC can 
continue to license and oversee the safe and secure use of radioactive 
materials used for medical, academic, industrial and research purposes. 
The NRC and Agreement states oversee approximately 21,000 specific 
materials licensees. In fiscal year 2017, the NRC will complete 
approximately 2,000 materials licensing actions and approximately 900 
routine health and safety inspections, as well as reactive and follow-
up inspections.
    In fiscal year 2017, the NRC will continue its oversight over 
nuclear waste and spent fuel storage facilities, certify storage and 
transportation containers and respond to events involving our 
licensees. The NRC expects to review one application for an interim 
consolidated storage facility.
    In fiscal year 2017, the NRC's research program will continue to 
support the NRC's regulatory activities by evaluating and resolving 
safety issues for NRC-regulated nuclear power plants, other nuclear 
facilities and materials users that the agency regulates. The NRC will 
further enhance its regulatory programs through coordination and 
cooperation with other Federal agencies, States, Tribes, and 
international organizations and foreign governments. The NRC will 
continue to support international conventions on safety and treaty 
compliance, and support a wide range of activities to help foreign 
regulatory counterparts develop or enhance their programs and their 
controls over radioactive sources.
                  the changing regulatory environment
    Before I get into the specifics of the NRC's fiscal year 2017 
budget request, I would like to talk about our Project Aim effort to 
find efficiencies, use resources wisely, and streamline processes and 
regulatory decisionmaking while continuing to meet our critically 
important safety and security mission.
    Since 2001, the agency grew significantly to enhance its security 
and incident response regulatory structure, and to prepare for the 
projected growth in nuclear power in the United States. That forecast 
in growth has been adjusted downward in response to changes in the 
nuclear industry. As is appropriate, the NRC is being scrutinized by 
its stakeholders for its response to these changes and the resulting 
use of resources. The agency can and should maintain focus on our 
mission while we take a hard look at our workload and how to achieve 
efficiencies.
    We are confident that the agency is on the right track. Over $9 
million in savings has already been identified through a comprehensive 
evaluation that involved staff at all levels of the agency, as well as 
stakeholder input. The savings, particularly in the areas of 
rulemaking, travel and corporate support are significant. However, 
through Project Aim, we are seeking additional efficiencies. Corporate 
efficiencies include centralizing financial management and human 
capital staff, and reducing information technology security costs. The 
NRC's safety and security mission remains paramount as actions are 
taken to re-baseline the agency.
    The Project Aim Steering Committee has delivered to the Commission 
a rebaselining paper that outlines additional proposed efficiencies. 
While still under Commission review, the now-public paper reflects more 
than 140 activities that could be eliminated or reduced over the next 6 
months, for a savings of about $41.1 million in fiscal year 2017. Total 
potential reductions identified over 18 months is $49.5 million. The 
staff will later submit to the Commission a paper outlining additional 
areas for longer-term efficiencies and projected workload changes 
through fiscal year 2020.
    However, we cannot emphasize strongly enough that the NRC's ability 
to ensure adequate protection of public health and safety and the 
common defense and security will always be our main concern. While our 
size may change to reflect workload reductions and efficiency gains, 
the need for the great majority of the services we provide the American 
people remains unchanged.
    As we proceed, the agency remains mindful of the importance of its 
highly skilled technical staff and the need to maintain our expertise. 
We must keep a focus on knowledge management as some senior staff 
retire and new experts take their place. We must not forget that the 
success of the agency is due, in no small part, to the quality and 
dedication of the agency's people. Remaining one of the best places to 
work in the Federal Government is important to our ability to continue 
to recruit the most talented candidates, and retain our skilled and 
knowledgeable technical experts.
    I want to highlight one other area where the Commission is focusing 
on improvement: the Commission's involvement in the rulemaking process. 
Over the last several years, the Commission has revised its rulemaking 
processes to improve its understanding of, and, where possible, reduce 
the cumulative effects of regulations. These new processes include 
increased opportunities for stakeholder interactions and feedback, 
publishing draft supporting guidance concurrent with proposed rules, 
requesting specific comment on the cumulative effects of regulations in 
proposed rules, and developing better-informed implementation 
timeframes.
    We are cognizant of the Committee's concerns as expressed in the 
fiscal year 2016 Joint Explanatory Statement regarding the timing of 
Commission involvement. The Commission directed the NRC staff last 
September to propose a plan for increasing the Commission's involvement 
in the rulemaking process before significant resources are expended. 
The Commission has just issued its direction on the proposed plan, 
which presented eight recommendations to better define and enhance the 
Commission's role in the early stages of rulemaking. We believe our 
approved approach meets the intent expressed in the report language and 
we will provide the requested information to the Committee in March 
2016.
                    fiscal year 2017 budget request
    The NRC's proposed fiscal year 2017 budget is $970.2 million and 
3,462 FTE, excluding the Office of the Inspector General (OIG). The 
proposal represents a net decrease of $19.8 million from the fiscal 
year 2016 enacted budget, as well as a decrease of 90 FTE.
    The OIG's component of the fiscal year 2017 budget is $12.1 
million, of which $11.2 million is for auditing and investigation 
activities for NRC programs and $1 million is for auditing and 
investigation activities of the Defense Nuclear Facilities Safety Board 
(DNFSB). These resources will allow the OIG to carry out its mission to 
independently and objectively conduct audits and investigations to 
ensure the efficiency and integrity of the NRC and DNFSB, to promote 
cost-effective management, and to prevent and detect fraud, waste, and 
abuse.
    Under the provisions of the Omnibus Budget Reconciliation Act of 
1990, as amended, the NRC fiscal year 2017 budget request provides for 
90 percent fee recovery, less the amounts appropriated for generic 
homeland security activities, waste incidental to reprocessing 
activities and DNFSB activities. Accordingly, $861.2 million of the 
fiscal year 2017 budget will be recovered from fees assessed to NRC 
licensees, resulting in a net appropriation of $121.1 million. This 
appropriation is an increase of $2.1 million compared with the fiscal 
year 2016 enacted budget due to the inclusion of $5 million in non-fee-
billable resources for advanced nuclear reactor technology.
    The NRC carries out its safety and security activities through two 
major programs: Nuclear Reactor Safety, which includes both Operating 
Reactors and New Reactors, and Nuclear Materials and Waste Safety, 
consisting of fuel facilities, nuclear materials users, decommissioning 
and low-level waste, and spent fuel storage and transportation. 
Compared to the fiscal year 2016 enacted budget, the NRC's Nuclear 
Reactor Safety Program decreased by $3 million and 61.9 FTE; the 
Nuclear Materials and Waste Safety Program, including Decommissioning 
and Low-Level Waste, decreased by $1.8 million and 28.1 FTE.
    I would now like to highlight portions of the fiscal year 2017 
budget request.
                         nuclear reactor safety
Operating Reactors
    The fiscal year 2017 budget request for the Operating Reactors 
Business Line is $587.5 million, a decrease of $1.7 million from the 
fiscal year 2016 enacted budget. This reflects declining or completed 
workload associated with, among other activities, implementation of the 
Fukushima lessons learned, license renewals and National Fire 
Protection Association 805 license amendment requests.
New Reactors
    The fiscal year 2017 budget request for new reactors is $169.9 
million, which represents a funding decrease of $1.4 million when 
compared with the fiscal year 2016 enacted budget. The decrease is a 
result of delays in application submittals, and project slowdowns or 
suspensions. The New Reactors Business Line is responsible for the 
regulatory activities associated with siting, licensing, and overseeing 
construction of new nuclear power reactors.
                   nuclear materials and waste safety
Fuel Facilities
    The fiscal year 2017 budget request for fuel facilities is $41.5 
million, which represents an overall funding decrease of $2.9 million 
when compared with the fiscal year 2016 enacted budget. The Fuel 
Facilities Business Line supports licensing, oversight, rulemaking, 
international activities, research, generic homeland security, and 
event response associated with the safe and secure operation of various 
operating and new fuel facilities such as conversion, enrichment, and 
fuel fabrication facilities, and nuclear fuel research and pilot 
facilities.
Nuclear Materials Users
    The fiscal year 2017 budget request for nuclear material users is 
$92.5 million, which represents a funding increase of $0.9 million when 
compared with the fiscal year 2016 enacted budget.
    The Nuclear Materials Users Business Line supports the safe and 
secure possession, processing, handling of nuclear materials in many 
diverse applications, along with associated activities related to 
licensing, oversight, rulemaking, international engagements, research, 
generic homeland security, event response, and State, Tribal, and 
Federal Program interfaces. This increase is due to the resumption of 
security rulemakings and to address an industry petition for 
rulemaking. These were delayed in fiscal year 2016.
Spent Fuel Storage and Transportation
    The fiscal year 2017 budget request for spent fuel storage and 
transportation is $37.2 million, which represents an overall funding 
increase of $1.1 million when compared with the fiscal year 2016 
enacted budget. The Spent Fuel Storage and Transportation Business Line 
supports licensing, oversight, rulemaking, international activities, 
research, and generic homeland security associated with the safe and 
secure storage and transportation of spent nuclear fuel and other 
radioactive materials. This increase is due to safety and environmental 
reviews of an interim consolidated storage facility and related safety 
analysis.
Decommissioning and Low-Level Waste
    The fiscal year 2017 budget request for decommissioning and low-
level waste is $41.6 million, which represents an overall funding 
decrease of $1 million when compared with the fiscal year 2016 enacted 
budget. The Decommissioning and Low-Level Waste Business Line supports 
licensing, oversight, rulemaking, international activities, and 
research associated with the safe and secure operation of uranium 
recovery facilities, removal of nuclear facilities from service and 
reduction of residual radioactivity to a level that permits termination 
of the NRC license, and disposition of low-level radioactive waste from 
all civilian sources. The Commission has directed staff to proceed with 
a decommissioning rulemaking that would establish clear requirements 
for decommissioning reactors. Comments from stakeholders are being 
collected through March 18 of this year with the bulk of the work on 
the regulatory basis and proposed rule completed by the end of fiscal 
year 2017.
                                closing
    As I said at the onset, this budget request represents a 
substantial reduction from the 2016 enacted budget. The President's 
Budget takes advantage of the Project Aim-identified efficiencies, and, 
as we continue our work, we anticipate additional savings and 
efficiencies to come.
    Chairman Alexander, Ranking Member Feinstein, and distinguished 
Members of the Subcommittee, this concludes my formal testimony on the 
NRC's fiscal year 2017 budget request. On behalf of the Commission, I 
thank you for the opportunity to appear before you. We look forward to 
working with you on the 2017 budget and going forward. I know you share 
our dedication to the vital mission of the NRC.
    I would be pleased to respond to any questions that you may have. 
Thank you.

    Senator Alexander. Thanks, Mr. Chairman.
    And we'll each take 10 minutes for questions, and then 
we'll go from there.

                CURRENT STATE OF THE POWER REACTOR FLEET

    Mr. Chairman, it sounded like you mentioned seven reactors. 
You're monitoring four and are considering three more 
applications. Is that right?
    Mr. Burns. We have the four----
    Senator Alexander. Tell me--tell me where they are.
    Mr. Burns. Okay. We have the two Vogtle plants in Georgia 
and the two Summer plants in South Carolina are under 
construction.
    Senator Alexander. Okay.
    Mr. Burns. In the last year, we have approved the combined 
license applications for the Fermi Unit 3 and the South Texas 
Unit 3 and 4 plants. Now, what the companies there have 
indicated----
    Senator Alexander. Is that two more?
    Mr. Burns. That's--well, actually, it would be three--
actually it would be three more plants.
    Senator Alexander. Okay.
    Mr. Burns. Now, what they've indicated they're going to do 
is in effect--they've gone through the process of receiving the 
license, but they're going to bank--if you will, bank the 
license until they determine probably in early 2020 or 
thereabout, whether they would proceed, you know, whether the 
conditions are right to proceed with construction of those 
plants.
    Senator Alexander. Yes. So----
    Mr. Burns. And we also have a couple other plants which we 
expect to see from I think Duke, I think it's the Lee and the 
Levy plant this year, which we would also be asked to act on a 
combined license for.
    Senator Alexander. Those are new.
    Mr. Burns. Those would be new sites, yes.
    Senator Alexander. So four under construction.
    Mr. Burns. Four under construction.
    Senator Alexander. Three new reactors in Texas that are in 
the application process.
    Mr. Burns. Well, two in Texas that received the combined 
license. They could proceed with construction today.
    Senator Alexander. Yes. And where's the third?
    Mr. Burns. In Fermi, which is in Michigan, near the 
Michigan-Indiana border.
    Senator Alexander. Yes. And then two more?
    Mr. Burns. Yes. It's--is it two or--it's two--it's two 
more. Under the Duke Power and the locations, I've----
    Senator Alexander. Yes. So that's four----
    Mr. Burns. In the southeast----
    Senator Alexander. That's four, three, and two.
    Mr. Burns. Yes.
    Senator Alexander. The way I'm hearing you, that's seven 
and nine.
    Mr. Burns. Yes. Yes. And then----
    Senator Alexander. They're potential new reactors.
    Mr. Burns. Yes, the--yes.
    Senator Alexander. In various stages of----
    Mr. Burns. Yes.
    Senator Alexander. Now, how many reactors--we have 100 
today, right? With the opening of Watts Bar, if you count Watts 
Bar.
    Mr. Burns. Correct.
    Senator Alexander. But how many are being decommissioned or 
closed?
    Mr. Burns. Well, there are announcements for two sites in 
the Northeast--the FitzPatrick plant in upstate New York, and 
the Pilgrim plant south of Boston--which Entergy has announced 
that it would be closing down. I think FitzPatrick in 2017, 
and----
    Senator Alexander. What about the California sites that we 
talked about?
    Mr. Burns. Well, San Onofre has already been closed. The 
other----
    Senator Alexander. So that's already in your----
    Mr. Burns. Yes. Yes.
    Senator Alexander. So you know of two sites that would be 
closed.
    Mr. Burns. In addition to sites that are already under 
decommissioning, such as the San Onofre site in Southern 
California.

                     SAFETY RECORD OF U.S. REACTORS

    Senator Alexander. Yes. So it's 100 potentially, plus 7, 
minus 2, potentially, that we know.
    Let me start this out by asking you a few questions about 
the safety record, because Senator Feinstein very properly 
brings this up. How many in the United States--we have 100 
reactors--how many deaths have there been in the history of our 
commercial nuclear program associated with reactor accidents, 
with the failures of the reactor?
    Mr. Burns. With--from a radiation-induced accident, none 
that I know of.
    Senator Alexander. Okay. Let me ask Mr. Ostendorff--
although I could ask you--how many deaths have there been 
associated with Navy reactors?
    Mr. Ostendorff. None.
    Senator Alexander. Three Mile Island was our most 
celebrated nuclear accident in the United States. That was in 
1978? No----
    Mr. Ostendorff. '79.
    Mr. Burns. Nine. Nine.
    Senator Alexander [continuing]. 1979. How many people were 
hurt at Three Mile Island?
    Mr. Burns. From radiation, none.
    Senator Alexander. None. And that's despite the fact that 
there has been monitoring probably still going on, maybe not, 
but there was monitoring at least for many years of individuals 
in that area to make sure that no one had radiation sickness as 
a result of the accident.
    So no, no let me go further than that. We have used fuel, 
which we would like, both of us, and Senator Murkowski is now 
here, chairman of our authorizing committee, we have used fuel 
on 75 sites or so around the country that we would like to 
begin to move to either a consolidated site, or I would like to 
move to Yucca Mountain. What is the Commission's view of the 
safety of the storage of the used fuel on those--at those 75 
sites?
    Mr. Burns. We believe it's safe. We monitor it. We, in 
some--we will license the fuel storage at those sites, and we 
monitor and inspect it. We also license and review the casks, 
and we believe it's safe, can be safely held there.
    Senator Alexander. Yes. Okay.
    Senator Feinstein, we have Senator Murkowski here now. I 
think what I'll do is stop my questions at 5 minutes and go to 
you for your questions, and then go to Senator Murkowski. Would 
that----
    Senator Murkowski. That is fine.
    Senator Alexander. We're glad you're here.
    So Senator Feinstein.

                       DIABLO CANYON POWER PLANT

    Senator Feinstein. Thanks, Mr. Chairman.
    As part of its response to Fukushima, the NRC has asked all 
nuclear plants for information regarding seismic and flooding 
hazards, as I understand it. And I think this analysis is of 
particular importance in Diablo Canyon, which sits on the 
California coast near a series of fault lines. For each fault 
line, I understand--and correct me if I'm wrong--the NRC will 
compare the newest evidence of potential ground movement 
against the design tolerances of the plant. Is that correct?
    Mr. Burns. Yes. Yes, that's my understanding. We have them, 
as we have plants across the United States, doing a seismic 
reevaluation. I believe the Diablo Canyon final report is due 
in about a year. In the meantime, we believe that the plant is 
safe to operate taking into account knowledge that's been 
developed regarding the faults and the new designs that we know 
of with respect to seismic activity.
    Senator Feinstein. Right. And if I understand this 
correctly, your staff has confirmed that the new seismic data 
is, quote, of sufficient quality and suitable, end quote, for 
conducting this final risk analysis. And then that report will 
be out in September of 2017. Is that correct?
    Mr. Burns. That's correct.
    Senator Feinstein. Okay. So can you talk a little bit--
because this is one reactor that's had a lot of public concern 
around it, as you know--why does it take so long to complete 
the risk analysis? And what makes you confident that there are 
no safety concerns in the interim?
    Mr. Burns. Well, Diablo Canyon, I think as you are well 
aware, since its original licensing, there has been a high 
degree of focus on seismic--the seismic profile, the seismic 
design basis for the plant, and as new knowledge is developed, 
as the science developed, that's fed into it. Why we're 
confident with respect to the safety of the plant, pending the 
evaluation, is because the parameters that have been used in 
licensing allow a very robust design, they envelop some of what 
we are seeing from the potential information from other fault 
lines or other material.
    Part of the reason it takes that long is to do the science 
well, and also, you know, the availability of top experts to 
conduct that work. Again, I want to assure you, from our 
standpoint, we believe that pending the outcome of those 
evaluations and what it may show, we think the plant is safe to 
operate.

                 SAN ONOFRE NUCLEAR GENERATING STATION

    Senator Feinstein. Got it. Thank you. I want to get in my 
time the second reactor site, which is the decommissioning at 
San Onofre. I understand they're moving ahead with expanding 
their dry fuel storage area, and their plans include 
demolishing the reactor buildings on an expedited timeframe, 
potentially concluding work in 2027. And I understand that you 
have issued all the necessary approvals, and if the State does 
the same, physical dismantlement could become--could begin next 
year. Is that correct?
    Mr. Burns. That's my understanding.
    Senator Feinstein. Okay. Can you confirm that the NRC will 
continue to inspect the site and oversee the decommissioning 
program to ensure safety?
    Mr. Burns. Yes. That's part of our normal program. It would 
be not only for San Onofre, but the other sites that are under 
decommissioning.
    Senator Feinstein. Okay. Now, what are the biggest risks in 
your view to completing the decommissioning process in a safe 
and timely manner?
    Mr. Burns. I think if I--Senator, one of the things I 
learned from a site visit to the Zion plant, which is north of 
Chicago undergoing decommissioning, it's not so much the 
biggest risk, but the biggest challenge and I think the biggest 
focus is sound planning, because you want to be able--you want 
to--when you're taking apart the facility, you want to do it in 
a way that minimizes occupational exposure of radiation to 
workers, but not only that, you also have to worry about making 
sure you're not getting overexposure to heavy metals and other 
types of chemicals that may have been used appropriately at the 
site. So my sense is it's sound planning.
    I met with the folks from San Onofre, as I think some of my 
colleagues are----
    Senator Feinstein. Good.
    Mr. Burns [continuing]. And, again, I think they have--my 
sense is that they have that understanding, that good planning 
as you go into the process for not only the dismantling, but 
the planning for the spent fuel storage pad and the dry 
storage, is underway. So I think keeping a good focus on that 
planning, from my standpoint, is the biggest challenge.
    Senator Feinstein. Let me ask you this, Does the NRC have 
contact with the CEO, who actually, you know, made the 
decision, and I think is a very constructive and cautious 
individual who wants to do the right thing? Do you keep in 
touch, or is it with the technical staff that you keep in 
touch?
    Mr. Burns. Well, sometimes I forget maybe the titles, but I 
met with the manager, actually I saw him yesterday at another 
conference, who is responsible for laying out the planning for 
it. So we do have interaction. I think they try to reach out to 
us to let us know where their plans are. So there's an 
engagement, I think, both at the management level within the 
company, as well as, importantly--obviously importantly--the 
technical level within the agency.
    Senator Feinstein. Well, the reason I ask is I know 
technical people and professional people are very good, but I 
think it's very important that the person of a big company who 
makes the decisions really keeps in contact, or you keep in 
contact with him, so that he gets firsthand information in the 
case anything goes a little out of the normal. And would you 
agree to do that?
    Mr. Burns. Certainly.
    Senator Feinstein. Thank you.
    Senator Alexander. Thank you, Senator Feinstein.
    We welcome Senator Murkowski, chairman of the Energy 
Committee.
    Senator Murkowski. Thank you. Appreciate the opportunity to 
be with you to discuss some of the nuclear issues, and again to 
thank you both for your leadership as we try to figure out some 
solutions when it comes to nuclear waste. I know we haven't 
picked up that baton yet in 2016, but I think the commitment 
still is there. Know that I certainly share that with you, that 
we're going to figure this out. So thank you for that.
    And thank you to our commissioners for the work that you 
do.
    And, Commissioner Ostendorff, I understand that you're 
going to be signing out of here at the end of this fiscal year, 
so thank you for your service.

                         SMALL MODULAR REACTORS

    I want to direct my questions this afternoon to small 
modular reactors and where we are, and just kind of have some 
sense of understanding, because what I'm hearing are just 
horror stories in terms of the length of time that this process 
is taking and the costs involved.
    So we understand that NRC is preparing to receive full 
license applications for SMRs. So the question is, How long do 
you expect that a full application review of an SMR would take? 
Have you identified some of the barriers that we clearly know 
are in place, either legislative or regulatory, so that we can 
have a more expedited and yet thorough review of these full SMR 
applications? And I throw that out to all of you here.
    Mr. Burns. I'll start off, and please--and joined by my 
colleagues.
    One of the things I want to make sure when we talk about 
small modular reactors is what we do expect to receive. We 
expect to receive an application from NuScale at the end of 
this year for a small modular reactor. It's a light-water 
reactor base. But I want to make sure I distinguish between 
small modular reactors we may receive in the next few years and 
the longer term look at advanced reactors, which are non-light-
water reactor designs, which are coming, and which we've been 
having a lot of engagement with the Department of Energy with 
some vendors on.
    Back to your question in terms of what we have before us. 
We've been interacting with NuScale to make sure we both 
understand each other before the application comes in and so 
that we're well prepared for it. Again, I expect we will 
receive it at the end of this year. My expectation is the 
design certification would take on the order of about 3 to 4 
years for the review of that application.
    Senator Murkowski. So it is correct--I'm told that they 
will--they expect to have spent--``they'' being NuScale--$1.1 
billion by the time construction begins on their first NuScale 
unit. That's a cost, I'm told, of about $268 billed per NRC 
man-hours given the review time that has been outlined.
    So in terms of cost to the agency to do all this, cost to 
the entity that's making the application, can't we build a 
better mousetrap here?
    Mr. Burns. Well--go ahead, Commissioner.
    Mr. Ostendorff. I just want to clarify one thing. The last 
2 weeks I've had a chance to speak at two conferences with the 
NuScale Chief Operating Officer Mike McGough. It was out at Oak 
Ridge National Laboratory the week before last, and last week I 
spoke at Platts. Mike McGough was at both of these sessions, 
and he is their primary face in Washington, D.C. And I want to 
separate out the regulatory cost from the total cost.
    Senator Murkowski. Okay.
    Mr. Ostendorff. I think the total cost you're talking 
about, Senator, is about the same number I've heard. That is 
not all regulatory cost. That is the cost to go and design, 
hire staff, and do test work to ensure there's a safe design 
that can be submitted. When I asked Mike McGough, ``What is 
your concern with the NRC and our regulatory hat as far as the 
cost?'' he says that that cost is a small proportion, or is a 
small portion, of their overall cost.
    Last June, June 2015, the NRC published a Federal Register 
Notice, 118 chapters, was called the ``Design Specific Review 
Standards'' that would be the guidebook that our staff would 
use to review that NuScale license application, which has not 
yet come in to the agency, but is expected in December of this 
year. And I asked Mike, ``How is that going? How is your 
company looking at this design specific review standard 
process?'' He told me he's satisfied with it.
    So I think there's a lot of numbers that get thrown around 
and so forth. I don't believe the $1.1 billion is anywhere 
close to regulatory costs, which is a lot, lot lower than that 
number.
    Senator Murkowski. So----
    Mr. Ostendorff. And we can provide feedback to you.
    Senator Murkowski. Well, and I think it would be helpful to 
have a handle on what real numbers are. But further to the 
point, I think there's a recognition that this is--this is 
lengthy, it's complicated, and it's expensive, and if there are 
ways that we can be more efficient, not only with the 
Commission's time, but again for the applicants, are there ways 
that we can work to enhance efficiencies, either through the 
regulatory or the legislative track? And I guess that's what I 
would hope for.
    And I think, Chairman Burns, you mentioned working with 
folks within DOE. Are we seeing greater communication back and 
forth so that everybody is working together? I want to know 
that we're not at odds with one another as we're trying to 
enhance these efforts.
    Mr. Burns. No, I don't think we're at odds. What we do, we 
have good communication with DOE. Obviously, we have the arm's 
length relationship because we have the regulatory 
responsibility, they have more of the research and development 
responsibility.
    But we, for example, in the advanced reactor areas, we held 
a workshop last May with DOE and invited people who are 
interested in potentially advanced designs to come to that. 
We're having another workshop co-sponsored with DOE this coming 
June. I meet with John Kotek about quarterly--you know, three 
to four times a year--on issues. We're looking for again in the 
advanced reactor area. They did some work, which we have under 
review with respect to how the general design criteria that 
have been largely used in light-water reactor applications, how 
do they line up with these non-light-water reactor designs that 
may be coming in?
    So I think we've got good communication, and we'll continue 
to work within our respective scope of responsibilities well 
together.
    Senator Murkowski. Mr. Chairman, my time has expired. So I 
thank you for the opportunity to ask these questions, but to 
each of you, know that this is something that I'm going to 
continue to press and inquire on because my observation--or at 
least the people that are coming to me are saying it's lengthy, 
it's costly, there must be some way that we can be a little 
more efficient there.
    But thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Murkowski.
    Mr. Chairman, have you requested sufficient funding in your 
budget to perform the review of the small modular reactor 
application when it comes?
    Mr. Burns. Yes, we have.
    Senator Alexander. And are the regulations in place that 
you need to have in place in order to review the design?
    Mr. Burns. Yes. We have the basic design certification 
framework. And as Commissioner Ostendorff discussed, we have 
this design--help me out here.
    Mr. Ostendorff. Design specific review standards.
    Mr. Burns. Thank you. Design specific review standards that 
will help and carry out the review.

                      CONSOLIDATED INTERIM STORAGE

    Senator Alexander. Let me switch to something that I know 
Senator Feinstein is interested in, and I believe Senator 
Murkowski, too, and that's the--you said you expected to 
receive one application for a private consolidated storage 
facility this year. Is there a possibility there might be more 
than one?
    Mr. Burns. Yes, there could be more than one. We expect 
from waste control specialists in western Texas sometime within 
the next 2 to 3 months, I believe, and then the Holtec or Eddy 
Lea Alliance, which is on the other side of the border in New 
Mexico, later this year, I don't have the exact timeframe and--
--
    Senator Alexander. Yes. And, of course, my view is that we 
ought to proceed on all these tracks at once. Senator 
Feinstein--I don't want to speak for her--she is not prepared 
to say the same thing on Yucca Mountain, but I don't--I think 
we ought to move on all the tracks at once if we want to do 
something about nuclear waste. How long would you expect the 
Commission's review of the application for a private storage 
facility to take?
    Mr. Burns. I would expect about a 3- to 4-year period. Now, 
that may--if there is a hearing requested and a hearing 
granted, there might be somewhat more time on that, but 
generally about a 3-year period.
    Senator Alexander. Do you have sufficient resources to 
review the application? Have you requested enough funding in 
the new budget to continue that review into next year?
    Mr. Burns. We have in the request specifically requested or 
have funds specifically provided for, for one--for at least one 
application. If we get the second application, we would look at 
reprioritizing some work and do it, but we would--we would----
    Senator Alexander. So the answer would be yes.
    Mr. Burns. Yes, we would go, yes, and continue forward with 
the review.
    Senator Alexander. Do you have all the legal authorities 
that you need to license a private consolidated storage 
facility?
    Mr. Burns. Yes. Yes, we do. And we have done--we have 
actually done this kind of review at an earlier time for a 
facility that did not go forward.

                       ADVANCED NUCLEAR REACTORS

    Senator Alexander. You mentioned advanced nuclear reactors. 
What kind of reactors do you consider to be advanced reactors? 
This is different than small modular reactors.
    Mr. Burns. Right. This would be different types of design, 
a high-temperature gas reactor, a pebble-bed reactor, and 
modernized forms of some reactors, a molten-salt reactor. There 
are different types of designs.
    Senator Alexander. And what kind of work are you doing on 
those types of designs?
    Mr. Burns. Well, we have some limited work that we're doing 
now. With the $5 million off fee proposal, we would continue 
work on regulatory infrastructure addressing some of these 
issues about readiness to handle those. There are some 
technical--I think some technical issues we would do, and then 
also engagement with the companies or entities who may be 
interested in it, and also continue an engagement 
internationally, for example, the Generation IV Forum, which is 
a group of countries, including the United States, that is 
interested in the potential advanced reactor design.
    Senator Alexander. I wonder if any of the other 
commissioners would have any comment about the role of advanced 
nuclear reactors in the future for our country.
    Mr. Ostendorff. I'll comment, Senator, because I had a 
chance just 2 weeks ago to be out in your State at Oak Ridge to 
talk at a conference on advanced reactor technology 
development. And there's a lot of interest out there. There 
were 21 different vendors that were represented at this 
conference for 2 days. As the chairman mentioned, there are 
technologies being discussed. There are non-light-water 
reactors, very different from our current reactor fleet, very 
different from small modular reactors. I heard one that was 
being discussed that was a lead-bismuth design. I never heard 
of that before, but in addition to pebble-bed and molten-salt, 
as the chairman mentioned.
    So there's a lot of interest in different technologies. I 
think most of these are very interesting, and some of them have 
promise, but I think at the end of the day, the vendors and the 
investors, especially the venture capital community, is trying 
to look at, Does this make economic sense? So I think the 
economic question is perhaps the biggest one rather than a 
technical question.
    Senator Alexander. Yes, Commissioner.
    Ms. Svinicki. Chairman Alexander, may I state or bring to 
the subcommittee's attention that although it is true that 
these advanced reactor types are very different than what we 
have in commercial generation now, the history of nuclear power 
development in the United States, is that actually many of 
these concepts are where we began as a country. If you visit 
Oak Ridge National Laboratory, Idaho National Laboratory, you 
find that we developed small scale prototypes of some of the 
sodium-cooled reactors.
    So it's a very interesting challenge to try to access some 
of that knowledge from 50, 60 years ago, and many of those 
leading experts have retired, but there is in the Department of 
Energy, and Atomic Energy Commission history a lot of relevant 
information, and in this country, we tried a lot of these 
things.
    Senator Alexander. That's very interesting.
    Commissioner Baran.
    Mr. Baran. I'll just briefly add, going back to the budget 
piece of this, I think the approach of funding advanced reactor 
activities separate from the fees licensees pay actually make a 
lot of sense here because I'd have a hard time justifying 
charging current plants for the work we're doing to get ready 
for future advanced reactor applications. I think having it 
separate from the fees is a fairer approach, but it makes sure 
that we have the funds we need to move forward on some of these 
regulatory and technical issues.
    Senator Alexander. Thank you. Thank you for that.
    Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    The chairman asked the questions, you know, how many people 
have died as a product of a nuclear accident, and it hasn't 
happened. That sort of really isn't my goal in this. My goal is 
I know what can happen, and the key is to prevent it from 
happening.

                      CRYSTAL RIVER NUCLEAR PLANT

    Let me ask you some questions about the Crystal River plant 
in Florida, which I gather operated for 36 years. We're talking 
about 80-year licenses now. And apparently the concrete began 
to separate in the dome, and that led to its shutdown. Could 
you tell me a little bit about that and what happened? Because 
if we're going to go for 80-year licenses, we ought to--and I 
just went into the faulty steam generators in San Onofre, and I 
suppose they could have, you know, patched them and kept 
operating, but they did the responsible thing and 
decommissioned it. And that--I've been there, and that site has 
been impeccably maintained by Southern California Edison, at 
least what somebody who is not a professional could see.
    So could you talk about, just a little bit about, what 
happened at Crystal River in Florida?
    Mr. Burns. Yes, I can. We can provide you maybe some--
probably more granular information than I probably have. But 
what--the issue of concrete degradation at Crystal River, as I 
understand it, was in part because of some of the evolution or 
operations they undertook there, which had an adverse impact on 
the concrete. And noting that, when we look at subsequent 
license renewal, and we look at the things that we are most 
concerned about, in terms of aging management, particularly 
when you talk about passive long-lived components, well, one of 
them is--one of the issues is for us, and that we do, do and 
have done research on, are doing research on, and will look at 
as part of the renewal review, is the question of long-term 
adequacy of concrete structures at a site. So that is certainly 
something we look at in terms of and is of concern to us, as 
is, for example, the integrity of the reactor pressure vessel, 
certain piping, certain cabling, on the long term.
    Senator Feinstein. Do you have people that know what to 
look for? And has the Commission seen the concrete degradation 
at Crystal River?
    Mr. Burns. I believe--I believe we have--yes, I believe our 
inspectors have looked at it and--because when I think it was 
discovered several years ago, my understanding is the licensee 
was considering whether or not it would restart the facility, 
whether it would do appropriate repair work, could do 
appropriate repair work, ultimately made a business decision to 
shut the facility down.
    Senator Feinstein. Yes.
    Mr. Burns. But it is something we certainly were aware of. 
They--when discovering those conditions, they would have had to 
report those conditions to us, and we would have seen it 
through our inspection program. So, yes, in that sense, very 
much so something we were aware of, became aware of.
    Senator Feinstein. Commissioner Ostendorff.
    Mr. Ostendorff. I just wanted to add one specific aspect to 
Crystal River. There was a maintenance error by the utility. 
Let's pretend that this water bottle is the containment, and 
pretend there's a rubber band around the circumference of this 
water bottle. The water bottle is being compressed by this 
rubber band. Now think that this is a containment made of 
concrete, and there's a cable, rather than a rubber band, 
around this bottle. Improper detensioning of that cable during 
maintenance is what caused the crack----
    Senator Feinstein. Is it improper----
    Mr. Ostendorff. Detensioning. There's this cable that was 
supposed to be----
    Senator Feinstein. Detensioning, which means loosening?
    Mr. Ostendorff. It means loosening.
    Senator Feinstein. Okay.
    Mr. Ostendorff. Take the rubber band off.
    Senator Feinstein. Right.
    Mr. Ostendorff. And so when that cable was detensioned 
improperly, you had irregular application of forces to the 
containment, and that was the root cause of why the concrete 
cracked.
    Senator Feinstein. Well, is that possible in other plants 
or is it isolated to Crystal River?
    Mr. Ostendorff. Well, I think the procedure itself could 
happen someplace else. I think that Duke Energy learned a very 
expensive lesson here in that maintenance error. I want to make 
sure it was maintenance error that caused the concrete to fail. 
We have a lot of people that do detailed reviews of concrete 
structures in nuclear power plants around the country. There's 
been a concern that the Seabrook plant in New Hampshire that we 
have spent a lot of time with industry and outside research 
groups to understand and are satisfied with the concrete 
structure at Seabrook. But there's a lot of attention paid to 
this particular area.
    Senator Feinstein. Well, that's good, but how was it 
brought to your attention about Crystal River?
    Mr. Ostendorff. Well, this was a pretty catastrophic 
failure. I think Commissioner Svinicki probably has been to the 
plant, and we've both been there. You see the cracks on the 
containment itself that occurred, you know, I don't know, like 
6 or 8 feet long, something like that, after the cable was 
taken off inappropriately.
    Senator Feinstein. Okay.
    Mr. Ostendorff. It was visually detected by the licensee 
and at the same time by our resident inspectors.

                     LESSONS LEARNED FROM FUKUSHIMA

    Senator Feinstein. Yes. If someone were to ask this 
question--and I'm about to--what were the lessons for NRC from 
Fukushima?
    Mr. Burns. Well, I'll start. I think our primary lesson, 
which actually reinforced a concept that we had adopted or 
pursued after the terrorist attacks in 2001, and that was being 
prepared for things that you don't expect to happen that may go 
beyond where the design is, and that is, for example, if you 
lose--what happens at Fukushima is they lose electric power 
that allows them to proceed with cooling of the reactors there.
    So the primary lesson, and where I think that the agency 
has had and that the industry had, is, How do you cope with 
those things if those worst case things and beyond your design 
basis things happen? So positioning additional diesel 
generators to provide power, pumps because you may have lost 
important pumps, cabling, electrical supply, positioning those 
things onsite, and what the industry has also done is it's 
established two----
    Senator Feinstein. I don't mean to interrupt you.
    Mr. Burns. Yes.
    Senator Feinstein. But does that mean a secondary system of 
redundancy?
    Mr. Burns. It's redundant equipment that can go in and be 
used to help with the recovery, for example, of electricity if 
you need electric power within the plant.
    Senator Feinstein. Well, why are they still pumping 
radioactive water into the ocean?
    Mr. Burns. Who----
    Senator Feinstein. At Fukushima.
    Mr. Burns. I don't know that they are pumping radioactive 
water----
    Senator Feinstein. I believe they are.
    Mr. Burns [continuing]. Into the ocean because the Japanese 
have been----
    Senator Feinstein. There is still some that apparently goes 
into the ocean. At least I read about that in a magazine.
    Mr. Burns. Yes. Yes. Well, the Japanese have been 
extraordinarily conservative about what they will allow to go 
into the ocean, in fact, to the point that some--that they 
have--they control water, they decontaminate the water of the 
very--sort of high-level radionuclides and leave--you basically 
have tritiated water, tritium----
    Senator Feinstein. Yes.
    Mr. Burns [continuing]. Water with tritium. So they've been 
extraordinarily--trying to be extraordinarily careful about 
that.
    Senator Feinstein. Well, what I was told, it's a no fishing 
zone, and so I asked, ``Why is it a no fishing zone?''
    Mr. Burns. Yes.
    Senator Feinstein. It's because of water going into the 
ocean that's contaminated. So----
    Mr. Burns. Yes. I am not particularly--I would have to say 
I am not particularly aware of what their current restriction 
is. Certainly, they had, after the accident, restrictions. I 
don't know what they are today.
    Senator Feinstein. I'll find out.
    Mr. Burns. But what I'm trying to help visualize is that 
before you get to that state is look--thinking about ways of if 
you've lost certain systems in the plant, restore them to the 
point that you can get the safe shutdown so you don't have the 
melted reactor core, that you provide--that you mitigate the 
consequences of the accident and prevent releases to the extent 
you can.
    Senator Feinstein. Commissioner.

                      CRYSTAL RIVER NUCLEAR PLANT

    Mr. Ostendorff. Senator, I would like to provide a 
clarification to my response on Crystal River. I should have 
told you a significant fact. At the time this containment 
cracking occurred in the concrete, the reactor was fully shut 
down and cooled down. It was in a maintenance period. I did not 
tell you that. I apologize.
    Senator Feinstein. Thank you. That's helpful. Thank you.
    Senator Alexander. Mr. Chairman, isn't the--isn't----
    Are you ready for me to----
    Senator Feinstein. I'm finished.

                     LESSONS LEARNED FROM FUKUSHIMA

    Senator Alexander. Mr. Chairman, isn't the answer to 
Senator Feinstein's question that the lesson from Fukushima is 
that you need to make sure you have water to cool the reactors 
or the spent fuel rods?
    Mr. Burns. Yes. I would say you need--one thing that you 
need, you need electricity because----
    Senator Alexander. Well, no, no. In the answer, you needed 
water.
    Senator Feinstein. Yes, I----
    Mr. Burns. You need a cooling water----
    Senator Alexander. I'm not asking you how you get the 
water----
    Mr. Burns. Okay.
    Senator Alexander [continuing]. I'm saying in the problem, 
you didn't have water to cool the rods or the reactors.
    Senator Feinstein. Sufficient.
    Senator Alexander. Isn't that right?
    Mr. Burns. Yes. Yes. Yes.
    Senator Alexander. Right. And then you can go into a whole 
bunch of explanation about how you have redundant ways to do 
that, but it was a fairly simple problem, if I'm correct. You 
didn't have water to cool rods that were in the reactor or that 
were used fuel.
    Mr. Burns. And most--I would say the primary reason for 
that is the tsunami knocked out the diesel generators.
    Senator Alexander. Yes, but if you're analyzing the 
problem, the problem was you needed water.
    Mr. Burns. Correct.
    Senator Alexander. Right. And the response has been, if I'm 
not mistaken, that you've begun a process throughout our 
reactors in the United States to create redundant ways to 
provide water in case of unanticipated problems so that that 
doesn't happen here.
    Mr. Burns. Correct. You're trying to get to safe shutdown, 
and that's what those redundant systems will help you do. 
That's what we're looking at.
    Senator Alexander. Right. But basically so that it's not 
held out to be some big scientific mystery----
    Mr. Burns. No.
    Senator Alexander [continuing]. You just need to make sure 
water is there to cool the--to cool the--now, tell me if I'm 
wrong about that, but I think that in the end is the problem, 
that the water is available for the rods and the reactor and/or 
in spent fuel.
    Mr. Burns. That's correct. So you achieve then a safe 
shutdown and equilibrium.
    Senator Alexander. I mean, walking around Watts Bar, which 
is just about to begin to produce electricity in our region, 
you know, I saw--and I think that was the first of the new 
plants that had newly redundant--or one of the first, maybe the 
first--that newly redundant facilities to try to take into 
account Fukushima. Is that correct, as you came out of your 
review of the Fukushima disaster and what we do about it here?
    Mr. Burns. Yes. I think that's correct. They were one of 
the first with this flex equipment.
    Senator Alexander. And they made a decision, I think, to go 
in an accelerated way basically to do almost anything that was 
suggested that might avoid that sort of problem. That was the 
sense I got.
    Mr. Burns. Yes. They--yes, certainly, I--and I think 
probably given where they were in terms of licensing and coming 
on as a new plant, they wanted to get that done, and also it 
helps in terms of Unit 1 needs--needed support as well.

                        YUCCA MOUNTAIN LICENSING

    Senator Alexander. Right. Let me just ask you some 
questions about Yucca Mountain, which shouldn't take long to 
answer.
    Is the Commission following the court's order?
    Mr. Burns. Yes, we are.
    Senator Alexander. The next step in the licensing process 
is to complete the Supplemental Environmental Impact Statement. 
How much will that cost?
    Mr. Burns. I believe that the remaining--I think that costs 
about $3 million.
    Senator Alexander. I've got $1.1 million. Would that be 
right?
    Mr. Burns. Okay. That was probably accurate.
    Senator Alexander. Do you have $1.1 million to do that?
    Mr. Burns. Yes. And we expect to issue it by mid-year.
    Senator Alexander. By mid-year of this year.
    Mr. Burns. This year. This year.
    Senator Alexander. Thank you. Would you agree the next step 
of the licensing process is to restart the hearings before the 
Atomic Safety and Licensing Board?
    Mr. Burns. Yes. A next step would be the hearing process.
    Senator Alexander. I believe that you testified last year 
that--that--well, it would take an additional $330 million to 
obtain the construction authorization for Yucca Mountain. Does 
that sound correct?
    Mr. Burns. Yes. That's the estimate we've had.
    Senator Alexander. Do you have the $330 million to do that?
    Mr. Burns. No, that would have to be appropriated.
    Senator Alexander. Mm-hmm. Why was that not in the 
President's--in the budget request?
    Mr. Burns. This is the administration's budget. The 
administration did not provide for additional funds on Yucca 
Mountain.
    Senator Alexander. Yes. Well, we--you know, I think it's 
fair to characterize--and she will correct me if I'm wrong--we 
are united on the urgent desire to break the nuclear waste 
stalemate; we're not on what to do about Yucca Mountain. For 
me, it seems to me plain that it's the law, that the court has 
ordered moving ahead. Your own environmental scientists have 
said that it's safe for 1 million years. We get frequent 
lectures about the importance of following science, and 
following the law and following science, we would then have a 
place to put a great deal of the spent nuclear fuel we have at 
sites all around the country, and we could also get agreement 
with the House of Representatives to move ahead with our short-
term repositories in our private facilities.
    So we will keep working on our part. That's not necessarily 
your problem. But you're going to be continuing to hear from me 
that I think that you should follow the law and follow the 
science and move ahead with Yucca Mountain. Senator Feinstein, 
I don't have any other questions.
    Senator Feinstein. I have--I would like to.
    Senator Alexander. You're welcome to ask anything you would 
like.

                               FUKUSHIMA

    Senator Feinstein. If I may, Mr. Chairman, I would like to 
put in the record a February 10 ``Washington Post'' article, 
``How Is Fukushima's Clean-Up Going 5 Years After Its Meltdown? 
Not So Well.'' And my staff has prepared a couple of brief 
papers on Fukushima clean-up, that radioactive water remains a 
big problem at Fukushima. Initially water used to cool the 
reactor cores was stored in huge tanks, but they have leaked 
and continue to do so. There are about 1,000 tanks on the site 
holding 750,000 tons of water. And that goes on.
    A second one on the NRC has required two types of actions 
following the Fukushima disaster.
    And a third one on the number of fish with excessive levels 
of radiation have been significantly reduced.
    So I would ask that those documents be entered into the 
record, if I might.
    Senator Alexander. They will be.
    [The link for ``Washington Post'' article follows:]

    https://www.washingtonpost.com/world/asia_pacific/five-years-after-
nuclear-meltdown-no-one-knows-what-to-do-with-fukushima/2016/02/10/
a9682194-c9dc-11e5-b9ab-26591104bb19_story.html?utm_term=.c73d78c27db8.

    Senator Feinstein. Thank you very much, Mr. Chairman.
    Senator Alexander. Any other questions or comments?
    Senator Feinstein. No, I think I'm fine.
    And let me thank you all for your service. I think it's a 
very serious thing because we all look at things, and unless 
something has happened, you know, it's hard to believe that 
it's going to happen on a major basis. And maybe because I live 
in a State where everywhere is 5 miles from an earthquake 
fault, I know it can happen. And so that kind of changes your 
view of things, because it's on your watch, and if you know 
something can happen, you have an obligation to do something 
about it.
    Someday I'll tell the chairman a story of how I learned 
that when I was mayor of San Francisco.
    Senator Alexander. I think you've already told me.
    Senator Feinstein. I've already told you, but I really----
    Senator Alexander. And you did the right thing about the 
baseball stadium; right?
    Senator Feinstein. That's right.
    Senator Alexander. No, no. She is making very good points, 
and I know that it's points that each of you agrees with 
because that's what you do every day. And I would also join 
Senator Feinstein in thanking you for your service.
    Commissioner Ostendorff, thank you for your term of 
service.
    Senator Feinstein. Yes.
    Senator Alexander. But thanks to every one of you and to 
your technical staff, some of whom are here. I've been to the 
reactors with you and I've seen the technical staff and how it 
operates and the rigor of it, which is pretty obvious, even to 
a layman. And I think it's a pretty remarkable record that we 
have in the United States. It's not--of course, a reactor, if 
there is a problem, could cause severe damage to property and 
to people. Fortunately, that hasn't happened to us in the 
United States, either in the military or in our commercial 
reactors, and that's because you're accountable and you've made 
the operators accountable, and we have a very strict safety 
protocol.
    So as long as we are a country that uses 25 percent of all 
the electricity of the world, more or less, and as long as one 
of our major national priorities, at least a majority of the 
people, is to do what we can to reduce the human effect on 
climate change, and as long as 100 nuclear reactors produce 60 
percent of our carbon-free electricity at a pretty low cost, 
and it's reliable as well, I think we ought to do all we can to 
create an environment in which we can continue to operate 
nuclear reactors safely.
    So we'll look forward to working with you on the budget. I 
think you actually have an exciting period of time coming up as 
these different forms of reactors--small, advanced, whatever 
they may turn out to be--come along, and we look forward to 
working with you on them.
    I also want to thank you for being responsive to our staff 
on both sides of the aisle.
    Senator Feinstein. Yes.
    Senator Alexander. That's very important, when we ask 
questions, we get answers, and I think so far we're doing--we 
feel pretty good about that, and we thank you for that.
    Senator Feinstein, I think, unless you have further 
comments, that concludes the hearing.
    Senator Feinstein. No. Well done, Mr. Chairman.
    And let me just, too, say thank you. I mean, this is a very 
big deal, what you do, so I for one am very, very grateful. 
Thank you.
    Mr. Burns. Thank you.

                          SUBCOMMITTEE RECESS

    Senator Alexander. It's adjourned.
    [Whereupon, at 3:52 p.m., Wednesday, February 24, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]



    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                        WEDNESDAY, MARCH 2, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:33 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Cochran, Murkowski, Hoeven, 
Lankford, Feinstein, Tester, Udall, and Coons.

                   U.S. ARMY CORPS OF ENGINEERS AND 
                         BUREAU OF RECLAMATION

HON. JO-ELLEN DARCY, ASSISTANT SECRETARY OF THE ARMY 
            (CIVIL WORKS), CORPS OF ENGINEERS--CIVIL, 
            DEPARTMENT OF THE ARMY, DEPARTMENT OF 
            DEFENSE--CIVIL
        ACCOMPANIED BY THOMAS P. BOSTICK, LIEUTENANT GENERAL, 
            COMMANDING GENERAL AND CHIEF OF ENGINEERS
                                ------                                

ESTEVAN R. LOPEZ, COMMISSIONER, BUREAU OF RECLAMATION, 
            DEPARTMENT OF THE INTERIOR
        ACCOMPANIED BY TOM ISEMAN, DEPUTY ASSISTANT SECRETARY, WATER 
            AND SCIENCE

              OPENING STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. Good afternoon. The Subcommittee on 
Energy and Water Development will please come to order.
    Today's hearing will review the President's fiscal year 
2017 budget request for the U.S. Army Corps of Engineers and 
the Bureau of Reclamation, which is part of the Department of 
Interior. This is the subcommittee's second budget hearing this 
year, and we will have two more budget hearings in the coming 
weeks.
    Now, we are going to change our procedure just a little 
bit, but it will not hurt to have a little more relaxed and 
informal hearing. We have four votes on the Senate floor that 
are scheduled to begin now, and I will give my opening remarks, 
and then will turn to Senator Feinstein for her remarks. Once 
Senator Feinstein and I have given our opening statements, we 
will take a brief recess to allow Senators to vote and come 
back, or if a Senator is here, we will just continue the 
hearing, alternating in between Senator Feinstein as Chairman 
of the Committee.
    To allow Senators enough time to ask their questions, I am 
going to ask each Senator to withhold their opening remarks, 
and I ask unanimous consent that any written statements 
Senators would like to submit be included in the hearing 
record.
    Our witnesses' written testimony, which we have, will also 
be included in the hearing record, and I would ask you to 
withhold your opening statements. And then as soon as Senators 
arrive, we will recognize them one by one for their 5 minutes 
of questions and conversations. And if there is anything in 
your opening statement that you would like to say when you 
answer questions, there will be plenty of time to say that.
    So basically during these votes, which are going to last 
about an hour and a half, we will have alternating Senators. 
But I hope we can continue to have our hearing all the way 
through the end--to the end. Several Senators had expressed an 
interest in coming today, and I know for certain that Senator 
Feinstein will be here.
    Our witnesses today include Jo-Ellen Darcy, the Assistant 
Secretary of the Army for Civil Works. Ms. Darcy has been 
serving as the Assistant Secretary since 2009, and she has told 
me this may be her last budget hearing before this committee. I 
want to thank her for her many years of public service. I have 
enjoyed working with her both publicly and the visits we have 
had in our offices, and including her time working on the 
Senate Environment and Public Works Committee. So thank you, 
Secretary Darcy, for being here today.
    [The statement follows:]
               Prepared Statement of Hon. Jo-Ellen Darcy
    Thank you Chairman Alexander and distinguished members of the 
subcommittee for the opportunity to present the President's Budget for 
the Civil Works program of the Army Corps of Engineers for fiscal year 
2017. We are pleased to have an opportunity to further expand on the 
Administration's priorities and goals. Those priorities include 
promoting resilient communities to address current and future impacts 
of climate change and sea level rise; fostering and maintaining strong 
partnerships with local communities; and practicing sustainability and 
sound stewardship across all our missions. I also want to take this 
opportunity to touch on points that this Committee has raised in the 
past.
    This year's Civil Works Budget reflects the Administration's 
priorities through targeted investments in the Nation's water resources 
infrastructure that will reduce flood risk to communities; facilitate 
commercial navigation; and restore degraded aquatic ecosystems.
    The 2017 Civil Works Budget provides $4.62 billion in discretionary 
appropriations for the Army Civil Works program, focusing on 
investments that will yield high economic and environmental returns or 
address a significant risk to safety.
    The Budget focuses on funding our three major mission areas:
  --42 percent of funding is allocated to commercial navigation,
  --26 percent to flood and storm damage reduction, and
  --8 percent to aquatic ecosystem restoration.
    Other practical, effective, sound investments include allocating 
$196 million of the Budget to hydropower, $200 million to regulatory 
activities, and $103 million to the clean-up of sites contaminated 
during the early years of the Nation's nuclear weapons program.
    The Civil Works program, which this Budget supports, relies on the 
strong relationships between the Corps and local communities; these 
strong relationships allow us to work together to meet their water 
resources needs across all of our missions, as well as to address 
broader water resources challenges that are of concern at the national 
or regional level.
    The Budget supports a Civil Works program that has a diverse set of 
tools and approaches to working with local communities, whether this 
means funding studies and projects with our cost-sharing partners, or 
providing planning assistance and technical expertise to help 
communities make better-informed decisions.
                         planning modernization
    The Budget supports the continued implementation of Corps efforts 
to modernize its planning process. The Budget provides funding in the 
Investigations account for 49 feasibility studies, and funds 12 of them 
to completion.
    The Budget reflects full implementation of the SMART (Specific, 
Measurable, Attainable, Risk Informed, Timely) planning initiative, 
under which each feasibility study is to have a scope, cost, and 
schedule that have been agreed upon by the District, Division, and 
Corps Headquarters. The Budget supports efficient funding of these 
studies.
    Studies generally are funded with the presumption that they will 
complete in 3 years and for $3 million ($1.5 million Federal). In the 
first year, the Corps will work to identify the problem, develop an 
array of alternatives, and begin the initial formulation. The bulk of 
the study costs are anticipated to be incurred during year two, as the 
alternatives are narrowed down and a Tentatively Selected Plan is 
identified, which requires more detailed feasibility analysis and 
formulation. During the third year, the focus is on completing the 
detailed feasibility analysis, State and agency review, and finalizing 
the Chief's Report. There are some exceptions to this funding stream, 
such as where an increase in the study cost or an extension in the 
study schedule is appropriate based on factors such technical 
complexity, public controversy, the need for more detailed work to 
address a specific issue, or the overall cost of a proposed solution.
    Over the past 3 years, the Corps began 29 new studies and resumed 
10 studies. The fiscal year 2017 Budget focuses on managing these and 
other ongoing studies and bringing them to a conclusion. It includes 
funding for 14 studies and three preconstruction engineering and design 
efforts previously funded only through the annual Corps work plans. 
Among the studies budgeted for the first time this year are two of the 
feasibility studies that were recommended as focus areas in the North 
Atlantic Coast Comprehensive Study, nine studies that are starting in 
fiscal year 2016, and three disposition studies under the Disposition 
of Completed Projects remaining item.
    The Water Resources Priorities Study is one of the 10 studies 
started in the fiscal year 2016 work plan. This study will address the 
critical need to develop a baseline assessment of the Nation's 
vulnerability to flood damages on both a national and regional scale. 
First, a baseline assessment will identify and analyze the key drivers 
of flood risks, including the ways in which some of those risks are 
changing or expected to change over time. The study will then examine 
the effectiveness of existing Federal, State, and local programs, and 
develop recommendations to improve these programs to reduce the 
economic and life safety risk associated with large-scale flood and 
storm events in ways that will also promote the long-term 
sustainability of communities and ecosystems.
    The Budget also helps to further combat the spread of invasive 
species by its proposals for funding work associated with the Great 
Lakes and Mississippi River Interbasin Study (GLMRIS). The Budget 
supports efforts to reduce the risk of interbasin transfer of aquatic 
nuisance species through the Chicago Area Waterway System (CAWS) in the 
vicinity of Brandon Road Lock and Dam. The Brandon Road effort will 
assess the viability of establishing a single point to control the one-
way, upstream transfer of aquatic nuisance species from the Mississippi 
River basin into the Great Lakes basin near the Brandon Road Lock and 
Dam located in Joliet, Illinois. The Budget includes funding to 
continue this effort.
    Among the 12 feasibility studies funded to completion is the 
Mississippi River Hydrodynamic Model--Delta Management Study under the 
Louisiana Coastal Area Ecosystem Restoration Program. This greater than 
$25 million study effort will identify options to address the long-term 
sustainability of the lower Mississippi River Deltaic Plain and provide 
a model to assess the effects on navigation and sediment dynamics along 
the Mississippi River main stem associated with combinations of 
Mississippi River diversions.
    Investigation funds are also provided to continue to support State 
and local flood risk mitigation priorities through the ``Silver 
Jackets'' program. The Corps currently supports participation on 
``Silver Jackets'' team in 44 States and the District of Columbia 
through which technical assistance activities are being implemented 
that support State and local community flood risk and floodplain 
management priorities.
                              construction
    The Budget for the construction program includes funds to complete 
six construction projects, continue 27 ongoing projects, and start one 
new project. The one new construction project, Mud Mountain Dam in 
Washington State, involves construction of a fish passage facility to 
address a Biological Opinion.
Flood and Storm Damage Reduction
    The Budget includes $404 million for flood and storm damage 
reduction projects and remaining items, and funds the American River 
Watershed (Folsom Dam Modification), CA project and the Topeka, KS 
project to completion.
    Over the last several years, Congress has funded the dam safety 
program at a lower level than the Budget, based on revisions of 
capabilities that the Corps has provided to Congress subsequent to the 
Budget submission. These revisions--often but not always showing a 
lower capability than requested in the Budget--are caused by a variety 
of factors, including savings from contract awards, process 
efficiencies, and changed conditions. The Budget includes $239 million 
(not including $21 million for the Dam Safety remaining item) for the 
dam safety program that, when coupled with anticipated unobligated 
carryover balances on these important projects, will ensure that each 
of the Dam Safety Action Classification (DSAC) I and DSAC II projects 
funded in the Budget is able to progress efficiently and effectively to 
implement a risk reduction strategy for these structures.
Coastal Navigation
    The Budget includes $105 million for coastal navigation and 
remaining items and funds the Oakland Harbor, CA (50-foot Deepening) 
project and the Delaware River Deepening, NJ, PA, & DE project to 
completion. The Savannah Harbor Expansion Project, GA project is funded 
at $42.7 million, which is over a 100 percent increase from the fiscal 
year 2016 Budget. The Columbia River at the Mouth, OR & WA project is 
funded at a level that will enable efficient progress toward mitigating 
the life safety risk that is presented by the deteriorated jetties.
Inland Navigation
    The Budget funds inland waterways construction and remaining items 
at $246 million, of which $33.75 million will be financed through the 
Inland Waterways Trust Fund (IWTF) for the Olmsted Locks and Dams, IL & 
KY project, which at $225 million is funded at the highest amount ever 
budgeted for this project. With the passage of the Water Resources 
Reform and Development Act of 2014 (WRRDA 2014), the Olmsted Locks and 
Dam, Ohio River, Illinois and Kentucky project is now cost-shared 85 
percent General funds and 15 percent IWTF. This change reduced the cost 
of this project to the navigation users by around $500 million, and 
increased the amount that Federal taxpayers will have to pay by an 
equivalent amount. In the ABLE Act, the Congress also increased the tax 
on diesel fuel used in commercial transportation on certain of the 
inland waterways. As a result of both of these changes, over the next 
few years there will be somewhat more money in the IWTF to support the 
user-financed share of inland waterways capital investments.
    The Administration--as it has in recent years--will propose 
legislation to reform the way that we finance capital investments for 
navigation on the inland waterways. The Administration's proposal 
includes a new user fee to produce additional revenue to help finance 
long-term future investments in these waterways to support economic 
growth. We would like to work with the Congress to enact this 
legislation.
    The Corps is also finalizing a Capital Investment Strategy for the 
inland waterways. The Corps has coordinated this effort with 
stakeholders and the Inland Waterways Users Board to provide an 
opportunity for their input. The process will include an estimate of 
the investment need over the next 20 years and objective nationwide 
criteria to provide a framework for deciding which capital investments 
should have priority for funding from a national perspective. While 
this Strategy will provide a benchmark, it is a conceptual plan and 
does not take the place of normal Budget processes or commit the 
Government to future actions.
Aquatic Ecosystem Restoration
    The Corps continues to contribute to the Nation's efforts to 
restore degraded environments; to that end, the Budget for the Corps 
funds restoration of several large aquatic ecosystems that have been a 
focus of interagency collaboration, including the California Bay-Delta, 
the Chesapeake Bay, the Everglades, the Great Lakes, and the Gulf 
Coast. Other funded efforts include the Columbia River, and priority 
work in the Upper Mississippi and Missouri Rivers.
                       operation and maintenance
    The Budget provides $2.705 billion for Operation and Maintenance, 
with $1.122 billion for operation and $1.414 billion for maintenance, 
and an additional $169 million for remaining items. This encompasses a 
wide range of activities, from operating and maintaining our locks and 
dams to monitoring the condition of dunes and berms that reduce the 
risk of flooding in a hurricane from wave action and storm surges, 
running the Corps recreation facilities that are visited by millions of 
Americans each year, and helping us be responsible stewards of the 
lands associated with Corps projects and operate them in an 
increasingly sustainable fashion.
    For example, the Budget helps us maintain and improve our efforts 
on sustainability. We are reducing the Corps' carbon footprint by:
  --increasing renewable electricity consumption,
  --reducing greenhouse gas emissions, and
  --reducing non-tactical vehicle petroleum consumption.
    We are also making important investments to promote the sustainable 
management of Corps-owned lands, waters and cultural resources. The 
Budget provides $9.6 million to update 24 Master Plans and initiate 
work on 26 others that govern how we manage our facilities, which will 
helps us make better decisions about how to use the land and keep it 
healthy; $12 million to address impacts from invasive plants and 
animals at Corps facilities; and $6.9 million for enhancements and 
protections for habitat in support of the National Strategy to Promote 
the Health of Honey Bees and other Pollinators.
    The Budget also provides $35.5 million for the levee safety 
program, which will help ensure that Federal levees are safe and in 
line with the Federal Emergency Management Administration standards.
    The overall condition of the inland waterways has continued to 
improve over the last few years. The number of lock closures due to 
preventable mechanical breakdowns and failures lasting longer than one 
day and lasting longer than one week has decreased significantly since 
fiscal year 2010. However, the lock closures that do occur result in 
additional costs to shippers, carriers, and users. That is why the 
Budget continues to provide a high level of funding to operate and 
maintain the inland waterways, with emphasis on those that together 
carry 90 percent of the commercial traffic.
Harbor Maintenance Trust Fund
    The Budget provides $951 million from the Harbor Maintenance Trust 
Fund (HMTF) to maintain coastal channels and related work, which is the 
highest amount ever budgeted. This includes almost 11 percent for Great 
Lakes harbors, 10 percent for emerging harbors, $856 million from the 
O&M Account, $2 million from the Mississippi River & Tributaries 
account, and $65 million from the Construction account.
                        research and development
    Research, Development, and Technology is a component of the Science 
and Technology portfolio of the Corps and continues to address key 
strategic technology needs to inform policy-making and business 
processes. The fiscal year 2017 Budget includes $18.1 million for 
research and development. This funding will be used to extend the 
service life of water resources infrastructure through research, use of 
novel materials, and technology transfer. The Research, Development, 
and Technology program enhances our capabilities to facilitate marine 
transportation, assist flood and coastal storm preparation and recovery 
efforts, restore aquatic ecosystems, pursue sustainable environmental 
management, and respond to changing environmental conditions.
                            remaining items
    The Budget includes $276 million for remaining items, including $55 
million in the Investigations account, $44 million in the Construction 
account, $169 million in the Operation and Maintenance account, and $8 
million in the Mississippi River and Tributaries Account.
    Annual funding for these remaining items is determined based on 
current needs, such as the increased focus on technical assistance to 
States and local communities to improve resilience to climate change.
                           regulatory program
    The Budget includes $200 million for the Regulatory program.
         alternative financing and public-private partnerships
    As part of looking to the future of the Army's Civil Works program, 
we continue to consider potential tools to expand and strengthen our 
already strong partnerships, especially in the area of Alternative 
Financing. As part of this effort, we are actively talking with 
potential non-Federal partners about their ideas for how we can work 
together and soliciting suggestions and best practices from others in 
the Federal Government with experience in this area.
    Increasingly, some non-Federal sponsors have been contributing or 
advancing funds for work that is authorized to be funded at Federal 
expense. In such cases, the project beneficiaries assume more (or all) 
of the cost. Before entering into an agreement to accept such funds, 
the Corps carefully evaluates its overall workload to ensure that 
execution of the proposed work will not adversely affect our directly-
funded programs, projects and activities.
                       veterans curation program
    Finally, this Budget provides $6.5 million for the Veterans 
Curation Program, which was started in 2009 with support from the 
American Recovery and Reinvestment Act. This program offers veterans 
the opportunity to learn tangible work skills and gain experience by 
rehabilitating and preserving federally owned or administered 
archaeological collections found at Corps projects.
    Thank you all for attending today. General Bostick will provide 
further remarks on the Army Corps of Engineers 2017 Budget.

    Senator Alexander. Lieutenant General Thomas P. Bostick is 
the Chief of Engineers for the U.S. Army Corps of Engineers. He 
has been serving as Chief of Engineers since 2012. Time goes 
awfully fast. This will be his last hearing before this 
subcommittee I am told, and I want to thank General Bostick. He 
has been responsive and straightforward to me as well as to 
other Senators, and I am deeply grateful for his many years of 
service to our country.
    [The statement follows:]
       Prepared Statement of Lieutenant General Thomas P. Bostick
    Mr. Chairman and Members of the Subcommittee:
    I am honored to testify before your committee today, along with the 
Assistant Secretary of the Army for Civil Works, the Honorable Jo-Ellen 
Darcy, on the President's fiscal year 2017 Budget for the United States 
Army Corps of Engineers (Corps) Civil Works Program. This is my fourth 
and final time before this Subcommittee to testify on the Civil Works 
budget; thank you for your support in the past, and I look forward to 
continuing to work together during the remainder of my tenure as Chief 
of Engineers.
    I have been in command of the Corps for nearly 4 years, and I want 
to briefly update you on the four Campaign Plan Goals for the Corps.
    First, Support National Security. The Corps supports the National 
Security efforts of the United States. We continue working across the 
globe with presence in more than 110 countries, using our Civil Works, 
Military Missions, and Water Resources Research and Development 
expertise to support our Nation's Combatant Commanders. We are proud to 
serve this great Nation and our fellow citizens, and we are proud of 
the work the Corps does to support America's foreign policy. Civilian 
Army Corps employees from across the Nation have volunteered--and 
continue to volunteer--to work, in a civilian capacity, to provide 
critical support to our military missions abroad and humanitarian 
support to the citizens of those nations. Many of these volunteers have 
served on multiple deployments.
    Second, Transform Civil Works. The four elements of the Civil Works 
Transformation strategy will make the Corps more efficient and 
effective while continuing to support the Nation by addressing some of 
our greatest infrastructure needs. Civil Works Transformation focuses 
on modernizing the project planning process; enhancing the budget 
development process through a more streamlined process and the use of a 
systems approach, to identify and deliver more holistic outcomes to the 
Nation; evaluating the portfolio of existing water resources projects 
to support risk-informed investment decisions, identify priorities, and 
develop better solutions to water resources problems; and improving 
methods of delivery to produce and deliver quality products and 
services.
    Since the inception of Civil Works Transformation efforts in 2008, 
58 Chief's reports have been completed, with 45 Chief's Reports 
completed in the last 4 years alone; we are learning and continue to 
become more efficient in our processes.
    Third, we must continue to be proactive and develop better 
strategies to Reduce Disaster Risks, as well as respond to natural 
disasters when they do occur, under the National Response Framework, 
National Disaster Recovery Framework, Public Law 84-99 as amended, and 
Corps project authorities for flood risk management. I continue to be 
amazed at the work the Army Corps does in this arena. For example, the 
Corps provided technical expertise to the State of South Carolina 
during its historic flooding last year by assisting in inspecting over 
600 locally owned dams to assess dam safety vulnerability. More 
recently, the Corps teamed with local communities and State-led Army 
National Guard units during the Mississippi River floodfight to help 
impacted communities in the flood's aftermath. Additionally, I am 
pleased to report to you that all of the Federal flood risk reduction 
systems along the Mississippi performed as designed, demonstrating the 
effectiveness of the investments made.
    Fourth, Prepare for Tomorrow. This is about our people--ensuring we 
have a pipeline of the best Science, Technology, Engineering and 
Mathematics personnel, as well as strong Workforce Development and 
Talent Management programs. Efforts to tailor development programs to 
employee aspirations is helping to maximize talent retention and is 
instilling a career of service culture. We take seriously the 
importance of engaging and retaining our talented workforce and have 
significantly improved our agency ranking in the Federal Employee 
Viewpoint Survey over the past year, on the list of best places to work 
in the Federal Government. Equally important is helping the Nation's 
Wounded Warriors and transition out of active duty to find fulfilling 
careers. Last year, we set a goal to assist 150 transitioning Wounded 
Warriors. I am proud that we achieved more than double that goal. We 
assisted over 300 Wounded Warriors in finding permanent positions 
within the Corps and other organizations. Over the past 3 years, we 
have helped 631 Wounded Warriors find meaningful careers.
    We are equally focused on Research and Development efforts to help 
solve a host of the toughest challenges facing the Army and the Nation. 
Our Civil Works Program research and development efforts provide the 
Nation with innovative engineering products, some of which can have 
applications in both civil and military infrastructure spheres. By 
creating products that improve the efficiency of the Nation's 
engineering and construction industry, and through providing more cost-
effective ways to operate and maintain public infrastructure, Civil 
Works program research and development contributes directly to the 
national economy.
                   summary of fiscal year 2017 budget
    The fiscal year 2017 Civil Works Budget is a performance-based 
budget, and reflects a focus on the work that will provide the highest 
net economic and environmental returns on the Nation's investment or 
address a significant risk to safety. Investments by the Civil Works 
program will reduce the risks of flood impacts in communities 
throughout the Nation, facilitate comercial navigation, restore and 
protect significant aquatic ecosystems, generate low-cost renewable 
hydropower, and support American jobs. Continued investment in critical 
Civil Works infrastructure projects is an investment in the Nation's 
economy, security, and quality of life--now and in the future.
    The Budget focuses on high-performing projects and programs within 
the three main water resources missions of the Corps: commercial 
navigation, flood and storm damage reduction, and aquatic ecosystem 
restoration. The fiscal year 2017 Budget includes $4.62 billion in 
gross discretionary funding for Civil Works activities throughout the 
Nation, including the construction of water resources projects that 
will provide high economic, environmental and public safety returns on 
the Nation's investment.
    The Budget also proposes the necessary level of funding for the 
Regulatory program to protect and preserve water-related resources of 
the Nation.
                         investigations program
    The fiscal year 2017 Budget provides $85 million in the 
Investigations account, and $7 million in the Mississippi River and 
Tributaries account to evaluate and design projects within the Corps 
three main mission areas, with emphasis on those that are potentially 
the most promising on a performance basis; and for related work, 
including some research and development. The Budget also supports the 
Corps planning and technical assistance programs, including using its 
expertise to help local communities increase their resilience to, and 
preparedness for, flood risks such as the flood risks in coastal 
communities associated with hurricanes and sea-level rise.
                          construction program
    The Budget provides $1.09 billion for the construction program in 
the Construction account, and $64 million in the Mississippi River and 
Tributaries account, prioritizing projects with the greatest net 
economic and environmental returns per dollar invested, as well as 
projects that address a significant risk to safety. The Budget includes 
funds for one high-priority construction new start: Mud Mountain Dam, 
Washington. In keeping with our Civil Works transformation strategy, 
the Budget provides construction funding to complete six projects, and 
deliver their benefits to the Nation.
    The goal of the construction program is to produce as much value as 
possible for the Nation from the available funds. The Corps uses 
objective performance measures to allocate this funding. For projects 
that are being funded primarily due to their economic return, these 
include benefit-to-cost ratios. For projects funded on the basis of 
their environmental return, priority is given to those projects that 
are highly effective at restoring degraded structures, functions or 
processes of significant aquatic ecosystems on a cost-effective basis. 
The selection process also prioritizes dam safety assurance, seepage 
control, static instability correction projects, and those that address 
a significant risk to safety.
                operation and maintenance (o&m) program
    All structures age and, over time can deteriorate, causing a 
potential decline in reliability. With proper maintenance and periodic 
rehabilitation, however, we can extend the effective life of most of 
the facilities owned or operated by, or on behalf of, the Corps for 
many years. As stewards of this infrastructure, we are working to 
ensure that key features continue to provide appropriate levels of 
service to the American people.
    The Corps is working to improve the efficiency and effectiveness of 
its operation and maintenance program. The Budget focuses on 
investments that address infrastructure maintenance needs on a risk 
assessment basis. In fiscal year 2017, the Corps will further expand 
the implementation of a modern asset management program, dedicating an 
increased amount of its O&M funding to the key features of its 
infrastructure and for work that will reduce long-term O&M costs in 
real terms. The Budget also supports an energy sustainability program 
and pursues efficiencies in the acquisition and operation of our 
information technology.
    The Budget for the operation and maintenance program provides 
$2.705 billion in the O&M account, and $151 million in the Mississippi 
River and Tributaries account, with a focus on the operation and 
maintenance of key commercial navigation, flood risk management, 
hydropower and other facilities. The Budget gives priority to coastal 
ports and inland waterways with high levels of commercial traffic, and 
includes $951 million for work financed through the Harbor Maintenance 
Trust Fund. The Budget also funds some small ports, with emphasis on 
those that support significant commercial fishing, subsistence, or 
public transportation benefits. The Budget provides O&M funding for 
safety improvements at Federal dams and levees based on the risk and 
consequence of a failure. According to our analyses, 297 of the 709 
dams in our current inventory have required some form of modification 
or interim risk reduction measure, or may require them over the next 50 
years, if they are to continue to serve their authorized purposes. Many 
interim risk reduction measures have been implemented already and 
additional measures are considered and evaluated as new and existing 
issues are identified.
    Generally, the O&M program supports completed works owned or 
operated by the Corps, including administrative buildings and 
laboratories. Work to be accomplished includes: operation of locks and 
dams along the inland waterways; dredging of inland and coastal Federal 
channels; operating multi-purpose dams and reservoirs for flood risk 
reduction, hydropower, recreation, and related purposes; maintenance 
and repair of facilities; monitoring of completed projects; and general 
management of Corps facilities and the land associated with these 
purposes including work to serve as a responsible steward of the 
resources on Corps lands.
    The fiscal year 2017 Budget provides $194 million in the O&M 
account for hydropower activities in order to maintain basic power 
components such as generators, turbines, transformers and circuit 
breakers at Corps hydropower facilities to keep them operating 
efficiently and effectively. The Corps is the largest hydropower 
producer in the U.S., operating 24 percent of the Nation's hydropower 
capacity.
                          reimbursable program
    Through the Interagency and International Services (IIS) 
Reimbursable Program, the Civil Works program assists other Federal 
agencies, State, local, Tribal governments, and those of other 
countries with timely, cost-effective solutions to support their 
programs. These agencies can turn to the Corps, which already has these 
capabilities, rather than develop their own internal workforce and 
expertise to oversee project design and construction. Such 
intergovernmental cooperation is effective for agencies and the 
taxpayer, and uses the skills and talents that we bring from our Civil 
Works and Military Missions programs. The work is principally technical 
oversight and management of engineering, environmental, and 
construction projects--the work itself is typically performed by 
private sector firms--is financed by the agencies we service. IIS 
Reimbursable Program activities in support of our domestic stakeholders 
totaled $657 million in fiscal year 2015. We only accept agency 
requests that are consistent with our core technical expertise, in the 
national interest, and that can be executed without impacting our 
primary mission areas.
                          emergency management
    The fiscal year 2017 Budget provides $30 million in funding for the 
Flood Control and Coastal Emergencies account to enable the Corps to 
prepare for emergency operations in response to natural disasters. The 
Budget for the emergency management program also includes $4.5 million 
for the National Emergency Preparedness Program.
    An additional $3 million is included in the Investigations account 
for the Corps participation in the development and expansion of 
intergovernmental teams, known as Silver Jackets, which collaboratively 
reduce the risks associated with flooding and other natural hazards. 
The Silver Jackets program is an innovative program, which provides a 
national forum to address State and local flood risk management 
priorities. Each team is developed at the State level. The teams share 
lessons learned at the State level with each other, and each team works 
to apply the available Federal and State resources effectively to meet 
its State's flood risk management priorities. There are now 45 active 
teams (44 States and the District of Columbia); our goal is to have a 
Silver Jackets team for every State. The flooplain management program 
of the Corps complements this effort by providing technical assistance.
                               conclusion
    The fiscal year 2017 Budget represents a continuing, fiscally 
prudent investment in the Nation's water resources infrastructure and 
restoration of its aquatic ecosystems. The U.S. Army Corps of Engineers 
is committed to a performance-based Civil Works Program, based on 
innovative, resilient, and sustainable risk-informed solutions.
    Thank you, Mr. Chairman and Members of Subcommittee. This concludes 
my statement. I look forward to answering any questions you or other 
Members of the Subcommittee may have.

    Senator Alexander. Estevan Lopez is Commissioner of the 
Bureau of Reclamation. As far as I know, he is not going 
anywhere right now.
    [The statement follows:]
                  Prepared Statement of Estevan Lopez
    Thank you Chairman Alexander, Ranking Member Feinstein, and members 
of this Subcommittee for the opportunity to discuss with you the 
President's fiscal year 2017 Budget for the Bureau of Reclamation. I 
appreciate the time and consideration this Subcommittee gives to 
reviewing and understanding Reclamation's budget, projects, and 
programs and I look forward to working with the Committee in the future 
as Reclamation continues to address water issues in the West. 
Reclamation is committed to prioritizing and implementing its overall 
program in a manner that serves the best interest of the American 
public.
    The Budget sustains our efforts to deliver water and generate 
hydropower, consistent with applicable Federal and State law, in an 
environmentally responsible and cost-efficient manner. It also supports 
the Administration's and Department of the Interior's (Department) 
priorities to ensure healthy watersheds and sustainable, secure water 
supplies; build a landscape-level understanding of our resources; 
celebrate and enhance America's great outdoors; power our future; 
strengthen Tribal nations; and engage the next generation.
    The extreme and prolonged drought facing the western States affects 
major U.S. river basins throughout the West. Exceptional drought in 
many western States, specifically California, Nevada, Washington, and 
Oregon, affects households across the country because of the adverse 
impact on agricultural production. Drought is estimated to cost the 
Nation billions of dollars and impact thousands of jobs. In California 
alone, the estimated cost of the 2015 drought on agriculture--crop 
production, livestock, and dairies--is $2.7 billion with a total loss 
of 21,000 seasonal and part-time jobs. The effects of the current 
drought on California's Sacramento and San Joaquin River Basins, its 
water, its agricultural economy, and its communities are particularly 
acute. The Colorado River Basin--crucial for seven States and several 
Tribes, in addition to two countries--is also enduring historic 
drought. Nearly 40 million people rely on the Colorado River and its 
tributaries for some, if not all, of their municipal needs. The Basin 
is experiencing the worst drought in recorded history; the period from 
2000 through 2015 was the driest 16-year period in more than 100 years 
of record keeping. In 2015, Lake Mead, behind the Hoover Dam on the 
Colorado River, has declined to its lowest elevation since the 1930's. 
Snowpack, which functions as reservoir storage for many western basins, 
is diminishing.
    Water year 2016 is shaping up to be influenced by the periodic ``El 
Nino'' anomaly associated with warmer ocean temperatures in portions of 
the Pacific, a phenomenon that generally leads to a wetter than normal 
year in areas of the western U.S., including California. However, one 
wet year alone will not alleviate the impacts of the multi-year 
drought. This water year exists against the backdrop of long-term 
sustained climatic change; both short-term and long-term droughts are 
expected to intensify. Although Reclamation continues to emphasize 
strategic priorities and operational activities to understand, and 
effectively adapt to, the risks and impacts of a changing environment 
on western water management, groundwater must be replenished before 
runoff can fill rivers and reservoirs, and the hydrologic system as a 
whole will need time to recover. As one of the Nation's primary 
suppliers and protectors of water, Reclamation needs to continue to 
plan and prepare for the next drought and its successors, despite 
cautious optimism in 2016.
    This Budget addresses Reclamation's priorities by allocating funds 
based on objective and performance-based criteria to most effectively 
implement its management responsibilities for water and power 
infrastructure in the West. Reclamation's goals and priorities--
including water supply reliability and power generation, climate 
variability adaptation, water conservation, aging infrastructure, sound 
science to support critical decisionmaking, and ecosystem restoration-- 
were balanced in the formulation of the fiscal year 2017 budget. 
Reclamation continues to look at ways to more efficiently plan for the 
future challenges confronting water resources management, and to 
improve the way it does business.
    In order to meet Reclamation's mission goals, we are building a 
landscape-level understanding of our resources and the protection and 
restoration of the aquatic and riparian environments influenced by our 
operations. This budget is focused on meeting National priorities for 
Indian water rights settlements, ecosystem restoration, and healthy 
watersheds and sustainable, secure water supplies. Further details of 
these efforts will now be discussed.
                      water and related resources
    The fiscal year 2017 Budget for Water and Related Resources, 
Reclamation's principal operating account, is $813.4 million, a 
reduction of $305.6 million from 2016 enacted. This reflects the 
budgetary shift of $106.2 million from this account to establish a 
separate Indian Water Rights Settlement Account, and $36.0 million to 
establish a separate discretionary account within the San Joaquin River 
Restoration Fund.
    The Budget includes a total of $383.5 million at the project and 
program level for water, energy, land, fish and wildlife resource 
management, and development activities. This provides for planning, 
construction, water sustainability activities, management of 
Reclamation lands, including recreation areas, and actions to address 
the impacts of Reclamation projects on fish and wildlife.
    The Budget also provides a total of $429.9 million at the project 
level for water and power facility operations, maintenance, and 
rehabilitation activities. Reclamation emphasizes safe, efficient, 
economic, and reliable operation of facilities, ensuring systems and 
safety measures are in place to protect the facilities and the public. 
Providing adequate funding for these activities continues to be one of 
our highest priorities.
    highlights of the fiscal year 2017 budget for water and related 
                               resources
    I would like to share with the Committee several highlights of 
Reclamation projects and programs within the Administration's Budget. 
The Budget continues to promote and support efficient water management, 
increased renewable energy production, the construction of new 
infrastructure and sound maintenance of existing facilities, 
restoration of aquatic environments, and the continued use of applied 
science and new technologies to help safeguard sustainable water 
deliveries and energy production. As a result, Reclamation continues to 
play an important role in providing a strong foundation for economic 
activity across the American West.
    WaterSMART Program.--One method Reclamation employs to stretch 
water supplies in the West and prepare for these ongoing challenges is 
the WaterSMART (Sustain and Manage America's Resources for Tomorrow) 
Program. The programs included in WaterSMART are collaborative in 
nature and work to effectively achieve sustainable water management. 
WaterSMART Grants, Title XVI Water Reclamation and Reuse, and the Water 
Conservation Field Services Program, along with other Reclamation 
activities, support the Department's Priority Goal for Water 
Conservation. The Basin Studies component of WaterSMART supports the 
Department's priority goal Ensuring Healthy Watersheds and Sustainable, 
Secure Supplies.
    In the fiscal year 2017 Budget, the Administration proposes to fund 
WaterSMART at $61.5 million. The WaterSMART components include: 
WaterSMART Grants funded at $23.4 million; the Basin Study Program 
funded at $5.2 million; the Title XVI Water Reclamation and Reuse 
Program funded at $21.5 million; Water Conservation Field Services 
Program, funded at $4.2 million; the Cooperative Watershed Management 
Program, funded at $1.8 million; the Drought Response program, funded 
at $4.0 million; and the Resilient Infrastructure program, funded at 
$1.5 million.
    Rural Water Projects.--Congress specifically authorized Reclamation 
to undertake the design and construction of six projects intended to 
deliver potable water supplies to specific rural communities and Tribes 
located primarily in Montana, New Mexico, North Dakota, and South 
Dakota. The fiscal year 2017 Reclamation budget includes $38.1 million 
for rural water projects; $18.6 million of that total is for operation 
and maintenance of completed tribal systems, while the remaining $19.5 
million is for continued construction for authorized projects.
    Dam Safety Program.--A total of $86.1 million is provided for 
Reclamation's Safety of Dams Program, which includes $64.5 million to 
correct identified safety issues. Funding also includes $20.3 million 
for safety evaluations of existing dams and $1.3 million to oversee the 
Interior Department's Safety of Dams Program.
    Site Security.--A total of $26.2 million is provided for Site 
Security to ensure the safety and security of the public, Reclamation's 
employees, and key facilities. This funding includes $4.1 million for 
physical security upgrades at high risk critical assets and $22.1 
million to continue all aspects of Bureau-wide security efforts, 
including law enforcement, risk and threat analysis, personnel 
security, information security, risk assessments and security-related 
studies, and guards and patrols.
    Powering Our Future.--The Budget includes $1.3 million to support 
Reclamation's Sustainable Energy Strategy and actions identified 
through the Sustainable Hydropower MOU with our partners at the 
Department of Energy (DOE) and U.S. Army Corps of Engineers. This 
funding will provide for increased hydropower development at existing 
Reclamation facilities, and will allow Reclamation to work with Tribes 
to assist them in developing renewable energy sources. These important 
projects will assist in the production of cleaner, more efficient 
energy and will support the Renewable Energy Resource Development 
Priority Goal.
    Strengthening Tribal Nations.--The fiscal year 2017 Reclamation 
budget supports the Strengthening Tribal Nations initiative through a 
number of activities and projects. For example, the budget includes 
$10.4 million for Reclamation's Native American Affairs Program in 
support of Reclamation activities with Tribes, including technical 
assistance, Indian Water Rights Settlement negotiations, implementation 
of enacted settlements, and outreach to Tribes; and $15.7 million to 
continue the operation and maintenance associated with the delivery of 
up to 85,000 acre-feet of water to the Ak-Chin Indian Community in 
Arizona. Ongoing authorized rural water projects also benefit both 
tribal and non-tribal communities. Projects in the fiscal year 2017 
Budget benefiting Tribes include the rural water component of the Pick-
Sloan Missouri Basin Program, Garrison Diversion Unit; Fort Peck 
Reservation/Dry Prairie; and Rocky Boy's/North Central Montana; and 
operation and maintenance funding only for tribal features of the Mni 
Wiconi Project following completion of construction. Numerous other 
projects and programs, such as the Columbia/Snake River Salmon Recovery 
Program, Klamath Project, and the Yakima River Basin Water Enhancement 
Project also benefit Tribes. In fiscal year 2017, $106.2 million for 
planning and construction of three recent Indian Water Rights 
Settlements is being proposed in a new separate account as described 
below.
    River Restoration.--To meet Reclamation's mission goals of securing 
America's energy resources and managing water in a sustainable manner 
for the 21st century, our programs also focus on the protection and 
restoration of the aquatic and riparian environments influenced by our 
operations. Ecosystem restoration involves many activities, including 
Reclamation's Endangered Species Act recovery programs, which directly 
address the environmental aspects of the Reclamation mission. In fiscal 
year 2017, a total of $135.5 million in the Budget for Reclamation 
projects and programs directly supports the goals of the America's 
Great Outdoors Program, through local and basin-wide collaboration in 
watershed partnerships. Several of the programs are described below.
    The Budget has $27.3 million for Endangered Species Act Recovery 
Implementation programs within the Bureau of Reclamation, including 
$19.9 million in the Great Plains Region to implement the Platte River 
Endangered Species Recovery Implementation program. Within California's 
Central Valley Project, $11.8 million is for the Trinity River 
Restoration Program, with an additional $1.5 million from the Central 
Valley Project Restoration Fund.
    Many other projects and programs also contribute to ecosystem 
restoration including the Lower Colorado River Multi-species 
Conservation Program, Middle Rio Grande Endangered Species Act 
Collaborative Program, the Columbia/Snake River Salmon Recovery 
Program, and the Yakima River Basin Water Enhancement Project.
    Research and Development.--Reclamation continues to promote 
research and development to advance the science and technology that 
supports best management of the country's natural resources and 
heritage. In fiscal year 2017 the research and development (R&D) budget 
totals $28.6 million, with $22.8 million for Science and Technology and 
$5.8 million for the Desalination and Water Purification Research 
Program. Scientific discovery, technological breakthroughs, and 
innovation are the primary engines for expanding the frontiers of human 
knowledge, which are vital for responding to the challenges and 
opportunities of the 21st century. Scientific and engineering 
innovation promotes sustainable economic growth and job creation, moves 
us toward a clean energy future, and helps us manage competing demands 
on environmental resources.
    Desalination and water purification research strives to produce new 
clean water technologies, reduce costs, and decrease environmental 
impacts while converting unusable waters into viable water supplies. 
Reclamation's budget for these efforts also supports the 
Administration's science and technology priorities, including 
sponsorship of technology prize competitions, to spur innovative 
breakthroughs and research related to climate adaptation and clean 
energy.
    In addition to the highlights just discussed, the fiscal year 2017 
Water and Related Resources budget provides $110.8 million to operate, 
manage, and improve California's Central Valley Project; this amount 
reflects the shift of $36.0 million for a separate discretionary 
account within the San Joaquin River Restoration Fund, as discussed 
below. The next three accounts are also related to California water and 
restoration.
                   san joaquin river restoration fund
    Reclamation proposes $36.0 million of current funds for the San 
Joaquin River Restoration Fund account in fiscal year 2017. The fiscal 
year 2017 Budget funds activities consistent with the settlement of 
Natural Resources Defense Council v. Rodgers as authorized by the San 
Joaquin River Restoration Settlement Act. The Act includes a provision 
to establish the San Joaquin River Restoration Fund to implement the 
provisions of the Settlement. The Settlement's two primary goals are to 
restore and maintain fish populations, and restore and avoid adverse 
impacts to water supplies. Under the Settlement, the legislation 
provides for nearly $2.0 million in annual appropriations from the 
Central Valley Project Restoration Fund for this purpose.
                central valley project restoration fund
    The fiscal year 2017 Budget includes a total of $55.6 million for 
the Central Valley Project Restoration Fund (CVPRF). This amount is 
determined on the basis of a 3-year rolling average not to exceed $50.0 
million per year and indexed to 1992 price levels. These expenditures 
are offset by collections estimated at $55.6 million from mitigation 
and restoration charges authorized by the Central Valley Project 
Improvement Act.
                    california bay-delta restoration
    The fiscal year 2017 Budget provides $36.0 million for California 
Bay-Delta Restoration. The account focuses on the health of the Bay-
Delta ecosystem and improving water management and supplies. The Budget 
will support the coequal goals of environmental restoration and 
improved water supply reliability, under the following program 
activities including: $2.2 million for a Renewed Federal State 
Partnership, $5.3 million for Smarter Water Supply and Use, and $28.5 
million for Habitat Restoration. These program activities are based on 
the Interim Federal Action Plan for the California Bay-Delta issued 
December 22, 2009.
                    indian water rights settlements
    In fiscal year 2017, Reclamation will enhance support of Tribal 
nations. The fiscal year 2017 Budget proposes $106.2 million for Indian 
Water Rights Settlements (IWRS), in a new account of the same name. 
Reclamation is proposing establishment of an Indian Water Rights 
Settlements account to assure continuity in the construction of the 
authorized projects, and to highlight and enhance transparency in 
handling these funds. This account is proposed to cover expenses 
associated with Indian water rights settlements contained in the Claims 
Resolution Act of 2010 (Public Law 111-291) and the Navajo-Gallup Water 
Supply Project within Title X of the Omnibus Public Land Management Act 
of 2009 (Public Law 111-11).
    Of this amount, $6.4 million is for the Aamodt Settlement (Pueblos 
of Nambe, Pojoaque, Tesuque and San Ildefonso in New Mexico); $12.8 
million for the Crow Settlement (Crow Tribe in Montana); $87.0 million 
for the Navajo-Gallup Settlement (Navajo Nation in New Mexico). These 
settlements will provide permanent water supplies and offer economic 
security for the Tribes and pueblos described above. The agreements 
will build and improve reservation water systems, rehabilitate 
irrigation projects, construct a regional multi-pueblo water system, 
and codify water- sharing arrangements between Indian and neighboring 
communities.
    Per the Claims Resolution Act of 2010, in addition to the 
discretionary funding included in this Budget, additional mandatory 
funds have already been made available to Reclamation, in order to 
realize the deadlines mandated in the settlement acts. The White 
Mountain Apache Tribe activities will continue in fiscal year 2017 
using mandatory funds.
                       policy and administration
    The fiscal year 2017 Budget for Policy and Administration, the 
account that finances Reclamation's central and regional management 
functions is $59.0 million. The account supports activities necessary 
for the management and administration of Reclamation that are not 
chargeable directly to a specific project or program, such as corporate 
oversight, policy and overall program management, budget preparation, 
finance and procurement, and management of safety and health, human 
resources, and information technology.
                        permanent appropriations
    The total permanent appropriation of $106.8 million in fiscal year 
2017 primarily includes $103.6 million for the Colorado River Dam Fund. 
Revenues from the sale of Boulder Canyon power are placed in this fund 
and are available without further appropriation to pay for operation 
and maintenance of the project and other costs.
                    2016 through 2017 priority goals
    Priority goals are a key element of the President's agenda for 
building a high-performing government. The priority goals demonstrate 
that our programs are a high value to the public and they reflect 
achievement of key Departmental milestones. These goals focus attention 
on initiatives for change that have significant performance outcomes, 
which can be clearly evaluated, and are quantifiable and measurable in 
a timely manner. Reclamation's participation in the Water Conservation 
and Supply Enhancement, Renewable Energy Resource Development, Climate 
Change Adaptation, and Engaging the Next Generation priority goals 
helps to achieve these objectives.
    Water Conservation and Supply Enhancement.--The fiscal year 2017 
Budget will enable Reclamation to achieve water conservation capability 
for agricultural, municipal, industrial, and environmental uses in the 
western United States by 1,040,000 acre-feet/year cumulatively (since 
2009) through September 30, 2017. This will be accomplished through the 
use of the WaterSMART Program to assist communities in stretching water 
supplies while improving water management and increasing the efficient 
use of water. By the end of fiscal year 2015, Reclamation had already 
exceeded the prior goal of 975,000 acre-feet through partnerships with 
States, Tribes, irrigation and water districts and other organizations 
with water or power delivery authority.
    Renewable Energy Resource Development.--The Budget also supports 
efforts to increase approved capacity authorized for renewable energy 
resources affecting Department of the Interior managed lands to at 
least 16,600 Megawatts (since 2009) by September 30, 2017. Reclamation 
contributes to the Departmental goal primarily through the Memorandum 
of Understanding (MOU) on Hydropower with the Departments of Interior, 
Energy, and the U.S. Army Corps of Engineers (USACE), signed March 24, 
2010. The MOU encourages the development of sustainable hydropower at 
Federal facilities in order to help meet the Nation's needs for 
reliable, affordable, and environmentally sustainable hydropower by 
prioritizing goals and coordinating hydropower research and development 
efforts through studies and assessments. The Budget includes $1.3 
million for Reclamation to implement an automated data collection and 
archival system to aid in hydropower benchmarking, performance testing, 
and strategic decisionmaking.
    Climate Change Adaptation.--Consistent with the direction in the 
President's 2013 Climate Action Plan, Reclamation is developing and 
implementing approaches to understand, and effectively adapt to, the 
risks and impacts of a changing environment on western water 
management. Some examples include:
  --The Basin Study Program takes a coordinated approach to assess 
        risks and impacts; develop landscape-level science; communicate 
        information and science to other entities and agencies; and 
        work closely with stakeholders to develop adaptation strategies 
        to cope with water supply and demand imbalances in a 
        collaborative manner.
  --The Drought Response Program will implement a comprehensive new 
        approach to drought planning and will implement actions to help 
        communities manage drought and develop long-term resilience 
        strategies.
  --Through the Resilient Infrastructure Program, Reclamation will 
        proactively maintain and improve existing infrastructure for 
        system reliability, safety, and efficiency for water 
        conservation to prepare for extremes and to support healthy and 
        resilient watersheds. Reclamation will continue to develop, 
        implement, and test an enhanced decisionmaking criteria 
        framework for selecting resilient infrastructure investments 
        and will identify opportunities to integrate operational 
        efficiencies more compatible with climate variability 
        adaptation goals, as part of the Bureau's ongoing 
        infrastructure investments.
  --Reclamation's Science and Technology Program conducts water 
        resources research to improve capability for managing water 
        resources under multiple stressors, including a changing 
        climate. This research agenda will collaborate with and 
        leverage the capabilities of the Interior Climate Science 
        Centers.
    Reclamation's WaterSMART Grants, Water Conservation Field Services, 
and Title XVI Programs are enabling the West to better adapt to the 
impacts of a changing environment by helping to conserve tens of 
thousands of acre-feet of water each year in urban and rural settings, 
on both large and small scales.
    Engaging the Next Generation.--By September 30, 2017, the 
Department of the Interior will provide 100,000 work and training 
opportunities over four fiscal years, 2014 through 2017, for 
individuals ages 15 to 35 to support the Department's mission. In 
fiscal year 2017, Reclamation will continue to provide work and 
training opportunities by leveraging funding through agreements with 
21st Century Conservation Service Corps partners. Reclamation will 
continue to use the Public Land Corps Act authority and the Youth 
Conservation Corps Act to enter into partnership agreements. These 
agreements will be used to assist on-the-ground projects and 
internships involving youth in cooperative efforts in cultural and 
natural resource conservation related to Reclamation projects. In 
addition, a partnership agreement with the National Fish and Wildlife 
Foundation will help provide additional youth conservation employment 
opportunities.
    President's Build America Investment Initiative.--To help advance 
the goals and priorities of the Department, a new Center for Natural 
Resources Investment was recently launched by the Department as part of 
the President's Build America Investment Initiative. Reclamation fully 
supports this activity, as the new center will promote increased 
private investment in water infrastructure and facilitate locally-led 
water exchange agreements in the western United States to increase 
resilience of water supplies and drive additional investment in 
conservation technologies.
    Appropriations/Authorization Language Proposals.--The 
Administration is proposing two significant changes in authorizations, 
for which language is included in the fiscal year 2017 Budget. The 
first is to extend the California Federal Bay-Delta Authorization Act, 
as amended, from 2017 through 2018, so the CALFED program can continue 
its mission--even more important given the current drought. Language is 
also included to increase the authorized appropriations ceiling of 
Section 9504(e) of the Secure Water Act of 2009 from $350 million to 
$400 million to provide the appropriations ceiling needed for much of 
the funding for Reclamation's WaterSMART program, one of our most 
effective programs.
                               conclusion
    Importantly, the fiscal year 2017 Budget demonstrates Reclamation's 
commitment to addressing the water and power demands of the West in a 
fiscally responsible manner. This Budget continues Reclamation's 
emphasis on managing, operating, and maintaining its public 
infrastructure and delivering water and power in an environmentally and 
economically sound manner, in the interest of the American public. 
Reclamation is committed to working with its customers, States, Tribes, 
and other stakeholders to find ways to balance and support the mix of 
water resource demands in fiscal year 2017 and beyond.
    This completes my statement. I would be happy to answer any 
questions.

    Senator Alexander. And Tom Iseman, Deputy Assistant 
Secretary for Water and Science at the Department of Interior, 
is also here.
    [The statement follows:]
                  Prepared Statement of Thomas Iseman
    Chairman Alexander, Ranking Member Feinstein, and members of the 
Subcommittee, I am Tom Iseman, Interior's Deputy Assistant Secretary 
for Water and Science, and I appreciate the opportunity to talk with 
you about the water related programs of the Department of the Interior, 
and the President's 2017 Budget. My office oversees the Bureau of 
Reclamation and U.S. Geological Survey activities.
    This is a strong budget that builds on our accomplishments. Our 
request enables us to carry out our important missions--maintain our 
core capabilities, meet commitments, and invest in key priorities. The 
investments in this request show the Administration remains focused on 
meeting the Nation's greatest challenges looking forward and ensuring 
our economy works for all.
    Our budget is part of the President's broader strategy to make 
critical investments in domestic and national security priorities while 
adhering to the bipartisan budget agreement signed into law last fall, 
and lifts sequestration in future years to continue investment in the 
future. This Budget recognizes the importance of the programs of 
Reclamation and the USGS to the overall strength of the Nation's 
economy, and its infrastructure. To put this into perspective, the U.S. 
Department of the Interior Economic Report for fiscal year 2014 States, 
Interior-managed lands and activities contributed about $360 billion in 
national economic output, supporting an estimated two million jobs. Of 
this, Reclamation's contribution, including recreation activities, was 
$48.4 billion, supporting over 360,000 jobs.
    At the same time, the Department of the Interior's 2017 proposed 
investments lay the groundwork for promoting renewable energy 
development, wise water utilization, managing the Nation's lands 
responsibly, helping to protect communities in the face of climate 
change, and investing in science to inform natural resource management. 
This request addresses significant resource challenges for the Nation, 
including water availability, particularly in the arid West, and makes 
important investments in America's water infrastructure.
    Interior's 2017 budget includes $1.0 billion for research and 
development activities throughout the Department, an increase of $84.5 
million from the 2016 enacted level. Activities supported include 
scientific analysis of natural systems and applied field research to 
address specific problems, such as thawing permafrost, invasive 
species, and flooding. With multiple science programs across the 
Department's bureaus and offices, science coordination remains a 
critical component in the process of effective science application. 
Interior is well served by the deployment of science advisors in each 
bureau. These advisors serve critical roles within the organizations 
and across the Department by sharing information application. The 
Interior 2017 budget reflects high priority needs identified for 
scientific research across the Department, which is the foundation for 
the $28.6 million requested for research and development for 
Reclamation. This request supports the Administration's efforts to 
collaborate with non-Federal partners on advanced water treatment and 
clean water technologies while conserving scarce Western water and 
protecting species habitat.
            the 2017 budget advances a record of achievement
    This budget builds on a record of achievement across Interior's 
diverse mission in general, as well as within Reclamation's specific 
mission. To support the Powering Our Future Initiative, the 2017 
Reclamation budget includes $1.3 million to implement an automated data 
collection and archival system to aid in hydropower benchmarking, 
performance testing, and strategic decisionmaking; investigate 
Reclamation's capability to integrate large amounts of renewable 
resources such as wind and solar into the electric grid; and work with 
Tribes to assist in developing renewable energy sources. These 
important projects will assist in the production of cleaner, more 
efficient renewable energy.
    In addition, the 2017 budget sustains President Obama's strong 
commitment to tribal self- determination, strengthening tribal nations, 
and investing in the future of Native youth, as illustrated by 
Reclamation's continuing investment in endangered species recovery, 
rural water, and water rights settlement programs. In fact, the 
Department's overall budget continues to address Indian water rights 
settlement commitments and programs to support Tribes in resolving 
water rights claims, developing water sharing agreements, and 
supporting sustainable water management.
    Interior continues to engage in innovative efforts to leverage 
youth engagement and partnerships to advance the Department's 
extraordinary mission, and Reclamation is a contributor to this effort.
    Bureau of Reclamation projects funded from 2010 through 2015 
exceeded the cumulative water savings target of 910,000 acre-feet of 
water/year, achieving savings of over 970,000 acre-feet, roughly the 
amount of water needed for household use in Phoenix and the surrounding 
area each year. The budget keeps Reclamation on track to conserve 
1,040,000 acre-feet by the end of fiscal year 2017.
   promotes the conservation and protection of america's natural and 
                           cultural resources
    America's public lands and waters offer space to get outside and 
get active, and provide living classrooms with hands-on opportunities 
to build skills. The Administration launched the Every Kid in a Park 
Initiative to inspire the next generation to discover all America's 
public lands and waters have to offer. Starting with the 2015-2016 
school year, all fourth grade students and their families are able to 
receive free admission to all national parks and other Federal lands 
for a full year. Reclamation's mission goals of securing America's 
energy resources and managing water in a sustainable manner for the 
21st Century demands a focus on the protection and restoration of the 
aquatic and riparian environments influenced by its operations. 
Ecosystem restoration involves many activities, including Reclamation's 
Endangered Species Act recovery programs, which directly address the 
environmental aspects of Reclamation's mission. In 2017, a total of 
$135.5 million in Reclamation's budget directly supports the goals of 
America's Great Outdoors Initiatives, through local and basin-wide 
collaboration in watershed partnerships. This supports efforts to 
manage and promote the health and resilience of ecosystems on a 
landscape scale, including a continued focus in priority landscapes 
such as the California Bay-Delta.
             implements the president's climate action plan
    As manager of roughly 20 percent of the land area of the United 
States and a partner with tribal, Federal, State, local, and 
territorial government land managers, the Interior Department works to 
address the challenges of natural hazards brought on by a changing 
climate as an integral part of its mission. The budget includes funding 
to improve the resilience of communities and ecosystems to changing 
stressors, including flooding, severe storm events, and drought as part 
of the Administration's effort to better understand and prepare for the 
impacts of a changing climate.
    Healthy communities require secure, sustainable water supplies. 
This is particularly challenging with record drought conditions and 
increasing demand taxing watersheds throughout the country, especially 
in the arid West. To help increase the security and sustainability of 
Western watersheds, the budget continues investment in the Department's 
WaterSMART program to promote water reuse, recycling, and conservation, 
in partnership with States, Tribes, and other partners. Funding is also 
included for research, development, and challenge competitions to find 
longer term solutions through new water technologies. The budget 
invests in the Nation's water infrastructure to ensure millions of 
customers receive the water and power that are the foundation of a 
healthy economy.
             improves oversight and use of federal dollars
    Interior has several multi-year efforts underway to reduce its 
nationwide facilities footprint, and improve the efficiency and 
effectiveness of its information technology infrastructure and 
financial reporting capabilities. Funding for these specific efforts is 
included in the Department's budget request. Reclamation is 
participating in these efficiency endeavors, as well as improving 
reporting and increasing data quality and transparency, as envisioned 
in the DATA Act. Reclamation is also implementing the Federal 
Information Technology Acquisition Reform Act, to improve 
standardization of information technology investments by strengthening 
the role of the Department's Chief Information Officer in strategic 
planning, budget formulation and execution, and acquisition of 
information management and technology activities.
                   natural resource investment center
    The Department has established a Natural Resource Investment Center 
to spur partnerships with the private sector to develop creative 
financing opportunities that support economic development goals while 
advancing the Department's resource stewardship mission.
    The Center will use market-based tools and innovative public-
private collaborations to increase investment in water conservation and 
critical water infrastructure, as well as promote investments that 
conserve important habitat in a manner that advances efficient 
permitting and meaningful landscape-level conservation. The Center will 
work closely with the private sector and others to identify innovative 
ideas and financing options for projects that conserve scarce Western 
water resources and protect species habitat.
                         reclamation highlights
    The 2017 budget for Reclamation and the Central Utah Project 
Completion Act (CUPCA) totals $1.1 billion and focuses on investments 
in Indian water rights settlements, ecosystem restoration, healthy 
watersheds and sustainable, secure water supplies.
    Funding for Water and Related Resources shows a reduction of $305.6 
million from 2016, reflecting the shift of $106.2 million to the 
requested new Indian Water Rights Settlements account and $36.0 million 
for a separate discretionary account within the San Joaquin River 
Restoration Fund.
    Reclamation requests establishment of an Indian Water Rights 
Settlements account in 2017 to assure continuity in the construction of 
the authorized projects and to highlight and enhance transparency in 
handling these funds. The budget includes $12.8 million to implement 
the Crow Tribe Rights Settlement Act, $6.4 million for the Aamodt 
Litigation Settlement Act, and $87.0 million for the Navajo-Gallup 
Water Supply Project.
    The extreme and prolonged drought facing the western States affects 
major U.S. river basins in virtually every western State. The effects 
of the current drought on California water, its agrarian economy, and 
its communities are particularly acute. According to the Economic 
Analysis of the 2015 Drought for California Agriculture by California 
Department of Food and Agriculture, University of California-Davis and 
California Department of Water Resources, the estimated cost of the 
2015 drought on California agriculture-crop production, livestock, and 
dairies is $2.7 billion with a total loss of 21,000 seasonal and part-
time jobs. The Colorado River Basin-- crucial for seven States and 
several Tribes, in addition to two countries--is also enduring historic 
drought. Nearly 40 million people rely on the Colorado River and its 
tributaries for some, if not all, of their municipal needs. The Basin 
is experiencing the worst drought in recorded history; the period of 
2000-2015 was the driest 16-year period in more than 100 years of 
record keeping.
  watersmart, water conservation field services and title xvi programs
    Reclamation's WaterSMART program, requested at $61.5 million, is 
helping to address the drought and other water supply issues across the 
West. WaterSMART Grants, Water Conservation Field Services, and Title 
XVI Programs, along with other Reclamation activities are enabling the 
West to better adapt to the impacts of a changing environment by 
helping to conserve tens of thousands of acre-feet of water each year 
in urban and rural settings, and on both large and small scales. The 
Drought Response Program will implement a comprehensive new approach to 
drought planning and will implement actions to help communities manage 
drought and develop long-term resilience strategies. Reclamation 
continues to promote research and development through its Science and 
Technology and Desalination and Water Purification Research Programs to 
produce new clean water technologies, reduce costs, and decrease 
environmental impacts while converting unusable water into viable water 
supplies. The 2017 budget includes $8.5 million for an X-Prize 
competition to encourage innovative water purification and treatment 
technologies.
    WaterSMART enables the USGS and Reclamation to make focused and 
leveraged investments to address water resource challenges. The USGS 
budget provides an increase of $18.4 million for science to support 
sustainable water management, nearly doubling the investment made in 
2016. As climate models forecast increasingly frequent and more intense 
droughts, improving water management science is a paramount concern for 
land and water management agencies, States, local governments, and 
Tribes. The USGS budget would improve water use information and 
research, provide grants to State water resource agencies, and create 
hydrologic models and databases for better decision support. The USGS 
budget also includes $3.9 million for drought science and $4.0 million 
to develop methods to assess regional and national water use trends 
during drought.
                  central utah project completion act
    The Central Utah Project Completion Act, or CUPCA, Office is a 
Department of the Interior program that reports directly to the Office 
of Water and Science. The fiscal year 2017 Budget proposes $5.6 
million, a reduction of $4.4 million from 2016 enacted, and includes 
$1.3 million to be transferred to the Utah Reclamation Mitigation and 
Conservation Commission. The 2017 reduction in construction funding is 
the result of difficult choices necessitated by the constrained fiscal 
environment. The Budget provides funding through the CUPCA office to 
continue the partnership with the Central Utah Water Conservancy 
District in completing the Spanish Fork Canyon-Provo Reservoir Pipeline 
(Northern Pipeline) of the Utah Lake System delivering 30,000 acre-feet 
of water to Salt Lake County; required program oversight activities; 
and endangered species recovery program implementation.
                               conclusion
    Thank you for the opportunity to testify on the President's 2017 
budget request for the Bureau of Reclamation and CUPCA. This budget is 
responsible, and proposes to maintain core capabilities with targeted 
investments to advance water conservation and the stewardship of water 
resources. I thank you again for your continued support of our mission. 
I look forward to answering questions about this budget. This concludes 
my statement.

    Senator Alexander. As I said, we are here today to review 
the President's fiscal year 2017 budget request for the Corps 
of Engineers and the Bureau of Reclamation, and I am going to 
focus my questions on three main areas. Number one, making 
investments in our Nation's water infrastructure a priority. We 
have made some real progress there in the last few years. 
Properly maintaining our inland waterway system. We have also 
made progress there. And deepening and widening our coastal 
harbors. We have made progress there, and I would like to keep 
making that progress.
    Number one, in my opinion we should be spending more, not 
less, on our Nation's water infrastructure. Last year, Congress 
made record investments in our water infrastructure by 
providing nearly $6 billion to the Corps of Engineers, the 
largest amount of funding for the Corps in a regular 
appropriations bill. Instead of building on that investment, 
however, the President's budget request this year proposes to 
cut funding for the Corps of Engineers to $4.620 billion, which 
is $1.4 billion, or a 23 percent, cut below fiscal year 2016.
    This is an enormous step backwards. In fact, if we simply 
approve the President's request, the Corps of Engineers would 
receive less than what Congress appropriated in fiscal year 
2006, setting us back more than a decade. And if we look at the 
condition of the locks and dams that the Corps operates across 
the country, for example, we should be able to see exactly why 
these investments are needed.
    The National Academy of Sciences in 2011 said that the 
Corps has 138 locks in operation that are over 50 years old, 
and that the average age of our locks is 58 years. These locks 
are critically important to jobs. They ought to be among our 
highest priorities in Federal spending and support. Using locks 
is the only way for inland waterway shippers to move things 
like grain, steel, fertilizer, and coal up and down rivers. And 
having to unexpectedly shut them down for extended periods of 
time could be catastrophic for agriculture and other 
commodities that rely on them to get their goods to the market.
    Yet as these facilities age, major upgrades, maintenance, 
sometimes replacement is required, so I think it is fair to ask 
why would the President cut funding for the Corps of Engineers 
at a time when more investment is needed? I believe President 
Obama should make funding our Nation's waterways a priority, 
but this year's budget request certainly does not reflect that, 
and I am going to ask our witnesses why that is the case.

              PROPERLY FUNDING OUR INLAND WATERWAY SYSTEM

    The President's budget request proposes significant cuts to 
our 12,000-mile inland waterway system. Critical projects, such 
as replacing Chickamauga Lock in Tennessee, have been piling up 
for years due to a lack of funding, and many of us in Congress 
have recognized that we needed to take steps to increase 
funding for the Corps of Engineers to address this backlog.
    First, Congress passed a law that reduced the amount of 
money that comes from the Inland Waterways Trust Fund to 
replace Olmsted Lock, a project in Illinois and Kentucky that 
was soaking up almost all the money that is available for 
inland waterway projects. Second, Congress worked with the 
commercial waterways industry to establish a priority list for 
projects that needed to be funded on which Chickamauga ranks 
near the top in fourth place.
    And third, 2 years ago, working together in a bipartisan 
way, we increased the user fee that commercial barge owners 
asked to pay in order to provide more money to replace locks 
and dams across the country, including Chickamauga Lock. These 
user fees are deposited into the Inland Waterways Trust Fund. 
These steps increased the amount of funding that was available 
for inland waterway projects from about $85 million--at least 
the amount of money from the trust funds that was available 
from $85 million in 2014 to now $106 million this year.
    Overall, these changes permitted us to spend over $400 
million on our locks and inland waterways when they were 
matched with funds from the General Treasury. Yet the 
President's budget request only proposes to spend $34 million 
instead of $106 million from the Inland Waterways Trust Fund, 
leaving about 75 percent of the available funds unspent. That 
means, in effect, that we would be collecting taxes from 
commercial barges to go through the locks in order to improve 
the locks, and then we would be keeping the money, putting it 
in the bank, and not spending it for the intended--for the 
intended reason.
    The budget request also proposes to fund a single project, 
Olmsted Lock, and eliminates funding for three other projects 
that received funding last year, Monongahela Kentucky Locks and 
Chickamauga Lock. Replacing Chickamauga Lock is important to 
all of Tennessee, and if Chickamauga Lock closes, it will throw 
150,000 more trucks onto I-75, yet the Administration continues 
to not include it in the budget. I have worked with Secretary 
Darcy and General Bostick, and I thank them for this, over the 
past few years with the money that we have appropriated here in 
the Congress. And I deeply appreciate the fact that we found a 
way to restart construction on Chickamauga Lock, which has now 
been funded for two consecutive years.
    But this budget proposal is a huge step backwards in this 
area, and I will be asking witnesses today why the 
Administration has not proposed to spend all the funds that 
have been collected, especially since commercial barge owners 
asked Congress to increase user fees they pay to improve our 
inland waterway infrastructure. We hear about unhappy Americans 
today in this election season. I would think one reason they 
would be unhappy if we raise their taxes at their request to 
improve the locks, and then took the money and did not spend it 
for the reason that we said we were raising the taxes.

               DEEPENING AND WIDENING OUR COASTAL HARBORS

    The budget request also fails to make critical investments 
in our Nation's harbors. To maintain our economic 
competitiveness, our harbors need to be able to accept the 
larger ships that are expected to come through the Panama 
Canal. Significant work and funding is necessary to deepen and 
widen our coastal harbors to accommodate these bigger ships, 
yet the Administration's budget proposes major cuts for this 
program as well.
    To ensure that these critical investments are made to our 
harbors, Congress enacted spending targets for the Harbor 
Maintenance Trust Fund in the 2014 Water Resources Reform and 
Development Act. The target for fiscal year 2017 is about $1.18 
billion, yet the Administration only proposes to spend $986 
million, a shortfall of $194 million.
    Now, we are talking about harbors that need work badly--
Mobile, Charleston, Savannah, New York, Jacksonville. These are 
important to the future of our country. For 2 years, we have in 
Congress done what we said we would do and matched our targets 
for these critical investments. Yet the Administration would 
knock us back by about $200 million this year. So I will ask 
our witnesses how they plan to make these important upgrades to 
our harbors without requesting sufficient resources to do it.

                         BUREAU OF RECLAMATION

    I would also like to recognize our witnesses from the 
Department of Interior and Bureau of Reclamation. The Bureau of 
Reclamation delivers water to one of five farmers in the West, 
irrigating more than 10 million acres of some of the most 
productive agricultural land in the country. We have a farmer 
from the West on our committee. My guess is that he will 
probably have some questions in this area. Although Reclamation 
does not manage water resources in Tennessee, I know of its 
deep importance to Senator Feinstein and other Senators on this 
subcommittee, and we look forward to hearing your testimony.
    Now, Senator Feinstein is not here, and what I think we 
will do is, Senator Tester, because of the votes today, what 
we--have you voted already? So what we decided to do was to go 
ahead and try to make the hearing a movable feast here, and 
they are going to submit their questions for the record, and 
Senators will have a chance to ask questions as they come in. 
If Senator Feinstein arrives, she will make her opening 
statement and ask her questions. If she does not before I 
leave, then I will turn to you and let you--if I may do that, 
and let you take questions.

                            INLAND WATERWAYS

    Let me start with a few questions, and then I will go--then 
I will go vote. Ms. Darcy, we worked well together to improve 
funding for inland waterways, but this budget is a big 
disappointment. Can you explain why the Corps' proposed budget 
does not seem to reflect the President's statements that we 
should be investing more in our Nation's infrastructure?
    Ms. Darcy. Senator Alexander, given the fiscal realities 
that we are facing, the President's overall budget for the Army 
Civil Works Program is what is affordable at this time given 
all the other competing requirements for the budget, including 
even deficit reduction. So at this time, it is what is 
affordable for us to be able to move forward with inland 
waterways as well as others in the overall President's budget.
    Senator Alexander. But we collected money from the 
commercial users of the locks. I mean, it is one of those 
unusual circumstances where the barge owners came and said 
would you please raise our taxes and use those taxes to improve 
the locks and the waterways. And so, we have done that, and you 
cooperated with that last year very well, and that permitted us 
to match the user fee money with appropriations and have more 
than $400 million.
    Yet this year if we take the President's budget, we would 
only have about $225 million, and we would be leaving $72 
million in taxes that we collected unspent. What should I say 
to those commercial barge owners who paid extra taxes so we 
would use it to improve the locks when we not use it?
    Ms. Darcy. Senator, as you know, with any funding coming 
out of the Inland Waterways Trust Fund, which is collected from 
the taxes, there has to be a match from the General Treasury 
from our budget, a 50/50 match for everything within the Inland 
Waterways Trust Fund. In the 2017 budget, the President funded 
Olmsted Lock and Dam at $33.5 million out of the Trust Fund, 
because there was a change made in the law year before last 
that the cost share for Olmsted would not be 50/50. It would be 
15 percent from the Trust Fund and 85 percent from the General 
Treasury.
    In order to meet that match, the remaining money in the 
Trust Fund could not be matched for the other projects. In 
2017, we are funding Olmsted Lock's capability, and then in the 
coming years, as you say, there is an unexpended balance in the 
Trust Fund. I think it will be $106 million.
    But over time, when we are buying down and completing 
Olmsted, which we expect to have completed in 2018, we will be 
able to free up other monies and match them with the Trust Fund 
in the out-years for other projects on the capital strategies 
list for inland waterways.
    Senator Alexander. Let me stop my questioning just for a 
moment. Senator Cochran, have you already voted?
    Senator Cochran. Yes and no.
    Senator Alexander. So you have to go over and vote?
    We have got about three minutes left I think in the voting. 
Would you like to make your opening statement before we go 
vote?
    Senator Cochran. I have to go vote.
    Senator Alexander. Okay. Well then, why don't we do this. 
Why don't you and I go vote, and then we will come back, and 
then I will recognize you. And, Senator Tester, would you 
assume control of the committee here?
    Senator Tester. That is a dangerous thing.
    Senator Alexander. I know, but I trust you.
    Senator Tester. I will do it.
    Senator Alexander. And when Senator Feinstein comes, if you 
could hand over the gavel to her?
    Senator Tester. I would be more than happy to do that. I 
will hold the fort down while you are gone doing your job.
    Senator Alexander. Thank you.
    Senator Tester [presiding]. Thank you. Thank you all for 
being here. I appreciate your work. And thank you, Mr. 
Chairman, for the flexibility.

                          RURAL WATER PROJECTS

    I am going to be starting with you, Commissioner Lopez. I 
believe we have got a half a dozen major rural water projects 
that are in progress, that are being constructed. I think the 
request this year is $19.5 million for construction on those 
six projects. I think it is probably north of $1 and a half 
billion if we are going to complete them all right now, and 
that might be pretty conservative, quite frankly.
    Montana has two of them that are pushing between $250 and 
$300 million each, give or take a few million dollars, and the 
request is for $19.5 million. Now in past years we plussed that 
account up, I think $47 million last year and $31 million the 
year before that. I guess I do not know how the Department is 
doing its budget, but is it--are we coming in at such a low 
number just assuming we are going to bump it up, and then you 
can look fiscally conservative, and we do not look so fiscally 
conservative? What is the thought process behind that, because 
$19.5 million is not even close to keeping up with the rate of 
inflation.
    Mr. Lopez. Good afternoon, Senator, and thank you for your 
question. My answer is very similar to Secretary Darcy's 
earlier remarks, working within the fiscal constraints that we 
are. Much of our infrastructure is quite old, 50 to 100 years 
old. So the vast majority of our funds go towards the 
continuing O&M and upkeep of that existing infrastructure. We 
try and maximize the amount that remains for this construction 
of new projects. Unfortunately, it is a very small remainder.
    Senator Tester. Yeah, I would guess. And one of the 
problems is that, you know, we are probably--I hope we plus 
this up again. But if you came asking for a few more bucks, we 
might be able to get more than just what we are going to plus 
it up by, because, I mean, the need here is for $100 million, 
not $19.5 million, and I think you agree with that. It could 
easily be used when you get these water projects done, move 
onto the next piece of infrastructure, and be done with it. Is 
there a long-term plan as far as--or a short-term plan--I do 
not care, either one--within the Agency to complete these 
projects?
    Mr. Lopez. Within the current budget constraints, we are 
doing what we can. We do thank Congress for the plus up. It 
certainly has helped us get moving along, but it has been 
inadequate.
    Senator Tester. So what you are saying is that as long as 
we are under these budget constraints, they will continue to--
these projects will continue to flounder for dollars.
    Mr. Lopez. Senator, unfortunately we have to maintain our 
existing infrastructure and make sure that that continues to 
function.
    Senator Tester. Okay. Well, there was a proposal out there 
that my predecessor, Max Baucus, I believe, put forth about 
taking a funding stream out of the Reclamation Fund. Is that 
something that you think is appropriate? Is that something you 
would support?
    Mr. Lopez. Senator, obviously I would have to coordinate 
with the Administration as to an Administration position. 
However, I think your idea was the original intent of that 
Reclamation Fund----
    Senator Tester. Yes, it is.
    Mr. Lopez [continuing]. To plow back into investment and 
infrastructure. It seems like that would be a wise use of some 
of that money.
    Senator Tester. I will take that as an endorsement. Thank 
you.
    Mr. Lopez. I think it was.

                            IRRIGATION WATER

    Senator Tester. Assistant Secretary Darcy, my guess is at 
this point in time in your life, you would like to see the term 
``intake dam'' go away. It has been--I am going to tell you 
from my perspective it has been--I do not know if we would go 
as far as calling it a nightmare, but it has not gone smoothly, 
let us just put it that way. There is active litigation 
currently on this project. I do not want you to get into those 
details.
    But could you comment on what you are doing to make sure 
that the irrigators have access to irrigation water that they 
would normally get from intake? I think it is about 52,000 
acres.
    Ms. Darcy. We are trying to maintain existing operations. 
However, as you know, building the intake structure is 
currently under litigation, and we are forbidden from going 
forward with construction. But we have let a construction 
contract, so we would be ready to go if and when the litigation 
is resolved.
    Senator Tester. So do you anticipate that litigation is 
going to be solved by this month?
    Ms. Darcy. I would not say this month, Senator.
    Senator Tester. Oh, okay.
    Ms. Darcy. I would like to say this fall.
    Senator Tester. Okay. Well, that is instructive. Here is 
the problem. Are these folks going to have water this season? I 
do not know what they are planning, but they could be putting 
in the ground at the end of this month, like I say, depending 
on what the crop is. It could be in April. It could be in May. 
It could be in June. That is long before fall. Are they going 
to have water this year?
    Ms. Darcy. I would have to say I do not know.
    Senator Tester. Whoa.
    Ms. Darcy. General Bostick? I do not know.
    Senator Tester. That is not the right answer.
    Ms. Darcy. I know.
    Senator Tester. Can somebody else shed some light on it?
    General Bostick. A lot of our effort to move forward is 
going to depend on the completion of the EIS, and that EIS is 
not going to be completed until the fall. But once that is 
completed, then we can move forward with the construction.
    Senator Tester. I gotcha.
    General Bostick. Beyond that, it would be difficult for us 
to commit. I know the water is needed earlier than that, but it 
would be difficult to do without the court ruling to move 
forward.
    Senator Tester. So by fall, just so you know, I mean, you 
guys--I hope you know this. By fall, the growing season is 
over. So is there anything we can do? Talk to me, please.
    General Bostick. I think we can continue to work to 
accelerate it as much as we can.
    Senator Tester. So that you know, I do not know what crop 
insurance does in cases like this for these guys. I do not know 
if they can easily convert back to a dry land system. I doubt 
it. I do not know if Mother Nature will smile upon them this 
year so they will not need as much water. But we could--without 
irrigation water, we really--I mean, these guys could be--
literally lose the farm. And I do not know their operations, 
but I do know that if it was my operation and I was counting on 
irrigated yield to pay my bills and I got dry land yield, it 
would be very difficult to maintain that operation. So----
    Mr. Lopez. Senator, if I may.
    Senator Tester. Sure, go ahead.
    Mr. Lopez. If I may address that just a little bit. We are 
working with the Lower Yellowstone Board of Control to seek an 
extension of a permit that would allow the continued rock 
piling of that diversion weir to try and get water this season. 
Obviously it is not certain that we will be totally successful, 
but we are going to do everything that we can to make sure that 
the farmers get some water.
    Senator Tester. You know what. Thank you. I mean, that is 
all I can ask for, you do everything you can do to make sure 
those folks get their water, and they will get their water. I 
appreciate that.
    I feel bad not to--not having more questions for you 
because I have got time, and usually this never happens, okay.

                   WATER INFRASTRUCTURE IMPROVEMENTS

    I guess what I will say is that I appreciate what you are 
doing, and I do appreciate the work everybody at this table and 
their priorities for the fiscal year. I think the issue when it 
comes to infrastructure is it is expensive, and it is needed. 
You talked about 50 to 100, and probably east of Mississippi it 
is 150 years old some of that water infrastructure. And it is 
in dire need of rebuild or replace.
    And in some cases in Montana it is in dire need of just 
getting water in places that do not have water. It is 
critically important if we are going to have any kind of 
economy. And so, hopefully through your work, and if you 
continue to lay out the case and be honest with Congress about 
what the needs are and what your capacity is under the current 
budget restraints, we will get enough votes in this outfit to 
try to get some solid infrastructure improvements around this 
country. It is something that my parents' generation got. 
Unfortunately my generation does not, at least the ones that 
serve here in Washington, DC.
    So thank you for your work, whether it is in recreation, or 
flood protection, or hydropower production, or irrigation for 
agriculture, or drinking water. I certainly appreciate what you 
do.
    With that, I guess if I was in the military, I would say 
``at ease, smoke them if you got them.'' But we are in a 
building that you do not do that in, and I will wait for 
Senator Feinstein's arrival, and we will go from there.
    Okay. We will recess until the Chair, or Vice Chair, or a 
member of this Committee shows, and then I can go vote. Thank 
you all.
    [Recess.]
    Senator Alexander [presiding]. The committee hearing will 
resume. Thanks to the witnesses. I understand we exhausted 
Senator Tester.
    He missed his opportunity of a lifetime, but he appreciated 
the chance to question you. I will proceed with some of my 
questions until another Senator arrives, particularly Senator 
Feinstein, Senator Cochran I know, and we will talk a little 
bit. And I will defer to them whenever they come or as other 
Senators come. We have three more votes, but still we should be 
able to give Senators an opportunity to have a good discussion.

                            CHICKAMAUGA LOCK

    General Bostick, I want to go back Chickamauga Lock on 
which I have worked with you before. I generally do appreciate 
the work that you and Secretary Darcy have done in the past 2 
years to restart Chickamauga Lock. I know you have looked at it 
carefully. You have stayed within your--within the established 
priorities within your Department. But you had sufficient funds 
to spend $3 million in 2015 of unallocated money, and then this 
past year the funding that Congress provided gave sufficient 
funds to do what you needed to do with the first three 
priorities on that priority list and left $29 million for work 
on the fiscal year 2016 work plan for Chickamauga Lock.
    I am perplexed about why the Corps would want to restart a 
project and then not propose to fund it until it is finished. 
So let me ask you this. How much funding could Chickamauga Lock 
use during fiscal year 2017?
    General Bostick. Senator, you are asking about the 
capabilities, and I thought I would first talk about how we 
look at the capability on a project.
    Senator Alexander. That would be fine.
    General Bostick. When we look at the civil works budget, it 
is a performance-based budget as we look at our projects. We 
look at each project based on what we can obligate each year, 
and that would be what we call the capability. It is also 
important to understand that when we look at capability, we 
identify the capability for each project without regard to the 
amount of money that we might have for the whole civil works 
budget. So if you added the capability of every project, it 
would obviously be more than the capability that we could 
execute in a given year.
    Given that, $37 million would be the capability of Chick 
Lock in fiscal year 2017.
    Senator Alexander. So, well, thank you for such a precise 
answer. So if you sufficiently funded the first three 
priorities on your list, then the question would be whether you 
had $37 million for Chickamauga Lock, which is fourth. Is that 
also correct?
    General Bostick. If we sufficiently funded the first three 
projects, would we have----
    Senator Alexander. No. I guess the way you would be looking 
at it. Let us go back to this year. I think what you did this 
year, you looked at the first three priorities on your capital 
list and determined that you had a sufficient amount of money. 
What would the capability be for each of those.
    General Bostick. Correct.
    Senator Alexander. You did that, and you had $29 million 
left, and you spent that on Chickamauga Lock. Is that basically 
right?
    Ms. Darcy. Yes.
    General Bostick. The $29 million, correct. That was out of 
the work plan.
    Senator Alexander. So in the next year it would be--$37 
million would be the amount you could spend if you had it 
available.
    General Bostick. $37 would be what we could obligate in 
fiscal year 2017.
    Senator Alexander. Thank you for your answer. I am now 
going to call on Senator Feinstein for her opening statement. I 
know that Senator Cochran, the committee's chairman is coming, 
hoping to--he was here earlier, hoping to make a statement. And 
we will continue until every Senator has a chance to do that, 
and we will go back and forth to voting. Senator Feinstein.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thank you very much, Mr. Chairman. And, 
first of all, let me give my apologies to you and to our 
witnesses as well as to the people that were here. As you know, 
I had an amendment on the floor and spoke on it, and at least 
am pleased that it passed unanimously. So that is the good news 
part of this.
    I want to welcome our witnesses. I want to thank you for 
your testimony today. And, General Bostick, I understand you 
are retiring this year, so I want to extend my gratitude for 
your service to this country. It is very much appreciated.
    General Bostick. Thank you.
    Senator Feinstein. You have served with distinction within 
the Army, both at home and abroad, and we are very proud of 
you. So thank you. And you have done work on behalf of 
California, which I thank you for.
    Turning the President's 2017 budget request, Mr. Chairman, 
I have to say I am disappointed in the proposals from both 
agencies represented here today. A 23 percent drop in the 
Corps' budget and a 13 percent drop in Reclamation's budget is 
simply unacceptable when one considers all of the water 
resource needs our Nation faces. The work your agencies do to 
provide tangible benefits to more people on a daily basis than 
perhaps anything else funded in our bill.
    You are responsible for providing drinking water, water to 
produce food. You are tasked with protecting lives, homes, 
businesses from floods. You maintain navigation channels and 
ports. You restore the ecosystem to help combat climate change. 
So it is disappointing that every year we go through the same 
exercise of examining an Army Corps budget that has been cut by 
over $1 billion from the previous year's enactment level, and 
that is not your doing. It is the executive branch's doing.
    It seems to me your job is already difficult enough, and I 
am not pleased to have to play these games with the 
Administration for yet another year. So I hope we can come to 
some agreement on numbers that allow you to do the job well.
    I am equally disappointed with Reclamation's proposed 
budget, which is a 13 percent decrease from fiscal year 2016. 
The subcommittee has undertaken herculean efforts to provide 
$150 million more than was requested over the last 2 years to 
address the drought facing the West. And so, once again the 
Administration did not propose to continue that funding. That 
is $150 million that we put in that they did not continue, and 
indeed did not request any additional funding for the drought. 
That, as a Californian, is really unacceptable.
    My constituents are also the President's constituents, and 
I am really frustrated that the Administration seems unwilling 
to help me do something about this drought. One El Nino year 
alone will not be enough to end this drought, and Californians 
are really hurting. It should matter.
    It is a huge State, 40-plus million people. Sixty-nine 
communities in our State have significant water supplies and 
water quality issues. Our economy lost $42.7 billion from the 
drought last year. One million acres of California farmland was 
fallowed in 2015. The drought has led to 35,000 permanent jobs 
lost. Land subsidence from pumping too much groundwater has 
caused large areas of the San Joaquin Valley to sink by as much 
as two inches per month. As a result, bridges, aqueducts, and 
roads have already begun to crack.
    Fifty million large trees are dead or likely will die. 
Another--and get this number--888 million trees experienced 
loss of canopy cover since 2011. And I said to my staff, 
Commissioner, this cannot be right, and they said, oh, yes, we 
have checked it, it is.
    There are two themes I want to highlight today. The first 
is data versus intuition, and the second is win-win scenarios. 
Commissioner Lopez, this subcommittee has provided the Bureau 
with extraordinary resources over the past 2 years to provide 
more water to people in the West. Yet I continue to hear that 
water pumping decisions are still being based on intuition of 
when protected fish might be near the pumps rather than when we 
know they are actually present.
    For example, Interior may reduce pumping if even one smelt 
this size is found as far away as 17 miles from the pumps near 
a monitoring station called Prisoner's Point. But outside, 
biologists and scientists believe that Reclamation is reducing 
pumping prematurely. These experts believe that the Agencies 
could continue with higher pumping levels, even if smelt are 
found at a monitoring station that is only 12 miles from the 
pumps. Why? Because they can still move back.
    So we need to know who is right, and that is why I believe, 
and what we have proposed, is daily boat monitoring in turbid 
waters because that water is critical to making an informed 
decision and increasing the Agencies' operational flexibility. 
Reclamation has been given significant funds to make more data 
driven decisions grounded in the latest science, and so I hope 
you will do so.
    Secretary Darcy, while water supply is not your primary 
mission, I believe that water supply can be achieved also 
during the course of the Corps' traditional work on flood 
protection, navigation, and ecosystem restoration. I believe 
there are numerous opportunities for the Corps to find these 
win-win scenarios, and you have done a good job, and I just 
want to encourage you to look for doing that.
    For example, seismic retrofits could be coupled with dam 
raises, and we have that in one proposal of such in the San 
Joaquin Valley. Better weather forecasting resulting in less 
water being unnecessarily released from damns. I met with the 
Army Corps head from Sacramento yesterday about Folsom Dam. 
Folsom Dam is just 60 percent filled, and yet they are 
releasing water because of the possibility of rain, which could 
possibly produce flooding.
    Now, I do not know if 60 percent is the right level to 
begin that--to do that or not, but I really think in view of 
the drought we ought to take a look at that. And ecosystem 
restoration projects can provide for additional groundwater 
recharge as well.
    So, Mr. Chairman, let me say one thing. We have worked well 
together, and I have so appreciated your leadership over these 
many years. But this drought is the hardest thing I have ever 
done in my 23 years in the Senate. And I really want to make 
sure that the two agencies testifying today are working hand-
in-hand with each other, with other Federal agencies, and with 
State and local partners. We are the most populous State in the 
Union, a significant source of our Nation's food, at least 50 
percent. That means that drought is a problem for the whole 
Government and will require a whole of Government solution.
    So, Mr. Chairman, what I am saying today is I look forward 
to working with you. You have always been a great one to work 
with, and I really appreciate it. And I hope that we will be 
able to reallocate some funds to solve some of these big 
problems. So thank you very much.
    Senator Alexander. Thank you, Senator Feinstein. We have 
had an excellent working relationship on this committee and 
with the witnesses. For the information of Senators, what we 
decided to do today, we dispensed with their testimony. That 
has been submitted to the record. We dispensed with opening 
statements except for the chair and the ranking member. And 
because of the votes we are giving Senators an opportunity to 
take their five minutes in terms of questions or statements in 
order.
    And so, Senator Feinstein, if I may suggest, I am going to 
ask you to chair for the next few minutes, and I will go take 
the--I will vote early on vote three, and then I can get back 
here I think in time for you to go.
    Senator Feinstein. Good.
    Senator Alexander. And after you are through, if Senator 
Cochran comes back, he would be next. And if he is not, Senator 
Murkowski would.
    Senator Feinstein. Okay.
    Senator Alexander. So if you could please do your questions 
and then go to the next Republican member, I will be back by 
that time.

                        WATER PUMPING DECISIONS

    Senator Feinstein [presiding]. Thank you very much, Mr. 
Chairman.
    My main question is on delta operations, and I am concerned 
that Reclamation has pumped less water in 2016 during this El 
Nino year than it did in 2015 when California was in extreme 
drought. Flows were as high as 50,000 CFS in the Sacramento 
River, yet the Agencies reduced pumping to the low end of the 
biological opinions because of one smelt.
    I continue to hear that water pumping decisions are still 
being based on when protected fish might be near the pumps 
rather than when we know they actually are present. For 
example, Interior may reduce pumping even if one smelt is found 
as far as 17 miles away, as I have said, at Prisoner's Point. 
And I mentioned what outside biologists and scientists believe. 
I will not go into that again.
    So here is the question. What are you doing to test whether 
or not smelt identified past the Prisoner's Point monitoring 
station can still survive and make their way back out to the 
central delta.
    Mr. Lopez. Senator, first of all, let me start by saying 
that I understand your frustration and that of the water users. 
We are equally frustrated. Having said that, I need to answer 
this by talking a little bit about what I understand the fish 
agencies are relying on.
    And basically what they are concerned about is that once 
fish get to that point, Prisoner's Point and south of there, 
they are essentially entrained in the system. If they get into 
that area, they are not going to survive, nor are they going to 
spawn.
    Senator Feinstein. Excuse me. As long as we concur that 
Prisoner's Point is 17 miles from the pumps, right? That is 
all.
    Mr. Lopez. That is correct.
    Senator Feinstein. Please continue.
    Mr. Lopez. So we operate the pumps under the biological 
opinions, and the Fish and Wildlife Service regulate the 
conditions of the biological opinion of the smelt. They have a 
Smelt Working Group that is, in essence, the best minds on the 
issues of the smelt and its survivability.
    They are of the opinion that once smelt get to that point 
around Prisoner's Point and points south, if the flow into the 
Old and Middle River is reversed, the smelt essentially moves 
on towards the pumps, they become entrained there, and they 
will not survive. So they are concerned about smelt even at a 
very long distance away from the pumps.
    In fact, what has happened in recent timeframes of high 
flows, as you have mentioned, the Smelt Working Group has 
recommended even lower pumping rates than what we have done. 
But David Murillo, our regional director of the Mid-Pacific, 
whom you know well, he and the fish agencies have a very good 
working relationship. They have agreed to essentially try 
something that is beyond what has been recommended, and that is 
what they have been doing.
    One of the reasons that they are trying to prevent the 
entrainment is that we had an instance in the winter of 2012-
2013 where the smelt did get entrained in that area. Once they 
got entrained, they got pulled into the pumps and we reached 
the take limit, and at that point we had to re-consult, and 
then we were even further constrained on pumping.
    Senator Feinstein. Let me ask you this question. Would you 
be willing to sit down with those biologists and agencies that 
believe that in the distance from 17 miles away and 12 miles 
away that those fish can still return, that they will not be 
entrained, would you at least sit down with them and listen?
    Mr. Lopez. Senator, absolutely, I would.
    Senator Feinstein. Okay. I will set it up.
    Mr. Lopez. However, I also want to mention that the entity 
that has to be convinced is the Fish and Wildlife Service and 
their biologists. They, in essence, regulate what we do.
    Senator Feinstein. We will include them, too.
    Mr. Lopez. Yes.
    Senator Feinstein. But, look, I do not intend to quit, so I 
am going to be at this, and there are so many conflicting 
opinions. Maybe if we get them in one room and listen to them, 
it might be profitable. So I very much appreciate that.
    Senator Murkowski, welcome. You have a heavy load today I 
know.

                               KING COVE

    Senator Murkowski. We are all busy, and I apologize. We are 
all kind of jumping up and down like jack-in-the-boxes here to 
go vote because this is so important. I have what I hope will 
be three very quick questions.
    The first one is relating to King Cove. Senator Feinstein 
indicates she is not giving up. I am not ever giving up on King 
Cove and getting my 10-mile--the people of King Cove a 10-mile, 
one-lane gravel non-commercial use road.
    I am told, because I had the Secretary of Interior before 
me today in Interior Appropriations Subcommittee and last week 
in Energy, that the study that she asked the Corps to do about 
alternatives for King Cove was done by the Corps. When I asked 
her if she could make that public, she said she did not know if 
she could. She was going to have to check with the Corps. And I 
said, well, conveniently, I have got the Corps in front of me 
this afternoon, so I will ask if we will be able to get a copy 
of that report that was requested by the Secretary.
    Ms. Darcy. Senator, I am----
    Senator Feinstein. Excuse me. Ms. Darcy, if you could wait. 
I will go down and vote, and you just continue on. Is that 
agreeable, Senator?
    Senator Murkowski. Thank you. Thank you.
    Senator Feinstein. Thank you.
    Senator Murkowski [presiding]. Thank you, Madam Chair.
    Ms. Darcy. Senator, in response to your question, we did a 
report at the request at the Department of Interior for the 
non-road alternatives. And I will personally ask the Secretary 
of the Interior if we can make it public.
    Senator Murkowski. I would appreciate that. I think the 
people of King Cove would appreciate that, so I will look 
forward to that.

                         ARCTIC DEEP PORT STUDY

    Let me ask you about the Port of Nome, and more 
specifically to a deepwater port in the Arctic. As you know, I 
have been a long proponent of making sure that we have 
infrastructure in the Arctic as we see developments taking 
place up north, and the increased traffic in the Bering, the 
Beaufort, and the Chukchi.
    Last year, the Corps placed a strategic pause on the 
proposed port in Nome. When the President was up in September, 
he announced the need for a deepwater port that would be north 
of Dutch Harbor. Given the President's support for this, why 
have we not included construction funding going forward in this 
next fiscal year?
    Ms. Darcy. Senator, the Arctic deep port study that you are 
referencing was indeed put on pause last October in conjunction 
with the local sponsor, the State of Alaska. Since that time 
and since the President's visit, we are now going to look at 
further scoping of that study, because it was limited to just 
some economics involving oil and gas. But there are other 
things that we think can be included in this, for instance, 
that the Port of Nome may be considered a port of national 
significance, in addition to the fact that it could possibly 
house the Coast Guard's icebreaker in the future, as well as 
other benefits that could come from that.
    Senator Murkowski. I appreciate the additional scoping, and 
I think that it is important that--life safety reasons. Like 
the socioeconomic benefit that accrues to a community, to a 
region when you have a port that is accessible that can reduce 
the cost of goods that come in, reduce the cost of fuel that 
comes in, just the general cost of living.
    But I do find it just really quite surprising that the 
assessment for a port could have been built upon one project 
without recognition of, again, the expanded role, the 
activities in the region. This is one of those areas where when 
you talk to the people, whether they are in Nome or anywhere 
south of that, they say the Arctic is more than just oil and 
gas exploration.
    It is just more than just shale up north. It is about 
having infrastructure to accommodate a reality, a daunting 
reality that--it is almost as if a new ocean has been 
discovered at the top of the globe. And so, how are we 
preparing for that? You cannot really be in the game, you 
cannot be that Arctic participant unless we have that system of 
ports. So know that we are going to continue to press on this.

                  SECTION 107 SMALL NAVIGATION PROGRAM

    The last thing that I wanted to ask you, and I actually 
have constituents that are waiting to see me from the community 
of St. George on the Pribilof Islands. I had asked about the 
Section 107 Small Navigation Program last year. Many of my 
constituents have thanked me for advocating on behalf of that 
program because it really is a great fit, a great fit for these 
small villages, these small communities that are trying to 
construct a small harbor, break water. But the waiting between 
WRRDA (Water Resources Reform and Development Act) bills has 
been a little bit lengthy, and just these are projects, as you 
and I know, just compete on that national scale.
    And what I would ask from you is just further commitment 
from you, from your staff to continue to work with my office so 
this Section 107 Program can continue to benefit these small 
communities. I know for a fact that the people of St. George 
that are waiting for me as I go to this next vote are going to 
want to know that this type of support is going to continue.
    Ms. Darcy. Yes, the CAP programs are an important part of 
our entire program, and we have three 107 projects now ongoing 
in Alaska. And that program is one that it is for smaller 
projects that do not need the full-blown WRDA authorization, 
and that is why it has been successful, especially in small 
communities like those in Alaska.

                     LIQUEFIED NATURAL GAS EXPORTS

    Senator Murkowski. Well, we will work with you on that. And 
since nobody is back, I will take an opportunity. I was in 
Houston last week at CERAWeek, which is the big oil and gas 
summit really in the country. And a lot of discussion about the 
fact that we had just seen that Wednesday the first shipment of 
LNG leaving Louisiana to head out to Brazil. Obviously exports 
of LNG (liquefied natural gas) are a big deal for me both 
because of the Alaska LNG project and because of the energy 
bill that we are working on that would expedite these 
approvals.

                        SABRINE-NECHES WATERWAY

    The Sabine-Neches Waterway is probably one of the more 
important waterways in the Nation. By all accounts it is poised 
to play a key role in the buildout of LNG exports from the 
United States, specifically Louisiana and Texas. So if you 
could just give us a quick update on the 2014 authorization 
that we need to deepen that waterway.
    Ms. Darcy. You are talking about Sabine-Neches?
    Senator Murkowski. Yes.
    Ms. Darcy. That project currently has a benefit to cost 
ratio that does not compete well for budgeting at a 7 percent 
rate. However, our Galveston district is doing and economic 
update and that economic update I think will be approved in the 
third quarter of this year. So with an uptick in the economics, 
there is a possibility that the benefit-to-cost ratio would be 
improved and make it more competitive for budgeting.
    Senator Murkowski. Do you anticipate that that would, given 
what we expect to see coming out of Louisiana and coming out of 
Texas with LNG exports?
    Ms. Darcy. I think in considering those, since the 4-year 
ban has been lifted and that can happen now, that will change 
the economics.
    Senator Murkowski. And that will be included as part of 
your analysis.
    Ms. Darcy. It will be considered in it, yes.
    Senator Murkowski. Okay. I appreciate that. I am going to 
utilize a little bit of executive authority and call a recess 
for the committee until other members get back so that I do not 
miss this important vote. So we are recessed to the call of the 
chair.
    Senator Alexander [presiding]. Thank you for your 
flexibility. The hearing will come to order. That was the last 
vote, so Senators will be here, and Senator Coons was here 
earlier, so I will call on Senator Coons at this point for his 
five minutes of statements and questions.
    Senator Coons. Thank you very much, Chairman Alexander. 
Thank you both for your forbearance and for your sound and 
solid leadership of this subcommittee and others. Thank you for 
your service and for the opportunity to talk with you today 
about the Army Corps of Engineers.

                        DELAWARE RIVER DREDGING

    I have been particularly pleased with the service of the 
colonel who is charged with the Philadelphia district, 
Lieutenant Colonel Mike Bliss. And I am grateful for your 
continued support for a project that is near and dear to my 
constituents, the Delaware River dredging. I am pleased there 
is another $55 million overall in the work plan to complete the 
project, so I just want to start by saying thank you since I 
know not every opportunity is taken to thank you for budget 
support and for leadership.

                       DELAWARE BEACH PROTECTION

    If I might, Assistant Secretary Darcy, I just want to talk 
about Delaware's beaches. We have several world-class beaches. 
They are a key driver of tourism in our region, and they are 
essential to the economy of southern Delaware. We had a 
significant storm recently that imposed some very hard damage. 
We were grateful for previous investment in beach nourishment 
that protected those beaches, but most of what had been 
provided in recent years was torn away. That has left a lot of 
our coastal communities and their infrastructure exposed. I am 
hopeful that we can work together to find resources.
    The President's budget, to my disappointment, did not 
include funding for Bethany Beach or South Bethany Beach, and 
as the project information reports from the Philadelphia 
district come into your office describing damage to Delaware's 
beaches, I am hopeful that you conclude that the Flood Control 
and Coastal Emergencies Act Funds that remain unspent from 
Sandy could be used for Rehoboth, Bethany, and South Bethany.
    Do you think that is possible or likely, and if not, what 
else do you think we could do to rebuild Delaware's beaches and 
its coastal defenses?
    Ms. Darcy. As you say, Senator, we are in the PIR stage 
which will inform as to what damages were done and what the 
actual cost of those repairs will be.
    As far as using Sandy supplemental funds, I am going to 
have to defer because I believe that those can only be used for 
damages that were incurred from Super Storm Sandy as opposed to 
subsequent storms. That is something we will check into if the 
need for the repairs is unmet.
    Senator Coons. Given just a visual inspection as well as 
detailed reports from local government leaders suggest to 
Delaware's congressional delegation that there will be some 
significant needs here, what funding source do you think is 
most likely relevant or appropriate to take action this year?
    Ms. Darcy. Probably the FCCE account. That is our Flood and 
Coastal Emergencies account, but it would depend on how they 
are evaluated as far as relative to the most recent storm.
    Senator Coons. I will join comments made by other of my 
colleagues earlier in this hearing that it is disappointing 
that the Administration's funding request is insufficient for 
what are the likely needs of the whole country. As a member of 
this subcommittee, I am happy to commit to continuing to 
support needed increased funding that will make it possible for 
you to address the needs of Delaware and many other States.

                           PORT OF WILMINGTON

    Let me also turn to the Port of Wilmington. It is on a 
dredging cycle that really is not sufficient to meet the needs 
of this port. It is a relatively small port, but it is an 
important port for my home State. It silts in about every 6 to 
9 months, and right now it is causing havoc with the number of 
customers at the port. I am hopeful that going forward you will 
consider including funding for two dredging cycles a year. Is 
this something you are familiar with?
    Ms. Darcy. Senator, I am aware that we did provide 2016 O&M 
dredging for this port at $3.845 million, and also in the 
President's 2017 budget request we have $4.355 million for the 
next dredging cycle. So I think an additional dredging cycle is 
what your question is, sir?
    Senator Coons. Yes.
    Ms. Darcy. I believe that currently we are budgeting on a 
single dredging cycle, and that is what I think those numbers 
reflect.

                    DELAWARE RIVER BASIN COMMISSION

    Senator Coons. Well, I will urge you to reconsider, based 
on experience at the port, two dredging cycles a year. Let me 
in my closing moments simply recommend to you again funding for 
the Delaware River Basin Commission. Although there is a 
congressionally approved compact that requires a Federal 
contribution, the Federal contribution has been forthcoming, I 
think, in 19 of the last 20 fiscal years.

                     HARBOR MAINTENANCE TRUST FUND

    I also am an advocate for the Harbor Maintenance Trust 
Fund. You have made some significant, I think, improvements. 
The request is higher. Our funding has improved, but it is 
still 20 percent less this year than what was appropriated 
last. I think it would make a significant different for harbors 
across the country, not just in my home State of Delaware.
    So please note me as an advocate for working to ensure that 
the Harbor Maintenance Trust Fund is put to its appropriate 
purposes, and that we invest to the level we need to in order 
to ensure that our export and import businesses that go through 
our vital ports and harbors are appropriately maintained.
    Ms. Darcy. Yes, sir.
    Senator Coons. Thank you very much.
    Senator Alexander. Senator Udall, I think we have other 
Republican members coming, but since you are here, I will call 
on you. And what we have done is because of the votes, we have 
asked the witnesses to put their statements in the record, 
Senators have put their opening statements in the record, and 
now you have five minutes for statements or questions, whatever 
you would like. Senator Udall.

                    NEW MEXICO RURAL WATER PROJECTS

    Senator Udall. Senator Alexander, Chairman Alexander, thank 
you very much. And I guess I lucked out with not having to 
alternate here.
    I want to thank you both for working with the Albuquerque 
District to fund some important New Mexico projects over the 
last few years. New Mexico often has a tough time in the 
President's budget request, so additional discretionary funds 
that this committee provides and your hard work is really 
critical in my State.
    We have had some good success funding flood control 
projects in Alamogordo, Socorro, the Southwest Valley, and 
others, and I am very relieved that we have continued the New 
Mexico Acacias Program. I hope you know what that is, Honorable 
Jo-Ellen Darcy.
    Ms. Darcy. I visited about 4 years ago.
    Senator Udall. Good. Good. And to support the historic--
these are various, you know, historic irrigation canals that 
also help our local ecosystems and manage water flows.
    Additionally, I am pleased that for 2016, the Corps has 
funded the Rio Grande Environmental Management Program for the 
first time. It will be important to continue that effort which 
will link together stakeholders and watershed information to 
encourage collaboration on water challenges and minimize the 
potential for counterproductive conflicts. And finally, I am 
glad we are making progress on reimbursements under the 
Environmental Management Accounts, specifically for Rio Rancho 
in 2016. We talked about this issue last year, and I wanted to 
thank you for your attention to this issue.
    The Corps signed agreements years ago with a variety of New 
Mexico communities to fund water projects, and we need to close 
these accounts out. So given our recent success--hopefully this 
is an easy question--will you continue to work with this 
committee and stakeholders in New Mexico to advance these kinds 
of projects in a fiscally responsible way if this committee 
continues to provide additional discretionary funding for the 
Corps?
    Ms. Darcy. Yes, Senator.

                      GILA RIVER DIVERSION PROJECT

    Senator Udall. Thank you very much. And now turning to the 
commissioner of Bureau of Reclamation Estevan. Good, solid New 
Mexican is back here. Good to see you again.
    Commissioner Lopez, I want to touch on an issue that is 
very important to me and one I know you are familiar with, the 
proposed Gila River diversion project. The Gila River is the 
crown jewel of the Southwest and one of the last remaining 
free-flowing rivers in the United States. The river provides 
amazing opportunities for recreation, wildlife habitat 
protection, and has unique historic value. And, of course, we 
are also very sympathetic to the water needs of nearby 
communities and the agricultural needs.
    I understand why any proposal that could mean more water 
resources is a discussion worth having, but from everything I 
have seen, this project simply does not add up. My 
understanding is that a diversion has the potential for about 
14,000-acre feet of water, but with significant technical 
challenges, and only in a wet year that will not happen very 
often, with construction costs estimated near a billion dollars 
and would need NEPA approval for disturbing a relatively 
untouched river system. In short, this does not seem like a 
viable or wise project.
    I understand that the environmental review process is the 
next step, and the Bureau of Reclamation along with the New 
Mexico Interstate Stream Commission are joint leads on this. 
What kinds of analyses will be included in your comprehensive 
review process? Will the costs associated with this project be 
fully reviewed in an objective way, because I have said, and 
please go ahead with those, Estevan, and then I will just 
finish with these last couple of questions.
    Mr. Lopez. Good afternoon, Senator. It is good to see you.
    Senator Udall. It is a pleasure. Great to see you.
    Mr. Lopez. And so, to date New Mexico has yet--the New 
Mexico Unit entity has yet--to propose a project, so we have 
not yet begun that process. Once they do, it will be a few 
months before we begin a public scoping process. We would 
develop a full range of alternatives that would be evaluated in 
that process, and we would assure that there is a robust 
analysis that would comport to the Federal principles, 
requirements, and guidelines for water and land related 
resource implementation studies. That was part of the agreement 
that was entered into last November.
    Specifically, you asked what type of studies would be 
looked at. We would intend to look at the impacts on fish and 
wildlife, hydrology, land use, cultural resources, recreation, 
and ecosystems, and, by all means, the economics of any 
proposal that comes forth. We are committed to a robust 
evaluation of this. As you say, the Gila is truly a jewel in 
the Southwest, and it is something that needs to be protected.
    Senator Udall. Thank you. And, Senator Alexander, I will 
submit the rest of my questions to Mr. Lopez for the record. 
But I just want to say that I have seen estimates that range 
from half a billion to $1 billion for construction. I cannot 
see any White House Office of Management and Budget clearing a 
new billion-dollar Federal water supply project with such 
limited potential. So thank you, and I will submit additional 
questions, and look forward to your answers.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Udall.
    Senator Lankford.

                 CORPS OF ENGINEERS DISPOSITION STUDIES

    Senator Lankford. Thank you, Mr. Chairman. Thank you all 
for being here and for the work that goes into this. General 
Bostick, good to see you again. Let me pepper you with 
questions. It is so good to see you. How about that?
    We have talked a couple of times before about the 2014 
water bill that put into it a request to the Corps to say give 
us an inventory that is not needed--this was the quote--``not 
needed for the mission of the Corps of Engineers.'' Obviously 
it is trying to determine if there may be any properties or 
entities that are anywhere within the Corps of Engineers that 
are not needed so that we can spend money on what is essential 
for the Corps.
    How is that study, that assessment going, and when can we 
expect to have that report?
    General Bostick. It is good to see you again, Senator. 
There are a number of activities going that I think are related 
that I wanted to highlight and talk about. And the first is the 
deauthorization report that we had to come back to Congress 
with, $18 billion worth of deauthorizations.
    Senator Lankford. If my memory serves me correctly, about 
$14 billion in that $18 billion request.
    General Bostick. We were able to come up with $14 billion, 
but in coming with that, we had to do an assessment of many of 
our projects, so the assessment is underway. We are not 
complete. We still have a lot of work to do. It is not directly 
tied to the 6002 report, but it is related. The other thing 
that----
    Senator Lankford. So give me a ballpark on timing when that 
assessment might be complete.
    General Bostick. I cannot give you a ballpark time on that. 
What we are trying to do, because we have not started the 6002 
report because we have put all of our focus on trying to get 
the deauthorization report accomplished. We did that, and now 
we are doing the annual deauthorization, and we will be 
finished with that in September of 2016.
    I think combining the two efforts, we will be closer to 
doing an overall assessment. What we have done is completed an 
overall operational assessment of our projects, but we have not 
made an assessment of which ones we should retain, which ones 
we should divest ourselves of, and which ones should be 
repurposed. That is going to be a longer effort.
    Senator Lankford. Sure. Well, that is why we started it 
early because you know my next question on that is the disposal 
process, and once we determine some of the things that might. 
And I say ``might'' because we are not asking you to choose 
those, but at least to start to put together a list of things 
that are not central to the mission of the Corps. Once we have 
that list, we have got to work through the process of how do we 
actually dispose of that.
    Any ideas at this point on disposal authorities that the 
Corps may need once that list is out there?
    General Bostick. Well, you do have authorities under 
Section 216, and rather than waiting until we have the complete 
report finished, we are starting now with disposition on two 
projects, disposition studies on the Kentucky River Lock and 
Dam and the West Pearl Navigation Project. So those disposition 
studies will go on this year.
    Many activities are working in parallel. We are not going 
to wait until the complete report is done, but we are using the 
deauthorization requirement, both the annual and the one time 
report required in WRRDA, and also moving forward with 216 
authorities.
    Senator Lankford. Okay. That will be one of those things we 
will want to talk about at length is if there are additional 
authorities or ways we can help in that process. Obviously if 
we have an area where we are not authorizing or allowing or 
transferring, we do not want it to be more expensive than 
actually maintaining it. We want to actually have an efficiency 
of the process with this so you all do not have to worry about 
that.

            ACCEPTING NON-FEDERAL FUNDING DURING EMERGENCIES

    Let me ask about another question that came up from the 
2014 WRRDA, and that is accepting materials and services from 
non-Federal entities in the case of an emergency situation. 
Obviously this has implications around the country, especially 
in inland waterways and places where we may have an emergency 
situation.
    Congress passed that, and asking for a set of--asking for 
implementation. We were pretty clear to give that authority. I 
am trying to figure out if the Corps has the implementation on 
that, the guidelines for that done at this point. Are those 
guidelines complete?
    General Bostick. Yes, we are finalizing initial 
Implementation Guidance on that. I think where we are finding 
challenges at the local level is we can accept funds on an 
emergency disaster type situation, but we cannot accept funds 
for some of our projects where we have not been able to 
maintain them.
    Senator Lankford. So what about--this is an emergency 
situation just starting with that. What about services? You 
accept services. So if someone had materials, had equipment, 
had personnel, a contractor that was there, and a State or a 
private entity said this is an emergency, we want to be able to 
help with that. Are you all in a position now with these 
guidances to be able to accept those goods or services in the 
time of an emergency?
    General Bostick. If it is related to a disaster, my answer 
would be yes.
    Senator Lankford. Okay. Yeah, all these are contingent on 
an emergency. That was the definition that was on it, which is 
left open of what is an emergency. When I talked to several of 
the folks in the different areas, there seems to be a hesitancy 
in the field and in the regional offices to accept goods or 
services or be able to discuss that even of what the process 
would be in case of an emergency.
    Those folks want to plan contingencies, and what I hear is, 
well, we are studying it. There are not those guidelines in 
place in the field. So I do not know if those guidelines had 
just been released or not, but the individuals that this would 
actually affect cannot plan their contingencies because they do 
not know how to connect to the Corps at this point in case of 
an emergency.
    General Bostick. We will go back and redouble our efforts 
to make sure that the Implementation Guidance that we will put 
out is understood in terms of what they can and cannot accept.
    Senator Lankford. Okay. If there are additional authorities 
that are needed on that, we just need to know because if this 
is going to be an issue of, yes, we technically can, Congress 
gave us permission, but there are liability risks, and who is 
going to pay for what if it breaks. And suddenly we are in a 
position where there is actually not done what Congress said we 
could do, and there is some gap in it, we need to know in that 
process so we can actually resolve this. So can you help us 
with that?
    General Bostick. We will follow up.
    Senator Lankford. Great. Thank you. I yield back, Mr. 
Chairman.
    Senator Alexander. Thank you, Senator Lankford.
    Senator Hoeven.

                       RED RIVER FLOOD PROTECTION

    Senator Hoeven. Thank you, Mr. Chairman. I would like to 
begin by thanking Secretary Darcy, also General Bostick, and I 
see that you brought Colonel Price with you as well. Thank you 
for your help and your commitment to move forward with 
permanent flood protection both in the Minot region as well as 
in the Fargo/Moorhead region in the Red River Valley. It is 
much appreciated and very important for both regions, so I 
would like to thank all of you. I would also like to thank the 
chairman of this committee. I appreciate it very much.
    My first question would be to Secretary Darcy and also to 
General Bostick. And that is in terms of moving forward with 
the Red River permanent flood protection, if you would please 
describe for me how you anticipate approaching the Minnesota 
DNR process.
    Ms. Darcy. In the 2016 work plan when we funded this 
project for $5 million, there was a provision that said that in 
order to work through the current issues with the DNR, that we 
would need to have all of those issues addressed before May of 
this year when the Environmental Impact Statement is due. And 
then I would need to make a determination as to whether those 
conditions were met by July of this year in order for us to be 
able to execute a Project Partnership Agreement by August 30th 
of this year.
    Senator Hoeven. And I would ask both you, Secretary Darcy, 
and General Bostick to address, your thoughts on the DNR 
process, but then also how you are going about addressing 
upstream concerns as well in regard to the project.
    General Bostick. I do not have anything else to add beyond 
what Secretary Darcy talked about on the DNR.
    Senator Hoeven. Okay. And then both of you, just your 
thoughts on, again, working to bring everybody together and 
advancing the project, but also working with upstream 
interests.
    Ms. Darcy. Because this is a two-State project, we always 
have to consider the upstream impacts as well as the 
downstream. In this particular situation, given the alternative 
financing arrangements, we need to be able to work with the 
upstream interests in order to be able to go forward with both 
the upstream portion as well as the downstream portion because 
the downstream portion is the Federal part of the project, and 
the upper portion is what the local sponsor as well as their 
private partners are going to be able to finance.

                         ALTERNATIVE FINANCING

    Senator Hoeven. And if you would, either or both of you 
talk for just a minute about the unique public/private 
financing model, and what you hope to accomplish here, and how 
you see that can provide benefits not only here, but to the 
Corps in general going forward.
    General Bostick. When you look at some of the work that we 
are doing now, just the work that we are currently putting 
money in our overall program, it would cost about $19.7 billion 
of additional funds to finish that work currently in 
construction. And we receive about a billion dollars in 
construction each year so, on average, it is going to take 
about $20 billion or 20 years to finish the work that we are 
currently doing at this rate.
    I think it is very important that we look at alternative 
means of financing where we bring in the private sector, the 
public sector, to see if we can accelerate these projects 
because when you take that long to complete these projects, the 
benefits are not accruing obviously, and the BCRs come down, 
and the people are just unsatisfied. So I think alternative 
financing is something that we must do. This is a first effort 
to move out on them.
    Senator Hoeven. Madam Secretary, did you have anything you 
wanted to add?
    Ms. Darcy. I would concur with General Bostick's comments, 
and the fact that this is one of the first times the Army Corps 
of Engineers has approached a project in this way, it shows 
that we are open to looking at alternative ways of financing 
these projects with limited funding. In this instance because 
there are upstream concerns as well as downstream, we are going 
to take a really close look at all of this. I am going to have 
someone from my staff work with the upstream States in the next 
month to try to make sure that we can get this all agreed to in 
the timeframe that we have.
    Senator Hoeven. Thank you. And also, I want to, I guess, 
again emphasize the creativity that you are showing in both of 
these projects, not only the public/private partnership, but 
also in Minot you are--by providing for a study, you are 
allowing the State and locals to go forward and build flood 
protection while we are working on a--on the Federal portion of 
the project.
    That is the kind of creativity that is not only going to 
save billions of dollars across the country for the Corps and 
for the Federal Government, but it is going to get these 
projects done sooner. So that creativity in the case of the 
Minot region is enabling them to start building using State and 
local funds. And so, I think, you know, just incredibly 
important that you are providing this flexibility, and, again, 
I want to thank you for that.
    And, Mr. Chairman, I do have some more questions. I will 
certainly defer until the next round, but I just wanted you to 
be aware.
    Senator Alexander. Thanks, Senator Hoeven. Just to--we will 
have a second round of questions. Just a comment on that. This 
has been an interesting discussion with me. The leadership of 
the committee has worked with Senator Hoeven and with the Corps 
of Engineers on a new approach toward dealing with this backlog 
of important projects. And it will be interesting to see if 
this significant State and local contribution, when matched 
with the Federal flexibility and Federal dollars, provides a 
way in the future to take that $20 billion figure and move more 
rapidly in it.
    So I appreciate the flexibility that you have shown in your 
leadership of the Corps to work with this committee and with 
Senator Hoeven on that issue. I think taxpayers would be 
pleased with us for seeing how this works, and particularly 
taking a project where there has been such a significant State 
and local investment. It is easy for me to say because North 
Dakota is a long way from Tennessee.
    Let me ask two or three questions here, and then I will go 
to Senator Feinstein, and then we will see if other Senators 
have other questions.

                     HARBOR MAINTENANCE TRUST FUND

    Let me talk about the Harbor Maintenance Trust Fund. This 
is something that--well, a few years ago several of us, 
including Senator Feinstein, reared back and asked our staff 
what would a great country like the United States--what kind of 
harbors do we need, particularly in light of the widening of 
the Panama Canal. We came up with a figure, and Congress passed 
a bill, set a target, and we have met that target for a couple 
of years.
    Now, we are talking about ports like Los Angeles, Long 
Beach, Oakland, Mobile, Savannah, Charleston, Memphis, 
Louisiana, Cleveland Harbor. These are important parts of our 
commerce in this country, and for two straight years this 
committee has been able to meet our goals in terms of deepening 
these harbors so the ships can do their work there and not do 
it in ports in other places in the world.
    Now, we also collect money from the private sector when 
they come into the harbors. So my question, Secretary Darcy, is 
how much money do you expect to collect in fiscal year 2017 in 
the Harbor Maintenance Trust Fund?
    Ms. Darcy. Senator, I believe that the Treasury has made an 
estimate that in 2017 we would be collecting $1.6 billion. I 
think it is down from what Treasury projected in 2016. I think 
it is $1.6 billion.
    Senator Alexander. Okay. How much----
    Ms. Darcy. In collections in 2017.
    Senator Alexander. In collections in 2017 to the Harbor 
Maintenance Trust Fund is the Treasury estimate. How much does 
the budget propose that we spend of that $1.6 or $1.7 billion?
    Ms. Darcy. The President's budget request for the Harbor 
Maintenance Trust Fund is $951 million for fiscal year 2017.
    Senator Alexander. So we are collecting taxes for a 
dedicated purpose at about $1.6 or $1.7 billion to deepen ports 
to improve commerce, but we are just going to keep the money 
and not spend it even though we take it. And as a result of 
those kinds of practices, the Harbor Maintenance Trust Fund 
today has over $9 billion in it, money that was collected from 
ports, from people doing business in the port with the 
expectation that it would be spent to keep the ports in good 
shape and we are just stacking it up in the Federal bank.

                       INLAND WATERWAY TRUST FUND

    We talked a little earlier about the Inland Waterway Trust 
Fund. We do not want that to happen there. We do not have much 
money in the Inland Waterway Trust Fund that is unspent. Am I 
correct about that?
    Ms. Darcy. Currently, I think the unspent balance in the 
Inland Waterway Trust Fund is $106 million for 2017.
    Senator Alexander. The unspent, but we could spend that 
for--I mean, that is yet to be determined how much of that we 
are going to spend, correct?
    Ms. Darcy. Yes, because that would have to be matched with 
other revenues from the budget.
    Senator Alexander. But if we matched it in 2017 as we did 
in the current year, then there would be almost no unspent 
money in the Inland Waterway Trust Fund. Am I correct about 
that?
    Ms. Darcy. If there was a 50 percent match coming from 
General Treasury and coming from the Corps budget to match, 
that is possible.
    Senator Alexander. But on the Harbor Maintenance Trust 
Fund, we already got $9 billion that should have been spent on 
our harbors, yet the President's budget only asks for $986 
million, about $194 million short of the target that Congress 
set for this year. So we are going to continue to build up the 
unspent money in the trust fund. I am very concerned about 
that.

                         NATIONAL FISH HATCHERY

    Let me ask you a different--completely different question. 
TVA, the Bureau of Reclamation, the Corps of Engineers all 
mitigate the loss of fish caused by the dams that they operate. 
This is a general subject that Secretary Darcy and I have 
discussed before, but not a specific one. The Corps of 
Engineers purchases fish from the National Fish Hatchery at 
Dale Hollow and Irwin to restock fish in the Cumberland River 
where there are dams and excellent fishing, by the way. TVA is 
mitigating that loss of dam--loss of fish due to the dams. It 
operates on the Tennessee River.
    So you are already doing what I think you should be doing. 
But my question is, does your budget request sufficiently 
reimburse the Fish and Wildlife Service to ensure our Nation's 
mitigation fish hatcheries can continue to meet the mitigation 
needs?
    Ms. Darcy. Yes, it does, Senator.
    Senator Alexander. Thank you, Secretary Darcy, and I 
greatly appreciate your personal attention to that.
    I am about out of time, so why do I not go to Senator 
Feinstein, and then I see Senator Hoeven, I think, also has 
questions.

                         BOAT TURBIDITY STUDIES

    Senator Feinstein. Thanks very much, Mr. Chairman. Mr. 
Chairman, you and I and certain members in the House of 
Representatives were able to get $100 million in the omnibus 
for drought. That money is still there. The President did not 
ask for the money to be continued in 2017; however, it is there 
for the remainder of the year. And I am wondering, Commissioner 
Lopez, would it be possible to use some of that money to begin 
to do boat turbidity studies in the turbid waters both 12 miles 
and 17 miles from the pumps to determine with some accuracy the 
degree of smelt that are present?
    Mr. Lopez. Senator, I think that we have created a spending 
plan for that money, and we have tried to build in maximum 
flexibility to use that in the way that is going to be deemed 
the most useful. So I think that we can. I think my answer to 
your question is that we can expend some of that money for 
those purposes.
    I have recently seen some correspondence in preparing for 
this hearing that calls into question the utility of that sort 
of thing simply because there are so few smelt that are out 
there. But I can certainly look into that, and I think we do 
have a mechanism by which we could use some of that money for 
that purpose.
    Senator Feinstein. Well, I thank you very much for that. 
Now, we know the smelt gravitate toward turbid waters.
    Mr. Lopez. That is right.
    Senator Feinstein. And so, it seems to me that the 
monitoring should be in the turbid places, and the turbid 
places where decisions are made about operations of the pumps. 
We are in a drought emergency proclaimed by the governor. It 
seems to me that this is an appropriate use of that money, and 
I would like very much to work with you to see that the 
appropriate monitoring gets set up as quickly as possible 
because time is a-wasting. If we have El Nino, it is going to 
be in the next couple of months or this month and maybe through 
March, so this means moving with it. So I am going to get out 
my needle and start poking at you, and I thank you for that 
answer.

                      SHASTA DAM AND LOS VAQUEROS

    I would also like to ask this question, and I go to pages 
407 and 408 of the omnibus. 407 stated that ``The commissioner 
of Reclamation shall complete the feasibility studies,'' and in 
this section on 407 it refers to Shasta Dam. That was completed 
in December of 2015. The next section on 408 refers to sites in 
Los Vaqueros by November 30th, 2016. Will you complete those 
studies?
    Mr. Lopez. Senator, for both Sites and Los Vaqueros, we 
need to work with non-Federal partners to fund even the study 
portions of these. And to date, we do not have those agreements 
in place, further----
    Senator Feinstein. Commissioner, it is has been 9 years. We 
are in our 10th year.
    Mr. Lopez [continuing]. The proponents, the Sites JPA and 
Contra Costa, have both recently--as recent as last week, come 
to us and asked that we actually slow the process down a little 
bit to be more in line with the State's process of the funding 
proposals that will be taken in November of 2017. They want to 
assure that the study we do comports not only with our 
requirements, but whatever requirements the State is going to 
have. And so, we are working with them to try and position----
    Senator Feinstein. Well, let me say something. This is a 
law. It is not ``may complete.'' It is ``shall complete.'' So 
if you would relay to the Sites JPA my concern that this has 
taken too long, and you are now mandated by law to complete 
these studies. Sir, I suggest you do it.

                           SAN LUIS EXPANSION

    There is a third one, and that is the feasibility study 
that has to do with the San Luis expansion, ``shall be 
completed not later than December 31, 2017.'' This is not up to 
the Sites JPA to make these decisions. You have the law.
    Mr. Lopez. Senator, going back to sites, we do have that 
mandate. You are absolutely correct. We recognize that. What we 
do not have is we do not have the funds to do the work that 
is----
    Senator Feinstein. Then I suggest you use some of the 
drought $100 million to get it done.
    Mr. Lopez. We will look into it, Senator.
    Senator Feinstein. But really, sir, you have got one 
California Senator that is going to ride this. We worked hard 
to get these things in that omnibus, and they are there now. 
And it is not ``may,'' it is ``shall.'' And I think--I have met 
with the committee. I think they are doing very good work, but 
they are not the law, and this is the law. So you can quote me, 
and if they have a problem, they can come see me, okay?
    Mr. Lopez. Senator, I will convey that to them.

                        SEISMIC SAFETY PROJECTS

    Senator Feinstein. Thank you. Secretary Darcy, there are 
four critical seismic safety projects, California VA projects: 
L.A., San Francisco, Long Beach, and San Diego. And they will 
be part of this new construction partnership between the Army 
Corps and the VA. And I would like to ensure that they proceed 
as quickly as possible because the seismic risk in California 
is not going down. It is going up. So when do you expect to 
execute the joint agreement with the VA regarding the new 
collaboration?
    Ms. Darcy. I do not know. I am going to ask General Bostick 
if he might know. He has been working more closely with the VA 
on these issues than I.
    General Bostick. I have worked with Secretary McDonald very 
closely in discussions on how some of these projects would 
transfer. The first one obviously was the Aurora Hospital in 
Colorado, and we are complete with that transfer, and we are 
starting to work on it. We are taking each of these one at a 
time and assessing them on a case-by-case basis, but moving out 
as rapidly as we can. Much of----
    Senator Feinstein. Could you give me some times, please? I 
do not want to ask your successor 10 years from now, if I am 
still alive, what happened.
    General Bostick. The overall understanding is already 
completed. If it is over $100 million, as in the cases of the 
California hospitals, there is already agreement that the Corps 
will take those on. The next step is to determine if the 
designs are appropriate for us to move out and award a 
contract. That work is ongoing.
    Senator Feinstein. Okay. Well, that is good news. Do you 
have a specific timeline for when seismic safety projects can 
proceed?
    General Bostick. I do not have a timeline, but I will 
respond----
    Senator Feinstein. May I ask that perhaps before you leave 
you could get a timeline? You set the course for your 
successor?
    General Bostick. I will do that.
    Senator Feinstein. This is important, so thank you. And is 
there any--do you have any thoughts on how this collaboration, 
and maybe it does not affect these projects. But will they 
introduce of themselves time delays?
    General Bostick. I cannot speak to the group of them in 
total, but if the project has not started, and some of these 
are brand new projects if they have a design, then we can just 
take that design if the design is adequate, then we can move 
out and award a contract. In the case of Aurora, for example, 
that took us a lot longer, a number of months in order to 
transition that one. So I would say it is a case-by-case 
situation, but I think it could be a clean transfer depending 
on the design.
    Senator Feinstein. So my job would be to see if the VA 
facilities in L.A., San Francisco, Long Beach, and San Diego 
have a design. Is that correct?
    General Bostick. We can work on that, Senator.
    Senator Feinstein. Okay. Well, we will check.
    General Bostick. We will follow up with you on that.
    Senator Feinstein. And I would appreciate it if you could 
let me know.
    General Bostick. We will.
    Senator Feinstein. The question is do they have a design, 
and I thank you, General, very much.
    Thanks, Mr. Chairman.
    Senator Alexander. Thanks you. Thank you, Senator 
Feinstein.
    Senator Hoeven, whatever time--take time to ask whatever 
questions you may have.

                              LAKE TSCHIDA

    Senator Hoeven. Thank you, Mr. Chairman. Commissioner 
Lopez, we have discussed Lake Tschida, Heart Butte Dam a number 
of times. You have been out, and I appreciate you coming out. I 
am drafting legislation to try to address this issue. We 
continue to work on trying to find a solution.
    Specifically, my legislation would direct the Bureau to 
allow permittees in the trailer areas around Lake Tschida to 
keep their existing trailers on the lots as long as they comply 
with anchoring requirements set forth by the Bureau. These 
permittees have made investments and improvements to the lots 
and trailers over the years, all with the consent of the 
Bureau. I think this would be a good compromise to ensure dam 
safety while also allowing trailer owners to get full use out 
of the investments that they made honestly with the approval of 
the Bureau.
    So my question is, would you be willing to work with me to 
find agreement on legislative language that would satisfy the 
Bureau's concerns while giving fair treatment to the trailer 
owners around the lake?
    Mr. Lopez. Senator, I would certainly be willing to work 
with you on trying to develop legislation that would meet both 
those needs. You know my concerns about the trailers being 
within the flood pool and the concerns that that creates for 
us. If there is legislation to be worked on, we would work with 
you on it.

                          MARKET RENT SURVEYS

    Senator Hoeven. Thank you. I appreciate that. The other 
question I have is in regard to some of the recent market rent 
surveys that have been done by the BOR. As a result of those 
surveys, rents will double at Heart Butte Dam, Lake Tschida, 
but they triple at the Jamestown Reservoir and the Dickinson 
Reservoir. And my understanding is that any rents received go 
into maintenance and management of the reservoir.
    And so, my first question is, is the Federal Government 
making a profit on this, or is all that money being put back 
into management and maintenance at those reservoirs?
    Mr. Lopez. Senator, I do not believe we are making any 
profit on anything, and the money that we collect is used in 
the O&M of those reservoirs.
    Senator Hoeven. Well, and essentially where I am going with 
this is, you know, those are very significant increases. We are 
hearing from the people that live around those reservoirs and 
have homes around those reservoirs. And there is a real concern 
that the rents are being raised well above what is going into 
management and maintenance at the reservoir, and well in excess 
of what those management and maintenance needs or expenses are.
    And that is a real concern because I think those rents are 
supposed to be limited to the management and maintenance need 
costs of those specific reservoirs. And so, I would ask that 
you work with us to look at those and make sure that the 
increases are not unreasonable, and that the money is not being 
used for some other purpose.
    Mr. Lopez. Senator, I commit that we will look into that 
question, and assure that we are not collecting any more than 
we can use for those purposes.
    Senator Hoeven. Thank you, Commissioner. I appreciate it. 
Thank you, Mr. Chairman. Those are all the questions I had. I 
appreciate it.
    Senator Alexander. Thanks, Senator Hoeven. I have got a 
couple of questions.

                            INLAND WATERWAYS

    Secretary Darcy, back to inland waterways. When we took the 
big step forward on inland waterways, Congress, among other 
things, got an agreement about what the priorities are for the 
inland waterways. The users agreed to that as well, and that 
helped us have some priority. That was the 2010 Capital 
Development Plan. Last year--the Congress then asked--told you 
to do a 20-year plan, but in our appropriations bill last year 
we said you should use the 2010 Capital User Development Plan 
priorities until we have a chance to review the new plans.
    So my question is, will the Corps' new plan keep the list 
of priorities in the 2010 Capital Development Plan that has 
been endorsed by the inland waterway users?
    Ms. Darcy. Senator, we will be having the new capital 
investment strategy delivered to you all before the month is 
out, so we will be able to discuss the specifics of that while 
you are putting together the bill for this year. I have not 
reviewed the final study to be quite honest with you, so I 
cannot answer whether they are the same priorities or not. But 
as I say, we will be getting that to you before the month is 
out, so.
    Senator Alexander. Well, you know the priority I am 
interested in.
    Ms. Darcy. Let me guess.

                        REHABILITATION PROJECTS

    Senator Alexander. Yeah. And along that line, as you make 
your review, let me ask you to comment on something that really 
affects all of your projects, and that is the economic analysis 
that you use to justify a project, which I would assume you are 
going through now as you make up--as you finish this new plan. 
Funding the projects is largely based on their so-called 
benefit-to-cost ratio. The higher the ratio, the better the 
chance the project gets funded, the higher up the priority 
list.
    I am concerned that the economic analysis for a project may 
not accurately take into account the true benefits. For 
example, your economic analysis may--let us take the 
Chickamauga Lock, for example. In 2004, 2.7 million tons of 
cargo were moving through the lock every year. That was 12 
years ago. Today it is closer to one million tons.
    Now, one big reason it has gone from 2.7 to one million 
tons is because the lock is in bad shape and needs to be 
replaced. And so, if you based your benefit-to-cost ratio upon 
the current lock cargo, it would not be realistic because when 
you fix the lock, one would assume that you would be back up to 
some number. I do not know what number. Maybe it would be 2.7, 
or maybe it would be more, maybe it would be a little less.
    But do you not think that has become outdated or 
inappropriate to base your benefit-to-cost ratio on the way 
things are today in a lock that has for 12 years been in such 
bad shape that a lot of cargo simply could not go through it?
    Ms. Darcy. I do agree, Senator, because in our equations 
that we developed for rehabilitation projects, I do not think 
that we take into account the historic significance of these 
projects. And I think that we are losing those benefits in 
making a future calculation.
    As you know, rehabilitation projects do not compete well in 
the budget because they have a lower benefit-to-cost ratio 
because of that. I think we need to look at how we do the 
evaluations for the benefit-to-cost ratio and rehabilitation 
projects in a different way, and account for not only historic 
patterns--historic benefits that they have brought, but without 
that lock, what would have been lost if we did not have that 
lock. That calculation, and all of the benefits that it has 
brought not only up until one point in time, but historically, 
I think needs to be calculated for a rehabilitation project.

                    COMPLETING CONSTRUCTION PROJECTS

    Senator Alexander. Well, that is important testimony coming 
from someone with your experience both in Congress and in your 
current position. And finally, there also ought to be something 
to consider--I mean, should we not complete projects we have 
already started to build? For example, in Kentucky Lock we have 
already spent $471 million, and on the Chickamauga Lock, we 
have already spent $216 million. And as we have discussed, over 
the last 2 years working with Congress, you restarted 
construction.
    But should we not take into account the fact that we 
complete projects that we have already started to build?
    Ms. Darcy. I think we should take that into consideration, 
and I think finishing what you have started is a laudable goal. 
It is just not always one that we are able to achieve in the 
current fiscal situation.
    Senator Alexander. There were several rules of life I 
learned from my parents, and one that I learned from my father 
was finish what you start, which turns out to be a pretty good 
rule of life, and might even be good for the Corps of 
Engineers.
    I do not have any more questions. I will ask Senator 
Feinstein if she does, and then after that, her comments, we 
will conclude the hearing.

       RESPONDING TO THE SUBCOMMITTEE'S QUESTIONS FOR THE RECORD

    Senator Feinstein. I have one, and I think it will surprise 
you. Madam Secretary, this committee held the Army Corps fiscal 
year 2016 budget hearing last year on February 11, after which 
members of this subcommittee submitted about 50 questions for 
the record. Believe it or not, we just received the responses 
to those questions yesterday evening, so it took a full year 
after the hearing to get the answers back to us.
    I do not think you find that acceptable, and I do not find 
it acceptable. So can you help me understand why it took the 
Corps over a year to provide the responses to questions from 
this subcommittee?
    Ms. Darcy. Senator, it is an unacceptable time, and for 
that I apologize. There is a lengthy review process within the 
Administration that takes place in order to respond to 
questions, and it is too long. And I will try to come through 
with a commitment to make it a shorter time because I will not 
be here a year from now, so I want to be able to get you the 
answers to your questions in a more timely manner this year.
    Senator Feinstein. Well, let me ask you, what do you think 
is a reasonable response time, because we are going to submit 
some questions from this hearing. And, candidly, I would like 
them back in a couple of weeks because there are issues that 
are pressing.
    Ms. Darcy. They are answers to questions that you need the 
answers to in order to formulate your bill.
    Senator Feinstein. That is right.
    Ms. Darcy. And, you know, that happens this summer and this 
fall. I think 3 months is more than enough time for us to be 
able to respond to your questions.
    Senator Feinstein. So are you saying you put a response 
time of 3 months, and that we would have our questions answered 
in 3 months?
    Ms. Darcy. That is my goal.
    Senator Feinstein. What do you think?
    Senator Alexander. Well, if you had not asked that, I was 
going to. So here is what I think. My guess is that part of the 
fault lies with the Office of Management and Budget. I do not 
expect you to comment on that. But I think here is what we 
ought to do. I think----
    Senator Feinstein. Well, can I? Are you saying the Office 
of Management and Budget reviews the answers to questions?
    Senator Alexander. My guess is they do, right?
    Ms. Darcy. That is correct.
    Senator Feinstein. They do?
    Ms. Darcy. Yes, ma'am.
    Senator Alexander. Yeah, that is the way they work.
    Senator Feinstein. Ask her if she could tell us why.
    Ms. Darcy. Okay.
    Senator Alexander. Why?
    Ms. Darcy. Any of the responses that come to Congress from 
agencies are reviewed by the Office of Management and Budget.
    Senator Feinstein. Oh, my god.
    Senator Alexander. Well, I would say to Senator Feinstein, 
and, you know, I would guess that the idea of underfunding the 
inland waterways and the Harbor Maintenance Account did not 
come from the Army Corps of Engineers, but probably came from 
the budget process. And so, here is what I think we should do.
    Three months, Senator McConnell, and he has talked to 
Senator Reid about this. We hope to move rapidly on the 
appropriations process this year. We hope to keep big 
controversial riders off the committee bill.
    Senator Feinstein. Good.
    Senator Alexander. And they can debate them on the floor if 
they want to do that, and hopefully Senator Feinstein and I 
could do that. So we are moving pretty fast. This is our second 
hearing. We have got two more, and we would like to be finished 
by when, Tyler?
    [Off audio.]
    No, with the bill.
    Well, he said early May. I am thinking maybe mid-April 
would be--would be better. So 3 months, that is just 6 weeks 
away. So I would suggest Senator Feinstein and I write a letter 
both to the Corps of Engineers and to the Office of Management 
and Budget and say we find this unacceptable. You have said you 
are going to do your best to get answers in at least by 3 
months, that we are moving on a fast pace on appropriations. 
And there may be some questions that we would like to have an 
answer to more rapidly than that.
    You have got a background of work on the Hill, and we can 
talk with you about that in an informal way. But it is very 
important to us to know your thinking before we write the bill.
    Senator Feinstein. Yes, that is right.
    Senator Alexander. So we will formally write the letter 
would be my suggestion if you would agree.
    Senator Feinstein. That is fine with me.
    Senator Alexander. And then we will ask staff to work with 
you informally on the questions that we think are the most 
important to us as we draft the bill. We would like to be among 
the first in line when we present a bill to Senator McConnell 
and Senator Reid to put on the floor, and I am hoping it is 
mid-April or not long after that when we are finished with the 
bill.
    Senator Feinstein. And I hope that we can keep our 
questions relatively limited to the need for this particular 
session and our budget--our appropriations bill.
    Senator Alexander. Yeah, so we will work with you. I mean, 
Senator Feinstein and I will work with you, and if you say, 
look, I have got 100 questions here, are there 20 that are more 
important, we will help you--we will help prioritize that. And 
that will be easier for you to give us responses to that. And 
there may be some cases where you could simply give us an oral 
response.
    Senator Feinstein. That is right.
    Senator Alexander. Just answer a question, and we do not--
we will not have to go through a lengthy process. Senator 
Feinstein, do you have other questions or comments?
    Senator Feinstein. No, I am fine. Thank you very much, Mr. 
Chairman.
    Senator Alexander. Well, I want to thank all the witnesses 
for being here today. I am sorry about the voting interrupting, 
but I think we Senators had a chance to ask their questions and 
to make their testimony. We, again, thank Secretary Darcy and 
General Bostick for working with us, especially since this may 
be their last hearing before the subcommittee.

                     ADDITIONAL COMMITTEE QUESTIONS

    The hearing record will remain open for 10 days. Members 
may submit additional information or questions for the record 
within that time if they would like. We would like to have all 
responses to questions to be provided within 30 days of 
receipt. You said 3 months. For the priority questions or most 
questions, we would like to ask for 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Hon. Jo-Ellen Darcy
            Questions Submitted by Senator Richard C. Shelby
    Question. Currently, the General Reevaluation Report (GRR) and 
accompanying Supplemental Environmental Impact Statement (SEIS) for the 
Port of Mobile is ongoing. Together, they are expected to take 
approximately 4 years to complete, which is around 2019 or 2020. 
Secretary Darcy, can you give me an update on the status of this 
undertaking and what, if anything, can be done to expedite this 
process?
    Answer. Preparation of the Supplemental Environmental Impact 
Statement, will require consultation with various resource agencies to 
satisfy the National Environmental Protection Act requirements. 
Coordination with a wide variety of Federal, State, and local agencies 
(U.S. Fish and Wildlife Service (USFWS), National Marine Fisheries 
Service, the Environmental Protection Agency, Alabama Department of 
Environmental Management, Alabama Department of Conservation and 
Natural Resources, the State Historic Preservation Office, etc.) is 
currently on-going. Coordination is also ongoing with State and Federal 
Environmental Agencies to include discussion of the modeling needs of 
the project and begin the process of identifying realistic beneficial 
use opportunities for the dredged material from this project. Sediment 
removed in association with the potential deepening and widening of up 
to 37 miles of channel could generate up to 63 million cubic yards of 
material. Currently, the U.S. Army Engineer Research Development Center 
is collecting data to establish the existing and baseline environmental 
conditions of the project area. The Corps has met with the USFWS and 
work has begun on the Fish and Wildlife Coordination Act Report. 
Additionally, the documentation of the existing conditions for the 
benefit-cost analysis is complete. This task included gathering 
economic and demographic data, close review of Mobile Harbor's 
operational practices and trends, and gathering historical commodity 
flows and fleet data. Coordination is ongoing with the Corps' Institute 
of Water Resources and the Port to determine the commodity forecast for 
the Port, which is a critical step in the benefit analysis.
    The proposed study duration was initially 56 months, but has been 
expedited to allow the study to be completed in 48 months. Currently, 
no additional measures have been identified that would allow the study 
schedule to be further accelerated.
    Question. Assistant Secretary Darcy, an issue of importance to the 
State of Alabama is the ongoing water dispute involving Georgia, 
Florida, Alabama, and the Army Corps of Engineers. This Committee, 
included language in the last year's appropriations bill specific to 
this issue. In addition, the 2013 WRDA Conference Report contained 
language in Section 1051 that encouraged the governors of Alabama, 
Florida, and Georgia to reach a compromise to once and for all resolve 
this matter stating that ``[a]bsent such action, the Committees of 
jurisdiction should consider appropriate legislation to address these 
matters including any necessary clarifications to the Water Supply Act 
of 1958 or other law.'' Unfortunately, a resolution to this decades 
long dispute does not seem any closer than when it began. On May 4, 
2015, the Corps signed a Record of Decision regarding a Water Control 
Manual (WCM) update that applies to the ACT River Basin. Both States of 
Alabama and Georgia have filed lawsuits relating to the ACT WCM, with 
no resolution in sight.
    Subsequently, on October 2, 2015, the Corps released a Draft 
Environmental Impact Statement (DEIS) pertaining to the WCM for the ACF 
River Basin. In comments recently submitted regarding the ACF DEIS, 
Alabama, Florida, and even the Environmental Protection Agency noted 
multiple concerns that the current proposal is contrary to legal 
rationale, public policy, and prioritizes one State's water needs over 
others. Assistant Secretary Darcy, can you respond directly to and 
elaborate on the concerns surrounding both the ACT WCM and the proposed 
ACF WCM? In addition, given its troubled history of decisionmaking in 
both the ACT and ACF basins, wouldn't it be best to leave such 
decisions to the affected States to work out their difference regarding 
these basins without unproductive Corps interference, including Federal 
legislation enabling such, if necessary?
    Answer. The purpose of Water Control Manuals is to determine how 
Federal projects should be operated for their authorized purposes, in 
light of current conditions and applicable law. The Corps commenced its 
most recent efforts to update the master water control manuals for the 
systems of Federal improvements in the Alabama, Coosa, and Tallapoosa 
(ACT) and Apalachicola, Chattahoochee, and Flint (ACF) River Basins in 
October 2007 and January 2008, respectively. The purpose of the updates 
is to reflect changes in water usage and best practices about water 
resource management.
    The water control manual updates will not determine how the waters 
of either basin will be allocated among the States. However, the 
Department of the Army has continuously expressed to the Governors of 
Alabama, Florida, and Georgia the Army's willingness, within the limits 
of its authority, to adjust the operation of the Corps projects in the 
ACT and ACF systems to accommodate any allocation of waters within 
those basins upon which the three States agree, and to provide 
technical assistance if requested by the States in reaching an 
agreement.
    The Corps is currently in the process of reviewing public comments 
submitted on the draft EIS and water control manuals for the ACF basin. 
The Corps is considering all comments, and is committed to working with 
State and Federal agencies and stakeholders to address concerns. A 
final EIS and approval of the updated ACF master manual are anticipated 
by March 2017.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                 veterans affairs construction projects
    Question. Secretary Darcy, the 2016 Defense Authorization Act 
directed the Department of Veterans Affairs to work with the Army Corps 
to make the VA construction process more efficient, and Congress 
provided an additional $100 million to compensate the Corps for this 
new mandate.
    There are four critical seismic safety projects at California VA 
facilities (Los Angeles, San Francisco, Long Beach, and San Diego) that 
will be part of this new construction partnership between the Army 
Corps and the VA, and I want to ensure that they proceed as quickly as 
possible, given the seismic risk in California.
    When do you expect to execute the joint agreement with the VA 
regarding the new collaboration?
    Answer. The Corps and the Department of Veterans Affairs (VA) have 
already entered into the initial Inter-Agency Agreements (IAA) for two 
of the four of the projects in question. The San Francisco IAA was 
signed on November 13, 2015 and the Long Beach IAA was signed on 
February 4, 2016. The agreements for the two remaining projects, West 
Los Angeles Buildings 205/208 and San Diego are expected to be signed 
in the coming months. As the projects proceed towards construction 
award this will require the agencies to modify these IAAs.
    The Corps will make every effort to process IAA modifications in a 
timely manner and ensure that these projects are completed efficiently. 
The Corps will remain vigilant to avoid unnecessary cost growth and 
incorporate sound engineering practices to protect public safety.
    Question. Do you have a specific timeline for when seismic safety 
projects in California can proceed?
    Answer. Based on an initial assessment of the projects, the Corps 
is forecasting a spring 2017 construction award for most portions of 
the Long Beach, San Francisco, San Diego, and West Los Angeles 
projects. San Diego and West Los Angeles projects were already 
completely designed under contract by the VA, and Long Beach and San 
Francisco are anticipated to have completed designs in June 2016 and 
November 2016, respectively. The construction award date in spring 2017 
is a forecast, because the Corps must also perform a Design and Cost 
Validation process in order to accept these projects. Once the Corps 
completes this process, and they are satisfied that the technical 
solution, design and construction approach, and cost is appropriate, 
they can work to solicit and award the projects. As the Corps continues 
with this assessment phase of the individual project designs, they will 
refine schedules accordingly with the intent of saving time, where 
possible, while still implementing sound engineering practices. The 
duration for construction completion for each project is still pending 
further evaluation and will be based on the required work for each of 
the facilities.
    Question. How will you ensure that the new collaboration does not 
introduce lengthy delays into the process?
    Answer. There have been many discussions between the VA and the 
Corps to reduce delays and gain efficiencies where practicable. On the 
other hand, the new collaboration may itself lead to some delay in 
execution. Introducing a new responsible design and construction agent 
requires that the agency assume many significant responsibilities; the 
Corps must ensure that the work already done meets public safety needs, 
application of sound engineering practices, and code requirements, and 
that in entering into this collaboration, it does so with a goal of 
achieving and managing cost and schedule expectations. Public safety, 
sound engineering, the maintenance of professional relationships, and 
the appropriate due diligence to cost and execution issues are 
paramount. The Corps assessment process evaluates the technical 
solution and design approach, estimated construction cost, and 
forecasted construction duration to ensure that expectations are met 
and public safety is assured.
    The Corps understands that many areas of California have seismic 
risks, and will work with the VA to mitigate risk and avoid unnecessary 
delays.
                   south san francisco bay shoreline
    Question. The San Francisco Bay region is extremely vulnerable to 
rising sea levels as a result of climate change. Nearly 200 square 
miles of the communities in the region sit in low-lying areas along the 
shoreline, including some that are more than 13 feet below sea level.
    The South San Francisco Bay Shoreline Study was originally 
authorized by Congress in 2002, but the Chief's Report was only just 
completed in December of 2015, more than a decade later.
    Secretary Darcy, as you well know, this project is very important 
to me. It will restore 2,900 acres of former salt ponds, create a new 
recreation area, and construct a four mile long levee to protect homes, 
high-tech businesses, and the new Silicon Valley water purification 
center. This work is very important to the local economy, safety, and 
quality of life for my constituents.
    I want to thank you for including $3 million in the fiscal year 
2016 work plan for pre- construction engineering and design work for 
Phase 1 of the project.
    What is the timeline for this step in the process, and when do you 
expect the project to be ready for construction?
    Answer. The next scheduled milestone is execution of a Design 
Agreement for Preconstruction, Engineering and Design (PED) with the 
non-Federal partners. The current schedule identifies completion of PED 
by September 2017.
    Question. How long do you estimate Phase 1 construction will take?
    Answer. The Corps estimates that it would take around 4 years to 
construct phase I of this project once physical construction begins, 
assuming the availability of funding at the maximum level that the 
Corps can efficiently and effectively use for this project.
    Question. Do you plan to prioritize funding the in fiscal year 2017 
work plan for studies for the next phase of this project?
    Answer. Should the Congress provide additional funding for which 
this study of the next proposed phase of this project would qualify, 
the study would be considered for funding in the 2017 Corps work plan 
along with other programs, projects, and activities across the Nation 
in competition for the available Federal resources.
           california drought and army corps ``big picture''
    Question. California's population has grown to 40 million people 
according to recent census data. However, the State's water 
infrastructure is largely unchanged from when it was built 50 years ago 
when California was home to only 16 million people.
    The drought in California is a powerful example of how important it 
is for our country to keep up with changing water infrastructure needs.
    I understand that the Army Corps has conducted a large-scale study 
to assess flood risks and ecosystem restoration opportunities in 
California's Central Valley and in the Delta.
    I also understand that there have been studies of individual 
watersheds in and around the Sacramento and San Joaquin River Basins.
    Given continuing population growth and more unpredictable weather 
as a result of climate change, it is more important than ever that the 
Federal Government looks at water infrastructure in a ``big picture'' 
way rather than on an individual study-by-study basis.
    Secretary Darcy, what steps has the Corps taken to look at water 
infrastructure in a holistic way and ensure that different individual 
projects are incorporated into a ``big picture'' understanding of 
future needs?
    Answer. California's water resources management challenges are 
complex. As the Corps carries out its missions of flood and storm 
damage reduction, commercial navigation, and aquatic ecosystem 
restoration in this State, we are mindful that tens of millions of 
people live and work there.
    In Northern California, an example of a Corps effort in support of 
watershed-level planning is the Sacramento and San Joaquin 
Comprehensive Basin Study (also known as the Central Valley Integrated 
Flood Management Study (CVIFMS)), which focuses on the Sacramento River 
Basin. CVIFMS is intended to be a Federal companion to the California 
Department of Water Resources' Central Valley Flood Protection Plan, 
which is the State's plan for long-term sustainable flood management in 
the Central Valley. The goals of CVIFMS are to:
  --Develop and share a consistent and mutually complementary system-
        wide strategy for flood risk reduction and environmental 
        stewardship with the State of California;
  --Provide a blueprint to connect water resources management actions 
        across the Sacramento, Yuba, American, and Feather River 
        watersheds.
    In evaluating water resources options in the Sacramento River 
Basin, the Corps is building on earlier studies, such as the American 
River Common Features and West Sacramento General Reevaluation Reports, 
and the Sutter Basin Feasibility Study, to update the system's multi-
purpose performance baseline. The Corps work on CVIFMS continues to 
inform other studies, such as the Sacramento River General Reevaluation 
Study which began in July 2015, and has enabled the Corps to 
strategically align many of its regional, interagency activities.
    In Southern California, the Corps is currently working with the 
Responses to Climate Change team and in particular with regard to 
impacts to Corps' projects due to extreme drought. A Drought 
Contingency Plan (DCP) Project Delivery Team (PDT) is working to assess 
the applicability of current available Drought Contingency Plans 
documents, as well as the need for updating these documents. The DCP 
PDT consists of Corps personnel nation-wide, with at least one 
representative from each Division. This endeavor to derive updated 
guidance for preparation of DCPs is still ongoing.
    Question. When evaluating projects, particularly in California, 
does the Corps consider how they impact the State's overall water 
supply infrastructure and needs?
    Answer. The Corps' role in water resources management is focused on 
its three main missions--flood and storm damage reduction, commercial 
navigation, and aquatic ecosystem restoration. The Bureau of 
Reclamation has responsibility for the Federal Government's involvement 
in water supply planning and operations in California.
    However, the Corps is cognizant of California's significant water 
supply challenges. While Corps studies and projects focus on its three 
main mission areas, the Corps works with the Bureau of Reclamation, the 
California Department of Water Resources, as well as other Federal, 
State, and local agencies, in order to ensure the Corps work in 
California complements their effort on water supply.
    An example of this coordination is the Joint Federal Project at 
Folsom Dam. This project is a cooperative effort between the Corps and 
the Bureau of Reclamation. Once completed, it will help to further 
reduce the flood risk in the Sacramento region; and at the same time, 
Reclamation (which is the owner and operator of the dam) will have more 
flexibility in maintaining water storage levels at the Dam.
    Also, at the request of the non-Federal sponsors, the Corps is 
currently working on two Feasibility Studies to conserve water for 
Whittier Narrows Dam and Prado Dam. The dams' original authorization 
are for flood control, however the Feasibility Studies will look at 
water conservation opportunities such as permanent changes to dam 
operations and the timing of water releases following storm events. 
Constraints for these studies include ongoing dam safety issues as well 
as the inherent flood risk in these areas with unpredictable flash 
flooding. The local sponsor for the Whittier Narrows Dam Water 
Conservation Feasibility Study is the Los Angeles County Department of 
Public Works. The Prado Basin Ecosystem Restoration and Water 
Conservation Study is a dual-purpose study that includes both aquatic 
ecosystem restoration and options for a change to the water control 
plan for water conservation year-round at a higher elevation at Prado 
Dam. The local sponsor for the Prado Basin study is the Orange County 
Water District.
    Question. Does the Corps have a system-wide strategy to address 
water and ecosystem problems in the Sacramento--San Joaquin River 
Delta?
    Answer. The Corps Central Valley Integrated Flood Management Study 
(CVIFMS) is exploring options for system-wide flood risk management and 
ecosystem restoration strategy in the Sacramento River Basin, the San 
Joaquin River Basin, and the Bay-Delta. As mentioned above, the first 
phase of CVIFMS focuses on the Sacramento River Basin, while the next 
phase would focus on the San Joaquin River Basin.
                  army corps projects and water supply
    Question. Secretary Darcy, I understand that the Corp's primary 
mission is flood protection. However, there are many instances in which 
flood protection projects also impact other important issues like water 
storage and ecosystem restoration.
    For example, seismic retrofits on a dam can also be used to raise 
the height of a dam and store more water. Better forecasting of 
impending storms can result in more scientific decisions on when to 
release water from a reservoir and when to hold it, potentially 
providing water supply benefits.
    Secretary Darcy, how does the potential for these ``win-win'' type 
of outcomes influence the Corps' internal policies and evaluation of 
projects?
    Answer. The Corps agrees that projects do not necessarily have to 
be constrained to benefit only one purpose. The Corps seeks to achieve 
multiple public benefits at individual projects to maximize returns on 
Federal, State, and local investments. The Corps has extensive 
experience managing reservoirs for multiple project purposes throughout 
the United States, but the consideration of multiple project purposes 
is a matter of making trade-offs. Currently, the Sacramento River 
General Reevaluation Report underway is investigating both flood risk 
reduction and ecosystem restoration opportunities in the lower 
Sacramento River Basin.
    With regard to reservoir operations, the Corps incorporates 
flexibility to consider other objectives like water supply storage when 
applicable. The Corps has always relied on weather forecasting as one 
of a wide range of factors to determine when reservoir releases should 
be made or held back to meet its public safety mission and other 
objectives. Improved forecasting has allowed the Corps to adapt and be 
more agile in responding to changing conditions.
    The Corps water control manuals are not static, and are 
continuously examined to determine if revisions are necessary based on 
engineering manuals and regulations. In addition, especially during 
times of significant drought, the Corps may allow for temporary 
deviations of water control manuals in order to increase water supply 
through conservation measures. As discussed below (Question #6), the 
Corps has almost completed the Folsom Water Control Manual Update 
project for the Folsom Dam; the update incorporates the use of 
forecasts in flood release operations. Lessons learned at Folsom, as 
well as at Lake Mendocino, could inform operations at other projects, 
and help the Corps and its partners achieve the multiple purposes that 
these reservoirs serve.
    The Corps will continue to consider and evaluate opportunities for 
multi-purpose water management strategies at both Corps-owned and 
operated dams and those ``Section 7'' dams where the Corps may not own 
or operate the facility but has purchased flood pool space and provides 
oversight in accordance with the Water Control Manual, in consultation 
with stakeholders, and in accordance with law and policy.
    Question. Are there any legislative barriers that hinder the Corps 
in assisting with drought mitigation, especially in light of the 
ongoing investments the Army Corps is making in California water 
infrastructure from a flood control and ecosystem restoration 
standpoint?
    Answer. No. There are no legislative barriers. The Corps is closely 
coordinating with other Federal, State, and local partners to determine 
how they can help support other agencies' objectives--such as water 
storage and supply --while operating within its defined main missions, 
which are flood and storm damage reduction, commercial navigation, and 
aquatic ecosystem restoration.
    For example, 15 Federal, State, and local agencies have agreed to 
coordinate with one another to identify and potentially implement 
compatible Federal and non-Federal actions in the Yolo Bypass to 
achieve multiple public benefits, including flood risk reduction, fish 
and wildlife habitat restoration, water quality and supply 
improvements, agricultural land preservation, recreation.
    Question. In general, what is the Corps doing to help with drought 
conditions in California?
    Answer. The Corps has collaborated and communicated with the State, 
resulting in conservation measures in some California reservoirs, 
which, in turn, has helped to mitigate the effects of the drought on 
urban, agricultural, and environmental sectors.
    Below are some of the Corps ongoing activities:

    Water Management.--The operations manuals for many Corps dams 
includes a specific subset of instructions for drought conditions that 
allow flexibility in making flood releases from the Corps ``flood 
control space'' while the drought continues. The Corps water management 
team is fully engaged with other State and Federal agencies regarding 
operations and conditions, and is responsible for responding to 
deviation requests from our local water partners at Corps-owned dams. 
Water releases are closely coordinated and managed with local water 
users, power generating partners, and the Corps water management team, 
including times when drought conditions dictate that water releases 
fall below required or recommended flows.
    Emergency Operations.--Under the Flood Control and Coastal 
Emergency Act (Public Law 84- 99, as amended), the Corps can provide 
emergency water assistance due to drought. The Corps has the authority 
to transport emergency water supplies of clean drinking water for human 
consumption to any locality designated as a drought distressed area. 
Affected localities also have the option of purchasing storage space 
where available at Corps reservoirs. Also, the Corps is authorized to 
construct wells in drought distressed areas if the option is not 
commercially available.
    Regulatory Division.--During drought conditions, local water 
interests may consider temporary and permanent measures to improve 
water extraction such as pumps, siphons, wells, and dredging. Most 
activities fall under the Corps Nationwide Permit Program or the 
District's general permit for emergency actions, pursuant to Section 10 
of the Rivers and Harbors Act and Section 404 of the Clean Water Act.
    In some emergency situations, procedures may be approved by the 
Corps to issue a permit more quickly following informal coordination 
with resource agencies. For example, the Corps expedited a permit that 
allowed the California Department of Water Resources to construct a 
large temporary drought barrier in June 2015 to hold back saltwater 
from the interior Delta, and thus protect its freshwater supply.
    Contracting.--PL 84-99 emergency response requests typically come 
with a contracting component--such as contracting for emergency 
services, supplies, construction, or system design. Contracting 
Division has the authority to streamline the contracting process where 
appropriate. Additionally, the Corps could modify existing contracts to 
change water use or conservation measures at our sites.
    Real Estate Division.--Where needed, the Real Estate Division is 
authorized to procure land or buildings that might be needed to store 
water for pumping or for staging water bottle distribution.
    The Corps currently has a deviation to the water control plan in 
effect for Whittier Narrows Dam for the purpose of water conservation. 
Last flood season the Corps had a short-term deviation in effect for 
Prado Dam and the Corps is considering a request for a 5-year deviation 
for Prado Dam. The deviations allow the Corps to impound additional 
water for water conservation purposes. In fiscal year 2016, Whittier 
Narrows Dam conserved 1,300 acre-feet of water from the deviation. 
Similarly, Prado Dam conserved 7,300 acre-feet.
                beneficial use of clean dredge material
    Question. I understand that more than 400 ports and 25,000 miles of 
navigation channels are dredged throughout the United States to keep 
ship traffic operating efficiently. The operations and maintenance of 
our ports falls under the jurisdiction of the Army Corps of Engineers.
    Aquatic ecosystem restoration is also a critical mission of the 
Army Corps. Coastal resilience projects, like wetland construction, 
often require additional clean sediment material. This is true in many 
places all along the California coastline.
    It seems to me that there is an opportunity here for a ``win-win'' 
scenario by using clean material dredged from ports for ecosystem 
restoration projects that have a need for additional dredged material.
    Secretary Darcy, does the Corps have a process for pairing up 
projects so that material dredged from one project can be used in a 
second project?
    Answer. Yes. There is coordination across Corps mission areas that 
can reduce overall costs. The beneficial use of dredged material is 
considered when and where practicable. The Corps also has a Regional 
Sediment Management Program to establish regional management strategies 
and link sediment management actions at authorized Corps projects. 
Management activities with other Federal agencies, State, and local 
governments are coordinated within the boundaries of physical systems, 
including inland watersheds, rivers, estuaries, and the coast.
    Question. Given the need for dredged material in ecosystem 
restoration projects, does the Army Corps currently view dredged 
material as a resource, rather than just as a waste product from 
waterways?
    Answer. Yes. The Corps considers dredged material as a resource and 
has been using dredged material beneficially for decades. There are 
numerous examples of the Corps using dredged material to nourish 
eroding shorelines and create offshore berms to reduce wave energy and 
provide a sand source for littoral drift. Dredged material has also 
been used to create wetlands, oyster reefs, submerged aquatic 
vegetation, bird islands, and other aquatic habitat, as well as to 
restore Brownfields, cap landfills, and enrich soil for agriculture. 
Dredged material has even been used as a construction product. Examples 
include restoration of the Middle Harbor Enhancement Area using dredged 
material from the Oakland Harbor project; construction of the Senator 
Paul S. Sarbanes Poplar Island Ecosystem Restoration project with 
dredged material from the Baltimore Harbor & Channels project; 
restoration of wetlands in the Mississippi River Delta using dredged 
material from the Mississippi River Baton Rouge to the Gulf project; 
and the use of sand from many coastal projects to re-nourish beaches 
and reduce erosion. While many of these beneficial use alternatives can 
be costly, some can be accomplished as the least cost alternative.
    Question. Are there any barriers to using dredge materials more 
productively other than cost?
    Answer. There are many factors that must be considered in deciding 
whether or not dredged material can be used beneficially, and where the 
material can be placed. These include, but are not limited to, the type 
of material (whether it is sandy, rocky, fine- grained, etc.), whether 
or not there is contamination in the dredged material, the needs of any 
biological resources that would be benefitted, time of year 
restrictions for the dredging and placement activities, and type and 
availability of equipment required to place the material. For instance, 
it is not good practice to use fine-grained or contaminated material to 
re-nourish beaches or create oyster bars.
                     updating dam operation manuals
    Question. The technical decisions made by reservoir operators 
regarding when to release water have become particularly important 
during the prolonged California drought. We want to make sure that we 
are not wasting even a single drop of water by releasing it when we 
don't have to.
    In California, I understand that many regions receive a large 
portion of their annual rainfall from intense, but geographically 
narrow storm events called Atmospheric Rivers.
    It seems to me that if we are better able to predict these storm 
events and the amount of precipitation they bring, we would be able to 
make more informed decisions about how we operate and manage our dams 
and reservoirs.
    I believe this is another instance of bureaucratic inertia rather 
than prioritization of the latest science. We must ensure that the 
Federal Government is actually using the latest science to make 
informed water decisions.
    Secretary Darcy, how is the Corps incorporating the latest science 
regarding Atmospheric Rivers into the way it operates dams?
    Answer. The Corps is closely following the latest science on 
Atmospheric Rivers. In operating Corps-owned dams, and in managing 
flood releases at Section 7 dams, the Corps has incorporated the latest 
science. Corps dams are designed for extreme weather events. Given the 
fact that the Corps dams are designed for the extreme events, the 
agency must also balance the needs for flood control and other 
authorized purposes, relying heavily on several tools to ensure that 
the water conservation efforts do not compromise the safety of the dam. 
Such tools include: (1) Weather forecasts from the National Weather 
Service and private weather contractors; (2) Flow forecasts from the 
River Forecast Center; and (3) Corps Water Management System (CWMS) 
numerical models that can predict the water level at the dams from 
forecasted precipitation.
    The Corps continues to evaluate its portfolio of dams with regard 
to risk and vulnerability to an array of potential scenarios that might 
impact the overall safety of the facilities. This could be attributed 
to a host of factors, including extreme design events and loading 
scenarios, as well as hydrologic and seismic events, and pertinent 
maintenance challenges associated with aging infrastructure. One of the 
contributing factors that is evaluated is the development of inflow 
frequency curves that explore the full range of loading conditions 
(including extreme events). This will help dam operators estimate how 
frequently the extreme events occur at each dam and how those loading 
events influence decisions with respect to Federal investment 
strategies to address infrastructure needs. Specifically, the Corps has 
almost completed the Folsom Water Control Manual Update project which 
is incorporating the use of forecasts in the flood release operations 
rule set for that Section 7 reservoir.
    The Corps is currently participating in a 5-year research study to 
investigate use of the latest science in forecasting of the Atmospheric 
Rivers. If promising, the results of the study could be incorporated 
into operation of reservoirs. The study is known as the Forecast-
Informed Reservoir Operations (FIRO) research in Lake Mendocino, and it 
is a pilot study that would use atmospheric river (advanced hydro-
meteorological) forecasting data to inform water management decisions 
in a manner which reflects current and forecasted conditions. The study 
was scoped in 2014, and began in 2015. The research is projected to be 
a 5-year effort, and the results may indicate whether this technology 
can be applied in actual operations of certain projects. The Corps is 
participating in this pilot project with a consortium led by Scripps 
Center for Western Weather and Water Extremes, along with the Sonoma 
County Water Agency, California Department of Water Resources and State 
Climate Office, Bureau of Reclamation, NOAA's National Weather Service, 
Earth Systems Research Laboratory, and Restoration Center, USGS, and 
the private sector.
    Question. How does the Corps prioritize which dam operations 
manuals need to be updated and when?
    Answer. Updates are prioritized based on several factors, such as 
significance of the changes to original design components, operations, 
hydrology, environmental changes and/or a need to evaluate proposed 
changes to existing water control plans, vulnerability of the 
populations downstream of the dam, and interest from downstream 
partners. Prioritization of water control manual updates must also be 
made alongside other competing demands within the Corps budget.
    Question. What is the Army Corps' basis for refusing to accept non-
Federal contributions to pay for upgrades to these flood control 
manuals?
    Answer. The Corps can--and does--accept funding to update manuals 
for Corps- operated and maintained dams. Paragraph (5)(B) of Section 
1046(a) in WRRDA 2014 states, ``The Secretary [of the Army] may accept 
and expend amounts from non-Federal entities and other Federal agencies 
to carry out this subsection and reviews of project operations or 
activities resulting from those reviews.'' This only applies to 
projects that are ``operated and maintained by the Secretary [of the 
Army]'', meaning projects operated and maintained by the Corps of 
Engineers. Section 1046 does not allow the Corps to accept funds for 
projects operated and maintained by other agencies.
    Question. How is the Corps ensuring that rigid water release 
schedules do not undermine other Federal efforts to increase water 
storage?
    Answer. The Corps uses operational flexibility afforded by the 
water control manuals to store water for the longest period of time 
possible, helping meet the needs of partners without compromising the 
flood control mission. The water release schedules prescribed by the 
Corps consider the most recent forecasts available as well as the 
results of coordination with our partners. Water release schedules are 
reevaluated on a 6-hour basis during flood events and daily during non-
flood events to ensure that changes to the reservoir, stakeholder 
concerns, and forecasts are appropriately considered. The Corps also 
has a process for deviations from control plans, outlined in ``Guidance 
on the Preparation of Deviations from Approved Water Control Plans,'' 
Regulation No. 10-1-04, dated 18 December 2014. This allows the Corps 
to operate reservoirs to meet flood control requirements while 
considering other objectives, such as increased water storage.
    Question. How has California's drought affected the Corps' 
management of Federal dams?
    Answer. In general, the drought decreased the amount of water 
coming into and being stored in Corps reservoirs, which reduced the 
number of occasions where water was released solely for flood control 
reasons. It has also showcased the importance of coordination with 
partners, especially when the storage levels in the reservoirs entered 
the flood control space. Consistent communication between the Corps and 
its partners has helped keep all parties aware of upcoming water 
demands, inflow and precipitation forecasts, and changes to reservoir 
release schedules.
    Question. When updating operation manuals, is the Corps accounting 
for its other missions, like aquatic ecosystem restoration, to ensure 
that water storage and releases benefit the California water system in 
multiple ways?
    Answer. The Army Corps always considers its missions and the 
reservoirs' authorized purposes, including when updating water control 
manuals. The Corps works collaboratively with Federal and non-Federal 
partners to update water control manuals to identify and incorporate 
benefits for different missions, and Corps partners have opportunities 
to provide comments before any documents are finalized.
                       merced army corps project
    Question. Merced County, a rural county in California, has been 
struggling for years to complete project elements of the Merced Streams 
Group that was authorized in 1944. One major project element of the 
Merced Streams Group that is yet to be completed is a flood control 
system on the Black Rascal Watershed.
    It is my understanding that the project has remained stalled due 
scarce Federal resources, delays, and errors on the part of Corps 
district staff.
    In 2013, the Corps advised Merced County that it could use local 
dollars to move forward with a cost share agreement. In 2015, however, 
the Corps reversed its position and said only Federal funds could be 
used.
    Secretary Darcy, can you explain the current situation with Merced 
County and what needs to be changed to allow them to use local dollars 
to advance the project?
    Answer. Pursuant to the Corps' contributed funds authority (33 
U.S.C. 701h), the Corps may accept such funds only if Federal funds 
have been appropriated for the study. That has not occurred because 
studies elsewhere in the Nation were considered a higher priority for 
the available Federal funds. In addition, the proposed work was 
considered in formulation of the original Merced County project 
authorized by the Flood Control Act of 1944 (Public Law 78-534). It was 
not part of the recommended plan due to concerns involving impacts to 
federally listed species.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. Assistant Secretary Darcy, on February 11, 2016, I sent 
you a letter signed by 13 of my colleagues asking the Army Corps to 
finalize and publish implementation guidance for Section 2106 of the 
Water Resources and Development Act (WRRDA). WRRDA was signed into law 
in June 2014. This Subcommittee secured $25 million in funding for 
Section 2106 in the fiscal year 2016 Omnibus Appropriations bill. And 
yet, the Army Corps has still not completed implementation guidance. It 
is critical that this is done as soon as possible so that eligible 
ports have access to the appropriated funding and can maximize the 
effectiveness of Section 2106. When do you expect to issue guidance for 
Section 2106? Has the Army Corps met with eligible ports to understand 
how Section 2106 funds could be maximized on a port by port basis?
    Answer. The Corps expects to finalize implementation guidance for 
Section 2106 in the coming months. Individual Corps districts 
coordinated with eligible ports to determine how they would utilize the 
Section 2106 funds. In addition, the Corps Headquarters has been 
working to develop criteria to allocate those funds, in consultation 
with the American Association of Port Authorities. Corps Headquarters 
has also been consulting with U. S. Customs and Border Protection on 
how payments will be made to shippers and importers in those cases 
where ports elect to provide those payments.
    Question. Congress created Section 2106 so that donor ports and 
energy transfer ports can better address competitiveness by maintaining 
infrastructure through expanded uses and environmental remediation and 
by establishing a rebate program for importers and shippers to reduce 
cargo diversion to non-U.S. gateways. It is critical that the Army 
Corps provide ports the necessary flexibility to target the rebate 
program to cargo that is most at risk of diversion to non-U.S. ports. 
How will the Army Corps work with eligible ports to address cargo 
diversion? With respect to infrastructure improvements through expanded 
uses and environmental remediation projects, how will the Army Corps 
ensure eligible ports can define project parameters and contract the 
work themselves to ensure timely and cost effective project delivery?
    Answer. Section 2106 specifies that payments may be provided to 
importers entering cargo or shippers transporting cargo through that 
port. The Corps has no authority to provide ports the flexibility to 
target the rebate program to cargo that is most at risk of diversion to 
non-U.S. ports. The Corps will issue implementation guidance and work 
with the ports to define the process and infrastructure improvements 
under expanded uses and environmental remediation projects, whether the 
ports decide to perform the work themselves or have the Corps perform 
the work for them.
    Question. Washington State is the leading shellfish producing State 
in the Nation, employing over 2,700 people around the State, including 
in rural areas. The Army Corps, through the Seattle District, regulates 
the shellfish industry under Clean Water Act and Endangered Species Act 
authorities. In 2007, the Army Corps adopted Nationwide Permit 48 (NWP 
48) to permit existing shellfish farms, and an updated NWP 48 was 
adopted in 2012 to cover shellfish farms through March 2017. Since 2007 
and the initial NWP 48, Washington growers have submitted approximately 
1,000 requests for NWP 48 verification. I am very concerned by reports 
that none of these requests have been approved.
    The commercial shellfish industry contributes over $184 million 
annually to the Washington State economy, and shellfish are important 
economically and culturally to tribal and non- tribal harvesters. In 
all industries, including shellfish growing, certainty for participants 
is important for success. I understand that the Army Corps is working 
with Federal partners, including the National Marine Fisheries Service 
and U.S. Fish and Wildlife Service, to complete action on Endangered 
Species Act permitting requirements through a Programmatic Biological 
Assessment. Can you provide me with an update on when this process will 
be completed? How does the Army Corps plan to communicate with the 
regulated community as the Programmatic Biological Assessment is being 
finalized and once the regulations have been implemented on how they 
can obtain verifications?
    Answer. At this time, a Section 7 ESA consultation is underway 
between the Corps and the National Marine Fisheries Service and U.S. 
Fish and Wildlife Service (the Services) for aquaculture activities. 
This consultation is the result of several years of coordination among 
the Corps and the Services. Once this consultation is completed, many 
activities with pending requests for verification under NWP 48 may be 
verified. Any automatic verification of the pending projects before 
completion of this consultation would not be compliant with the 
Endangered Species Act or the ``endangered species'' general condition 
for the NWPs. Both the Services have indicated they will complete their 
consultations this spring.
    Question. I also understand the Army Corps is reviewing options to 
update regulations of shellfish growers under the Clean Water Act. As 
this effort continues and potential pathways are explored, can you 
share your plan for communication and engagement with interested 
stakeholders, including the State of Washington, Federal agencies, 
shellfish growers, and tribes? Increased transparency and communication 
with interested parties, including explanations of regulatory authority 
under the Endangered Species Act and Clean Water Act, are of great 
interest to me and I ask that you submit an update and expected 
timelines on these efforts to me in writing.
    Answer. Following receipt of the final Biological Opinions, the 
Corps' Seattle District intends to host an open house to explain to 
shellfish growers and all other interested parties the conditions of 
the Biological Opinions and the next steps for the pending 
applications.
    Question. The Amy Corps, through the Northwest Division, plays an 
important day-to-day role in implementing the Columbia River Treaty as 
a member of the U.S. Entity. The U.S. Entity engaged in a multi-year 
process with tribal nations and domestic stakeholders throughout the 
Pacific Northwest to reach a regional consensus to modernize the 
Columbia River Treaty. The ``Regional Recommendation for the Future of 
the Columbia River Treaty after 2024'' was presented to the 
Administration in December 2013, and the Administration has since 
developed a high-level consensus position for negotiations with Canada 
based upon these recommendations.
    Twice the entire Northwest Congressional Delegation wrote the 
Administration asking to begin formal negotiations with Canada. 
Unfortunately, we keep being told negotiations could begin soon and 
little progress has been made.
    Assistant Secretary Darcy, my constituents are greatly concerned 
about the impacts a change in Administration may have on these 
negotiations. I urge you to encourage the Administration to begin 
formal negotiation with Canada as soon as possible.
    Answer. The U.S. Army Corps of Engineers, Northwestern Division 
Commander, as a member of the U.S. Entity for the Columbia River 
Treaty, has informed the Department of State that the U.S. Entity is 
ready to support and assist in the negotiations with Canada on the 
future of the Columbia River Treaty.
    Question. Assistant Secretary Darcy, as we have previously 
discussed, the Mud Mountain Dam project is of great importance to me, 
my constituents, and Washington State. I appreciate the time and energy 
you have put into finding a path forward with NOAA to ensure the Army 
Corps meets its Endangered Species Act and tribal trust 
responsibilities by replacing the diversion dam and building a new fish 
trap facility.
    While I am pleased that the fiscal year 2017 budget request 
provides $22.35 million and a construction new start for Mud Mountain 
Dam, I firmly believe this project is not a new start. Similar projects 
have not been subject to this hurdle, for example the Columbia River 
Fish Mitigation and Missouri River Recovery Program projects. Replacing 
the old barrier structure and fish trap facility is a continuation of 
the Army Corps' Endangered Species Act and tribal trust 
responsibilities and are simply requirements to mitigate the original 
construction and ongoing operation of Mud Mountain Dam for flood 
control.
    Assistant Secretary Darcy, how is the Mud Mountain Dam project 
different than the Columbia River Fish Mitigation or Missouri River 
Recovery Program? Can you explain why a Biological Opinion which will 
bring an existing Army Corps project into compliance is a new start? 
Further, I ask that you work with me to ensure there are no funding 
gaps for this critical project if Congress passes a Continuing 
Resolution before a full-year fiscal year 2017 appropriations measure.
    Answer. Multiple construction actions have been occurring over 
numerous years on the Columbia and Missouri in an effort to mitigate 
the impacts of ongoing operation of Federal projects to threatened and 
endangered species and their habitat, while at Mud Mountain Dam the 
plan is to initiate new construction to replace a 100-year old 
facility. The Mud Mountain Dam was determined to be a new start due to 
the scope and cost of this new investment.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
    Question. After many years of strong support from the Army Corps, 
there was no funding for continuation of construction of the McCook 
Reservoir of the Chicagoland Underflow Plan in the Administration's 
fiscal year 2017 Budget. The project was authorized in 1988, and the 
Army Corps' own documentation since then shows that it has always been 
considered one flood protection project, and it has consistently 
received funding. The reservoir provides $100 million in annual 
benefits to 3.1 million people in 37 counties, including the City of 
the Chicago. It is 65 percent complete, and enjoys a three to one 
benefit cost ratio. Stopping construction of this project does not make 
sense.
    Why was funding discontinued in the President's budget? Will you 
commit to seeking its inclusion in the Army Corps' fiscal year 2017 
work plan?
    Answer. The 2016 Corps work plan added $5 million above the Budget 
level in order to provide the full amount that the Corps estimated it 
would need to complete ``Stage I'' of the McCook Reservoir project. The 
December 2011 consent decree with EPA and the Department of Justice 
requires the Metropolitan Water Reclamation District of Greater Chicago 
(MWRD) to ensure that the first of two McCook Reservoirs is in 
operation by December 31, 2017. The focus of the Corps funding to date 
has been to help MWRD meet its December 31, 2017 deadline by 
constructing part of the infrastructure called for in the consent 
decree. The Corps has now funded all of the authorized Federal share of 
that work, which will enable MWRD to collect and hold combined sewer 
overflow in this reservoir during a storm.
    The 2017 Budget does not include funding for ``Stage II'' of the 
McCook Reservoir project. Should the Congress provide additional 
funding for which this project would qualify, this project would be 
considered for funding in the 2017 Corps work plan along with other 
programs, projects, and activities across the Nation in competition for 
the available Federal resources.
    Question. Investment in flood prevention in the Metro East region, 
including protecting our levees, is vital to protecting Metro East 
communities.
    Will the Assistant Secretary commit continued open dialogue with 
the local Flood Prevention District? Will the Assistant Secretary 
commit to providing regular updates to me or my staff as they happen?
    Answer. The Metro East levee system consists of 75.8 miles of 
levees located in Madison, St. Clair, and Monroe Counties in Illinois. 
The Corps is working on this project with the Southwestern Illinois 
Flood Protection District Council (FPD) and the local levee districts 
to reduce the risk of under-seepage at these levees. The Corps welcomes 
the views of all interested parties, including the FPD, the local levee 
districts, and the public. Should the FPD or the local levee districts 
have any questions or concerns, they may contact the Corps at the 
district office, division, or headquarters levels, or my staff. The 
Corps provides periodic updates to my office on this project. I would 
be happy to work with you and your staff as well, in order to help keep 
you informed of the project status.
                                 ______
                                 
      Questions Submitted to Lieutenant General Thomas P. Bostick
             Questions Submitted by Senator James Lankford
    Question. Section 1024 of WRRDA provides that the Corps can accept 
materials and services from a non-Federal entity in an emergency 
situation if the Secretary deems it to be in the public interest. 
Considering maintenance needs of Corps assets system-wide, this would 
seem to be a good opportunity to leverage stakeholder resources. It is 
my understanding that this section has not yet been implemented.
    Does the Corps have draft implementation guidelines yet? Could we 
have a copy?
    Answer. The Corps is currently preparing implementation guidance 
for Section 1024 of WRRDA 2014.
    Question. Has this information been shared with stakeholders that 
depend on waterway systems to ensure it is workable from the private 
partner perspective?
    Answer. The Corps has discussed this provision with interested 
stakeholders. Their input is being taken into consideration during the 
preparation of the implementation guidance.
    Question. How does the Corps interpret ``emergency''? With 
substantial maintenance needs across the system, it is very possible 
that failures could occur outside of a situation in which there is an 
emergency declaration. Would these types of failures be eligible for 
private repair funding?
    Answer. Section 1024 authorizes the acceptance of materials and 
services to repair, restore, or replace a water resources development 
project that has been damaged or destroyed as a result of an emergency. 
Section 1024 is not limited to situations where there has been an 
emergency declaration by the President.
    The Corps does not view Section 1024 as allowing the Corps to 
accept services or materials to address general repair and maintenance 
needs. However, the Corps is authorized under 33 U.S.C. 701h to accept 
contributed funds from non-Federal public entities and from nonprofit 
entities, with the consent of the affected local Government, for that 
purpose.
    Question. Has the Corps settled how to handle issues regarding who 
liable for damage or injuries caused during emergency repairs using 
private funds? Do you have all the authority you need to settle 
questions over liability and licensing?
    Answer. Yes, we have all the authority needed to resolve questions 
over liability and licensing. Based on discussions with stakeholders, 
we expect to be able to address this concern.
    Question. What is the timeline for having guidelines in place and 
allowing private partners to assist with emergency repairs?
    Answer. This guidance is being developed and we anticipate issuing 
it later this year.
    Question. Stakeholders in Oklahoma have expressed an interest in 
allowing assets to be used by the Corps at no cost, but have been told 
that regulations prohibit them from accepting use of resources. For 
instance, private entities may have a dredge that they would like to 
offer to the Corps to use upon request. What is the rationale for not 
accepting this assistance?
    Answer. In general, the Corps needs specific authority to use 
equipment being provided at no cost, rather than obtaining such 
equipment using Federal procurement authorities and regulations. We 
anticipate the Corps would in many cases be able to accept and use a 
dredge provided for the purpose of repairing or restoring a project 
damaged or destroyed as a result of an emergency under Section 1024, 
but cannot answer more specifically until the implementation guidance 
is issued.
    Question. In the 2014 reauthorization of the Water Resources Reform 
and Development Act (WRRDA), Congress included a provision requiring 
the Corps to conduct an assessment of all of their properties to 
determine which are ``not needed for the mission of the Corps of 
Engineers'' (Section 6002). The intent of this language was to assess 
how Congress could help unburden the Corps from the considerable 
backlog in maintenance needs.
    In the hearing, it was stated that the Corps has not yet started 
this assessment. When will this task be undertaken? When can we expect 
to see the draft report? When can we expect to have the final report?
    Answer. Implementation guidance for Section 6002 of WRRDA 14 was 
issued on August 7, 2015. The Corps periodically reviews the need for 
the Federal properties at its projects and uses existing property 
disposal methods for those properties if they are no longer needed to 
accomplish the agency mission. These efforts are ongoing.
    Question. The Corps has previously shared that the disposal process 
for unneeded properties is so cumbersome and costly that it is often 
easier and less expensive in the short run to simply maintain unneeded 
assets. Would granting the Corps disposal authority independent of GSA 
assist in making the disposal process more manageable? What does the 
Corps need from Congress to be able to divest of unneeded assets in a 
cost-effective manner?
    Answer. Generally, GSA is responsible for the disposal of real 
property that is no longer mission-critical to Federal agencies. This 
authority works well for land and general use improvements. In some 
cases, the Corps will seek to dispose of lands associated with a 
project as part of an effort to deauthorize the project. In those 
cases, the Corps generally would perform a study and seek 
deauthorization of the project prior to submitting the disposal package 
to GSA. These studies evaluate environmental concerns, safety concerns 
and the concerns of non-Federal interests. New processes are now in 
place to reduce the time required to fund, study and make 
recommendations as appropriate addressing the proposed end state of the 
project. To further reduce the timeline, future studies will include a 
recommended disposal plan, where feasible, for Congressional 
consideration.The 2016 Corps work plan and the 2017 Budget included 
funding for studies on the disposition of assets that no longer have a 
strong Federal interest; the Corps has completed the first of these 
studies and is preparing to start five more in 2016.
    Question. The Corps was directed to produce a list of at least $18b 
in projects that are eligible for deauthorization because a significant 
amount of time has lapsed without getting funded. This list was 
produced in October of last year and found a sizable--$14b--amount of 
old, unfunded projects. An earlier report from GAO found that the Corps 
does not have written guidance for their districts requiring them to 
track studies and projects that have been authorized but not funded, 
leading to incomplete information regarding projects that may be 
eligible for deauthorization.
    Has the Corps provided a written policy for districts to follow 
regarding cataloging all authorized projects and studies? If it has 
not, when will an internal policy setting how to track this information 
be set? Will the Corps then reassess the deauthorization list?
    Answer. Yes, the Corps provided written implementation guidance to 
its divisions and districts for Sections 6001 of the Water Resources 
Reform and Development Act of 2014 and Section 1001 (b )(2) of the 
Water Resources Development Act of 1986, as amended. The Corps is 
developing an authoritative database for authorized projects and will 
use it to provide the Backlog Report and annual Minimum Funding Lists 
in accordance with Section 6001. As projects are identified for 
deauthorization eligibility they will be included in future annual 
deauthorization processes consistent with amendments to Section 1001 
(b)(2).
    The Corps is currently developing written guidance for 
deauthorizing studies in accordance with Section 710 of WRDA 1986, and 
is developing an authoritative database of studies to support this 
effort.
    Question. Does the list published in the Federal Register in 
October 2015 reflect information gathered from all of the districts?
    Answer. Yes, the list published in the Federal Register in October 
2015 reflects information gathered from all of the Corps districts.
                                 ______
                                 
                Questions Submitted to Estevan R. Lopez
            Questions Submitted by Senator Richard C. Shelby
    Question. Please explain why the Bureau of Reclamation 
(Reclamation) did not require any new data in 2004, when it changed the 
Technical Memorandum and currently does not require data regarding the 
performance of steel water pipe or ductile iron pipe with bonded 
dielectric coatings in highly corrosive soils but requires significant 
data regarding other corrosion protection methods for ductile iron 
pipe.
    Answer. Reclamation prepared the Technical Memorandum (TM) in 
response to Congressional direction received in 2003 (H.R. REP. NO. 
108-212, at 106) (2003),\1\ and it was first published in 2004. The 
data as well as the recommendations in the TM encompass all types of 
buried metallic pipe. Reclamation's technical staff reviewed and 
evaluated industry standards, national consensus standards, independent 
engineering studies, and performance data from Reclamation projects as 
well as other Federal and non-Federal pipeline owners and water 
utilities. Reclamation also met with representatives from the Ductile 
Iron Pipe Research Association (DIPRA) in May of 2003 and January of 
2004 to discuss technical issues and literature regarding corrosion 
mitigation of ductile iron pipe prior to publication of the TM. 
Reclamation also indicated that any other information DIPRA wished to 
provide would be welcomed.
---------------------------------------------------------------------------
    \1\ The relevant text from the House Report states: ``The Committee 
is concerned that the Bureau of Reclamation is not adhering to its 
guidelines, described in the ``Corrosion Prevention Criteria and 
Requirements'', with respect to the use of ductile iron pipe and steel 
pipe. With respect to both products, the Bureau of Reclamation should 
be attempting to establish good engineering practices which address the 
long-term value and cost effectiveness of facilities constructed over 
time. The Committee recognizes that additional work is needed to 
develop a more definitive corrosion standard on which to decide the 
best product for a particular application. Accordingly, the Committee 
directs the Commissioner of Reclamation to conduct a study on the 
current corrosion criteria and to report to the Committee on 
Appropriations by March 1, 2004, on its recommendations for a more 
definitive standard. Until a more appropriate standard is in place, 
which reflects the basic principle of long-term cost effectiveness, the 
current criteria should continue to be used.''
---------------------------------------------------------------------------
    Reclamation evaluated the technical content of the available 
literature, the thoroughness of the analyses, the reasonableness of the 
conclusions, and finally, the likely objectivity of the author(s). 
Reclamation then used its best technical judgment to perform what we 
believe is a balanced assessment of the available information and to 
develop a reasonable set of recommendations designed to meet 
Reclamation's 50-year minimum project service life.
    During this evaluation, Reclamation found a number of respected 
studies which raised significant technical concerns regarding corrosion 
under unbonded dielectric coatings, including polyethylene encasement 
(PE). Reclamation also found that the effectiveness of PE had been the 
subject of debate within the pipeline and corrosion industries for 
years and that the results of engineering studies on the subject differ 
widely. In addition, Reclamation found that many professionals in these 
industries question the effectiveness of a cathodic protection system 
to counter the effects of corrosion under intact PE.
    As a result of that review, Reclamation concluded that many 
corrosion engineers believe that buried pipes, which need a high level 
of corrosion protection, should have a bonded dielectric coating and 
cathodic protection. This conclusion is supported by the National 
Association of Corrosion Engineers' (NACE) International Standard 
Practice SP0169 ``Control of External Corrosion on Underground or 
Submerged Metallic Piping Systems''.
    During its evaluation of these analyses and data, Reclamation 
balanced these technical concerns against the relatively good 
performance record of ductile iron pipe with PE and recommended the use 
of PE on all sizes of ductile iron pipe in all but the most severely 
corrosive environments (i.e. soil resistivity  2000 ohm-cm). In those 
severely corrosive environments, bonded dielectric coating and cathodic 
protection (CP) was recommended for all metallic pipe types (including 
ductile iron pipe).
    Based on this work, Reclamation prepared a draft of the current TM 
and sought review from a variety of sources. Reclamation employed a 
Consultant Review Board (CRB) to conduct an independent technical peer 
review of Reclamation's draft TM. To staff the CRB, Reclamation 
contracted with two private sector corrosion engineers from CH2M Hill 
and Schiff and Associates, as well as a materials scientist with the 
National Institute of Standards and Technology (NIST). In addition, a 
contract was issued for two additional materials scientists with NIST 
to serve as independent ``referees'' to evaluate the three reviewers' 
conclusions. After incorporating the CRB's input, the updated draft TM 
was sent out for Reclamation-wide review in May, 2004.
    In July, 2004, Reclamation met with representatives of DIPRA to 
discuss the Design Decision Model (DDM) for selection of a corrosion 
control system on ductile iron pipe which DIPRA had developed in 
concert with CORRPRO (a large corrosion control company). Reclamation's 
process to evaluate the information in DIPRA's presentation was the 
same process used to evaluate all other technical reports we reviewed 
in preparation of the TM (i.e., Reclamation evaluated the technical 
content of DIPRA's presentation, the thoroughness of the analyses 
presented, the reasonableness of the conclusions, and finally, the 
likely objectivity of the author(s)). The comments from the 
Reclamation-wide review and DIPRA's input were incorporated, and the TM 
was finalized later in July, 2004.
    Reclamation has remained actively engaged in this issue since the 
2004 TM was issued. We continue to monitor technical literature on this 
subject and actively seek additional viewpoints from other 
organizations. Through these efforts, we have discovered many other 
organizations have concerns with the use of PE on ductile iron pipe. 
These organizations include non-Federal water resource agencies and 
other Federal agencies such as the Department of Transportation (DOT), 
Department of Defense, the Environmental Protection Agency, and the 
U.S. Army Corps of Engineers. Reclamation continuously seeks 
information on this issue by having its technical staff serve on 
national technical society committees such as the American Water Works 
Association (AWWA) Standards Committee A21 ``Ductile Iron Pipe'' and 
the NACE International Task Group 014 ``Corrosion and Corrosion Control 
for Cast-and Ductile-Iron Pipe.''
    In the judgment and expertise of Reclamation, the technical 
positions outlined in the TM are fundamentally sound and represent a 
reasonable position in light of the available data, industry standards 
and practice, and scientific understanding of the issues. The 2008-2009 
National Academy of Science's (NAS) review of the TM concluded that 
ductile iron pipe with PE and CP is not likely to provide a reliable 
50-year service life in severely corrosive soils ( 2,000 ohm-cm) and 
bonded dielectric coating with CP would be more effective. In reaching 
this conclusion, the committee evaluated data from all sources, 
including the DOT data provided by Reclamation and the data and 
analysis provided and presented by DIPRA.
    The NAS report confirms Reclamation's concern with the durability 
of ductile iron pipe with polyethylene encasement and cathodic 
protection installed in severely corrosive soils. Also, while the NAS 
committee could not assure that Reclamation's recommended corrosion 
protection system (bonded dielectric coating with cathodic protection) 
would provide a reliable 50-year service life for ductile iron pipe 
installed in these soils, the report does state that this system 
substantially improves the chances of achieving this level of 
reliability.
    Reclamation agrees the collection of additional performance data 
recommended by the NAS committee will be beneficial as the agency seeks 
to refine its technical position in an updated TM. Reclamation has 
awarded a Grant Agreement to collect and compile water pipeline field 
performance data to Virginia Polytechnic Institute and State University 
(Virginia Tech). This agreement has a completion date of December 31, 
2017.
    During a July 2015 meeting between Reclamation, and representatives 
from the ductile iron pipe industry, DIPRA proposed that Reclamation 
change its corrosion prevention criteria for ductile iron pipe in soils 
having resistivity values equal to or less than 2,000 ohm-cm from 
bonded dielectric coating and cathodic protection, to a zinc 
metallizing with enhanced polyethylene encasement (V-BIO) and cathodic 
protection. Following the meeting, DIPRA provided several documents to 
support their position that their proposal would perform well in 
severely corrosive soils.
    Reclamation's review of the submitted data focused on ascertaining 
the data covering field performance of zinc coated ductile iron pipe in 
severely corrosive soils. However, the majority of the supplied data 
was in reference to the use of conventional polyethylene encasement to 
protect ductile iron pipe in corrosive soils. Of the few documents 
submitted in support of zinc coated pipe, the majority of them were 
very old references published in the 1970s and 1980s that provided 
limited performance data. Also, none of the documents addressed the 
long-term performance of enhanced PE (V-BIO), and none addressed the 
performance of the proposed combination of zinc metallizing, V- BIO, 
and cathodic protection. Based on this review, Reclamation concluded 
that while zinc or zinc with PE may provide some improvement over bare 
pipe or pipe with PE wrap alone in some soils, there is no evidence 
that this system will provide the same level of long term protection as 
a bonded dielectric coating with cathodic protection in severely 
corrosive soils.
    The fiscal year 2016 Consolidated Appropriations Act (PL 114-113) 
directed Reclamation to contract with one of the Department of Energy's 
(DOE) national laboratories with expertise in materials and corrosion 
disciplines to develop performance data for zinc-coated ductile iron 
pipe applications in highly- or severely-corrosive soils. The 
laboratory will also independently evaluate and recommend, based on the 
performance data and any other relevant data or information the 
laboratory may obtain, whether the material meets the corrosion 
protection requirements in the TM. On May 11, 2016, Reclamation awarded 
an Interagency Agreement to DOE's Oak Ridge National Laboratory to 
perform this study.
    Question. Is it Reclamation's position that data is not required 
for a method of corrosion protection if there is a national or 
international standard for that method of corrosion protection?
    Answer. Yes, Reclamation uses national consensus standards to guide 
its technical decisions where the use of those standards is 
practicable. Where those standards do not exist, do not address 
Reclamation's technical needs, or conflict, Reclamation develops its 
own internal technical documents to guide the development of designs 
for Reclamation designed and/or funded projects. It is Reclamation's 
position that methods and practices contained in a national standard 
have more weight than methods that are provided for information only 
and specifically identified as not being a part of the national 
standard.
  --For example: The NACE International Standard Practice SP0169, 
        ``Control of External Corrosion on Underground or Submerged 
        Metallic Piping Systems,'' presents acknowledged practices for 
        the control of external corrosion on buried or submerged steel, 
        cast iron, ductile iron, copper, and aluminum piping systems. 
        Section 5.1.2.3 states: ``Pipeline external coating systems 
        shall be properly selected and applied to ensure that adequate 
        bonding is obtained. Unbonded coatings can create electrical 
        shielding of the pipeline that could jeopardize the 
        effectiveness of the CP system.'' (PE is an unbonded 
        coating.)The AWWA Standard C105 ``Polyethylene Encasement for 
        Ductile- Iron Pipe Systems'' is a material and installation 
        standard. Appendix A of that document provides a method to 
        determine if PE should be used for corrosion protection of 
        ductile iron pipe systems, butis specifically identified as not 
        a part of the ANSI/AWWA C105/A21.5 standard.
    Question. Based upon significant concerns, Congress has included 
directives to Reclamation for 5 years regarding its Technical 
Memorandum. Among the concerns are that Reclamation is holding 
different materials to different standards and increasing project 
costs. In addition, Congress noted in the fiscal year 2014 Consolidated 
Appropriations Act Explanatory Statement for Energy and Water that 
``[y]et another claim that Reclamation has always been in compliance 
and no changes are necessary is not a satisfactory response.'' Please 
provide the changes that Reclamation has made in the implementation of 
the Technical Memorandum and in the treatment of different materials to 
address these concerns.
    Answer. The TM's corrosion control recommendations for both steel 
and ductile iron pipe in severely corrosive soils are the same--bonded 
dielectric coating with CP.
    Reclamation uses the Technical Memorandum as a starting point for 
its decisions relative to the corrosion protection of buried metallic 
pipe, but it considers other factors and resources for its technical 
decisions related to corrosion protection. Reclamation relies on site-
specific design data such as soil chemistry, national standards (e.g. 
NACE SP0169 and ANSI/AWWA C105/A21.5), and engineering judgment to 
guide decisions on the design of corrosion mitigation measures for 
Reclamation's buried metallic pipelines. The appropriate usage of the 
TM was reinforced by a February 24, 2010 memorandum from Reclamation's 
Deputy Commissioner--Operations to Reclamation's Leadership Team.
    To allow additional flexibility in the application of the TM, 
Reclamation policy provides a process by which a deviation from design 
criteria and engineering and technical standards can be vetted and 
approved by the local Reclamation executive. This process, as it 
relates specifically to requests to deviate from the corrosion 
mitigation design criteria in the TM, was clarified by a March 13, 2015 
memorandum from Reclamation's Deputy Commissioner--Operations to 
Reclamation's Leadership Team.
    Question. Please list any and all standards of evaluation 
(viability, betterment, etc.) that Reclamation has used to evaluate the 
various materials and methods of corrosion control in the Technical 
Memorandum from 2003 until today. Please provide the year, standard and 
type of material/corrosion protection.
    Answer. Reclamation does not use a ``betterment'' standard for 
corrosion control of buried metallic pipe. Reclamation has identified a 
target performance level of zero external corrosion induced leaks/
ruptures/failures which would require the pipeline to be taken out of 
service during the minimum service life (i.e. 50 years) for the 
pipelines Reclamation designs and/or funds. Reclamation believes that 
the target performance level is reasonable in light of the types of 
pipelines that it typically constructs, but one which may not always be 
achieved due to a variety of factors including unseen imperfections and 
the number of variables involved with pipe installation in the field. 
The materials used and the type of corrosion protection needed varies 
depending on design parameters and soil conditions in the installation 
area.
    Question. Please provide any and all performance standards that 
Reclamation has used to evaluate the various materials and methods of 
corrosion control in the Technical Memorandum from 2003 until today. 
Please provide the year, standard and type of material/corrosion 
protection.
    Answer. Reclamation has identified a target performance level of 
zero external corrosion induced leaks/ruptures/failures which would 
require the pipeline to be taken out of service during the minimum 
service life (i.e. 50 years) for the pipelines Reclamation designs and/
or funds. Reclamation believes that the target performance level is 
reasonable in light of the types of pipelines that it typically 
constructs, but one which may not always be achieved due to a variety 
of factors including unseen imperfections and the number of variables 
involved with pipe installation in the field. The materials used and 
the type of corrosion protection needed varies depending on design 
parameters and soil conditions in the installation area.
    Question. Reclamation has acknowledged that some adjustment is 
necessary for the performance figures for ``significant incidents'' for 
oil and gas pipelines in soils of unknown corrosivity in the 2008 
National Academies of Science report to provide a more accurate 
comparison with ductile iron water pipe with polyethylene encasement in 
highly corrosive soils. Please provide those adjustments and the basis 
for those adjustments.
    Answer. The noted text is taken from Section 4 of the 2009 NAS 
Report which concluded that ductile iron pipe with PE and CP is not 
likely to provide a reliable 50-year service life in severely corrosive 
soils ( 2,000 ohm-cm) and a bonded dielectric coating with CP would be 
more effective. At the start of the NAS Committee's deliberations, they 
asked Reclamation to provide a quantitative benchmark against which 
they could measure the performance of ductile iron pipe installed in 
severely corrosive soils with PE and CP, in lieu of Reclamation's 
stated target performance level of zero external corrosion induced 
leaks/ruptures/failures which would require the pipeline to be taken 
out of service during the minimum service life (i.e., 50 years).
    Specifically they asked if Reclamation would accept a similar 
failure rate for ductile iron pipe installed in severely corrosive 
soils with PE and CP, as they would get from steel pipe installed in 
severely corrosive soils with a bonded dielectric coating and CP. 
Reclamation responded that this would be a reasonable benchmark which 
led to the NAS Committee requesting information on Reclamation's 
experience related to the performance (i.e., failure rates) of steel 
pipe installed in severely corrosive soils, with a bonded dielectric 
coating, and cathodic protection. In response to this question, 
Reclamation conducted a review of available data on Reclamation's and 
other organizations' pipelines.
    During this review, Reclamation reached out to the U. S. Department 
of Transportation (DOT), Pipeline and Hazardous Materials Safety 
Administration, Office of Pipeline Safety, to see if they had the 
quantitative performance data requested by the Committee. Reclamation 
acknowledges that this data was related to steel pipelines carrying 
materials other than water, but believes the causes and rates of 
external corrosion and protection against such corrosion are the same 
regardless of the product being carried. Reclamation therefore 
concluded that the DOT database was the best source of quantitative 
data on this issue at that time.
    Reclamation focused their review of the significant incidents 
tracked in the database to those pipelines that most closely matched 
the Committee's interest (i.e., coated steel pipe installed with 
cathodic protection) and, like most of Reclamation's projects, were 
transmission lines versus smaller distribution lines. Reclamation also 
limited their review to significant incidents that were caused by 
external corrosion. Focusing on this subset of data within DOT's 
database, Reclamation was able to compute an average annual failure 
rate for these pipelines of 0.0000444 failures per mile per year (based 
on about 93,000 miles of installed steel pipe). Using the results of 
this analysis, a 450-mile long steel pipeline installed with coating 
and cathodic protection could be expected to experience one failure due 
to external corrosion during the first 50 years of service.
    The DOT database does not include information on the soil 
conditions in which the pipelines are installed, so Reclamation was not 
able to further screen the data to include only pipe installed in 
severely corrosive soils. At that time, Reclamation noted that it was 
not able to quantify the impact this issue would have on the calculated 
performance data noted above, but some adjustment to the computed 
failure rate may be warranted to compensate for this uncertainty in 
soil conditions across the data set. However, as Reclamation also 
noted, even with an adjustment to the computed failure rate, it 
believed the analysis supported their original response to the 
Committee's question of what Reclamation defines as reliably providing 
a minimum service life of 50 years for our pipelines.
    The data gathering and analyses currently being planned pursuant to 
the grant agreement awarded to Virginia Tech to collect and compile 
water pipeline field performance data should provide more useful data.
    Question. Please explain why Reclamation used the performance of 
oil and gas pipelines in soils of unknown corrosivity as a proxy for 
the performance of steel water pipe in highly corrosive soils in a life 
cycle analysis when Reclamation had data regarding steel water 
pipelines in highly corrosive soils at the time it used the oil and gas 
data.
    Answer. The life cycle analysis was conducted in August 2009 using 
best available data at the time. As stated in Commissioner Connor's 
letter to DIPRA dated January 29, 2010, ``Our analysis showed the 
present worth of these additional capital costs for CP along with the 
additional OM&R costs associated with long term operations of the CP 
system was about 5 percent of the total project cost. Thus, the life 
cycle cost of a cathodically protected ductile iron pipeline with 
polyethylene encasement was about 5 percent higher than the life cycle 
cost for a similarly protected steel pipeline with a bonded dielectric 
coating. A summary of these analyses is shown in Attachment 3.'' 
Referring to Attachment 3, Scenario 3 which removes pipe repair costs 
from the analysis, the life cycle cost of a cathodically protected 
ductile iron pipe with polyethylene encasement was calculated to be 4.7 
percent higher than the life cycle cost for a similarly protected steel 
pipe with a bonded dielectric coating. Reclamation's conclusion from 
their life cycle analysis is independent of pipe repair costs.
    The data gathering and analyses currently being planned pursuant to 
the grant agreement awarded to Virginia Tech to collect and compile 
water pipeline field performance data will provide the foundation for 
assessing life cycle costs on a broader basis.
    Question. In the same life cycle analysis, Reclamation used the 
failure of one ductile iron water pipeline in highly corrosive soils as 
a proxy for the performance of ductile iron pipe in highly corrosive 
soils when Reclamation had aggregate data regarding ductile iron 
pipelines in highly corrosive soils. Why did Reclamation use the single 
data point instead of the aggregate data?
    Answer. The life cycle analysis was conducted in August 2009 using 
best available data at the time. As stated in Commissioner Connor's 
letter to DIPRA dated January 29, 2010, ``Our analysis showed the 
present worth of these additional capital costs for CP along with the 
additional OM&R costs associated with long term operations of the CP 
system was about 5 percent of the total project cost. Thus, the life 
cycle cost of a cathodically protected ductile iron pipeline with 
polyethylene encasement was about 5 percent higher than the life cycle 
cost for a similarly protected steel pipeline with a bonded dielectric 
coating. A summary of these analyses is shown in Attachment 3.'' 
Referring to Attachment 3, Scenario 3 which removes pipe repair costs 
from the analysis, the life cycle cost of a cathodically protected 
ductile iron pipe with polyethylene encasement was calculated to be 4.7 
percent higher than the life cycle cost for a similarly protected steel 
pipe with a bonded dielectric coating. Reclamation's conclusion from 
their life cycle analysis is independent of pipe repair costs.
    The data gathering and analyses currently being planned pursuant to 
the grant agreement awarded to Virginia Tech to collect and compile 
water pipeline field performance data will provide the foundation for 
assessing life cycle costs on a broader basis.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
    Question. Commissioner Lopez, I am concerned that Reclamation has 
pumped less water in 2016 during this El Nino year than it did in 2015, 
when California was in extreme drought. Flows were as high as 50,000 
cubic feet per second in the Sacramento River, yet the agencies reduced 
pumping to the low-end of the biological opinions because of one smelt.
    I continue to hear that water pumping decisions are still being 
based on when protected fish might be near the pumps rather than when 
we know they actually are present. For example, Interior may reduce 
pumping if even one smelt is found as far away as 17 miles from the 
pumps near a monitoring station called Prisoner's Point.
    But outside biologists and scientists believe that Reclamation is 
reducing pumping prematurely. These experts believe that the agencies 
could continue with higher pumping levels even if smelt are found at a 
monitoring station that is only 12 miles from the pumps.
    What are you doing to test whether or not smelt identified past the 
Prisoner's Point monitoring station can still survive and make their 
way back out to the central Delta?
    Answer. Addressing this issue is challenging and would require 
tagging and marking studies similar to those conducted on salmonids. 
Until very recently, tags small enough to use in smelt have not been 
available/tested. The use of such technology to evaluate the movements 
of wild or other smelt in the Delta is needed, but as far as we are 
aware is in the planning stages only.
    Reclamation is participating in efforts to apply this technology to 
the study of smelt movement and survival in the southern Delta. 
Projects stemming from the following proposal are ongoing with some of 
the work soon to be published in a leading journal:

    Assessing Tagging-Related Mortality and Tag Retention in Adult 
        Delta smelt to Support Field Investigations in Clifton Court 
        Forebay and the Skinner Fish Facility (Grimaldo et al.--SFCWA 
        Research Grant Proposal)

    Due to the threatened and endangered status of the salmonid species 
in the Delta, most tagging/marking studies involving salmonids use 
hatchery produced specimens and not wild fish. The Delta smelt 
population is currently not augmented via hatchery-produced specimens. 
In addition, the use of wild smelt for such studies would be 
problematic due to the endangered status of the species and its 
population levels, which are currently at an all-time low. Efforts to 
identify individual wild fish by unique physical markings and 
characters are ongoing and may have applicability to Delta smelt in the 
future.
    Question. If you aren't doing this monitoring, can you start doing 
it with some of the $100 million in drought funding from December's 
Omnibus appropriations bill?
    Answer. If the monitoring work is conducted during fiscal year 
2017, current drought funding could be used to fund studies focused on 
developing and applying methods to determine smelt movements and 
survival in the southern Delta. Efforts are being made in this area.
    Question. What is the Bureau of Reclamation doing to address other 
threats to smelt, such as ammonia from sewage discharges and predation 
by other species?
    Answer. Since 2010, Reclamation funded studies that address ammonia 
loading and its potential effects on Delta smelt and the Delta 
ecosystem. There is no evidence of acute ammonia toxicity to Delta 
smelt or any other fish in the Delta. Some studies indicate the 
possibility of chronic effects in larval Delta smelt and their copepod 
prey when exposed to high concentrations under laboratory conditions. 
Some earlier research suggested that ammonium may inhibit diatom 
production in Suisun Bay under certain combinations, but recent does 
not support this hypothesis. Ammonium, may degrade delta smelt habitat 
by favoring Microcystis, a potentially toxic form of phytoplankton. The 
Sacramento regional wastewater treatment facility, one of the sources 
of ammonium loading to the Delta, is upgrading its plant to advanced 
tertiary treatment methods and completion is expected by 2020. This 
action will eliminate almost all of its contribution to Delta ammonium 
loading.
    Predation is a common natural interaction within ecologic 
communities and occurs at some level for a multitude of fish species. 
Reclamation continues to support research related to predation, 
including several specifically focused on predation of Delta smelt.
    Question. How is the Bureau of Reclamation working with other 
Federal agencies, like National Oceanic and Atmospheric Administration 
(NOAA) Fisheries and Fish and Wildlife Service, to develop and 
implement system-wide capabilities to monitor and track fish migrations 
into and out of the Delta?
    Answer. Reclamation has and continues to provide funding to NOAA 
Fisheries and the Fish and Wildlife Service (FWS) to monitor and track 
ESA-listed fish species, both in and out of the Delta. Reclamation 
continues to work with a consortium of multiple agencies (including 
NOAA Fisheries and FWS) within the framework of the Interagency 
Ecological Program and beyond to monitor and track fish in the Delta. 
Over twenty separate monitoring activities within this program occur 
year-round, but with increased effort from fall through early summer.
    Beyond their ongoing tracking, Reclamation has provided FWS with 
$3.8 million this year to fund additional studies, including whether 
the viability measuring point can be moved from the current 17 mile 
marker at ``Prisoner's Point.'' This study will take several years. To 
date, however, FWS maintains the measuring point at ``Prisoner's 
Point.''
    Additionally, Reclamation's Tracy Fish Collection Facility has one 
of the most extensive long- term monitoring programs within the Delta, 
sampling every 2 hours on a continual basis. Monitoring and sampling 
activities include fish (covering the full range of life stages), water 
quality parameters and genetic material.
    Question. How is the Bureau of Reclamation working with other 
Federal agencies, like NOAA Fisheries and Fish and Wildlife Service, to 
research and evaluate the impacts of Delta operations on fish behavior 
and potential mortality?
    Answer. Reclamation continues to work with a consortium of multiple 
agencies (including NOAA Fisheries and FWS) within the framework of the 
Interagency Ecological Program (IEP). The IEP provides relevant and 
timely ecological information for management of the Bay-Delta ecosystem 
and the water that flows through it. Priorities within the program 
include:
  --Improving the understanding of abundance, distribution, life 
        history diversity, and life stage requirements of Delta smelt, 
        longfin smelt, salmonids, steelhead and green sturgeon to 
        inform management decisions.
  --Improving smelt, salmonid and sturgeon real-time monitoring, 
        indirect mortality, and entrainment prediction tools to reduce 
        take and increase operational flexibility of the State and 
        Federal water project pumps.
  --Improving chinook and steelhead viability in the Delta with an 
        initial emphasis on south Delta salmon survival through studies 
        and modeling.
  --Understanding the factors impairing water beneficial uses to inform 
        management decisions.
    Reclamation has supported a number of studies on juvenile salmonid 
survival in relation to Delta operations. These studies include:
  --A 6 year fish tracking and monitoring study of San Joaquin 
        steelhead survival (called for in NOAA Fisheries biological 
        opinion).
  --Fish tracking and monitoring studies of juvenile Chinook movement 
        in relation to Delta Cross Channel operations (with FWS and the 
        U. S. Geological Survey (USGS)).
  --Physical and non-physical barrier studies at Head of Old River and 
        Georgiana Slough (with the California Department of Water 
        Resources and USGS).
  --Chinook salmon survival studies based on coded wire tag recoveries 
        (with FWS).
    The majority of projects are coordinated with NOAA Fisheries and 
FWS with multiple project work teams (Chinook salmon, smelt, sturgeon, 
steelhead, delta rearing, Sacramento River monitoring, hatchery, and 
collaborative adaptive management team) and the Delta Operations groups 
continuously seeking ways to understand fish behavior, mortality and to 
improve survival.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. Commissioner Lopez, farmers in the Odessa Subarea of the 
Columbia Basin Project have faced significant challenges for several 
years as groundwater from the aquifer has been declining. This rapid 
decline has put agriculture production and commercial, municipal, and 
industrial water uses at risk. According to a study conducted by 
Washington State University, $840 million and 3,600 jobs are at risk if 
agriculture producers in the Odessa Subarea no longer have access to 
groundwater from the aquifer and no alternative water solution is in 
place.
    I appreciate your ongoing work with the State of Washington and the 
three impacted irrigation districts to prevent further depletion of the 
Odessa Subarea aquifer and deliver much needed surface water to 
agricultural lands within the Columbia Basin Project. Renewing the 
Master Water Service Contract with the East Columbia Basin Irrigation 
District (ECBID) last year was a significant milestone in this process. 
This will ensure ECBID can move forward with the development of the 
first of seven planned pressurized delivery systems to provide surface 
water to 87,700 acres of the Odessa Subarea in the Columbia Basin 
Project.
    I understand that additional amendments to the Water Service 
Contract are needed for 70,000 acres within the Odessa Subarea. What is 
the current status of this amendment and when do you expect it to be 
completed?
    Answer. Work on the amendment to the Master Water Service contract 
is in progress. Evaluation of the existing annual water service rate 
and completion of the rate-setting process are underway. Reclamation 
completed a draft payment capacity study in March 2016 and received 
comments from the irrigation districts in May 2016. Reclamation is 
reviewing the districts' comments and finalizing this study, which is 
needed to complete an ability to pay study. Reclamation has several 
other actions to complete as part of this process, including 
environmental compliance, reviewing land eligibility, completing a 
basis of negotiation, preparing the contract amendment, and negotiating 
the contract with ECBID. Additionally, Reclamation is required to 
provide a 60-day public notice prior to contract execution. We expect 
this process to be complete by the end of calendar year 2016.
    Question. Are you aware of any challenges that may delay completion 
of this work?
    Answer. We do not expect any delays. Unanticipated factors, 
including litigation or a significant change request from ECBID could 
delay completion of the process. The requirement for a 60-day public 
notice prior to contract execution was factored in to the completion 
date noted in the previous question.

                          SUBCOMMITTEE RECESS

    Senator Alexander. Thank you for being here today.
    The subcommittee will stand adjourned.
    Senator Feinstein. Thank you, Mr. Chairman. Good work.
    [Whereupon, at 4:35 p.m., Wednesday, March 2, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                        WEDNESDAY, MARCH 9, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:37 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Graham, Hoeven, Lankford, 
Feinstein, Udall, Shaheen, and Coons.

                          DEPARTMENT OF ENERGY

                        Office of the Secretary

STATEMENT OF HON. ERNEST J. MONIZ, SECRETARY

              OPENING STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. The Subcommittee on Energy and Water 
Development will please come to order.
    Today's hearing will review the President's fiscal year 
2017 budget request for the Department of Energy. This is the 
subcommittee's third budget hearing this year. We will have our 
final hearing on the National Nuclear Security Administration's 
budget next week.
    I would add that Senator McConnell has said to the 
Republican Caucus that he hopes we move rapidly on 
appropriations bills this year. He would like to start April 
15. He said that after he received a letter from the Democratic 
leadership, urging him to do that.
    In past years, this committee has been able to work well 
together, whether we had a Democrat or Republican chairman, and 
agree on a bill with our members in the House and be one of the 
first bills ready for consideration for the floor. I hope we 
can do that again.
    In doing that, I hope that we will have plenty of policy 
items in the budget, and I hope so-called controversial riders 
will not be added in the subcommittee or committee, so we can 
get the bill to the floor. If anybody thinks they have 60 votes 
to put something controversial on the bill, they can offer it 
on the floor or they can run for the House of Representatives. 
Those are the two ways to do that.
    [Laughter.]
    Senator Alexander. We will see. That will be our goal. I am 
hopeful we can do that.
    Senator Feinstein and I will each have an opening 
statement. I will then recognize each Senator for up to 5 
minutes for an opening statement, alternating between the 
majority and minority in the order in which they arrived. We 
will then turn to Secretary Moniz for his testimony on behalf 
of the Department of Energy. And then I will recognize Senators 
for 5 minutes of questions each, alternating back and forth.
    I want to thank the Secretary for being here. We enjoy 
working with him. He is responsive to our questions, and he is 
competent in his work. We thank him for his service to the 
country.
    Of course, it is a delight to work with Senator Feinstein 
on these important issues. We work well together. We have 
differences of opinion, but in the end, we come to a result.
    Our witness today is Secretary Moniz, who has been 
Secretary since 2013. The department's energy budget request is 
about $32.5 billion, an increase of $2.9 billion over what 
Congress provided last year.

                               PRIORITIES

    Governing is about setting priorities. Given our current 
fiscal constraints, especially on nondefense spending, we are 
going to have to make some hard decisions this year. That is 
why we are holding the hearing, to talk about the most urgent 
priorities.
    I would like to focus on three main areas, one doubling 
basic energy research; two, the future of nuclear energy; 
three, keeping large projects on time and on budget.
    I see Senator Graham here. He and all of us really are 
concerned about these large projects in the department, and we 
will get into that more later.

                     DOUBLING BASIC ENERGY RESEARCH

    Doubling basic energy research, that is one of the most 
important things we could do. I think Republicans and Democrats 
agree that government-sponsored research has and continues to 
be important for our continued prosperity and job creation. 
Doubling basic energy research is a goal I have long supported. 
We have increased investment in basic energy research, both 
through our national labs and through the ARPA-E agency, which 
was created as part of the America Competes legislation 10 
years ago and passed unanimously by the Senate. It authorized 
Congress to double funding for basic research over 7 years.
    Last month, Senator Durbin and I cosponsored an amendment 
to the energy bill that is being worked on in the Senate that 
increases the authorized funding levels for the Office of 
Science by about 7 percent a year, which would double the 
Office of Science's budget from a little over $5 billion today 
to more than $10 billion in 10 years. The Senate adopted our 
amendment.
    The President has also proposed to invest more in basic 
research, including the Mission Innovation proposal, a pledge 
launched by the United States and 19 other countries at the 
climate summit in Paris to double Federal clean energy research 
over the next 5 years.
    The problem is that the President's budget request proposes 
$2.259 billion in new mandatory funding for the Department of 
Energy. The mandatory funding would be used to support clean 
energy proposals and replace several proposed cuts to programs 
that were currently funded with discretionary spending. These 
new mandatory spending proposals include $1.3 billion for the 
21st Century Clean Transportation Plan; $674 million to replace 
discretionary spending cuts in cleanup programs that is 
especially concerning to me; $100 million for new Office of 
Science university grants; and $150 million to support ARPA-E 
(Advanced Research Projects Agency--Energy).
    However, the President's commitment to double Federal clean 
energy research comes at the expense of other resources and 
agencies, and he proposes to pay for this new mandatory 
spending with new tax increases.
    This is not a realistic proposal. The budget writers know 
this. Congress is not going to enact $3.4 trillion in new tax 
increases over the next 10 years to pay for an additional $682 
billion in mandatory spending spread across Federal agencies 
over the next 10 years.
    Senator Murray and I just finished a hearing this morning 
on our biomedical innovation project, and there is mandatory 
spending discussions there to replace the increases that we 
made this past year in funding for the National Institutes of 
Health.
    This kind of budgeting is at best unhelpful, at worst 
misleading.
    First, the President has underfunded the Army Corps of 
Engineers by $1.4 billion and the cleanup of former Cold War 
sites by $674 million. That makes it very difficult to draft an 
appropriations bill, much less fund the proposed new 
investments in Mission Innovation.
    Second, while I have called for doubling our investment in 
basic research, I have also recommended paying for increases 
like that by ending subsidies for mature technologies like wind 
and oil and gas subsidies.
    For example, we could start by eliminating the wind 
production tax credit in 2016 and putting the $4 billion this 
subsidy costs taxpayers over 10 years toward doubling energy 
research, and we could phase out subsidies for oil and gas. 
Legislative proposals similar to the one I supported in 
February to repeal oil and gas subsidies save $24 billion over 
10 years, which could be spent on research and development.
    Out of control mandatory spending on entitlements, which is 
projected to increase nearly 80 percent over the next 10 years, 
is already crowding out discretionary spending. Here is the 
most important point. Over the next 10 years, discretionary 
spending, the money we are talking about to fund cancer 
research in this morning's hearing, or Office of Science 
research in today's hearing, discretionary spending, that part 
of the budget is 32 percent of total Federal spending. If 
things continue at the pace they are on, it will be 22 percent 
in 10 years, according to the Congressional Budget Office.
    So this share of the budget is going from 32 percent to 22 
percent. So the more responsible proposal about mandatory 
spending would be to reduce mandatory spending by $682 billion, 
so we could have more money for cancer research and energy 
research, rather than to propose more mandatory spending paid 
for by taxes.
    The United States faces a choice between falling further 
behind competitors or advancing technologies, but we have to be 
responsible fiscally.
    Supercomputing is one priority we agree on. It is critical 
to our competitiveness. By next year, the world's fastest 
computer will again be in the United States. I am glad to say 
it is in Tennessee through the joint collaboration of Oak 
Ridge, Argonne, and Lawrence Livermore in California. That 
computer will be called Summit. It will help researchers better 
understand materials, nuclear power, and energy breakthroughs. 
The next generation on the exascale is essential to both our 
country's competitiveness and national security.

                        FUTURE OF NUCLEAR ENERGY

    Now, as for nuclear energy, nuclear energy provides 60 
percent of our Nation's carbon-free electricity, 60 percent, 
and it must be part of any realistic energy plan. It is 
reliable. Unlike solar and wind, nuclear power works when the 
sun is not shining and the wind is not blowing. It is safe. We 
have never had anyone die in a nuclear accident at any of our 
commercial reactors or in our naval fleet.
    The Department of Energy, Mr. Secretary, has an important 
role in many of the key challenges in advancing nuclear power, 
for example, safely extending the life of existing nuclear 
reactors already operating, the quickest and easiest and best 
way to provide ourselves with carbon-free electricity for the 
next 20 years; solving the nuclear waste stalemate, a goal that 
Senator Feinstein and I are united on; developing new nuclear 
technologies such as accident-tolerant fuels, small reactors, 
advanced reactors.
    Regarding nuclear waste, Federal law makes the Government 
responsible for disposing of used nuclear fuel. The Government 
continues to fail in this.
    I believe Yucca Mountain can and should be part of the 
solution, but we have more used fuel than Yucca Mountain's 
legal capacity. Senator Feinstein and I will again introduce a 
pilot program for nuclear waste storage in our appropriations 
bill, as we have for the past 4 years, to complement, not 
substitute, for Yucca Mountain.
    The Nuclear Regulatory Commission chairman testified they 
expect to see license applications for commercial sites to 
store used nuclear fuel later this year. I am going to ask 
about your views on the role that commercial sites could play 
in the management of used nuclear fuel.
    Finally, as we look to the future, the department is 
funding key R&D (Research and Development) that will design the 
nuclear reactors of the future, whether we are talking about 
small reactors or advanced reactor technology.

                      LARGE CONSTRUCTION PROJECTS

    The last item is keeping large projects on time and on 
budget. The department is responsible for some of the largest 
and most expensive construction projects in the Federal 
Government--for that matter, in the country--including the 
uranium processing facility in Tennessee and the MOX fuel 
fabrication facility in South Carolina. The department is a 
partner in the international thermonuclear experimental reactor 
known as ITER in France.
    Now that you are no longer recused from discussing fusion 
energy and you know so much about it, we are looking for your 
recommendations about what to do.
    Over the past 5 years, Senator Feinstein and I have worked 
hard with the department to keep costs under control. We have 
made some real progress with a uranium facility in Tennessee. I 
am glad to hear that the department continues to follow the red 
team's recommendation.
    It has a capped cost of $6.5 billion, and a completion date 
of 2025. And we meet regularly to make sure it is proceeding on 
time and on budget.
    Your budget request also proposes shutting down the MOX 
fuel facility in South Carolina and replacing it with a new 
plan to dispose of the plutonium in South Carolina. We have 
talked about that many times. I am sure Senator Graham will 
have questions about that, as I will as well.
    I hope to hear the details about your alternative to dilute 
the plutonium material. I want to make sure we have a clear 
plan for getting the plutonium out of South Carolina, as the 
department has committed to do.
    [The statement follows:]
             Prepared Statement of Senator Lamar Alexander
    The Subcommittee on Energy and Water Development will please come 
to order.
    Today's hearing will review the President's fiscal year 2017 budget 
request for the Department of Energy.
    This is the Subcommittee's third budget hearing this year, and we 
will have our final hearing on the National Nuclear Security 
Administration's budget next week.
    I want to thank Secretary Moniz for being here today, and also 
Senator Feinstein, who I will be working with to draft the Energy and 
Water Appropriations bill which funds basic science research and 
discovery, as well as cleanup of former Cold War sites, and maintains 
our Nation's nuclear weapons stockpile.
    Our witness today includes Dr. Ernest J. Moniz, Secretary of 
Energy.
    Secretary Moniz has served as Secretary of Energy since May 2013, 
and I thank the Secretary for his leadership and the efforts he has 
made to work with Congress. I greatly appreciate your leadership on 
innovation and our energy future.
    We're here today to review the President's fiscal year 2017 budget 
request for the Department of Energy, a Federal agency with three 
critical missions: nuclear security, science and energy, and 
environmental management.
    The Department of Energy's budget request for fiscal year 2017 is 
about $32.5 billion dollars. This is an increase of about $2.9 billion 
over what Congress provided last year.
    Governing is about setting priorities, and given our current fiscal 
constraints--especially on non- defense spending--we are going to have 
to make some hard decisions this year to make sure the highest 
priorities are funded.
    And that is why we are holding this hearing: to give Secretary 
Moniz an opportunity to talk to us about the Department of Energy's 
most urgent priorities so Senator Feinstein and I can make informed 
decisions as we begin to put together the Energy and Water 
Appropriations bill over the next few weeks.
    Today, I'd like to focus my questions on three main areas, all with 
an eye toward setting priorities:
  1. Doubling basic energy research;
  2. The future of nuclear energy;
  3. Keeping large projects on time and on budget.
                     doubling basic energy research
    Supporting government-sponsored basic research is one of the most 
important things our country can do to encourage innovation, help our 
free enterprise system create good jobs, and make America competitive 
in a global economy.
    Doubling basic research is a goal I've long supported.
    We have increased investment in basic energy research through both 
our national laboratory system and the Advanced Research Projects 
Agency-Energy (ARPA-E), which Congress created as part of America 
COMPETES in 2007, which was passed unanimously by the Senate and 
authorized Congress to double funding for basic research over 7 years.
    Last month Senator Durbin and I co-sponsored an amendment to the 
Energy bill that increases the authorized funding levels for the Office 
of Science by about 7 percent per year which would double the Office of 
Science's budget from a little over $5 billion today to more than $10 
billion in 10 years. The Senate adopted our amendment by voice vote.
    The President has also proposed to invest more in basic research, 
including the Mission Innovation proposal--the pledge launched by the 
U.S. and 19 other countries at the Climate Summit in Paris to double 
Federal clean energy research over the next 5 years.
    The problem is that the President's budget request proposes $2.259 
billion in new mandatory funding for the Department of Energy. The 
mandatory funding would be used to support clean energy programs and 
replace several proposed cuts to programs that are currently funded 
with discretionary spending.
    These new mandatory spending proposals include:
  --$1.3 billion for 21st Century Clean Transportation Plan 
        Investments;
  --$674 million to replace discretionary spending cuts in cleanup 
        programs;
  --$100 million for new Office of Science University Grants;
  --And $150 million to support ARPA-E.
    However, the President's commitment to double Federal clean energy 
research comes at the expense of other resources and agencies and he 
proposes to pay for this new mandatory spending with new tax increases.
    The budget writers know this isn't a realistic proposal. Congress 
is not going to enact $3.4 trillion in new tax increases over the next 
10 years to pay for an additional $682 billion in mandatory spending 
across all Federal agencies over the next 10 years.
    The President's budget request this year is at best unhelpful, and 
at worst it's misleading.
    First, the President has underfunded the Army Corps of Engineers by 
$1.4 billion and the cleanup of former Cold War sites by $674 million. 
This makes it very difficult to draft an appropriations bill, much less 
fund the proposed new investments in Mission Innovation.
    Second, I've called for doubling our investment in basic scientific 
research, but I've also recommended paying for increases by ending 
subsidies for mature technologies like wind and oil and gas subsidies.
    For example, we could start by eliminating the wind production tax 
credit in 2016, and putting the $4 billion this subsidy costs taxpayers 
over 10 years toward doubling energy research.
    Or, we could phase out subsidies for oil and gas. Legislative 
proposals similar to the one I supported in February to repeal oil and 
gas subsidies could save $24 billion over 10 years, which could be 
spent on research and development.
    Out-of-control mandatory spending on entitlements, which is 
projected to increase nearly 80 percent over the next 10 years, is 
already crowding out discretionary spending.
    Over the next 10 years, discretionary spending will decrease from 
32 percent of total Federal spending in 2015 to about 22 percent in 
2026.
    The United States faces a choice between falling further behind 
competitors like China, or advancing technologies that can make us 
safer and more competitive.
    But we have to be fiscally responsible and carefully invest our 
limited resources in programs that can achieve results.
    For example, supercomputing is one priority we agree on--and it is 
critical to our economic competitiveness and a secure energy future.
    By next year, the world's fastest supercomputer will again be in 
the United States, and in Tennessee through the joint Collaboration of 
Oak Ridge, Argonne and Lawrence Livermore (CORAL).
    That computer will be called Summit, and it will help researchers 
better understand materials, nuclear power, and energy breakthroughs.
    Funding the next generation, known as exascale, is essential to our 
both our country's competitiveness and national security.
    Exascale computers will be capable of a thousand-fold increase in 
sustained performance over today's petascale computers--which have been 
operating since 2008.
                      the future of nuclear energy
    Nuclear power provides 60 percent of our Nation's carbon-free 
electricity, and it must be a part of any realistic energy plan.
    It is reliable--unlike solar and wind, nuclear power works when the 
sun isn't shining or the wind isn't blowing.
    It is safe--we've never had anyone die in a nuclear accident at any 
of our commercial reactors or in our naval fleet.
    The Department of Energy has an important role in many of the key 
challenges in advancing nuclear power, including:
  --Safely extending the life of the nuclear reactors already operating 
        today;
  --Solving the nuclear waste stalemate; and
  --Developing new nuclear technologies such as accident tolerant 
        fuels, small modular reactors, and advanced reactors.
    Safely extending the operating licenses of commercial reactors from 
60 to 80 years, where possible, is an important step to maintaining our 
largest source of carbon-free electricity.
    I'd like to hear today what the Department of Energy is doing to 
achieve this goal and whether there are any additional steps we should 
be taking.
    Regarding nuclear waste, Federal law makes the government 
responsible for disposing of used nuclear fuel, and the government 
continues to fail in this responsibility.
    I believe that Yucca Mountain can and should be part of the 
solution, but we have more used fuel than Yucca Mountain's legal 
capacity.
    Senator Feinstein and I will again include a pilot program for 
nuclear waste storage in the Energy and Water Appropriations bill, as 
we have for the past 4 years to complement Yucca Mountain.
    The NRC Chairman recently testified that they expect to see license 
applications for commercial sites to store used fuel later this year. 
I'd like to hear your views on the role commercial sites could play in 
the management of used nuclear fuel.
    Finally, as we look to the future, the Department is funding key 
research and development that will help design the nuclear reactors of 
the future.
    Small modular reactors offer an additional source of clean, cheap, 
reliable energy, and have the potential to make nuclear power available 
to places that could not otherwise build large-scale reactors. The 
Department's work to support licensing a small modular reactor 
continues, and I would like to your views on the progress of this 
important work.
    The Department is also doing research and development to address 
technical, cost, safety and security issues with advanced reactor 
technologies. I look forward to hearing the progress you are making in 
this area, and am particularly interested in your estimate for when the 
first application for certification would be filed with the Nuclear 
Regulatory Commission.
              keeping large projects on time and on budget
    The Department of Energy is responsible for some of the largest 
construction projects in the Federal Government, including the Uranium 
Processing Facility in Tennessee and the MOX Fuel Fabrication Facility 
in South Carolina; and the Department is a partner in the International 
Thermonuclear Experimental Reactor known as ``ITER'' in France.
    Now that you are no longer recused from discussing fusion energy 
and the ITER project specifically, I want to discuss the future of U.S. 
participation in the project, and when we can expect to receive your 
recommendations and details on the new cost of the project.
    Over the past 5 years, Senator Feinstein and I have worked hard 
with the Department to keep costs under control and to make sure hard-
earned taxpayer dollars are spent wisely. We need to make sure these 
projects are on time and on budget.
    Senator Feinstein and I have focused much of our oversight on the 
Uranium Processing Facility in Tennessee, and I am glad to hear the 
Department continues to follow the Red Team's recommendations.
    I look forward to a detailed update in the near future, including 
whether the project is still on time and on budget, and when the design 
will be 90 percent complete. We set a target of completion in 2025 at a 
cost of $6.5 billion and we need to know if that is achievable.
    Your budget request also proposes shutting down the MOX fuel 
facility in South Carolina and replacing it with a new plan to dispose 
of the plutonium in South Carolina. We have talked about this project 
many times.
    Today, I hope to hear the details about your alternative to dilute 
the plutonium material and permanently dispose of it. Specifically, I 
want to make sure you have a clear plan for getting plutonium out of 
South Carolina as the Department has committed to do.

    Senator Alexander. Senator Feinstein.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thanks very much, Mr. Chairman. I think 
you know that I treasure the relationship that we have, and 
particularly our ability to work closely together in solving 
some problems.
    I am not going to repeat what you said. I find myself 
generally in agreement with it. But I am really very concerned, 
because it seems to me we are between a rock and a hard place 
with this. We do not yet have an allocation, and yet there are 
a number of conflicts within this budget.
    Let me just thank you for the leadership and cooperation on 
finding a nuclear waste facility. I would be hopeful that the 
Secretary will be able to tell us in his remarks that the law 
is such that the private Texas facility can go ahead. I think 
that is extraordinarily important.
    I hope, Mr. Secretary, that you will choose to speak about 
it.
    I also want to congratulate the Secretary, because I have 
not had this chance, on his successful negotiations at the 
Paris agreement on climate change. I think it is becoming very 
clear that unless we reduce our greenhouse gas emissions, we 
are going to see catastrophic sea level rise, devastating 
droughts, more wildfires, more habitat loss, greater ranges of 
exposures for disease, and massive international refugee 
crises.
    I say that as a Californian who is now in the midst of an 
unprecedented drought with just terrible results, land 
subsidence, 888 million trees losing their capacity, 10 million 
of them dead, 69 communities without water. It goes on and on 
and on.
    So we do not want the climate to go the way it is set to 
go. It is my understanding that we must contain temperature 
rise to 2 degrees or less by 2100 or we court disaster.
    Although this is a significant and difficult challenge, I 
think it can be done. For the first time, 195 countries have 
mutually pledged to constrain their greenhouse gas emissions in 
order to slow the changes in our climate, working not only to 
avoid the 2 degree increase, but toward a goal of a 1.5 degree 
increase.
    But even the most optimistic assessment of the first round 
of international commitments is that they would still allow 
global temperatures to rise by even 2.7 degrees. That clearly 
is insufficient in terms of the danger that we prompt by so 
doing.
    Secretary Moniz, you have championed the idea of using 
technology to make this goal easier to achieve, and you have 
worked to secure pledges from 19 other countries to double 
research and development funding for technologies that can 
lower temperature rise. I understand this is known as Mission 
Innovation and that it is complemented by a private-sector 
initiative led by Bill Gates to bring these new technologies to 
the market.
    Our commitment is to double U.S. clean energy research and 
development over 5 years. Much of that needs to be funded by 
this subcommittee.
    In view of what the chairman has just said, that is going 
to be a most difficult task to carry out. As I said, we do not 
have an allocation, but the likelihood of our having sufficient 
money even to fund what we are responsible for right now that 
we cannot do based on this President's budget is alarming to 
me.
    I believe that if somehow we can get a sufficient increase 
in our allocation, that we should, in fact, make Mission 
Innovation a priority.
    But one big obstacle to achieving this is the fact that the 
administration's budget request zeros out funding for uranium 
cleanup, which was $674 million in fiscal year 2016.
    Now, that is a real Hobson's choice. There is not one of 
us, I think, that understands that uranium cleanup should be 
canceled out, and yet where is the money to come from? I gather 
the budget assumes that the cleanup program will become a 
mandatory funded program, which means it goes out of the budget 
because it is mandatory. Whatever its cost, it is paid for. But 
there is no indication this is going to happen.
    So we will have to appropriate money for those activities 
within the bounds of our overall resources unless somebody is 
able to tell us where to get $674 million.
    Also, as we deal with the impacts of climate change and 
promote infrastructure resiliency, I do not believe that 
Congress will accept the administration's proposal to cut 
funding for the Army Corps of Engineers by $1.3 billion or the 
Bureau of Reclamation by $163 million.
    These are the Hobson's choices within our budget. The Corps 
is really our only infrastructure program. It is our 
government's only navigation infrastructure account. 
Reclamation brings water to our cities and farms. And both play 
an important role in responding to climate change.
    So, Mr. Chairman and Mr. Secretary, to be brief, I have 
outlined nearly $1 billion of responsibilities for money that 
we will likely not have.
    So, Mr. Secretary, I know I speak for this whole committee. 
We would very much like to work with you and our other 
colleagues to identify the ways we can best use the funding 
that is available to develop the new technologies, specifically 
the R&D that will make the difference in our fight against 
climate change. But we also have to fund uranium cleanup, the 
Bureau of Reclamation, and the Army Corps of Engineers, in 
particular.
    I might just say that of the congressional interest, the 
Army Corps always crops up, Mr. Chairman, in requests for more 
members. I have come over the years to really believe that it 
is a very important program. It sounds kind of prosaic because 
it has always been there, but in terms of our rivers, our 
waterways, it is kind of the be-all and end-all.
    So I thank you, Mr. Chairman, and look forward to working 
with you.
    Senator Alexander. Thank you, Senator Feinstein. We will 
now have opening statements from other Senators who are here. 
Senator Lankford. Senator Murray.
    Mr. Secretary, we look forward to your testimony.

               SUMMARY STATEMENT OF HON. ERNEST J. MONIZ

    Secretary Moniz. Thank you, Chairman Alexander and Ranking 
Member Feinstein, and members of the subcommittee for the 
chance to appear here to discuss our budget proposal for fiscal 
year 2017.
    As you have said, it totals $32.5 billion in discretionary 
and mandatory spending. First, I do want to emphasize that the 
request for annual appropriations is $30.2 billion, an increase 
of 2 percent over the fiscal year 2016 enacted appropriation. 
Both the national security appropriations request and that for 
the domestic appropriations would each increase by 2 percent.
    This is supplemented, as you have mentioned, by $2.3 
billion in new mandatory spending authority, including $750 
million for R&D and $674 million for uranium enrichment D&D 
(Decontamination and Decommissioning), the latter from the USEC 
(United States Enrichment Corporation) Fund.
    I do want to emphasize that the $1.6 billion USEC Fund is 
an existing, not new, mandatory spending account. Our proposal 
is in keeping with the spirit of the current authorization that 
revenues from the beneficiaries of past uranium enrichment 
services rather than taxpayers at large be used to pay for the 
cost of D&D of the now shuttered facilities.
    Indeed, in 2000, Congress recognized the applicability of 
the USEC Fund to support Portsmouth and Paducah D&D. The USEC 
Fund is one of three Federal funds totaling nearly $5 billion 
that can be used in this manner.
    Finally, in this introduction I want to acknowledge that 
underpinning all of our priorities is stewardship of the 
department as a science and technology powerhouse with an 
unparalleled network of 17 national laboratories. We are 
working hard to strengthen the strategic relationship between 
the department and our national laboratory network.
    I also want to highlight the crosscutting R&D initiatives 
in the budget. Among these initiatives are our largest 
increases. Our proposed increases are for modernization, the 
energy and water nexus, and the exascale high-performance 
computing initiative to support everything from nuclear weapons 
to energy technologies to cancer solutions.
    The supporting budget details for each of these areas are 
provided in a 40-page statement for the record, and I request 
that it be inserted into the record and use the rest of my time 
to describe our Mission Innovation initiative and why it merits 
your support.
    The fiscal year 2017 budget includes an increase of 21 
percent in discretionary spending for clean energy R&D 
activities that support the U.S. Mission Innovation pledge. The 
President's budget proposes this 21 percent increase in 
discretionary funds within the overall discretionary budget 
cap. The mandatory request is incremental but the discretionary 
is within the cap.
    Mission Innovation is an unprecedented global initiative by 
20 countries that have pledged to seek a doubling of public 
clean energy R&D over 5 years. The Mission Innovation countries 
represent over 80 percent of global government investment in 
clean energy R&D. So this entails a highly leveraged 
opportunity to drive energy innovation.
    This is a key to cost reduction in clean energy. That in 
turn is key to increasing ambition and driving us to a clean 
energy future.
    Mission Innovation is long overdue. In 2010, the American 
Energy Innovation Council, comprised of CEOs from multiple 
sectors, recommended that the government triple its investment 
in clean energy R&D, and the council made three key points.
    First, innovation is the essence of America's strength. 
Second, public investment is critical to generating the 
discoveries and inventions that form the basis of disruptive 
energy technologies. And third, the costs of RD&D are tiny 
compared to the benefits.
    The pledge to seek to double the level of government 
investment over 5 years is ambitious but needed. Bill Gates, a 
leader of the AEIC, has recently met with a number of Members 
of Congress and has reiterated the need for greatly increased 
government-sponsored energy R&D.
    The objective of Mission Innovation is to greatly expand 
the suite of the investable opportunities in clean energy 
technologies. The United States and global clean energy markets 
have been growing rapidly and should pick up the pace even more 
as the world's nations implement the Paris agreement.
    Picking up the pace of our own clean energy innovation will 
result in commensurate benefits for our economy, environment, 
and security.
    The scope of Mission Innovation spans the entire innovation 
cycle from the earliest stage of invention through initial 
demonstrations with a weighting toward the early stages and all 
clean supply and demand technologies and infrastructure 
enablers.
    Mission Innovation is complemented by the Breakthrough 
Energy Coalition that was launched simultaneously with Mission 
Innovation. It is spearheaded by Bill Gates, launched with 28 
investors from 10 countries.
    The coalition committed to providing investment in new 
technologies originating from the expanded innovation pipelines 
in the Mission Innovation countries from early-stage R&D 
through ultimate market deployment.
    These investors are committed to a higher risk tolerance 
and patience for return than is typical combined with a 
willingness to take the most promising innovations all the way 
past the finish line to deployment. That is another important 
leveraging of Mission Innovation.
    In particular, I want to single out the fiscal year 2017 
budget proposal for $110 million to establish regional clean 
energy innovation partnerships as not-for-profit consortia 
competitively selected for a fixed period to manage regional 
clean energy R&D programs focused on the energy needs, 
policies, resources, and markets of the individual regions. The 
program design and portfolio compositions for each partnership 
will be based on regional priorities.
    As research portfolio managers, not performers, the 
partnerships will connect resources and capabilities across 
universities, industry, innovators, investors, and other 
regional leaders to accelerate the innovation process within 
each region. This approach tracks recommendations from the 
National Research Council's Rising to the Challenge, which 
noted that until very recently, U.S. Federal agencies have done 
little to support State and regional innovation cluster 
initiatives and recommended that, and I quote, ``Regional 
innovation cluster initiatives by State and local organizations 
should be assessed and, where appropriate, provided with 
greater funding and expanded geographically.''
    The Mission Innovation budget also supports increased 
investments in successful ongoing innovation programs at 
universities, national labs, and companies, such as ARPA-E, 
Energy Frontier Research centers, advanced manufacturing 
centers, bioenergy centers, advanced transportation technology, 
advanced nuclear reactor technology, and next-generation carbon 
capture technologies, to name a few.
    That concludes my summary. I thank the subcommittee for its 
interest in support of our programs. I look forward to our 
discussion and to working together over the next months.
    [The statement follows:]
               Prepared Statement of Hon. Ernest J. Moniz
    Chairmen Cochran and Alexander, Vice Chairwoman Mikulski and Vice 
Chairman Feinstein, and Members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss the Department of 
Energy's (DOE) Budget Request for fiscal year 2017. I appreciate the 
opportunity to discuss how the Budget Request advances the Department 
of Energy's missions.
advancing nuclear security, science & energy, and environmental cleanup
    The Department of Energy requests $32.5 billion for fiscal year 
2017, an increase of $2.9 billion from the fiscal year 2016 enacted 
level of $29.6 billion. The fiscal year 2017 Budget Request consists of 
$30.2 billion in discretionary funding--$640 million above the fiscal 
year 2016 enacted appropriation--and $2.3 billion in new mandatory 
spending proposals requiring new legislation.
    The DOE Budget Request supports a broad portfolio of programs, 
including support for the National Laboratory system of 17 laboratories 
to carry out critical responsibilities for America's security and 
economy in three areas:
  --Building the Future through Science and Clean Energy;
  --Ensuring Nuclear Security; and
  --Organizing, Managing and Modernizing the Department to Better 
        Achieve its Enduring Missions.
    Underpinning all of these priorities is stewardship of the 
Department as a science and technology powerhouse, with an unparalleled 
network of national laboratories, harnessing innovation to successfully 
address national security, create jobs and increase economic 
prosperity, boost manufacturing competitiveness, mitigate and adapt to 
climate change, and enhance energy security.
    Energy has been an important driver for recent U.S. economic 
growth, due to expanded domestic energy production and reduced 
petroleum imports; increased energy efficiency and productivity; and 
significant cost reduction and expanded market application of a variety 
of clean energy generation and energy-efficient industrial, commercial 
and consumer energy products. DOE has advanced this technology-based 
energy revolution by supporting the scientific foundations of energy 
sciences and technology, clean energy and manufacturing technological 
innovation, early commercial demonstration and deployments, and new 
technologies and standards to enhance end use energy efficiency. For 
example, because of DOE technology successes, favorable policies, and 
other factors, the cost of utility-scale photovoltaic solar power fell 
59 percent and power purchase agreements for wind power fell 66 percent 
from 2008 to 2014. Yet work remains to enhance energy security and U.S. 
clean energy competitiveness while enabling global climate goals.
    The DOE fiscal year 2017 Budget Request includes a programmatic 
level of $12.9 billion for energy, science, and related programs, an 
increase of $2.8 billion from the fiscal year 2016 enacted level. The 
fiscal year 2017 Budget includes $11.3 billion in discretionary 
funding--$1.2 billion above fiscal year 2016-- and $1.6 billion in 
mandatory spending proposals to support increased investment in 
leading-edge science and technology; new research facilities to advance 
the frontiers of science; advanced manufacturing institutes; 
implementation of the Administration's strategy for nuclear waste 
management; and crosscutting initiatives to further technological 
innovation using an enterprise-wide approach to research efforts. The 
Budget Request takes steps to implement recommendations from the first 
installment of the Quadrennial Energy Review (QER), released in 2015, 
to strengthen U.S. energy infrastructures and enhance our collective 
energy security.
    The Request supports ongoing implementation of the President's 
Climate Action Plan and builds on the systems-based analysis of the 
Quadrennial Technology Review (QTR) released in 2015. The fiscal year 
2017 Budget Request also takes a significant first step toward 
fulfilling the United States' pledge to seek to double Federal clean 
energy research and development investment over the next 5 years as 
part of Mission Innovation, an initiative launched by the U.S. and 19 
other countries to accelerate widespread clean energy technology 
innovation and cost reduction. The Request provides a total of $5.86 
billion in discretionary funding for clean energy activities that span 
the full range of research and development from use-inspired basic 
research to demonstration, representing an increase in discretionary 
funding of over 21 percent above the fiscal year 2016 baseline of $4.82 
billion. DOE's funding is 76 percent of the $7.7 billion government-
wide Mission Innovation investment in fiscal year 2017.
    The fiscal year 2017 Budget Request also includes mandatory funding 
for clean energy R&D that complements activities supported by 
discretionary funding. The Request includes $150 million in mandatory 
funding for the Advanced Research Projects Agency--Energy (ARPA-E) as 
part of the ARPA-E Trust proposal that seeks $1.85 billion in mandatory 
funding over 5 years to reliably increase the program's 
transformational clean energy technology R&D. In addition, as part of 
the $1.3 billion mandatory proposal for the DOE portion of the 
Administration's 21st Century Clean Transportation Plan, the Request 
includes $500 million in fiscal year 2017 to scale-up clean 
transportation R&D through initiatives to accelerate cutting the cost 
of battery technology; advance the next generation of low carbon 
biofuels, in particular for intermodal freight and fleets; and 
establish a mobility systems integration facility to investigate 
systems level energy implications of vehicle connectivity and 
automation.
    The fiscal year 2017 Budget Request provides a programmatic level 
of $12.9 billion for the National Nuclear Security Administration 
(NNSA), $357 million above the fiscal year 2016 enacted level, to 
support DOE's nuclear security responsibilities. The Budget Request 
includes funding to maintain a safe, secure, and effective nuclear 
deterrent without underground nuclear explosive testing, including life 
extension programs for major weapons systems and modernization of the 
Nation's research and production infrastructure.
    The Request also ensures that the United States is ready to respond 
to nuclear and radiological incidents at home and abroad and supports 
programs that reduce the threats of nuclear proliferation globally, 
including supporting implementation and monitoring of the Joint 
Comprehensive Plan of Action with Iran to verifiably prevent Iran from 
obtaining nuclear weapons. Finally, DOE's Request for nuclear security 
supports activities that provide safe and effective propulsion for the 
U.S. nuclear Navy.
    The fiscal year 2017 Budget Request includes $6.8 billion for 
Departmental management and performance programs, including 
environmental cleanup programs to meet the nation's Manhattan Project 
and Cold War legacy responsibilities. The Request includes $6.1 
billion, which includes $5.4 billion in discretionary funding and 
proposes $674 million in mandatory spending from the United States 
Enrichment Corporation Fund, to uphold the U.S. Government's commitment 
to States and communities to remediate the environmental legacy of over 
six decades of nuclear weapons and nuclear research, development, and 
production. The Request supports major management reforms, including 
new project oversight, assessment, and cost estimation initiatives as 
part of ongoing efforts to strengthen effective project and program 
management across the enterprise. The Request also supports continued 
implementation of a new and improved Human Resource Management service 
delivery business model and efforts to improve information technology 
management and further strengthen cybersecurity.
                           science and energy
    The fiscal year 2017 Budget Request provides a programmatic level 
of $12.9 billion for science, energy, and related programs, which is 
$2.8 billion above the fiscal year 2016 enacted level and includes 
$11.3 billion in discretionary funding and $1.6 billion in mandatory 
spending. The Department's science and energy programs invest in all 
stages of innovation across a diverse portfolio of clean energy 
technologies to enhance economic competitiveness in a low-carbon world 
and secure America's long-term energy security. The Request takes the 
first step in fulfilling the U.S. Government's pledge to Mission 
Innovation, an unprecedented global initiative across 20 nations to 
double public clean energy research and development (R&D), in 
conjunction with commitments for private investments led by a coalition 
of 28 private investors from ten countries. The Request also continues 
to implement the President's Climate Action Plan through the 
development and deployment of clean energy technologies that reduce 
carbon pollution. Following COP-21, these investments will be a 
critical next step in enabling the transition to a low carbon energy 
future through innovation and cost reduction.
    The fiscal year 2017 Budget Request sustains DOE's role as the 
largest Federal sponsor of basic research in the physical sciences and 
constructs and operates cutting-edge scientific user facilities at the 
National Laboratories to maintain the nation's preeminence in science 
and innovation. The Request supports transformational R&D in critical 
technology areas, including advanced manufacturing, renewable energy, 
sustainable transportation, energy efficiency, electricity grid 
modernization, advanced nuclear reactors, and fossil energy with carbon 
capture and storage. The Request builds on the analytical foundation 
provided by the Department's 2015 Quadrennial Technology Review (QTR), 
as well as the recommendations of the 2015 Quadrennial Energy Review 
(QER), by funding measures to strengthen U.S. energy infrastructures 
and enhance our collective energy security posture.
           mission innovation: enabling a clean energy future
    The President's fiscal year 2017 Budget Request takes a significant 
first step toward fulfilling the U.S. pledge to seek to double Federal 
clean energy research and development investment over the next 5 years 
as part of Mission Innovation, an initiative launched by the U.S. and 
19 other countries to accelerate widespread clean energy technology 
innovation and cost reduction. It is a widely-shared view that 
innovation is essential for economic growth by providing affordable and 
reliable energy for everyone, is critical for energy security, enhances 
U.S. competitiveness, and is the key to a transition to a clean energy 
future. Each of the 20 participating countries, which together 
represent over 80 percent of global governmental clean energy research 
and development, will seek to double its governmental investment in 
clean energy research and development over 5 years. While each country 
will determine its own doubling plan and portfolio, the collection of 
countries will provide new opportunities for synergies and 
collaboration.
    The need for a substantial investment in clean energy research and 
development is clear. Many studies have examined the contribution of 
technological innovation to U.S. economic growth. In 2010, the American 
Energy Innovation Council, comprised of Chief Executive Officers from 
multiple industries, called for the tripling of energy research and 
development, citing the need for a dramatic expansion of the energy 
innovation pipeline to meet critical national priorities. Another 
report that same year from the President's Council of Advisors on 
Science and Technology also recommended accelerating the pace of 
technology innovation to meet economic competitiveness, environmental 
and energy security needs. The need for greater regional innovation 
efforts was highlighted in a 2012 National Research Council report 
calling for the establishment of regional innovation cluster 
initiatives that build upon existing knowledge clusters and comparative 
strengths of a geographic region.
    The President's fiscal year 2017 Budget takes a significant first 
step toward fulfilling the U.S. pledge to seek to double Federal clean 
energy research and development investment over the next 5 years by 
providing $7.7 billion across 12 Federal agencies, with DOE responsible 
for approximately 76 percent of that government-wide total. The DOE 
fiscal year 2017 Request provides a total of $5.86 billion in 
discretionary funding for clean energy research and development. This 
funding represents an increase of over 21 percent above the fiscal year 
2016 baseline of $4.82 billion of appropriated funds.
    The Budget supports clean energy activities that span the 
innovation spectrum from use-inspired basic research to demonstration, 
and encompasses all clean energy technologies, including renewable 
energy, energy efficiency, sustainable transportation, nuclear energy, 
fossil energy, and the electricity grid of the future. The DOE program 
components supporting Mission Innovation include elements of use-
inspired basic research sponsored by the Office of Science, ARPA-E and 
portions of the applied energy programs that support clean energy 
research, development, and demonstration activities. Overall, programs 
supporting Mission Innovation comprise slightly more than half of the 
total President's fiscal year 2017 Budget Request for science and 
energy, including ARPA-E.
    The increased investments proposed in the fiscal year 2017 Budget 
support a broad-based strategy for accelerating the innovation process. 
The strategy emphasizes investments strategically targeted to support 
innovative platforms for early stage research and technology 
development, as well as development and demonstration activities that 
target cost-reduction and advance transformational concepts that can 
achieve meaningful scale. For example, the President's fiscal year 2017 
Budget supports an expansion of promising existing programs, such as 
Energy Frontier Research Centers, ARPA-E, Clean Energy Manufacturing 
Institutes, the BioEnergy Research Centers, SuperTruck II, and advanced 
carbon capture technology pilot projects. The fiscal year 2017 Budget 
also supports new initiatives, such as $110 million to establish 
regional clean energy innovation partnerships, $45 million to expand 
R&D collaborations between innovators and small businesses and the DOE 
National Laboratories, and an advanced materials crosscutting 
initiative.
    The President's fiscal year 2017 Budget also includes mandatory 
funding for clean energy R&D that complements activities supported by 
discretionary funding. The fiscal year 2017 Budget Request includes 
$150 million in mandatory funding for ARPA-E as part of the ARPA-E 
Trust proposal for $1.85 billion in new mandatory spending authority 
over 5 years. The mandatory spending authority will complement annual 
appropriations by enabling ARPA-E to support projects of a different 
character than can otherwise be funded under the current program. For 
example, the mandatory funding will support projects that are larger in 
scale and address more complex energy challenges that have large 
transformative potential. As part of the Administration's 21st Century 
Clean Transportation Plan, the President's fiscal year 2017 Budget 
Request also includes $500 million in mandatory funding at DOE in 
fiscal year 2017 to scale-up clean transportation R&D through 
initiatives to accelerate cutting the cost of battery technology; 
advance the next generation of low-carbon biofuels, in particular for 
intermodal freight and fleets; and establish a smart mobility research 
center to investigate systems level energy implications of vehicle 
connectivity and automation.
    Mission Innovation investments will be leveraged by private capital 
that drives innovation and clean energy deployment. The initiative is 
complemented by a separate private sector-led effort, the Breakthrough 
Energy Coalition (Coalition), as increased government investment, while 
necessary, is insufficient by itself. This parallel initiative includes 
over 28 investors from 10 countries and will supplement the large and 
growing private sector investment in commercialization of clean energy 
technologies by targeting new investments at an earlier stage of the 
innovation cycle and managing these investments through the completion 
of the innovation process, including the formation of new companies and 
the commercial introduction of new products and processes. The 
Coalition will be investing in technologies and projects originating in 
the Mission Innovation participating countries.
    Together, these initiatives will drive innovation essential for 
economic growth enabled by affordable and reliable energy, for energy 
security, for U.S. competitiveness, and for a transition to a low 
carbon energy future.
   integrating science and energy programs across the doe enterprise
    The fiscal year 2017 Budget Request further strengthens DOE and its 
national missions by fully integrating across its science and energy 
programs, and across the DOE enterprise with the national laboratories 
as strategic partners.
    DOE has continued to strengthen and institutionalize its strategic 
relationship with the National Laboratories through organizations and 
forums such as the Laboratory Policy Council, the Laboratory Operations 
Board, and the annual National Laboratories Big Ideas summits, which 
convene DOE and the Laboratories on a regular basis. DOE is sustaining 
this strategic partnership through these ongoing collaborations and 
through new efforts, such as a comprehensive report on the National 
Laboratories. The Request also outlines how DOE will implement 
recommendations of the Secretary of Energy Advisory Board (SEAB) 
taskforce on the national laboratories and the Commission to Review the 
Effectiveness of the National Energy Laboratories (CRENEL). Last week, 
the Department submitted its detailed response to the final CRENEL 
report that addresses the Commission's findings and recommendations.
    The fiscal year 2017 Budget also supports DOE's crosscutting 
initiatives that leverage the science, technology, and engineering 
capabilities across programs and National Laboratory partners. DOE 
first proposed the crosscutting initiatives in fiscal year 2015 to 
enhance enterprise-wide planning and improve collaboration across 
organization boundaries for key science and technology areas with 
impact across DOE's missions. Each crosscutting initiative reflects a 
comprehensive and integrated work plan to optimize programmatic 
objectives and efficiently allocate resources. The crosscutting 
initiatives help bolster DOE's efforts to institutionalize enhanced 
program management and coordination across program offices, while 
accelerating progress on key national priorities.
    DOE has 2 years of experience with integrated planning and program 
management across program offices, enabling accelerated progress on key 
national priorities. The fiscal year 2015 and fiscal year 2016 
appropriations have provided DOE with funding for the crosscutting 
initiatives, including $1.1 billion in fiscal year 2016 coordinated 
across all three Under Secretaries. Moving forward, the fiscal year 
2017 Budget Request continues six existing crosscutting initiatives, 
and proposes a new initiative, Advanced Materials for Energy 
Innovation. Together, the initiatives closely coordinate the $1.5 
billion request, a $330 million increase, in crosscutting R&D across 
the enterprise in seven technology areas:
  --Electricity grid technology modernization accelerates the 
        development of the technologies and tools to enable 
        modernization of the grid to support U.S. economic growth, 
        environmental quality and security objectives.
  --Subsurface science, technology, and engineering coordinates efforts 
        to develop next-generation technologies for energy generation, 
        storage, and disposal applications through mastery of the 
        subsurface, with a science-based focus on advanced imaging of 
        geophysical and geochemical signals.
  --Supercritical carbon dioxide technology enables large-scale 
        commercialization of the supercritical carbon dioxide 
        (sCO<INF>2</INF>) power cycle, which has the potential for 
        higher thermal efficiencies with lower capital cost compared to 
        steam-based power systems and can provide significant benefits 
        for electric power generation, including reducing the costs of 
        carbon capture and storage.
  --Energy-water nexus accelerates the Nation's transition to more 
        resilient and sustainable coupled energy-water systems, 
        including a new effort on desalination technology and regional 
        data, modeling and analysis test beds.
  --Exascale computing, a joint Science-NNSA collaboration, 
        significantly accelerates the development and deployment of 
        capable exascale computing systems, applications and software 
        infrastructure to meet national security needs and to provide 
        next-generation tools for scientific discovery;
  --Cybersecurity protects the Department of Energy enterprise from a 
        range of cyber threats and improves cybersecurity in the 
        electric power and oil and natural gas subsectors; and
  --Advanced materials for energy innovations, which have the potential 
        to revolutionize entire industries by employing advanced 
        synthesis, modeling, and characterization to accelerate and 
        reduce the cost of materials qualification in a wide variety of 
        clean energy applications.
      science: providing the backbone for discovery and innovation
    DOE's Office of Science is the largest Federal sponsor of basic 
research in the physical sciences, supporting more than 24,000 
investigators at over 300 U.S. academic institutions and the DOE 
laboratories. The Office of Science provides the backbone for discovery 
and innovation, especially in the physical sciences, for America's 
research community.
    The fiscal year 2017 Budget Request provides $5.67 billion for 
Science, $325 million above the fiscal year 2016 enacted level, to lead 
basic research in the physical sciences and develop and operate 
cutting-edge scientific user facilities while strengthening the 
connection between advances in fundamental science and technology 
innovation. The fiscal year 2017 Budget Request includes a proposal for 
$100 million in mandatory funding for university grants that will be 
made available through a competitive, merit-based review of proposals 
solicited from and provided by the university community in the Office 
of Science mission areas.
    The Budget Request provides major increases for advanced scientific 
computing research, basic energy sciences, and biological and 
environmental research, and funding to operate the Office of Science's 
scientific user facilities at optimal levels in support of more than 
31,000 researchers from universities, national laboratories, industry, 
and international partners.
Sustaining Leading-Edge Discovery Science
    The fiscal year 2017 Budget Request sustains leading-edge discovery 
science through support for the High Energy Physics and Nuclear Physics 
programs, a 14 percent increase in investments in Scientific 
Laboratories Infrastructure, and the new $100 million mandatory 
proposal for university grants.
    In these discovery science programs, Office of Science has 
contributed to many major recent accomplishments, including 
collaborating with two international experiments that led to the Nobel 
Prize in physics for discovering oscillations in neutrinos (fundamental 
building blocks of our universe that remain poorly understood); 
contributing to the discovery of three of the four new superheavy 
elements in the periodic table; opening the most advanced storage-ring-
based light source facility, the National Synchrotron Light Source II 
(NSLS-II); and continuing effective execution of major ongoing science 
construction projects--the Linac Coherent Light Source II (LCLS-II) and 
the Facility for Rare Isotope Beams (FRIB)--on schedule and within 
budget.
    For High Energy Physics, the request provides $818 million, $23 
million above the fiscal year 2016 enacted level, to understand how the 
universe works at its most fundamental level by discovering the most 
elementary constituents of matter and energy, probing the interactions 
among them, and exploring the basic nature of space and time. The 
Request implements activities and projects based on the High Energy 
Physics Advisory Panel (HEPAP) May 2014 strategic plan, including $45 
million, an increase of $19 million, to support design for a 
reconfigured international Long Baseline Neutrino Facility hosted at 
Fermilab and initial construction for the Deep Underground Neutrino 
Experiment in South Dakota.
    For Nuclear Physics research, the Budget includes $636 million, $19 
million above the fiscal year 2016 enacted level, to discover, explore, 
and understand nuclear matter in a variety of different forms, 
including continued construction of the Facility for Rare Isotope Beams 
(FRIB).
Expanding Use-Inspired Research
    The Office of Science funds basic science programs that support 
use-inspired research towards energy and other applications. The Budget 
Request provides funding to increase operation of the National 
Laboratory user facilities to optimal levels to accommodate increases 
in Mission Innovation work. The Request also expands investments in 
foundations for key technology crosscutting areas, including advanced 
materials, the subsurface, and the energy-water nexus.
    The fiscal year 2017 Budget Request includes $1.94 billion for 
Basic Energy Sciences, $88 million above the fiscal year 2016 enacted 
level, to provide the foundations for new energy technologies, to 
mitigate the environmental impacts of energy use, and to support DOE 
missions in energy, environment, and national security by 
understanding, predicting, and ultimately controlling matter and 
energy. The Budget Request provides $143 million, an increase of $33 
million, to initiate five new Energy Frontier Research Centers (EFRCs) 
and continue to support the existing EFRCs.
    The Request provides $662 million for Biological and Environmental 
Research, $53 million above the fiscal year 2016 enacted level, to 
support fundamental research and scientific user facilities to achieve 
a predictive understanding of complex biological, climatic, and 
environmental systems for a secure and sustainable energy future, 
including an expanded focus on regional energy-water systems. The 
Request provides $90 million, a $15 million increase, to expand 
technology transfer activities during the last year of a 10-year 
program at the three existing Bioenergy Research Centers (BRC). The 
Request also includes $10 million for a new initiative in microbiome 
research that builds on the Department's experience in fundamental 
genomic science of plants and microbes to understand the fundamental 
principles governing microbiome interactions in diverse environments.
    For Fusion Energy Sciences, the fiscal year 2017 Budget Request 
includes $398 million, $40 million below fiscal year 2016. The Request 
will continue to support research to understand the behavior of matter 
at high temperatures and densities and to develop fusion as a future 
energy source. The Budget Request also includes $125 million for the 
U.S. contribution to the ITER project, a major fusion research facility 
being constructed by an international partnership of seven governments. 
The Department submitted in mid-February an interim report to Congress 
on the status of ITER, and we are scheduled to deliver a report in 
early May with recommendations related to the project.
Investing in High Performance Computing to Support Frontier Science
    The Budget Request provides $663 million for Advanced Scientific 
Computing Research (ASCR), $42 million above the fiscal year 2016 
enacted level, to support research in advanced computation, applied 
mathematics, computer science and networking, as well as development 
and operation of high-performance computing facilities.
    Under this program, DOE has implemented the President's Executive 
Order on National Strategic Computing Initiative through a multi-year 
joint program between the Office of Science and NNSA to achieve capable 
exascale computing. As part of the President's national initiative, DOE 
announced a $200 million supercomputer award for Argonne National 
Laboratory, part of a joint Collaboration of Oak Ridge, Argonne, and 
Lawrence Livermore (CORAL) initiative to develop supercomputers that 
will be five to seven times more powerful than today's fastest systems 
in the United States.
    The fiscal year 2017 Budget includes $190 million across three 
Office of Science programs, joined by $95 million in NNSA, to 
accelerate development of capable exascale computing systems with a 
thousand-fold improvement in performance over current high-performance 
computers in support of the President's National Strategic Computing 
Initiative. Within the Request, the Office of Science will transition 
exascale funding to a formal Exascale Computing Project, which will 
follow DOE project management guidelines under DOE Order 413.3b. The 
Budget also provides $46 million to re-compete the SciDAC partnerships, 
with new activities to include accelerating the development of clean 
energy technologies.
    The Request funds research on high-performance computing 
applications unique to the biomedical research community, including $9 
million for the President's BRAIN Initiative, in close coordination 
with the National Institutes of Health. This funding will bring to bear 
DOE national laboratory capabilities in big data analytics, modeling 
and simulation and machine learning to support biomedical research 
challenges in cancer and BRAIN. In other DOE science programs, the 
Request also enables development of accelerator applications, including 
advanced proton and ion beams for the treatment of cancer, in 
coordination with NIH.
      energy research, development, demonstration, and deployment
    The fiscal year 2017 Budget Request provides a programmatic level 
of $6.6 billion for energy research, development, demonstration, and 
deployment activities, of which $5.2 billion is discretionary funding--
an increase of $928 million from fiscal year 2016. The Request supports 
a diverse portfolio of energy technologies, including renewable 
electricity, energy efficiency and advanced manufacturing, sustainable 
transportation, fossil energy, nuclear energy, and a modernized grid.
    DOE recently completed the 2015 Quadrennial Technology Review 
(QTR), a systems-based analytical foundation to inform program research 
priorities across DOE's entire portfolio of energy and science programs 
by examining the most promising research, development, demonstration, 
and deployment (RDD&D) opportunities across energy technologies to 
effectively address the nation's energy needs. The 2015 QTR builds upon 
the first QTR conducted in 2011 by describing the nation's energy 
landscape and the dramatic changes that have taken place over the last 
4 years and identifying the RDD&D activities, opportunities, and 
pathways forward to help address our national energy challenges.
Improving Cost and Performance of Renewable Electricity Technologies
    DOE's fiscal year 2017 Budget Request for Energy Efficiency and 
Renewable Energy (EERE) invests $621 million in renewable energy 
generation technologies, an increase of $143 million from fiscal year 
2016. Innovations, favorable policies, and other factors have led to 
significant cost and performance improvements across the spectrum of 
renewable energy technologies, as documented in Revolution . . . Now\1\ 
report. To name a few examples, the cost of utility-scale photovoltaic 
solar power fell 59 percent from $5.70 per watt in 2008 to $2.34 per 
watt in 2014; power purchase agreements for wind power fell 66 percent 
from 7 cents per kilowatt-hour in 2008 to 2.4 cents per kilowatt-hour 
in 2014; and the median installed price of residential photovoltaic 
solar power fell 51 percent from $8.80 per watt in 2008 to $4.30 per 
watt in 2014.
---------------------------------------------------------------------------
    \1\ http://energy.gov/sites/prod/files/2015/11/f27/Revolution-Now-
11132015.pdf.
---------------------------------------------------------------------------
    The Request provides $285 million, an increase of $44 million, to 
continue the SunShot Initiative on a path to achieve solar cost parity 
without subsidies by 2020. The Budget includes $156 million for Wind 
Energy, an increase of $61 million, to continue efforts to achieve a 
16.7 cents per kilowatt-hour cost target for offshore wind by 2020, 
including $30 million for offshore wind demonstration projects and $25 
million to establish an Offshore Wind R&D Consortium.
    The Budget Request provides just under $100 million, $29 million 
above fiscal year 2016, for geothermal technologies, including $35 
million to select the final site and team for FORGE, a field laboratory 
for enhanced geothermal systems, beginning with a down-selection from 
five to three teams.
    The Request also provides $80 million for water power technologies, 
a $10 million increase, including $25 million to continue the HydroNEXT 
initiative focusing on innovative, low-cost water diversion 
technologies to enable new stream reach hydropower, to progress to a 
cost target of 10.9 cents per kilowatt-hour by 2020 from small, low-
head new stream developments. The Request also includes $55 million, 
$11 million above fiscal year 2016, to support marine and hydrokinetic 
technologies, including a grid-connected open-water test facility and 
development of concepts for revolutionary wave-energy converters.
Improving Energy Efficiency and Advanced Manufacturing Technologies
    The fiscal year 2017 Budget for EERE includes $919 million, $198 
million above fiscal year 2016, to invest in the development of 
manufacturing technologies and enhanced energy efficiency in our homes, 
buildings and industries.
    In 2015, DOE issued 13 final energy efficiency standards as part of 
the Administration's goal to reduce carbon pollution. Standards issued 
to date will achieve cumulative reduction of 2.3 billion metric tons 
cumulatively by 2030. To accelerate innovation in energy efficiency and 
manufacturing programs, DOE continues to fund R&D at the Manufacturing 
Demonstration Facility, funds continuing work at the Critical Materials 
Institute, and is implementing a total of five Clean Energy 
Manufacturing Institutes in fiscal year 2016 as part of the National 
Network for Manufacturing Innovation.
    The fiscal year 2017 Budget Request provides $14 million in EERE 
for the sixth Clean Energy Manufacturing Institute and $25 million to 
establish a new Energy-Water Desalination Hub to serve as a focal point 
for enabling technologies for de-energizing, de-carbonizing, and 
reducing the cost of desalination.
    The fiscal year 2017 Budget provides $169 million, an increase of 
$83 million, for emerging technologies that reduce building energy 
consumption, including $40 million for an R&D effort to transition to 
refrigerant technologies with low global warming potential, and the 
Budget provides $15 million for a new metropolitan systems initiative 
to use new sensing, communication and computation capabilities to 
create actionable information for decision-makers on clean energy 
issues. The Request also provides $230 million, an increase of $15 
million, to support weatherization retrofits to approximately 35,700 
low-income homes nationwide; $70 million to support State energy 
offices; and $26 million for a new Cities, Counties, and Communities 
Energy Program to provide support to local governments, public housing 
authorities, non-profits and other stakeholders to catalyze more 
extensive clean energy investments in revitalization efforts.
Advancing Sustainable Transportation
    The fiscal year 2017 Budget provides $853 million in discretionary 
funding, $217 million above fiscal year 2016, for sustainable 
transportation including vehicle, bioenergy, and hydrogen and fuel 
cells technologies.
    In fiscal year 2016, DOE will achieve high-volume modeled costs for 
batteries of $250 per kilowatt-hour--down from the current cost of $289 
per kilowatt-hour--towards a goal of $125 per kilowatt-hour in 2022 as 
part of the EV Everywhere Grand Challenge. EERE will initiate 
SuperTruck II, with up to four new competitively awarded projects to 
improve freight efficiency of heavy-duty vehicles. The programs will 
achieve at least 1.15 billion gallons per year savings from Clean 
Cities' initiatives and fund, with the Departments of Agriculture and 
Defense, three commercial-scale biorefineries to produce military 
specification drop-in fuels.
    The fiscal year 2107 Budget includes $469 million for vehicle 
technologies, $159 million above fiscal year 2016, including $60 
million to fully fund the multi-year SuperTruck II program to double 
freight truck efficiency by 2020, and $283 million, an increase of $102 
million, for continuing the EV Everywhere program to enable domestic 
production of plug-in electric vehicles that are as affordable and 
convenient as gasoline vehicles by 2022. The Budget provides $279 
million for bioenergy technologies, $54 million above fiscal year 2016, 
including $52 million to continue R&D efforts on converting cellulosic 
and algal-based feedstocks to bio-based gasoline and diesel.
    The fiscal year 2107 Budget Request includes an additional $1.3 
billion mandatory proposal for DOE to expand investments in low-carbon 
transportation technologies and fueling infrastructure as part of the 
Administration's 21st Century Clean Transportation Plan. The proposal 
for DOE would invest $500 million in clean transportation R&D, $750 
million in regional fueling infrastructures for low-carbon fuels, and 
$85 million in the deployment of clean vehicle fleets for local 
governments and first responders.
Crosscutting Innovation Initiatives for Energy
    The Request for EERE includes $215 million for new crosscutting 
innovation initiatives to enable the acceleration of clean energy 
innovation and commercialization in the United States by strengthening 
regional clean energy innovation ecosystems, accelerating next-
generation clean energy technology pathways, and encouraging clean 
energy innovation and commercialization collaborations between our 
National Laboratories and American entrepreneurs.
    The Request includes $110 million to support Regional Energy 
Innovation Partnerships, a new competition to establish regionally-
focused clean energy innovation partnerships around the country. These 
regionally focused and directed partnerships will support regionally 
relevant technology-neutral clean energy RD&D needs and opportunities 
to support accelerated clean energy technology commercialization, 
economic development, and manufacturing.
    The fiscal year 2017 Budget Request also includes $60 million for a 
Next-Generation Innovation funding opportunity to accelerate next-
generation clean energy technology pathways by supporting research, 
development, and demonstration (RD&D) projects with the greatest 
potential to change the trajectory of EERE core program technology 
pathways. The Request includes $20 million for a new Small Business 
Partnerships program to competitively provide technology RD&D resources 
to small businesses through the DOE's National Labs to support their 
efforts to commercialize promising new clean energy. The Request also 
includes $25 million for Energy Technology Innovation Accelerators that 
will leverage the technical assets and facilities of the National 
Laboratories to enable American entrepreneurs to conduct RD&D that 
leads to the creation of new clean energy businesses.
Expanding Transformational ARPA-E Programs
    The fiscal year 2017 Budget Request provides $500 million for the 
Advanced Research Projects Agency--Energy (ARPA-E), which fills a 
unique role in identifying scientific discoveries and cutting-edge 
inventions and accelerating their translation into technological 
innovations. Of this, $350 million is requested in discretionary 
funding, $59 million above the fiscal year 2016 enacted level, to fund 
additional early-stage innovative programs as well as to exploit the 
technological opportunities developed in previous ARPA-E programs.
    ARPA-E has achieved considerable results to date. Through early 
2015, 141 ARPA-E project teams have completed funded work. Thirty four 
ARPA-E projects attracted more than $850 million in private sector 
follow-on funding, and over 30 ARPA-E teams formed new companies. Eight 
companies had commercial sales of new products resulting from ARPA-E 
projects, and more than 37 ARPA-E projects partnered with other 
government entities for further development. At the annual ARPA-E 
Summit being held this week, we will be announcing updated numbers 
demonstrating further success with ARPA-E's portfolio of projects.
    The fiscal year 2017 Budget Request will expand support for the 
current core portfolio of early stage innovation programs, including 
the release of 7-8 funding opportunity announcements (FOA) for new 
focused technology programs. Possible areas of focus for these FOAs 
include advanced sensors and analytics for energy management and 
improved light metals production to transform vehicle light-weighting. 
The Request also supports the continuation of the Innovative 
Development In Energy-Related Applied Science (IDEAS) FOA, which 
provides a continuing opportunity for the rapid support of early-stage 
applied research to explore innovative new concepts with the potential 
for transformational and disruptive changes in energy technology. 
Across all activities, ARPA-E will continue to emphasize supporting 
commercial readiness for highly successful projects.
    In addition, the fiscal year 2017 Budget Request includes a new 
legislative proposal for the Advanced Research Projects Agency--Energy 
Trust, which provides $150 million in fiscal year 2017 and a total of 
$1.85 billion in mandatory funds over 5 years to add a new focus on 
innovative systems level development that will deliver larger, more 
rapid benefits to the economic, environmental, and energy security of 
the United States. These projects are of a different character than can 
otherwise be funded with annual discretionary appropriations, and 
include, for example, potentially transformative technologies facing 
significant technical challenges in scale-up, projects that integrate 
multiple technical advances, and projects that address system-level 
transformation of energy cycles. The proposed new mandatory spending 
authority will accelerate transformational changes on energy systems.
Revitalizing the Nuclear Fuel Cycle
    The fiscal year 2017 Budget Request provides $994 million for 
Nuclear Energy, $8 million above the fiscal year 2016 enacted level, to 
help meet energy security, proliferation resistance, and climate goals. 
These funds will to support the diverse civilian nuclear energy 
programs of the U.S. Government, leading Federal efforts to research 
and develop nuclear energy technologies, including generation, safety, 
waste storage and management, and security technologies.
    In 2015, the program funded the second 5-year program of the 
Consortium for Advanced Simulation of Light Water Reactors (CASL) Hub 
and new R&D programs for two advanced reactor technologies, pebble bed 
and chloride fast reactors. The fiscal year 2017 Budget Request 
provides $73.5 million for ongoing R&D in advanced reactor technologies 
and continued R&D support for light water reactors (LWR), $59 million 
for accident tolerant fuels, and $35 million for LWR sustainability. 
Funding is also requested to continue the GAIN initiative to provide 
streamlined access for advanced reactor developers to access the world-
class nuclear energy R&D capabilities at the national laboratories. The 
Request includes $89.6 million to continue funding for a cost-shared 
cooperative agreement for licensing technical support of a small 
modular reactor design, including support for a small modular reactor 
design (SMR) certification application to the Nuclear Regulatory 
Commission (NRC) by December 2016, for application review by the NRC, 
and to continue development of permit and license applications for the 
first domestic SMR deployments.
    In 2015, DOE's nuclear energy program awarded a contract for a deep 
borehole field characterization test and issued an Invitation for 
Public Comment to initiate the dialogue on a consent-based siting 
process to support a consolidated commercial used fuel storage, a 
permanent repository and a separate disposal path for defense waste. 
The Request continues implementation of the Administration's Strategy 
for the Management and Disposal of Used Nuclear Fuel and High Level 
Radioactive Waste by providing $76.3 million, an increase of $53.8 
million, for integrated waste management system activities in the areas 
of transportation, storage, disposal, and consent-based siting. The 
Request includes $39.4 million for consent-based siting, including $25 
million for grants to States, Tribes, and local governments. The 
Request also includes $26 million to complete characterization of a 
field test borehole and to initiate drilling.
Enabling Fossil Energy to Compete in a Low-Carbon Energy Future
    The Budget Request provides $600 million for Fossil Energy Research 
and Development ($240 million of which is available through repurposing 
of prior-year balances), $32 million below the fiscal year 2016 enacted 
level, to advance research and development in carbon capture and 
storage, advanced energy systems, cross-cutting areas, and fuel supply 
impact mitigation.
    In fiscal year 2016, DOE is reaching several milestones in its 
support for carbon capture, utilization and storage (CCUS). DOE 
completed funding of two large-scale industrial CCUS projects that are 
in operation to demonstrate the feasibility and economics of carbon 
capture on an ethanol facility and the technology for carbon capture on 
a hydrogen production unit. Through cost-shared cooperative agreements, 
DOE is supporting two large-scale, coal-based CCUS demonstration 
projects utilizing coal gasification and post-combustion carbon capture 
technologies, with construction to be completed in 2016.
    The fiscal year 2017 Budget Request provides $50 million, an 
increase of $20 million, to support initial construction of three 
large-scale pilot projects of advanced, second generation, post 
combustion carbon capture technologies critical to reducing cost and 
increasing efficiency of CCUS technologies. The Request includes $24 
million to initiate the design and construction of a supercritical 
carbon dioxide (CO?) pilot plant test facility at the 10 megawatt-
electric (MWe) scale, and $31 million to initiate design of a natural 
gas combined cycle (NGCC) demonstration facility employing CCUS 
technology.
    The budget includes the reallocation of funding from CCUS 
demonstration projects that have not reached financial close to fund 
other projects and new initiatives, including the use of $240 million 
in prior-year balances.
    Also in support of CCUS technologies, the President's fiscal year 
2017 Budget Request makes available $5 billion in proposed investment 
and sequestration tax credits for qualified commercial CCUS projects. 
These tax credits are complemented by an existing $8.5 billion 
available through DOE's loan guarantees for advanced fossil energy 
projects to help provide critical financing to support new or 
significantly improved advanced fossil energy projects, and additional 
mixed-use authority for loan guarantees in the fiscal year 2017 Budget 
that can be used for advanced fossil and other technologies.
Expanding Technology Commercialization and Deployment
    Significant advances have been made in recent years in 
commercializing and deploying innovative technologies have been made. 
In 2015, DOE received 30 out of 100 R&D Magazine awards for outstanding 
technology developments with promising commercial potential, and the 
Administration announced new investment commitments from the 
institutional investment community of $4 billion for deployment of 
clean energy technologies. The renewable energy production tax credits 
were also extended by the Congress in December 2015.
    To expand the commercial impact of DOE's portfolio of research, 
development, demonstration, and deployment activities in the short, 
medium and long term, DOE established the Office of Technology 
Transitions (OTT) in 2015 to oversee and advance DOE's technology 
transfer mission. The fiscal year 2017 Budget Request provides $8.4 
million for the OTT to expand the commercial impact of the DOE 
portfolio of activities. The Request provides for coordination of 
technology-to-market activities across the Department and the 
implementation of the Technology Commercialization Fund (TCF), 
approximately $20 million in fiscal year 2017, to catalyze seed-stage 
funding for collaborations with private sector partners on high 
potential energy technologies at the National Laboratories. The Budget 
Request for OTT also supports implementation of the Clean Energy 
Investment Center (CEIC) to provide better information on investable 
opportunities resulting from DOE R&D.
    DOE's Loan Programs Office, in its role accelerating the domestic 
commercial deployment of innovative and advanced clean energy 
technologies, has maintained a financially sound portfolio of loans and 
loan guarantees. The $32 billion portfolio of loans, loan guarantees, 
and conditional commitments has been supported by $18 billion in 
financing from project sponsors, and 22 projects with DOE-backed loans 
and loan guarantees have now successfully completed construction and 
initiated operation. DOE has received new applications seeking over $20 
billion in Advanced Technology Vehicles Manufacturing (ATVM) and Title 
XVII loans and loan guarantees.
    The fiscal year 2017 Budget Request supports the Department's 
continued oversight of more than $30 billion in loans, loan guarantees, 
and conditional commitments, as well as its administration of remaining 
loan and loan guarantee authority to finance projects in the areas of 
advanced nuclear energy, renewable energy and efficient energy, 
advanced fossil energy, and advanced technology vehicles manufacturing. 
The fiscal year 2017 Request also proposes an additional $4 billion of 
mixed-use loan guarantee authority for innovative energy projects that 
reduce greenhouse gas emissions.
    The fiscal year 2017 Request also includes $23 million for the 
Office of Indian Energy, $7 million above the fiscal year 2016 enacted 
level, to support DOE's partnership with the Department of the Interior 
to address the need for clean, sustainable energy systems on Indian 
lands through expanded technical assistance and grant programs.
Enabling Secure, Modern, and Resilient Energy Infrastructures
    The Department's energy programs also support a secure, modern and 
resilient energy infrastructure, including for the electric power grid. 
The fiscal year 2017 Budget Request continues a focus on this mission 
by providing increased investments in the electricity grid of the 
future.
    DOE has also taken major steps in implementing the Grid 
Modernization Initiative, supported by a Grid Modernization National 
Laboratory Consortium comprising 400 partners, including the release of 
DOE's new comprehensive new Grid Modernization Multi-Year Program Plan 
and the announcement of a $220 million funding opportunity for the 
National Labs and partners.
    The fiscal year 2017 Budget Request includes $262 million for 
Electricity Delivery and Energy Reliability, $56 million above the 
fiscal year 2016 enacted level, for grid modernization research to 
support a smart, resilient electric grid for the 21st century and the 
storage technology that underpins it, as well as funding critical 
emergency response and grid physical security capabilities. The Request 
provides $14 million to establish a new competitively-selected Grid 
Clean Energy Manufacturing Innovation Institute as a part of the multi-
agency National Network for Manufacturing Innovation, to focus on 
technologies related to critical metals for grid application, and 
advances will be broadly applicable in multiple industries and markets.
    The Request for Electricity Delivery and Energy Reliability also 
provides $45 million for energy storage R&D, an increase of $24 
million, and $30 million for smart grid R&D. To fortify grid security 
and resilience, the Request includes $46 million to advance 
cybersecurity technologies and $18 million for infrastructure security 
and energy restoration activities. The Request provides $15 million for 
a new State energy assurance program that supports regional and State 
activities to continually improve energy assurance plans, improve 
capabilities to characterize energy sector supply disruptions, 
communicate among the local, State, regional, Federal, and industry 
partners, and identify gaps for use in energy planning and emergency 
response training programs. The Request also provides $15 million to 
launch a new State distribution-level reform program for competitive 
awards to States to utilize a grid architecture approach to address 
their system challenges.
    The Budget Request also includes $257 million for the Strategic 
Petroleum Reserve (SPR), $45 million above the fiscal year 2016 enacted 
level, to increase the system's durability and reliability and ensure 
operational readiness. The Bipartisan Budget Act of 2015 requires the 
Department to submit to Congress a Strategic Review of the SPR by May, 
2016. The Act also authorized DOE, subject to appropriation, to sell up 
to $2 billion in SPR oil to fund SPR infrastructure modernization. The 
results of the SPR Strategic Review will inform SPR infrastructure 
modernization and shall result in an fiscal year 2017 budget amendment 
related to SPR modernization.
    The fiscal year 2017 Budget Request provides $31 million for Energy 
Policy and Systems Analysis to continue serving as a focal point for 
policy coordination within the Department on the formulation, analysis, 
and implementation of energy policy and related programmatic options 
and initiatives that could facilitate the transition to a clean and 
secure energy economy.
    EPSA also serves as the Secretariat of the multi-agency Quadrennial 
Energy Review (QER), and provides systems analysis to support this 
Administration's initiative. The Administration expects to complete the 
second installment of the QER in 2016, focused on the electricity 
sector.
    The Budget Request also includes $84 million for the power 
marketing administrations, including the Western Area, Southeastern, 
Southwestern, and Bonneville Power Administrations.
Enhancing Collective Energy Security in Global Energy Markets
    While DOE's work in global energy security is not a major budgetary 
issue, it is an important issue for the Nation. DOE has pursued an 
increased global focus on collective energy security-- energy security 
for the United States and its allies--in the last several years.
    For example, as part of this effort and supported by our Office of 
International Affairs, the G-7 recently reached an agreement to enhance 
cybersecurity assessments of energy systems. The fiscal year 2017 
Budget Request supports DOE's efforts to enhance collective energy 
security by providing $19 million for the Office of International 
Affairs, which coordinates the Department's activities to strengthen 
international energy technology, information and analytical 
collaborations.
    In the area of energy exports, DOE has released a two-part LNG 
export study for public comment evaluating the impact of increasing LNG 
exports from 12 billion cubic feet per day (Bcf/d) to 20 Bcf/d. The 
study will be used in the public interest evaluation of pending 
applications to export LNG to non-FTA countries. DOE also chaired the 
International Energy Agency Ministerial resulting in a plan to assess 
energy security implications of natural gas supply.
    Following the North American ministerial in 2014, Canada, Mexico, 
and the United States have worked together to produce new integrated 
mapping and information products. The Budget Request for the Energy 
Information Administration provides $131 million, a $9 million 
increase, to build upon enhancements like these in carrying out EIA's 
data collection and analysis mission.
    The increase will provide greater regional detail and analysis of 
petroleum data, enhance commercial building energy efficiency data. The 
Budget will also extend analysis of international data to include 
Canada-Mexico collaboration and Asia and expand collection of 
transportation energy consumption data.
                            nuclear security
    The President's 2015 National Security Strategy, the 2010 Nuclear 
Posture Review (NPR), and the ratification of the New Strategic Arms 
Reduction Treaty underscored the importance of the DOE's nuclear 
mission and the lasting mandate for DOE to maintain a safe, secure, and 
effective stockpile for as long as nuclear weapons exist. DOE advances 
the President's vision to eliminate and secure nuclear material, reduce 
nuclear stockpiles, and increase global cooperation.
    The fiscal year 2017 Budget Request proposes $12.9 billion for the 
National Nuclear Security Administration (NNSA), $357 million above the 
fiscal year 2016 enacted level, to invest in our nuclear security by 
modernizing and maintaining our nuclear security enterprise, 
refurbishing and extending the life of our nuclear deterrent, reducing 
the threats of nuclear proliferation, and supporting the safe and 
reliable operation of our nuclear Navy. As part of an overall focus to 
modernize nuclear security research and production infrastructure, the 
overall NNSA budget includes a total of $1.8 billion in proposed 
infrastructure investments, including $575 million for the new Uranium 
Processing Facility.
    The Request for NNSA includes $413 million for NNSA Federal 
Salaries and Expenses for the salary, benefits, and support expenses of 
1,715 Federal full-time equivalents (FTEs) to provide appropriate 
Federal oversight of the nuclear security enterprise responsible for 
managing and executing NNSA's weapons activities and nonproliferation 
missions.
Stewardship of the Nuclear Deterrent
    August of 2015 marked the 20th anniversary of President Bill 
Clinton's announcement that the United States would pursue negotiations 
for the Comprehensive Nuclear-Test-Ban Treaty and maintain the U.S. 
nuclear arsenal without nuclear explosive tests. This was an important 
milestone for a science-based Stockpile Stewardship Program that 
successfully pushed the limits of modern science and engineering to 
maintain the stockpile without underground nuclear explosive testing.
    The fiscal year 2017 Budget Request includes $9.2 billion for 
Weapons Activities, $396 million above the fiscal year 2016 enacted 
level, to build on these accomplishments as NNSA sustains a credible 
and effective nuclear deterrent while continuing to reduce the size of 
the active stockpile. The Budget Request supports the work, as laid out 
in the Stockpile Stewardship and Management Plan, of the science-based 
Stockpile Stewardship Program to ensure a safe, secure and effective 
nuclear stockpile in the absence of underground nuclear explosive 
testing through a sustained, long-term research program.
    NNSA has achieved major accomplishments in that mission, such as 
substantial progress on its Life Extension Programs (LEPs), including 
those for the B61-12, W76-1, W80-4, and W88 Alt 370 with conventional 
high explosive (CHE) refresh. The Inertial Confinement Fusion Ignition 
and High Yield Program increased the number of experiments, or ``shot 
rate,'' at Lawrence Livermore National Laboratory's National Ignition 
Facility from 191 in 2014 to 356 in 2015. NNSA received the first 
hardware delivery for Trinity, NNSA's next generation high performance 
computer, and completed the first subproject for the Uranium Processing 
Facility, Site Readiness, on time and under budget.
    The fiscal year 2017 Request includes $1.3 billion for LEPs and 
major alterations (Alts), $38 million above fiscal year 2016. In 
particular, the Request continues timely execution of the B61-12 LEP 
and the W80-4 LEP. These are the first two steps in implementing the 
Nuclear Weapons Council-approved ``3+2'' strategy to consolidate the 
stockpile to three ballistic missile warheads and two air delivered 
systems, reducing the number of weapons in the deployed stockpile and 
simplifying maintenance requirements.
    The Request provides $223 million to support completing production 
of the W76 by 2019 and $616 million to deliver the B61-12 first 
production unit by 2020. It also supports transitioning the W88 Alt 370 
with CHE refresh to Production Engineering in February 2017 with $281 
million and provides $220 million, an increase of $25 million, to 
maintain the schedule of the first production unit for the W80-4 LEP by 
2025. The Budget Request also provides $69 million, $17 million above 
the fiscal year 2016 enacted level, to make progress towards meeting 
the President's commitment to accelerate dismantlement of retired U. S. 
nuclear warheads by 20 percent.
    The Budget Request for Weapons Activities provides $2.7 billion for 
Infrastructure and Operations, $443 million above fiscal year 2016. The 
Request ensures no increase in the backlog of deferred maintenance. The 
Request will dispose of the Kansas City Bannister Federal Complex, and 
upgrade aging infrastructure to address safety and programmatic risks, 
improve productivity, and lower operating costs. The Request for 
Infrastructure and Operations also provides $575 million, $145 million 
above fiscal year 2016, to continue the phased approach for 
constructing the Uranium Processing Facility, including completion of 
the design and continued construction on approved subprojects. The 
request also provides $160 million to continue work on the Chemistry 
and Metallurgy Research Replacement project to support the plutonium 
strategy.
    As part of the Office of Science-NNSA collaboration on the Exascale 
Computing Initiative, the Budget includes $95 million for exascale 
computing, $31 million or 48 percent above fiscal year 2016, to develop 
exascale-class high performance computing to meet the needs for future 
assessments, LEPs, and stockpile stewardship.
    The Request for Weapons Activities also includes $283 million for 
Secure Transportation Asset, $46 million above fiscal year 2016, to 
continue asset modernization and workforce capability initiatives 
including conceptual design and systems prototyping of the new Mobile 
Guardian Transporter.
Controlling and Eliminating Nuclear Materials Worldwide
    The fiscal year 2017 Budget Request includes $1.8 billion for 
Defense Nuclear Nonproliferation, $132 million below the fiscal year 
2016 enacted level, to continue the critical missions of securing or 
eliminating nuclear and radiological materials worldwide, countering 
illicit trafficking of these materials, preventing the proliferation of 
nuclear weapon technologies and expertise, ensuring that the United 
States remains ready to respond to high consequence nuclear and 
radiological incidents at home or abroad, and applying technical and 
policy solutions to solve nonproliferation and arms control challenges 
around the world. Note that while the overall program level for DNN is 
down, the programmatic funding level in the fiscal year 2017 Budget 
Request is roughly flat with fiscal year 2016 due to the availability 
of prior-year carryover balances and termination of the Mixed-Oxide 
(MOX) Fuel Fabrication Facility Project.
    DOE has taken major steps in the nuclear threat reduction missions. 
We recently issued the first nonproliferation strategic plan, Prevent, 
Counter and Respond--A Strategic Plan to Reduce Global Nuclear 
Threats,\2\ to define and describe our missions.
---------------------------------------------------------------------------
    \2\ http://nnsa.energy.gov/sites/default/files/
NPCR%20Report_FINAL_4-14-15.pdf.
---------------------------------------------------------------------------
    Supported largely by the DNN program and capabilities, we also 
provided scientific technical analysis to support the U.S. delegation 
during the Joint Comprehensive Plan of Action (JCPOA) negotiations. 
Following finalization of the agreement, twenty nine scientific leaders 
deeply familiar with nuclear issues (familiar names such as Garwin, 
Drell, Dyson, Hecker, Richter, and others), focusing on the agreement's 
nuclear dimensions, wrote to the President: ``This is an innovative 
agreement, with much more stringent constraints than any previously 
negotiated nonproliferation framework.'' These experts were referring 
to aspects of the agreement such as weaponization constraints and bans 
on nuclear weapons R&D that mark an unprecedented approach to such 
agreements--and highlight the critical role that DOE plays in providing 
unparalleled scientific and technical capabilities.
    As part of NNSA's goal to minimize and, when possible, eliminates 
weapons-usable nuclear material around the world, we have also recently 
completed removal or confirmed disposition of fissile nuclear material, 
bringing the number of countries free of all highly enriched uranium 
(HEU) to 28, plus Taiwan. We have also down-blended additional HEU to 
achieve a cumulative total of 150 metric tons of U.S. excess, weapons-
usable HEU.
    And in the area of nuclear counterterrorism and incident response, 
NNSA realigned its counterterrorism and counterproliferation functions 
to more efficiently respond to nuclear or radiological incidents 
worldwide and to sustain counterterrorism capabilities through 
innovative technology and policy-driven solutions. The program 
continues to train and exercise to strengthen emergency preparedness 
and response capabilities, including nuclear forensics operations, 
domestically and worldwide.
    Looking ahead, the fiscal year 2017 Budget Request will support 
continued successful execution of the mission to control and eliminate 
nuclear materials worldwide. NNSA will support the President's fourth 
and final Nuclear Security Summit in March-April 2016, continuing the 
President's aim to achieved tangible improvements in the security of 
nuclear materials and stronger international institutions that support 
nuclear security.
    DOE and its national laboratories will continue to provide 
technical support to the International Atomic Energy Agency (IAEA), 
including to implement the JCPOA, and will remain highly engaged in 
providing training and technologies and other support to support the 
IAEA. The Request includes $13 million to support implementation of the 
JCPOA, including $10 million to support JCPOA material management 
activities and $3 million for technical and in-kind support for the 
U.S. interagency process and the IAEA.
    In the area of plutonium disposition, the Budget Request will 
terminate the Mixed Oxide (MOX) approach and move to a dilute and 
dispose approach that will be faster and significantly less expensive 
than the MOX option. Specifically, the fiscal year 2017 Budget Request 
provides $270 million, $70 million below fiscal year 2016, to terminate 
the MOX Fuel Fabrication Facility, and an additional $15 million to 
pursue a dilute and dispose (D&D) approach that will disposition 
surplus U.S. weapon-grade plutonium by diluting it and disposing of it 
at a geologic repository. The Department will complete pre-conceptual 
design for the D&D option and begin conceptual design in late fiscal 
year 2017.
    In other nonproliferation areas, the Request includes $272 million, 
$37 million above fiscal year 2016, to sustain emergency response and 
nuclear counterterrorism capabilities that are applied against a wide 
range of high-consequence nuclear or radiological incidents and 
threats. It proposes $394 million for the Defense Nuclear 
Nonproliferation Research and Development program to advance technical 
capabilities to monitor foreign nuclear weapons program activities, 
diversion of special nuclear material, and nuclear detonations. The 
Request provides $341 million for Material Management and Minimization 
to support HEU and plutonium disposition, the conversion of research 
reactors and medical isotope production facilities from the use of HEU 
to the use of low enriched uranium (LEU) fuels and targets, and removal 
of excess HEU and separated plutonium. The Request also provides $337 
million for Global Material Security to build international capacity to 
secure, and prevent smuggling of, nuclear and radiological material 
through equipment installations and upgrades, and capacity-building 
workshops and trainings. In addition, the Request provides $125 million 
for the Nonproliferation and Arms Control program to strengthen the 
nonproliferation and arms control regimes by enhancing international 
nuclear safeguards; controlling the spread of nuclear material, 
equipment, technology, and expertise; and verifying nuclear reductions 
and compliance with nonproliferation and arms control treaties and 
agreements.
Advancing Navy Nuclear Propulsion
    Finally for NNSA, the Naval Reactors program continues its 
tradition of providing the design, development and operational support 
required to provide militarily effective nuclear propulsion plants and 
ensure their safe, reliable and long-lived operation. In carrying out 
this mission, the Naval Reactors program has marked many major 
accomplishments.
    The program continues to provided technical support and 24/7 
reachback support for the Navy's nuclear fleet of 73 submarines and 10 
aircraft carriers. The program successfully achieved criticality in the 
first reactor of the new Gerald R. Ford-class aircraft carrier, and 
continued reactor plant design for the Ohio-class submarine replacement 
and advanced technology development in refueling of S8G land-based 
prototype reactor, including the insertion of new materials and 
technology for the Ohio-class submarine replacement. Naval Reactors 
also operated the MARF (Modifications and Additions to a Reactor 
Facility) and S8G land-based prototype reactors, delivering 2,832 
trained nuclear operators to the fleet--a 17 percent increase over 
fiscal year 2014.
    The Request includes $1.4 billion for Naval Reactors, an increase 
of $45 million from the fiscal year 2016 level, to support U.S. Navy 
nuclear propulsion. The Request provides $214 million to continue 
development of the Ohio-class submarine replacement reactor, and $124 
million to continue refueling of the Land-Based Prototype reactor.
    In support of necessary facilities for handling naval spent nuclear 
fuel, including the capability to receive, unload, prepare, and package 
naval spent nuclear fuel, the Request provides $100 million to complete 
design and initiate construction of a new Spent Fuel Handling 
Recapitalization Project at Naval Reactors Facility in Idaho.
                       management and performance
    The fiscal year 2017 Budget Request provides $6.8 billion for 
Departmental management, performance, and related corporate support 
activities to position the Department to meet the nation's Manhattan 
Project and Cold War legacy responsibilities and to continue 
institutionalizing an enterprise-wide focus on improving the efficiency 
and effectiveness of DOE programs through the effective management of 
DOE's infrastructure and workforce.
Strengthening Project Management
    The Department is aggressively pursuing implementation of a 
Secretarial initiative to improve project management. We have made 
progress to that end through several recent initiatives and reforms, 
including establishing independent project review capabilities within 
each Under Secretary organization, as well as a central Project 
Management Risk Committee (PMRC). We have also formalized the role of 
the Energy Systems Acquisition Advisory Board (ESAAB) and instituted 
process changes to ensure that the ESAAB takes a proactive role in 
reviewing major projects. In addition, we established a new independent 
office on project management oversight and assessments.
    It is notable the Government Accountability Office (GAO) has 
narrowed the focus of its watch list to DOE's major projects, and we 
continue to work towards improving our implementation of those 
projects. The Department's continuing goal is to control costs to 
within 10 percent of the baseline estimate for at least 90 percent of 
our construction projects.
    The fiscal year 2017 Budget Request includes several proposals to 
further implement these project management improvements. The Request 
provides $18 million for the independent office of Project Management 
Oversight and Assessments (PMOA). With senior management focus on DOE's 
total project portfolio, DOE will be able to hold contractors and 
programs accountable for large and at-risk projects, receiving early 
warning notifications and quarterly updates.
    The Budget Request also includes $5 million to establish an 
independent office, similar to that at the Department of Defense, to 
set cost estimating policy and provide timely unbiased program 
evaluation analysis and cost estimation.
Cleaning up Nuclear Legacy Waste
    The fiscal year 2017 Budget Request includes $6.1 billion for 
Environmental Management (EM), $99 million below the fiscal year 2016 
enacted level, to address its responsibilities for the cleanup of large 
quantities of liquid radioactive waste, spent nuclear fuel, 
contaminated soil and groundwater, and deactivating and decommissioning 
excess facilities used by the nation's nuclear weapons program. The 
$6.1 billion Request includes $5.4 billion in discretionary funding and 
proposes $674 million in mandatory funding from the USEC Fund, for 
Uranium Enrichment Decontamination and Decommissioning (UED&D) Fund 
activities.
    While difficult challenges lie ahead with some of our remaining 
Environmental Management projects, it is important to note that when 
the program started, there were 107 sites to be closed-- and today we 
have cleaned up all but 16 sites. The remaining sites will not be 
simple to remediate, but we started with over 3,000 square miles to 
remediate, and only 300 square miles remain.
    In our ongoing efforts to remediate our legacy sites, we have 
continued construction activities necessary to initiate direct feed of 
Low Activity Waste (LAW) at Hanford, and we have continued technical 
issue resolution of the Pretreatment and High Level Waste facilities at 
the same site. We have cleaned up and demolished more than 800 
facilities at Hanford, and we have remediated over 1,200 waste sites 
along the River Corridor. At the Savannah River Site, we have closed 
the seventh waste tank, and we have revitalized the EM Technology 
Development and Deployment Program in response to a Secretary of Energy 
Advisory Board (SEAB) recommendation.
    Looking forward, the fiscal year 2017 Budget Request includes $271 
million to maintain critical progress toward resuming waste emplacement 
in the underground at the Waste Isolation Pilot Plant (WIPP) by the end 
of 2016. WIPP, the Nation's only mined geologic repository for the 
permanent disposal of defense-generated transuranic waste, suspended 
operations following a February 5, 2014 fire involving an underground 
vehicle and an unrelated radioactive release that occurred February 14, 
2014. The Request for WIPP includes activities to resume waste 
emplacement operations by the end of 2016, including continued 
implementation of corrective actions and safety management program 
improvements, completion of Operational Readiness Reviews and 
commencement of waste emplacement operations. Activities include mine 
stabilization, mining, mine habitability activities in all underground 
areas, continued decontamination of contaminated areas, and upgrades, 
support for completion of repairs of New Mexico Roads used for the 
transportation of DOE shipments of transuranic waste to WIPP, and 
community and regulatory support. The budget supports the Central 
Characterization Project and maintains shipping capability between the 
generator sites and WIPP. The Request also includes funding to support 
progress in design of a new permanent ventilation system that is needed 
to support normal operations.
    The fiscal year 2017 Budget Request provides $1.5 billion for the 
Office of River Protection, $86 million above the fiscal year 2016 
enacted level, to support the Department's proposal to amend the 
Consent Decree between DOE and the State of Washington for completion 
of the Waste Treatment and Immobilization Plant and retrieval of waste 
from 19 Single Shell Tanks. The Budget Request would enable 
construction of a new facility to allow DOE to begin treating low level 
waste by the end of 2022, avoiding the need to wait for completion of 
other facilities affected by the technical issues. The Request 
continues construction of the low activity waste (LAW) facility, the 
analytical laboratory, and balance of facilities while addressing 
technical issues with the pretreatment facility and the high-level 
waste facility as well as support for the planning and design of the 
LAW pretreatment system at the tank farms.
    The Request also provides $800 million for cleanup of the Richland 
Site. Cleanup activities include soil and groundwater remediation, 
facility decontamination and decommissioning, stabilization and 
disposition of nuclear materials and spent nuclear fuel, and 
disposition of waste other than the tank waste managed by the Office of 
River Protection. The fiscal year 2017 Request for Richland will 
provide for continued achievement of important cleanup progress 
required by the Tri-Party Agreement. The Budget Request for Richland 
supports completion of cleanup at the Plutonium Finishing Plant, 
planning and initiation of procurement in preparation for cleanup of 
the 324 site, and other activities. The decrease of $191 million from 
fiscal year 2016 is attributed to completed scope and facility 
modifications to prepare for installation of sludge removal systems for 
the K West Basin, as well as purchase of the engineered containers for 
sludge repackaging; and completion of remediation in the 300 area, 100K 
area and 618-10 trenches.
    The Request provides $1.5 billion, $111 million above fiscal year 
2016, for the Savannah River Site to support remaining construction and 
commissioning of the Salt Waste Processing Facility, processing 19 
million gallons of salt waste and nuclear materials in H-Canyon, and 
site-wide infrastructure. The Request will ramp up commissioning of the 
Salt Waste Processing Facility to enable start-up in 2018. The Request 
devotes significant funding to support the Liquid Tank Waste Management 
Program, as the liquid waste tanks pose the highest public, worker, and 
environmental risk at the site. The Request also supports the Savannah 
River Site to operate H Canyon in a safe and secure manner, provides 
safe, secure storage for spent (used) nuclear fuel in L-Area, and 
supports continuity of K-Area operations to include maintaining K-Area 
to store special nuclear material safely and securely. The increase 
over fiscal year 2016 provides additional support leading to startup of 
Salt Waste Processing Facility in 2018; supports tank closure and bulk 
waste removal activities to meet fiscal year 2016 enforceable 
milestones; and provides additional funding for Salt Disposal Unit #7 
design activities.
    The fiscal year 2017 Budget Request includes $370 million, $32 
million below fiscal year 2016, for the Idaho Site to support key 
requirements to continue progress in meeting the Idaho Settlement 
Agreement commitments. The Idaho Cleanup Project is responsible for the 
treatment, storage, and disposition of a variety of radioactive and 
hazardous waste streams, including removal and disposition of targeted 
buried waste sitting above the Snake River Plain Aquifer. The project 
is also responsible for removing or deactivating unneeded facilities, 
and removing DOE's inventory of spent (used) nuclear fuel and high-
level waste from Idaho. The Request will continue retrieval and 
processing of transuranic waste via the Advanced Mixed Waste Treatment 
Project and the Remote-handled Waste Disposition Project. It will also 
support continued progress toward closing the tank farm, including 
continued treatment and disposition of sodium bearing waste and 
progress toward buried waste exhumation under the Accelerated Retrieval 
Project. The decrease from the fiscal year 2016 level is attributed to 
progress in treatment, packaging, and certification of Idaho Settlement 
Agreement remote-handled transuranic waste, delays in processing waste 
at the Integrated Waste Treatment Unit, and a one-time funding increase 
in fiscal year 2016 for procurements.
    The fiscal year 2017 Budget Request provides $391 million for 
cleanup at the Oak Ridge site, including $178 million in proposed 
mandatory funding, to support direct shipments of Uranium 
Solidification Project material, continue design and construction of 
the Mercury Treatment Facility, continue contact- and remote-handled 
debris processing at the Transuranic Waste Processing Facility, and 
continue the K-27 Decontamination and Decommissioning project. The 
Request will maintain the facilities in a safe, compliant, and secure 
manner as well as operate waste management facilities. The Request will 
continue development of Comprehensive Environmental Response, 
Compensation and Liability Act documentation for the new On-Site 
Disposal Facility. The processing of legacy transuranic waste debris 
will continue at the Transuranic Waste Processing Center and technology 
maturation and design will continue for the Sludge Processing Facility 
Buildout project. Additionally, the Request supports direct disposition 
of Consolidated Edison Uranium Solidification Project material from 
Building 3019, assuming resolution of stakeholder concerns.
    The Budget Request includes $323 million, including $258 million in 
proposed mandatory funding, to support the deactivation and 
decommissioning project at the Portsmouth Gaseous Diffusion Plant in 
Piketon, Ohio. In addition to supporting deactivation and 
decommissioning of gaseous diffusion plant facilities and systems, 
disposal of waste, small equipment removal, and other related 
activities, the request also includes funding for design and 
construction of a potential on-site landfill for the disposal of waste 
generated from the demolition of the Portsmouth Gaseous Diffusion Plant 
and associated facilities. In addition, the Request will continue the 
safe operation of the DUF6 Conversion facility that converts depleted 
uranium hexafluoride into a more stable depleted uranium oxide form 
suitable for reuse or disposition. The Request for the Portsmouth is 
supplemented by continuing transfers of uranium for cleanup services at 
the Portsmouth Gaseous Diffusion Plant.
    The Request provides $272 million for the Paducah site, including 
$208 million in proposed mandatory funding, for a multifaceted 
portfolio of processing and cleanup activities. In addition to ongoing 
environmental cleanup and DUF6 operations, the Budget Request supports 
activities to continue the environmental remediation and further 
stabilize the gaseous diffusion plant, including uranium deposit 
removal, facility modifications, surveillance and maintenance, and 
activities to remove hazardous materials. The Request supports the 
design of the Paducah potential On-Site Waste Disposal Facility 
project, if the project is selected as the appropriate remedy.
    The fiscal year 2017 Budget Request includes $30 million to expand 
the technology development program through carefully targeted projects 
to develop and demonstrate new technologies and approaches tailored to 
the specific contamination issues at individual sites. The fiscal year 
2017 Budget Request includes an emphasis on robotics research and 
development of test beds in support of DOE's cleanup mission.
Refinancing Uranium Enrichment Decontamination and Decommissioning
    Continued progress towards decontaminating, decommissioning, and 
remediating the former gaseous diffusion uranium enrichment sites, and 
towards meeting our uranium/thorium reimbursement commitments, remains 
a priority for DOE. We have made significant strides at the Oak Ridge, 
Portsmouth, and Paducah sites, but we have an estimated $22-24 billion 
in remaining cleanup costs.
    Throughout the history of these sites, the government has collected 
funds from the public and private entities that utilized the enriched 
uranium produced at the facilities to pay for operation, privatization, 
and cleanup of these three sites--some provided by utility fees, and 
others provided by Congress. Three government accounts-- Uranium 
Enrichment Decontamination and Decommissioning Fund, Uranium Supply and 
Enrichment Activities Account, and the United States Enrichment 
Corporation (USEC) Fund--hold nearly $5 billion of these funds.
    The fiscal year 2017 Budget Request proposes to make progress on 
our cleanup missions at Paducah, Portsmouth, and Oak Ridge, and the 
Title X Uranium/Thorium Reimbursement Program by harnessing some of 
these funds through a mandatory proposal to make available $674 million 
from the United States Enrichment Corporation Fund.
    Through the Energy Policy Act of 1992, Congress authorized annual 
deposits to the Uranium Enrichment Decontamination and Decommissioning 
(UED&D) Fund from an assessment on nuclear utilities for 15 years--from 
fiscal years 1993 through 2007. The Budget Request proposes to 
reinstate these fees to offset proposed new mandatory spending for 
uranium enrichment cleanup. The Budget also includes $155 million of 
defense funding for deposit into the UED&D Fund, reflecting the shared 
responsibility of both industry and the Federal Government for these 
costs.
Investing in Departmental Infrastructure
    The fiscal year 2017 Budget Request supports safe and reliable 
world class facilities by investing in new infrastructure in all 
mission areas and establishing a sustainable trajectory for the 
Department's existing infrastructure.
    As part of our effort to manage the enterprise's infrastructure in 
a sustainable manner to support DOE missions, beginning in fiscal year 
2016, we have implemented a policy to halt increases in deferred 
maintenance across the DOE complex. We have also taken steps to bolster 
DOE's enterprise-wide inventory by compiling the first uniform 
assessment of general purpose infrastructure at all National 
Laboratories and NNSA plants and sites through the National Laboratory 
Operations Board (LOB), and forming a LOB working group to assess and 
prioritize the disposition of excess facilities.
    Building on these efforts, the fiscal year 2017 Budget Request 
continues a comprehensive program of infrastructure modernization and 
improved maintenance across the complex, including expanded funding for 
general purpose infrastructure projects. The Budget proposes, for 
example, $200 million for the disposal of the Kansas City Bannister 
Federal complex. Finally, we are seeking to improve the energy 
efficiency and sustainability of government facilities, including use 
of Energy Savings Performance Contracts.
Building and Supporting the Energy Workforce
    DOE's continues to work to attract, manage, train and retain the 
best workforce to meet its future mission needs.
    In support of managing the workforce and hiring new personnel, we 
have activated two Consolidated Human Resources (HR) Service Centers, 
at Cincinnati and Oak Ridge, as part of a new service delivery model to 
consolidate 17 current HR service centers to five, which should allow 
for a more efficient and effective HR model across DOE. The fiscal year 
2017 Budget Request completes the HR Shared Services Centers 
consolidation and invests in implementing recommendations resulting 
from a talent management study conducted in fiscal year 2016, which 
will help to develop a corporate approach to talent acquisition in 
order to consistently and effectively attract, develop, and retain the 
best workforce to meet mission needs.
    The DOE Office of the Chief Information Officer (CIO) and related 
offices continue to build the information technology (IT) 
infrastructure in support of DOE's mission needs. DOE is expanding 
Multifactor Authentication Program for improved cyber security. The 
fiscal year 2017 Budget Request strengthens cybersecurity across the 
enterprise with an investment of $285 million, an increase of $23 
million across 13 offices and the Working Capital Fund.
    The $93 million fiscal year 2017 Budget Request for CIO, $20 
million above fiscal year 2016, also supports several critical IT 
improvements, including implementation of Federal Information 
Technology Acquisition Reform Act (FITARA) requirements to provide a 
common baseline for roles, responsibilities, requirements, and 
authorities for the management of IT in Federal civilian agencies. The 
Request also includes efforts to modernize and further secure the 
Department's IT infrastructure, including core networking layers, data 
centers, and access technologies.
    The Department has established a Labor-Management Forum to further 
encourage opportunities for collaboration and partnership between 
contractors and management.
    The Department has established the Office of Energy Jobs 
Development, consolidating ongoing activities across the Department 
formerly coordinated via the Jobs Strategy Council. The Request 
includes $3.7 million to support the office and to compile survey data 
and deliver the energy jobs and workforce report that would detail job 
growth/shifts in the energy and advanced manufacturing industries; fill 
the gaps that currently exist in data gathering on renewable energy, 
energy efficiency, and advanced manufacturing jobs; and compile data on 
energy job skill needs of employers and public agencies.
                   advancing doe's critical missions
    In conclusion, the fiscal year 2017 Budget Request of $32.5 billion 
invests in its science and technology capabilities, its workforce, and 
its critical infrastructure to advance DOE's core missions.
    The Request supports the Department's efforts in science and energy 
to enable a clean energy future through innovative lower-cost energy 
technologies; to support secure, modern and resilient energy 
infrastructure and emergency response capabilities; and to provide the 
backbone for discovery and innovation, especially in the physical 
sciences, for America's research community.
    The Request invests in the Department's nuclear security missions 
to maintain a safe, secure, and effective nuclear deterrent without 
nuclear explosive testing; to modernize the nuclear security research 
and production infrastructure; to reduce global nuclear security 
threats; and to propel our nuclear Navy.
    And the Request continues taking steps to further the Department's 
management and performance missions to clean up from the Cold War 
legacy of nuclear weapons production; to manage infrastructure in a 
sustainable manner to support DOE missions; and to attract, manage, 
train and retain the best workforce to meet mission needs.
    Thank you, and I would be pleased to answer your questions.

    Senator Alexander. Thanks, Mr. Secretary. We have good 
attendance. We will go right to questions and take 5-minute 
rounds.
    But if Senators want to stay and ask a second 5-minute 
round of questions, we will provide time for that.

                       OFFICE OF SCIENCE FUNDING

    Let me begin, Mr. Secretary. I am for doubling energy 
research, but that costs about $5 billion. I mean, if we 
doubled the energy research in the Office of Science, that 
would be going from about $5 billion to about $10 billion. Is 
that about right?
    Secretary Moniz. About 20 percent of the Office of Science 
budget is part of the Mission Innovation base.
    Senator Alexander. But generally speaking.
    Secretary Moniz. If the Office of Science as a whole were 
doubled----
    Senator Alexander. No, no, I am talking--the amount of 
Federal Government energy research is about $5 billion. Is that 
about right?
    Secretary Moniz. Well, we have $4.8 billion in DOE 
(Department of Energy) and $6.4 billion across the government.
    Senator Alexander. So it is about $5 billion in DOE. If we 
double that, that would be $10 billion, just the Energy part. 
We are talking here about where we find the money.

                            ENERGY SUBSIDIES

    But we are subsidizing windmills for the 23rd year at $4 
billion. Two decades ought to be long enough to turn that into 
a mature technology.
    We have $24 billion in subsidies for oil and gas over the 
next 10 years.
    Why isn't a place to get the money for doubling clean 
energy research by phasing out subsidies to mature 
technologies? Why shouldn't we do that?
    Secretary Moniz. Well, they are certainly different levels 
of maturity. The administration has supported the idea of 
reducing and eliminating many of the fossil fuel subsidies.
    Senator Alexander. What about the windmills? They do not 
produce much energy, and 22 or 23 years ought to be long enough 
to allow them to be competitive. That is $4 billion over 10 
years right there.
    Secretary Moniz. Of course, we are very pleased, actually, 
with extensions of the wind and solar credits over a fixed time 
in the----
    Senator Alexander. I am saying if we got rid of them, we 
could use it for clean energy research. We have to set 
priorities somewhere.
    Secretary Moniz. The continuing incentive we think is very 
important. It is the combination of technology and deployment 
that right now is helping drive costs down quite dramatically.
    Senator Alexander. I do not think it is a very complicated 
equation. I think instead of tax credit for mature technologies 
to subsidize wind developers, most of that money goes to rich 
people who take tax deductions, and to subsidize oil and gas 
production, we could give tax credit for the R&D that you want 
and that would be one way to find the money.

                             NUCLEAR WASTE

    May I ask you some questions about nuclear waste storage 
and whether there is a role for private storage options? Is it 
likely that the department will receive an application from a 
private entity that may be seeking a license, or that the 
Nuclear Regulatory Commission will be receiving an application 
from a private entity that would store used nuclear fuel?
    Secretary Moniz. First, the answer is yes, we certainly do 
see a role for private storage. My understanding is the NRC may 
be receiving an application this year.
    Senator Alexander. What are the benefits of private storage 
in terms of technical feasibility, schedule, cost, and 
management flexibility?
    Secretary Moniz. Well, the devil is in the details, but we 
think that private storage could have advantages in accelerated 
schedule potential, more flexibility, and also getting a 
confirmed cost up early. So I think there could be many 
advantages.
    Senator Alexander. Last year, Senator Feinstein and I 
included in the Senate energy and water appropriations bills 
language to clarify the department's authority to pursue 
private storage options. Do you support that language?
    Secretary Moniz. Yes, I do.
    Senator Alexander. Thank you. My own view is that we should 
proceed on all tracks at once toward a solution, to finding a 
place to put used nuclear fuel.
    Number one in my book would be Yucca Mountain, although 
that is certainly not unanimous in the Senate, and we have a 
stalemate there. But we have said many times that even if we 
filled up Yucca Mountain, we would still need other storage 
sites. Is that not true?
    Secretary Moniz. Yes, it is. We have a request for 
information out across-the-board for storage and repository 
solutions.
    Senator Alexander. So Senator Feinstein and I, both on the 
authorizing committee and in the Appropriations Committee, 
supported measures to create new repositories. So Yucca 
Mountain, the new repositories that we have talked about, and 
then a third option would be the private storage opportunities 
we talked about.
    As I understand it, they could be large enough to be a 
significant opportunity, these private commercial storage 
sites, to receive a large part of the used nuclear fuel that is 
today stranded at reactor sites that have been closed.
    Secretary Moniz. Yes, I agree with that.
    Senator Alexander. Thank you.
    Senator Feinstein.

                            ENERGY SUBSIDIES

    Senator Feinstein. I was just saying, Mr. Chairman, to the 
staff that I think we ought to take a real look at those 
subsidies that have existed for more than 20 years. It seems to 
me that the new energy architecture ought to be able to prove 
itself in terms of its market acceptance within a 20-year 
period and not be continued beyond that. So I would agree with 
you on that point.

                         NUCLEAR WASTE STORAGE

    I would like to ask some questions about the Texas 
privately owned and operated storage facility. The NRC told us 
that this facility could get a license and start operating with 
no additional action from Congress.
    Do you agree with that, Secretary Moniz?
    Secretary Moniz. I certainly would take the NRC judgment at 
face value for the NRC. At DOE, our general counsel does 
believe we have authority to move forward with that.
    My understanding is the private entities would sure like 
some of the clarity that Congress could bring to it, for 
example, the language you introduced last year.
    Senator Feinstein. I do not recall the language right now, 
but I think my point, and I think the chairman's point has 
been, if you can do it, why not go ahead and do it?
    Secretary Moniz. Well, again, I think getting clarity from 
congressional action, would I think help a lot with the private 
entities. But eventually, there will be issues that need to be 
clarified, such as how will liability be addressed, what are 
issues in terms of when does ownership convert to Federal 
hands, et cetera? So I think that is something we can work 
with.
    Senator Feinstein. Can you put that together and submit it, 
if you need to submit it? I do not think you need to submit it 
to the Congress. You could submit it I guess to the White House 
for approval. But I do not understand why this does not go 
ahead.
    Every time we have some hope for a new nuclear waste 
facility, something stops it.
    Secretary Moniz. Well, we are in discussion. We have had 
discussions in the past with the Texas group, for example. As I 
said, we are very supportive of that going forward. The first 
step is getting to the NRC.
    Senator Feinstein. I guess I am beginning to feel 
inordinate frustration because the chairman, I, the chairman of 
the Energy Committee, three chairs, and the ranking of the 
Energy Committee, we put together a bill for a nuclear waste 
policy and it sits and sits and sits.
    Yet we are supposed to go ahead and now go into the area of 
small, modular nuclear reactors, that also produce waste but no 
place for the waste. I think it just puts more and more people 
in jeopardy of one day an accident.
    So I have said this probably two dozen times, if there is 
going to be a future, a real future for nuclear, there has to 
be a place to put the waste.
    Now that we have one, and we know that you are cleared to 
go ahead and sanction it and work out the legal anomalies or 
difficulties, my thinking is that you should do just that.
    Secretary Moniz. Well, we are, in fact, evaluating and 
working on all the options going forward. As you know, I fully 
support the waste bill that you and your colleagues worked on. 
I think it is right on. And we need to move forward on the 
storage option, whether it is public or private, especially so 
that we can move the fuel from shutdown reactors quickly.
    We will work on that with you, obviously.
    Senator Feinstein. Not work with us. Will you move ahead 
and if the Texas operator has a good proposal that meets your 
concerns, will you move ahead with it?
    Secretary Moniz. Yes, if they are licensed by the NRC, we 
are completely prepared to work with them and move ahead, yes.
    Senator Feinstein. Again, the NRC told us that the facility 
could get a license and start operating with no additional 
action from the Congress.
    Secretary Moniz. But they have not filed for a license. We 
expect that to come later in this year. Until that happens, 
were a little bit limited, but we are certainly discussing this 
at length and getting prepared.
    Senator Feinstein. Thank you.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Feinstein.
    Senator Graham.

                 MIXED OXIDE FUEL FABRICATION FACILITY

    Senator Graham. From one program to the next. Now let us 
talk about MOX.
    Mr. Chairman, I think you have been kind enough to listen 
to my request to have a more in-depth study of this. Five 
minutes I do not think is going to do it justice. This is a 
monumental decision for the country and certainly South 
Carolina.
    Mr. Secretary, last year, you had $345 million for 
construction of the MOX program, is that correct, in your 
budget?
    Secretary Moniz. Yes, sir.
    Senator Graham. This year, it was zero. Is that correct?
    Secretary Moniz. Yes, we proposed I think $275 million for 
starting termination.
    Senator Graham. To terminate the program. I just want the 
committee to look at this. This is a facility in South 
Carolina. You are welcome to come visit. We will be glad to 
host you.
    In 2013, this is what it looked like. It was 56 percent 
complete, the actual MOX facility. In 2016, this is what it 
looks like today. It is a pretty mammoth place, 70 percent 
complete. The contractor says $3 billion gets us to where we 
need to be. We have spent $5 billion to date, and that is what 
we have for the $5 billion.
    Now, the bottom line is, in 2010, we signed an agreement 
with the Russians to take the 34 metric tons of excess 
plutonium and put it through the MOX system, so it cannot be 
used for weapons in the future. Is that correct?
    Secretary Moniz. That is correct. If I may, I would just 
say, as you know, we do not agree with the numbers. And 
secondly, this is only one plant in the whole----
    Senator Graham. Right, there are two others. But you do 
agree that place is real?
    Secretary Moniz. Oh, I have been there.
    Senator Graham. We have paid $5 billion.
    Secretary Moniz. It is big.
    Senator Graham. It would be a hell of a basketball court.
    Secretary Moniz. It is big.
    Senator Graham. I do not know what we will do with it.
    But the bottom line, now, in 2010 was the new approach you 
are talking about studied as an alternative to MOX? What is the 
new approach, very quickly?
    Secretary Moniz. The new approach is actually the old 
approach of dilution and disposal, as we have done for roughly 
5 tons.
    Senator Graham. Was the old approach studied in 2010?
    Secretary Moniz. I do not believe so. I was not here at the 
time, but I do not believe it was looked at carefully. I think 
also in 2010----
    Senator Graham. So how can it all of a sudden be the best 
alternative when no one looked at it in 2010?
    Secretary Moniz. I think one of the issues is that in 2010, 
I think, first of all, the cost escalation was not fully 
appreciated. And frankly, the contractors have badly 
underestimated costs.
    Senator Graham. In 2016, the NDAA act said that you needed 
to rebaseline this project. Have you done that yet?
    Secretary Moniz. That is ongoing. The Army Corps of 
Engineers is doing that.
    Senator Graham. So in 2010, this new technology we are 
talking about today actually existed. Did anybody look at it 
and say this is better than MOX?
    Secretary Moniz. Again, I am speculating. In 2010, the 
issue was MOX was the program of record with the Russians. But 
again, the costs subsequently were recognized as being much 
higher.
    Senator Graham. So is the situation for MOX, we just missed 
it really badly on MOX, in terms of actual cost?
    Secretary Moniz. I think, yes. The cost, as you know, 
multiplied dramatically.
    Senator Graham. So how much did we miss it by? A thousand 
percent?
    Secretary Moniz. No, probably a factor of three, something 
like that.
    Senator Graham. So we missed it by a factor of three.
    Secretary Moniz. Probably.
    Senator Graham. Has anyone been fired?
    Secretary Moniz. Again, we should talk----
    Senator Graham. If you run a private business, and somebody 
created a project and you are $5 billion into it, and you find 
out it actually costs three times more than everybody thought, 
would you fire somebody?
    Secretary Moniz. Well, I did not say three times, by the 
way, from today, I meant from the original cost estimate.
    Senator Graham. Okay. Would you fire somebody?
    Secretary Moniz. Look, the contractor has had severe 
reassignments of----
    Senator Graham. I just want the committee to know the 
contractor would be willing to do a fixed-price contract.
    Secretary Moniz. Well, you and I discussed that with them 
at some point. And as we know, they came back in an 
unresponsive fashion.
    Senator Graham. Well, I disagree with you. But how much did 
the new technology cost?
    Secretary Moniz. We estimate probably around $15 billion 
lifetime costs.
    Senator Graham. How much time have you spent studying that?
    Secretary Moniz. Well, again, this is an old technology 
with essentially no technology risk.
    Senator Graham. The pathway forward for this new 
technology, do you have to get an agreement with the Russians 
before you can implement the new technology?
    Secretary Moniz. Yes, we have a well-defined, exercised, 
successfully----
    Senator Graham. How far along are you with the Russians?
    Secretary Moniz. We have had informal discussions, which 
have been positive. But frankly, until I think we have a signal 
in terms of which way we are going----
    Senator Graham. So we are going to change course and hope 
the Russians agree later?
    Secretary Moniz. Well, we are in a situation where the 
MOX----
    Senator Graham. Is that what you are saying?
    Secretary Moniz. The MOX approach has extreme 
uncertainties, the biggest one of all is finding $1 billion a 
year.
    Senator Graham. Well, it is not uncertain, it is just too 
expensive, you believe. It will work, won't it?
    Secretary Moniz. Presumably. There is a higher----
    Senator Graham. It works in France----
    Secretary Moniz. We assume it will work, of course.
    Senator Graham. [continuing]. Doesn't it?
    Secretary Moniz. It turns out that argument was used by the 
contractors mistakenly.
    Senator Graham. It doesn't work in France?
    Secretary Moniz. It works in France in a very different 
process under a very different regulatory regime, not using 
weapons plutonium, which brings in additional complications.
    Senator Graham. My time is up, but it seems to me that we 
started a project that apparently nobody knows if it even 
works. Somebody should be fired for that.
    Secretary Moniz. We expect it will work.
    Senator Graham. Well, okay. You are going to take this 
diluted material and put it where?
    Secretary Moniz. Well, we know that 13 tons certainly 
without permit or land withdrawal modifications, could be in 
WIPP (Waste Isolation Pilot Plant). And the first six tons from 
South Carolina----
    Senator Graham. Okay, where is WIPP?
    Secretary Moniz. That is in New Mexico.
    Senator Graham. Have you talked to Senator Udall about 
this?
    Secretary Moniz. We have had informal discussions, yes.
    [Laughter.]
    Secretary Moniz. As with the Russians.
    The first six tons, as I say, have long----
    Senator Graham. Informally, you may get about 20-something 
tons of plutonium blended down, so I want you to know that 
formally.
    The stuff at Texas, where does it go?
    Secretary Moniz. I'm sorry?
    Senator Graham. Does it all go through this blended 
process, all 34 tons?
    Secretary Moniz. Well, the proposal would be that all 34 
tons----
    Senator Graham. Does the $15 billion include all 34 tons?
    Secretary Moniz. Oh, yes. Yes, it did.
    Senator Graham. It did? Are you sure about that?
    Secretary Moniz. Well, I will check just to make absolutely 
sure. But----
    Senator Graham. I think you might want to check.
    Secretary Moniz. All right.
    Senator Graham. Finally, what legal changes would be 
necessary to change course? Would any changes in the law be 
required?
    Secretary Moniz. Changes of law? Well I am not the lawyer.
    Senator Graham. Have you talk to the lawyer?
    Secretary Moniz. What we know is the first----
    Senator Graham. Have you talked to the lawyer about what 
will happen----
    Secretary Moniz. The first 13 tons, as I say, no 
requirements----
    Senator Graham. There are 34 tons. I am not worried about 
13. What about the entire 34 tons?
    Secretary Moniz. That is uncertain in terms of what would 
be required.
    Senator Graham. Thank you.
    Senator Alexander. Thank you, Senator Graham.
    I am going to interject here. Senator Graham and I and the 
Secretary and Senator Feinstein all talked about this. This is 
a major decision that Congress has to deal with and that the 
administration needs to deal with. It does require more than a 
5-minute opportunity to ask questions, even in a second round, 
so we need to schedule additional time, Senator Feinstein and 
Senator Graham and other members of the committee who may be 
interested, to deal with this responsibly.
    We are talking about huge amounts of money here. You are 
suggesting it may be $1 billion a year, or a half billion 
dollars a year. We have spent a lot of time on it, so we need 
to spend more and take our stewardship very seriously. I have 
committed to Senator Graham that we will do that.
    Secretary Moniz. As always, I am happy, of course, to have 
that discussion.
    Senator Alexander. Thank you very much, Senator Graham.
    Senator Coons.

                         NATIONAL LABORATORIES

    Senator Coons. Thank you, Chairman Alexander and Ranking 
Member Feinstein. I appreciate your strong and bipartisan 
leadership of the subcommittee, and our chance to work 
together.
    Secretary Moniz, thank you for your service, for your 
testimony, and for your very capable leadership of the 
department. I am going to touch on a series of issues that are 
across two priority areas and then ask you to respond with the 
remaining time.
    First, on clean energy issues, thanks for your willingness 
to come to Delaware May 13 for our lab summit. As you know, I 
visited a number of the national labs, and I hope you will 
discover Delaware to be an open and supportive place that I 
hope will enter into some public-private collaborations that 
will benefit from the strength and reach of our labs.
    Secretary Moniz. The home of the first catalysis center at 
a university.
    Senator Coons. Correct. I am thrilled, as always, with what 
you know about Delaware.
    The independent review of national labs was released last 
December and had 36 general recommendations. I am interested in 
your views on whether Congress has an appropriate role and what 
it would be in terms of authorizing and appropriating some of 
those next steps.

                              CLEAN ENERGY

    Second, just in terms of the midterm clean energy issues, 
you have placed a great priority on clean energy innovation. 
Many of us have supported the doubling of research investment 
called for by the initial COMPETES Act. ARPA-E has made great 
strides. I was pleased to again be invited to speak at their 
summit.
    In addition to ARPA-E, DOE has the energy hubs EFRCs and 
NNMIs, and there are now regional clean energy partnerships. I 
hope you will speak to them and how, as building blocks of the 
whole innovation pipeline, they fit into your overall plan.
    And I hope you will talk about how we sustain something 
like the Mission Innovation commitment, a commitment to 
doubling investment in the clean energy transition.

                   JOINT COMPREHENSIVE PLAN OF ACTION

    Additionally, in visiting the IAEA headquarters back in 
January, I was told that as the world's nuclear watchdog, they 
need a reliable, long-term source of funding to implement the 
JCPOA and to accomplish their broader nonproliferation goals. A 
recent GAO report said that IAEA faces potential budget and 
human resources challenges in order to take advantage of the 
searching, inspection, opportunities that the JCPOA opened.
    How is the department helping the IAEA overcome these 
challenges? How are the national labs assisting in the 
recruiting, hiring, and training, which I understand to be a 
long and expensive process?
    Ali Akbar Salehi, head of the Atomic Energy Organization of 
Iran, just announced that they will be using some of their 
sanctions relief to train their next generation of nuclear 
scientists. Is this something about which you think we ought to 
be concerned? And do you see that as an appropriate use of 
their funds?
    Those are all my questions, and I welcome you using the 
rest of my time to answer them, as possible.
    Secretary Moniz. Okay, well, thank you, Senator Coons. I 
will have to be brief on each of them.

                 CRENEL REPORT ON NATIONAL LABORATORIES

    First, on the CRENEL report, the congressionally charged 
report on the laboratories, first of all, I think charging that 
panel is indicative of the interest certainly in this group. I 
want to emphasize that the panel, first of all, endorsed 
strongly the idea that this laboratory system is very 
important.
    Secondly, they also honed in on something that I completely 
agree with that, frankly, for a long time--bluntly, I would say 
from the end of the Cold War--there has been an increasing kind 
of transactional approach rather than a strategic approach to 
laboratory management. I think there is plenty of credit to go 
around.
    As the committee acknowledged, we have made some real 
progress in terms of restoring this more strategic work with 
laboratories. I could describe examples. But we have a way to 
go, and we are still looking at it.
    We have sent the report to Congress. We accept and will 
follow through on almost every recommendation. There are a 
couple that present some problems, but we stay in touch with 
the cochairs, and I think this has been a very, very good 
process. I can get more specific if you like off-line.

                           MISSION INNOVATION

    In terms of Mission Innovation, you have kind of actually 
said at all, that there are certainly new thrusts, but I do 
want to emphasize an important strengthening of some of the 
very successful programs that have been working with 
universities and labs and industries.

                                 ARPA-E

    You mentioned ARPA-E, so there is a good example where, 
with approximately 200 projects now finished, 36 companies have 
emerged. The fact that in their open call last year a 
successful program was able to support only between 2 percent 
to 3 percent of the projects kind of suggests we are leaving an 
awful lot of innovation on the table.

                              CLEAN ENERGY

    As we go into this world, putting aside one's view of 
specifics of the Paris agreement, the fact is every country in 
the world is committed to pursuing a clean energy future. That 
market, which has been booming, is going to boom even more. We 
should be there, keeping our innovation advantage in moving 
forward.
    Senator Alexander. Thank you, Senator Coons. We need to 
keep moving.
    Secretary Moniz. Okay, I can come to Iran later on.
    Senator Alexander. Senator Lankford.

                     LIQUEFIED NATURAL GAS EXPORTS

    Senator Lankford. Thank you, Mr. Chairman.
    And thanks for being here as well. I have a couple things 
just on multiple subjects here, so I will kind of rapidly run 
through some of these.
    The Department of Energy is currently taking the 
applications for LNG (Liquefied Natural Gas) exports to non-FTA 
countries. That has been a process that is ongoing. Is there a 
set timeline at this point about how long it takes to go 
through an application process at DOE, those LNG exports?
    Secretary Moniz. No, there is no set timeline. However, I 
would----
    Senator Lankford. What is a typical length of time to get 
an application done right now?
    Secretary Moniz. Recent experience has been weeks to a 
month, following FERC (Federal Energy Regulatory Commission) 
approval of the EIS.
    Senator Lankford. Okay, so FERC first and then DOE, 
correct? So that has been a quick process. It has not been an 
issue?
    Secretary Moniz. I do not think so, no. Right now, we have 
no applications to actually work on, having come through FERC.
    Senator Lankford. Okay, you have done the study of the 12 
to 20 Bcf (Billion Cubic Feet) per day of exports. That is out 
for comment at this point. Tell me what you think the process 
is at this point with that study now that it is out, now that 
it has comments?
    Secretary Moniz. Well, actually, the comment period has now 
ended, so we are now going through the comments. Then we 
prepare a response and then issue the report, either in its 
current or modified form.
    Senator Lankford. Right. That is what I was trying to pick 
up, the timeline for that. When do you think that final report 
will be out there? Or modified report?
    Secretary Moniz. We have no fixed time, but I will guess 
that we are talking within a month or two.
    Senator Lankford. Okay. Great. The findings at that point 
that I saw were marginally positive impact on the 
macroeconomics, no big issues, same as what it was with the 
earlier study as well. That was about 3 years ago.

                                 GRANTS

    Okay, let me walk through some of the grant issues. We are 
talking about a lot of increases in grant dollars. One of the 
questions that I always have is, how do we track that? Once you 
release a grant dollar out, for effectiveness, for use, how it 
is going, the diversity of the different groups that get it. So 
let me just ask a couple questions on it.
    When you start to track through this, how do you evaluate 
the performance of the grant money? Do you have a set formula 
for that? Do you have a set of criteria that we are releasing 
these grant dollars for this particular project, and this is 
the end goal? Or is it more open than that? Basically, I am 
asking, how do we help look back on the money and say, the 
money was spent, was that spent wisely?
    Secretary Moniz. It actually varies by program. I will give 
just maybe two examples.
    For example, we just mentioned ARPA-E. That is a case where 
the program managers are very active and engaged with the 
projects all along, monitoring success, guaranteeing early 
rather than late failure, if that is where it is going. Whereas 
in the Office of Science, if it is a university grant, it is 
more that the universities execute and produce their published 
papers and reports.
    Senator Lankford. So what I want to be able to evaluate is, 
before the money goes out the door, we have a set of evaluation 
metrics that we know about this grant, whether it is going to a 
university or somewhere else. Are you confident at this point 
every one of these grant opportunities go out there with a way 
to measure success on these?
    I understand this is research, so not everything turns out 
positive. I get that. That is why you do research. I am trying 
to figure out how we evaluate the metrics of this at the end. 
Do you feel confident that every one of these grant 
opportunities, regardless of how it goes out the door, has 
evaluation metrics?
    Secretary Moniz. Well, again, if we are not using metric in 
an overly formal sense, because it is done differently in each 
program, then I would say the answer is yes.
    Senator Lankford. Okay, that will be one of the things I 
want to be able to track on it. How do you track, at this 
point, research that would be done by the public sector and 
research that would be done only by us? What we are trying to 
determine often is, what is the research that will not be done 
unless we do it cooperatively as a Nation, that would be 
beneficial to the Nation long-term, rather than dipping into 
research that some corporation would have done, but they would 
be glad for the American taxpayer to pay for it instead? But if 
we pay for, great, they would love to have the research done, 
but we do not need to do that research, they would do it. Does 
that make sense?
    Secretary Moniz. Sure. I mean, that is part of the judgment 
of the research managers have to use. Although I would slightly 
modify it and say that sometimes the judgment is not just that 
it would not be done otherwise, but that we may feel that there 
is a major public benefit to an acceleration of it. Then we 
might do some cost-sharing to incentivize earlier work by the 
private sector.
    Senator Lankford. Okay, so then at that point, we are 
helping the private sector do their research or we take it away 
from them, and we would take it on? If you are seeing something 
that is ongoing that the public sector is already doing and we 
can accelerate it?
    Secretary Moniz. Or they are not doing it yet, but we would 
like them to get into it and accelerate. That is where we are 
assigning the public benefit, in those cases. But again, in 
other cases, obviously, most cases, it is about something that 
would not otherwise be done.
    In particular, the biggest criterion is capturing 
especially precompetitive work that one individual entity would 
not otherwise capture the benefits of and, therefore, would be 
reluctant to invest in it.

                       AGENCY-TO-AGENCY RESEARCH

    Senator Lankford. Right. And the final issue, and I do not 
want you to have to answer this, because I am out of time on 
it, is the agency-to-agency. This is one of the areas I want us 
to provide more oversight as a committee to be able to ask just 
the basic questions. Could it be done? Is it being done by 
another agency? Could it be done by an outside agency, if the 
taxpayer doesn't do it, freeing up dollars for us to be able to 
do other things? And finally, good evaluation tools, so at the 
backside of it, we can evaluate how it was used.
    To me, that is a philosophical oversight issue that we can 
take on as a committee, and I would look to be able to partner 
with you on the things that you have already learned that we 
can continue to use in the years ahead.
    Secretary Moniz. Okay.
    Senator Lankford. Thank you.
    Senator Alexander. Thank you, Senator Lankford.
    Senator Murray.

                              HANFORD SITE

    Senator Murray. Thank you, Mr. Chairman.
    Secretary Moniz, let me start with the Hanford site in 
central Washington. Year after year, I have found the 
President's budget to be shortsighted and inadequate when it 
comes to Hanford. This is really troubling because, as you well 
know, the Federal Government has a legal and a moral obligation 
to clean up Hanford and the other nuclear waste sites across 
the Nation.
    Now I do appreciate your focus on the tank farms and waste 
treatment plant and implementing direct, low-feed waste to 
begin processing waste as early as 2022. But I find it 
unacceptable that the President's budget essentially robs 
Richland operations to pay for the Office of River Protection's 
waste treatment mission. It is really critical that we finish 
the job on all fronts.
    I have a hard time seeing how that will get done when the 
administration has once again cut RL (Richland Operations 
Office) by $190 million. That is nearly double the amount that 
was cut last year.
    With those kinds of significant cuts, how is the 
administration going to meet its legally binding commitments to 
the Tri-Cities community?
    Secretary Moniz. Well, certainly, as you say, Senator 
Murray, first of all, within a limited total budget, we are 
trying to make sure we address the priorities, including those 
areas that I think have the highest risk, which especially is 
liquid waste at a variety of sites.
    Now coming to Richland, first of all, and I think you would 
agree, that we have made very substantial progress in the last 
year, certainly along the river corridor, for example. And the 
fiscal year 2017 budget will have major progress, complete the 
demolition of the plutonium finishing plant, move sludge from 
the K area away from the river, pumping the plateau, a lot of 
progress on the landfill.
    Senator Murray. I appreciate that. But several of the high-
risk projects that are close to the Columbia River and the City 
of Richland, specifically the 324 building and the 618-10 
burial grounds, they are underfunded in the President's budget, 
despite this subcommittee's clear support for completing them.
    So I want to ask you for your commitment that these 
critical projects will be funded, and if you could give me a 
detailed plan on how you are going to do that.
    Secretary Moniz. Sure, we certainly will do so. But I would 
emphasize that building 324, we are doing the procurements we 
need and will in fiscal year 2017, for the novel robotics 
technologies that we are going to need. So we can't just go in 
and move the dirt out until we develop the robotics.
    But we hear you, and we will respond to that.
    Senator Murray. Okay, well, we made a decision to focus 
cleanup on the reactors in the 300 area that is closest to the 
Columbia River and City of Richland. We have made great 
strides. But I really fear that this budget overall really 
foreshadows a decision by DOE to claim victory at RL and walk 
away from all the other cleanup RL is responsible for on the 
central plateau. RL still has a long list of cleanup on the 
central plateau, about 1,000 waste sites. We have 500 
facilities, contaminated groundwater, all pose risk to the 
public, to the environment, and to the work force.
    Every year that those are not addressed, DOE spends 
millions of dollars on surveillance and maintenance.
    So it is really critical that we know we have a commitment 
to that and not set it aside as we try to get all the critical 
work done on that. So I just wanted to make that point to you 
today.
    Secretary Moniz. Yes. We are trying to prioritize the 
risks. But let's work together on that. We will come back with 
a plan.

                         COLUMBIA RIVER TREATY

    Senator Murray. Okay. And finally, I want to ask you about 
the Columbia River Treaty. In December 2013, the administration 
was presented a regional consensus to modernize the Columbia 
River Treaty. It was a multiyear process involving our 
Northwest tribes and all of our stakeholders, and the entire 
Northwest delegation urged the administration to begin formal 
negotiations with Canada. But not a lot of progress has been 
made.
    My constituents are really concerned about the impacts the 
change in administration will have on these negotiations, and I 
wanted to urge you today to push the administration to begin 
these formal negotiations with Canada, and I really hope that 
you will proactively raise the Columbia River Treaty when Prime 
Minister Trudeau visits the United States this week.
    Secretary Moniz. If I may say, Senator Murray, because we 
agree with you, and, as you know, Bonneville is our lead 
negotiator in that, that I met with Secretary Kerry last week, 
and we both agreed about the importance of pushing this along. 
There is a negotiator and we certainly would like to----
    Senator Murray. We have had a negotiator for a while. We 
need this to get started, because we cannot afford to wait, 
once the new administration, whoever it is, to reeducate 
everybody, have new people appointed, and get it started. It 
needs to get started now.
    Secretary Moniz. Agreed.
    Senator Murray. Thank you.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Murray.
    Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    It is good to see you, Mr. Secretary. I saw you not too 
long ago, I think at our Energy Committee.
    Secretary Moniz. Sorry.
    Senator Hoeven. I say, I think we saw each other at our 
Energy Committee not too long ago.
    Secretary Moniz. Yes, we did.
    Senator Hoeven. So it is nice to have you back.
    Secretary Moniz. Thank you.
    Senator Hoeven. It is good to see you again.

                    CARBON CAPTURE AND SEQUESTRATION

    I know this will surprise you immensely, but I am going to 
follow up on something we talked about there.
    We have companies in North Dakota, as you know, having been 
to North Dakota are capturing CO<INF>2</INF> and sequestering 
it. You are at the Dakota Gasification Company where they are 
capturing. It is a coal-fired electric plant. Actually in their 
case, they convert coal to synthetic natural gas. But then they 
capture the CO<INF>2</INF>, and we pipe it off to the oil 
fields and use it for tertiary oil recovery.
    We have other companies with power plants, coal-fired 
electric power plants, now they produce electricity, not 
synthetic methane. But they are trying to develop and implement 
post-combustion carbon capture retrofits to existing plans 
greater than 350 megawatt equivalent.
    Since you are a nuclear physicist, I know you understand 
that perfectly.
    They are, in fact, working with a very outstanding 
organization, which I know you are also well aware of, and I 
think our chairman may be as well, the Oak Ridge National 
Laboratory located in the State of Tennessee.
    So my simple question to you is, in your budget, you have 
$170 million proposed for large-scale, carbon capture 
sequestration demonstration projects. I am wondering if this 
would be the kind of thing that you would seek to participate 
in funding and developing in concert with some of our companies 
that are trying to lead the way forward with this post-
combustion carbon capture technology, actually implementing it, 
and working with such outstanding organizations as the Oak 
Ridge National Laboratory.
    Secretary Moniz. I would like to associate myself with your 
quality statement about the Oak Ridge National Laboratory.
    First, yes, first of all, we are continuing some large-
scale capturing demonstrations. But as you have said, in the 
fiscal year 2017 budget, we want to emphasize getting into 
smallish pilot projects of more novel technologies, chemical 
looping, oxy-combustion, et cetera. I think what you are 
talking about sounds like----
    Senator Hoeven. This is oxy-combustion.
    Secretary Moniz. Yes, I believe, again, I do not know all 
the details, but I believe it involves oxy-combustion and 
supercritical CO<INF>2</INF>, which we are also supporting in 
the fiscal year 2017 budget.
    So again, I think what we need is to have perhaps a group 
come in and provide a briefing on exactly what the cycle is. If 
it is a novel cycle, then that will be a question of going 
through a proposal process with our group.
    But we think this is a good time to really start pushing 
our next generation capture cycles.
    Senator Hoeven. But am I right, this is the kind of project 
that you are looking at using that funding for?
    Secretary Moniz. I do not know enough about it. From what I 
have heard----
    Senator Hoeven. You are not going to commit right here and 
now.
    Secretary Moniz. No, I am not. But it looks encouraging.
    Senator Hoeven. Good.
    Secretary Moniz. If it combines oxy and CO<INF>2</INF> 
supercritical, that is already an interesting cycle.
    Senator Hoeven. And the State of North Dakota is already 
working with these projects through our energy council, wherein 
the State participates through funding and other support as 
well as the University of North Dakota through the Energy and 
Environmental Research Center, which I think you have also 
visited.
    Secretary Moniz. I visited, and we support.
    Senator Hoeven. Okay, thank you.
    Senator Alexander. Thank you, Senator Hoeven.
    Senator Udall.
    Senator Udall. Thank you, Chairman Alexander.
    Good to see you again, Secretary Moniz. You are working 
hard on so many different issues, and many of them impact New 
Mexico, as you know.

           CONTRACT TRANSITIONS AT THE NATIONAL LABORATORIES

    We have two national security labs, Sandia and Los Alamos, 
that are doing very important national security work on 
preserving the stockpile and the capabilities.
    As you know, these major programs include the life 
extension projects. There is an issue I want to raise there, 
because you have pending contract negotiations for both Sandia 
and Los Alamos. I am concerned about losing sight of the ball 
during these transitions.
    Can we have your commitment you will work to ensure the 
transitions at the labs are as seamless as possible, and that 
we do not lose focus of the important national security work 
during this period?
    Secretary Moniz. Yes. And I can assure you that we are 
already thinking hard about that issue of the transitions.
    Senator Udall. Good. Thank you.
    Secretary Moniz. Of all the labs, actually, especially 
those in New Mexico.
    Senator Udall. Especially those, and I believe the one in 
California that the ranking member, Senator Feinstein, also----
    Secretary Moniz. I meant because of the contracts.
    Senator Udall. Yes, the contracts on those.

                    OFFICE OF TECHNOLOGY TRANSITIONS

    Now you and I have visited, and you had a visit to New 
Mexico, on technology transfer. We were very grateful to have 
Jetta Wong, the director of DOE's Office of Technology 
Transitions, out to New Mexico last fall to meet with some of 
the laboratory personnel at Sandia and Los Alamos.
    Expanding technology transfer I think is critical to 
maximize the economic impact of taxpayer dollars at the labs, 
so that innovations can move from the lab to the marketplace.
    I support a permanent line item for the Office of 
Technology Transitions and its critical missions.
    My question is, does $8.4 million in your request provide 
the resources needed to administer the technology 
commercialization fund and coordinate tech transfer initiatives 
across all 17 national labs? And does the OTT (Office of 
Technology Transitions) have the flexibility it needs to 
effectively match funds with private partners?
    Secretary Moniz. Well, first, we do think the $8.5 million, 
roughly, is sufficient for the office to do that. Of course, 
that is working with the technology transitions offices in the 
various laboratories.
    There is one issue of flexibility where I am concerned. It 
is not about the matching funds per se, but the question about 
whether the technology commercialization fund must be spent 
exactly proportionally to each office's contribution versus 
allowing some more flexibility. Otherwise, it is very small, 
individual pots.
    But that is one area where I would say it may be 
challenging.
    Senator Udall. If there is any help we can give on that, 
please let us know.
    Secretary Moniz. Great.

                           MISSION INNOVATION

    Senator Udall. I am also very interested in this Mission 
Innovation that I think you and I have spoken about, a new 
initiative to double funding in DOE's clean energy research 
portfolio over the next 5 years.
    Could you tell us a little bit about that and how you see 
that moving forward to meet the energy challenges of the 
future?
    Secretary Moniz. Again, I think this is really about the 
highest priority right now in terms of moving forward in the 
energy space. It will both enhance critical programs that we 
already have. We have mentioned ARPA-E several times, but there 
are others, the Energy Frontier Research Centers at both 
laboratories and universities, the bioenergy centers, a whole 
set of them, the hubs, which are principally at the 
laboratories.
    They will be within that new area. For example, we propose 
a significant expansion, actually a tripling of the Energy-
Water Nexus Crosscut. That would include a new hub focused on 
desalinization, energy efficient desalinization, very 
important. We also have a large grid program, actually, the 
labs put together a grid program. And last year we committed 
over $200 million to lab-led programs on the grid.
    But in addition, there will be some new thrusts, one of 
which I mentioned in my opening statement is we proposed $110 
million to go toward new regional energy partnerships with the 
idea that that can stimulate innovation ecosystems across our 
entire country.

                     WASTE ISOLATION PILOT PROJECT

    Senator Udall. Great. I just wanted to double-check with 
you on the opening of WIPP. I understand that you have it on 
track to reopen.
    Secretary Moniz. We believe that we are on still on track 
for late this year, to begin placing TRU waste.
    Senator Udall. And one of the important things there is 
making sure that it reopens safely----
    Secretary Moniz. Absolutely.
    Senator Udall. [continuing]. In terms of the employees and 
everyone. As you know, that has been my main concern with WIPP.
    But thank you very much for the job you are doing.
    Mr. Chairman, I yield back.
    Senator Alexander. Thank you, Senator Udall.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. And thank you, 
Mr. Secretary, for being here this afternoon.

                 SITING AND PERMITTING ENERGY PROJECTS

    The agency's 2015 quadrennial energy review calls for more 
public participation in the siting and permitting process for 
energy projects. We have two projects in New Hampshire that 
there is a great deal of concern about in the communities that 
they are going through. One is in the northern part of State 
called Northern Pass, which is a project bringing down 
waterpower from Hydro-Quebec. The other is a gas pipeline that 
is going through the southwestern part of the State.
    I just wonder if you can talk about the importance of 
public engagement in siting and permitting these kinds of 
energy projects, because I think it is fair to say that the 
people who are going to be affected by those projects feel 
like, while there have been public hearings and there is a 
process in place, many people do not feel like that process is 
really taking into account what their concerns are and has 
responded adequately to that.
    So can you talk about that and also talk about whether 
there is more that FERC can do to address public concerns 
because they have, from the public perspective, a very opaque 
process for how they operate and what their decisions depend 
on.
    Secretary Moniz. I can certainly speak more about the DOE's 
approach. I certainly agree with the importance of input, 
including being sometimes patient, in terms of going through 
the process.

                             NORTHERN PASS

    To take Northern Pass, I think the process has already 
resulted in changes in the proposal. I think it was 50 miles, 
roughly, more now going underground, which was a positive. That 
was filed. We have reopened public comment.
    Frankly, I think there are four meetings this week in New 
Hampshire, public meetings on that. And frankly, we appreciated 
working with you and the delegation in terms of how the 
scheduling and locations would be optimally set.
    So we will be getting the feedback from this week's 
meetings on Northern Pass.
    With regard to FERC, I really cannot say too much in terms 
of how they might modify processes. I think you would have to 
ask Norman Bay.

                           ENERGY EFFICIENCY

    Senator Shaheen. We have tried that.
    I want to switch to energy efficiency, because I was 
pleased to see that the budget request includes strong funding 
for energy efficiency programs and EERE (Energy Efficiency and 
Renewable Energy).
    As I know you are aware, because you are from New England, 
we have faced very high energy costs for decades in the 
Northeast. For many businesses, next to the cost of personnel 
and product costs, it is often the next highest cost of doing 
business in New England.
    Secretary Moniz. And a competitive question, therefore.
    Senator Shaheen. Yes. One of the things that for many of 
those small businesses that has been very helpful has been 
their ability to be more energy efficient and to access 
assistance with that energy efficiency.
    So can you talk about initiatives within EERE that will 
help small businesses as they are trying to facilitate the 
deployment of energy efficiency technologies?
    Secretary Moniz. Certainly, again, I really appreciate your 
strong focus on efficiency because, again, I have said it 
before, but I would like to repeat it, I have never seen a 
credible solution to meeting our long-term goals without major 
demand-side contribution.
    Senator Shaheen. Right.
    Secretary Moniz. So it is critical.
    So we are working across-the-board. We are working with 
buildings, in particular commercial buildings. Things like the 
Better Buildings Challenge are critical. That has been 
tremendously successful. And it is really just using our 
convening power as opposed to budget. So this kind of branding 
and a critical requirement to share best practices, that is 
having a huge impact.
    Of course, on weatherization for homes, we do propose a 
several percent increase in the budget. Another different 
direction--okay, I will mention first the R&D.
    On the R&D, we propose a substantial increase in terms of 
the technology development for building efficiency. That has 
multiple aspects.
    In terms of standards, I would note that we just put out a 
notice of proposed rulemaking on general service lamps. By the 
way, I also just did something for the NHL, who has made a huge 
move toward LEDs and other energy efficiency activities.
    Senator Shaheen. By NHL you mean National Hockey League?
    Secretary Moniz. National Hockey League.
    Senator Shaheen. I just want to clarify that. Right.
    Secretary Moniz. Believe it or not, the National Hockey 
League and NASCAR are two organizations that are really pushing 
hard on clean energy. We are working with them. With NHL, it is 
LEDs, refrigeration, and other kinds of issues.
    But also I would note that in just the last year, this is 
quite relevant to small businesses and commercial enterprises, 
we put out a consensus standard done with the stakeholders as 
opposed to a more formal DOE rulemaking on commercial furnaces, 
the rooftop kind of boxes. That is a very big deal. It is the 
biggest efficiency rule that we put out, and it was done on a 
consensus basis representing the different relevant sectors.
    So it is really across the board, from R&D to standards to 
convening and getting best practices shared.
    Senator Shaheen. Thank you. I assume you would agree with 
me that it would be very good for us to pass the energy bill 
that is currently on the floor the Senate?
    Secretary Moniz. Maybe even a further strengthened one.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Shaheen.

      URANIUM ENRICHMENT DECONTAMINATION AND DECOMMISSIONING FUND

    Mr. Secretary, Senator Feinstein asked you about the $674 
million that the President's budget allocates from the USEC 
Fund, in fact, for cleaning up uranium enrichment sites in 
Tennessee, Kentucky, and Ohio. That $674 million is not now 
authorized for that purpose, is that correct?
    Secretary Moniz. Well, my understanding is that those are 
existing funds that have been put there--as I said, in 2000----
    Senator Alexander. No, I don't think that is correct. I 
think they are authorized for USEC. They are not authorized to 
clean up uranium enrichment sites.
    Secretary Moniz. I will correct this for the record, if it 
is incorrect, but I believe in 2000, there was specifically a 
designation of part of that fund for cleanup, for D&D.
    Senator Alexander. Staff says it is a small portion that 
never got used.
    Secretary Moniz. It was a small portion, but as a reminder, 
all of that fund bears interest, and it is now a very 
substantial amount.
    Senator Alexander. It is a substantial fund. But the bottom 
line I think, if we cannot use that fund, there are zero 
dollars in your budget for cleaning up uranium enrichment sites 
in Tennessee, Kentucky, and Ohio. Isn't that correct?
    Secretary Moniz. We certainly need to continue that work. 
And again, we proposed a way of going back to the initial 
concept, that the users pay with a very, very small fee.
    Senator Alexander. I think the answer is there is zero, 
unless we can use the USEC money, right?
    Secretary Moniz. Our proposal is to use the USEC Fund.
    Senator Alexander. Right. But I am not convinced that we 
have the authority to use it. So why have you not asked 
Congress to reauthorize the money so that we can use it for the 
purpose you intend?
    Secretary Moniz. Well, I think our budget proposal to the 
Congress----
    Senator Alexander. But it would require new legislation, 
would it not? I mean, wouldn't the Energy Committee have to 
reauthorize the use of the money for the purpose you now 
intend?
    Secretary Moniz. First of all, we have, of course, 
discussed this with the Energy Committee last week.
    Senator Alexander. But you have not sent them any 
legislation.
    Secretary Moniz. Again, I do not want to get onto shaky 
ground with that, in terms of what is needed. My impression is 
that certainly Congress could go forward with that fund, but it 
would require----
    Senator Alexander. With all respect for you, and you know I 
have a lot for you, I think you are already on shaky ground 
here.
    Secretary Moniz. I mean, we certainly can be forthcoming 
with a proposal for legislation.
    Senator Alexander. I think basically the administration has 
done something that other administrations have done for things 
they think Congress will find other money for. The Army Corps 
of Engineers is the second example. They know Congress cares 
about that because people care about it, so they underfund it, 
knowing that we will have to make up the money, which we did 
last year.
    And you know that we have to clean up the uranium 
enrichment sites in those three States, so basically you put 
zero in the budget for it, knowing we are going to have to use 
discretionary money, and that means reduce other funding.
    So I would ask that if you want us to use that, that you 
consider sending promptly up to the Congress a request for the 
authority to do it----
    Secretary Moniz. Okay.
    Senator Alexander. [continuing]. If it is needed. Let me go 
back----
    Secretary Moniz. We will follow up on that, Mr. Chairman.

                          CARBON USE AND REUSE

    Senator Alexander. [continuing]. To something we discussed 
privately before. I am not a scientist and I do not pretend to 
be, but my common sense is pretty good.
    We are in a swivet in this country and the world over 
climate change and the need to produce carbon-free electricity. 
And we figured out a way in our power plants to get rid of 
sulfur, nitrogen, and mercury, and a number of other elements.
    As a result, the air in Tennessee around the Smoky 
Mountains is a lot cleaner. You can actually see the Smokies. 
People like that.
    We have not really figured out as well a commercially 
viable way to capture carbon and do something with it if it 
comes out of a power plant, out of a coal-fired power plant or 
out of a gas-fired power plant.
    There is a limited mechanism we have for capture and 
sequestration, which could be available some places. But even 
if it is available, it is very expensive. And the process of 
carbon capture for any purpose is expensive.
    Would it not be a huge priority for this clean energy 
research to see if we can reduce the cost of carbon capture and 
find some commercially viable use for what we capture? Wouldn't 
that permit us to use unlimited amounts of coal and gas, and 
reduce poverty around the world, and reduce the cost of 
electricity?
    Secretary Moniz. We totally agree. I think we are doing 
that. Maybe we could do more, but we are doing that across-the-
board.
    So first of all, again, the fiscal year 2017 budget 
specifically has the proposal for doing three novel 
technologies, obviously, with the hope that they would also be 
lower cost.
    I do want to emphasize, even with conventional capture, the 
costs have been coming down with more and more use. And also 
the enhanced oil recovery, when the oil prices were higher, 
especially, provided a substantial offset against the cost. 
That is another issue lower oil costs have impacted.
    So we are working on the front-end of different capture 
technologies, not just with different solvents but with 
different processes like chemical looping.
    Then on the backside, one example of a hub is the one that 
is basically working on sunlight to fuels, which means sunlight 
plus water plus CO<INF>2</INF> to fuels.
    Senator Alexander. Is that the ARPA-E company?
    Secretary Moniz. No, no. This is a hub, combination of 
Caltech and Berkeley doing that. But I think ARPA-E also has a 
program for this.
    The trick is the product has to be something with enormous 
use in the economy because of the magnitude of the 
CO<INF>2</INF>.
    Senator Alexander. Right, I understand. You can turn it 
into limestone, but who needs that much limestone, or whatever 
it is.
    My time is up, but it just seems to me that, from a common-
sense point of view, that is the holy grail of clean energy 
research, because if you can actually figure out how to make a 
commercially viable use of capturing carbon and then using it, 
holy smokes.
    Secretary Moniz. Mr. Chairman, I think, to me that is 
exactly the kind of big thing we would like to do in Mission 
Innovation.
    And by the way, I think I can say that when Bill Gates uses 
a prime example, that is the one he uses.
    Senator Alexander. Senator Feinstein.

                           WATER DESALINATION

    Senator Feinstein. Thanks very much, Mr. Chairman. I have 
four questions, but the first one is kind of interesting.
    I am a big believer in desal. I would like to see it go 
ahead. There are 27 proposals for the coast of California. I 
saw where you have a proposal for $45,100,000 for one of these 
hubs on desal. So I thought, well, is this to develop a third-
stage membrane to improve the reverse osmosis process, and I 
took a look at the budget.
    Mr. Secretary, let me tell you what this says: The Energy-
Water Nexus Crosscutting Initiative, which draws on ideas--this 
is under this section--presented in DOE's report ``The Water-
Energy Nexus Challenges and Opportunities,'' is an integrated 
set of cross program initiatives that builds and deploys on a 
DOE mission critical data modeling and analysis platform to 
improve understanding and informed decisionmaking.
    It goes on like that. I come to the end, I mean, I do not 
understand a single word in this. And yet, at least my approval 
has to go on this.
    Why does your staff write budgets like this?
    Secretary Moniz. I will have to ask them.
    [Laughter.]
    Secretary Moniz. If I could say it in English, $25 million 
of it will be the desal hub, looking at novel technologies. We 
will be looking at wastewater utilization, at the issues of how 
one moves water over large distances, all of which, of course, 
are quite relevant to California, for example.
    Senator Feinstein. Yes, but stop. I understand the big 
problem is that the energy coefficient is not positive, ergo 
the need for a better membrane, reverse osmosis membrane. So 
the needed research is to come up with what is called a third-
stage membrane. So I wanted to see if this is it. But nowhere 
on page 62 is there any specific information as to what would 
be funded in this desal hub.
    So I am sure not going to vote for it until I know what it 
is going to do, because I know what the need is for the third-
stage membrane.
    Secretary Moniz. We will send to you a white paper.
    Senator Feinstein. Thank you. Well, that I can understand.
    Secretary Moniz. Right.

                       NATIONAL IGNITION FACILITY

    Senator Feinstein. Let me talk about the National Ignition 
Facility. It was supposed to have achieved limited controlled 
fusion burn, also called ignition, in 2012. Now I am told it 
will be as long as 10 years before ignition will be achieved, 
if ever.
    The question is, what is the present status of the ignition 
effort? The last time I was there, they were not going for 
ignition. They were going for other things.
    Can you share your view of the likelihood of NIF (National 
Ignition Facility) ever achieving ignition?
    Secretary Moniz. So I think it is important as a prologue 
to say that there is a lot of work, critical work, frankly, 
most of the stockpile stewardship work, without ignition, has 
made major contributions, especially in exploring extreme 
pressure regimes for weapons.
    And also, the other piece of good news is last year there 
were a record number of shots, I think 350, if I recall 
correctly.
    But on ignition, that has proved very elusive. They are 
still looking at different designs of targets to try to get 
there. I have to be honest. I cannot sit here and in any sense 
guarantee that it will reach ignition. I can say that it has 
provided extremely useful and important data for the stockpile 
stewardship program.
    Senator Feinstein. As you know, this is a very expensive 
program. If it is not going to reach its goal, which I 
understand it may never be able to produce fusion----
    Secretary Moniz. As I said, I certainly would not 
guarantee--yes, ignition or fusion.
    However, frankly, I think it should have been phrased 
differently--I do not mean by you; I mean by them--because the 
real goal, the key goal, was exploring extreme regimes of 
pressure and temperature of relevance to nuclear weapons, and 
that has been done.
    Senator Feinstein. Well, I was here when Pete Domenici was 
on the committee and opposed this. We voted for it. And here we 
are 10 years-plus later, and it is not there.
    Now here is another one.
    I am sorry, may I take a couple minutes?
    Senator Alexander. Sure.

            INTERNATIONAL THERMONUCLEAR EXPERIMENTAL REACTOR

    Senator Feinstein. ITER. If the United States remains a 
partner, the ITER project would require a yearly appropriation 
soon of between $250 million and $400 million. It is my 
understanding that such a funding level would make ITER the 
single most expensive Office of Science project on a yearly 
basis. Such a funding requirement would negatively impact our 
ability to invest in new or upgraded scientific facilities such 
as the light sources.
    Today, in the fiscal year 2017 budget request, fusion 
energy science is the lowest priority of science programs. It 
was cut by 9 percent while other programs went up from 3 
percent to 7 percent.
    So the fiscal year 2016 bill requires you to make a 
recommendation to Congress by May 6, 2016, on whether the 
United States should remain a partner in the ITER project or 
withdraw. What is your current thinking?
    Secretary Moniz. Senator Feinstein, first of all, let me 
just note that while the total budget went down in fusion, the 
ITER request is up slightly, I think $10 million, at least 
provisionally until we make the May report. But a big part--I 
can say this now that I am no longer recused. A big part of 
that is the elimination of the MIT program in that budget.
    With regard to ITER, we will have a report in April that 
will be a key piece of information for the May report. I would 
say for sure that the management has really significantly I 
think been upgraded with Mr. Bigot as the director general.
    But we have to see in April what the project review 
information is. Then we will get back to Congress in early May.
    Senator Feinstein. Well, this is an international program. 
I do not know why we need to participate, candidly. If we 
continue to do so, the costs are huge. I mean, I am really a 
doubting Thomasina there.

                         LOAN GUARANTEE PROGRAM

    Let me ask you another one, and that is loan guarantee 
program number two. There is already $4 billion in loan 
authority tied to uranium enrichment. $2 billion of the 
enrichment loan authority is tied to the conditional loan 
guarantee with Areva, a French state-owned company. This 
conditional loan guarantee was made in 2010. In May, it will be 
6 years.
    To my staff's knowledge, and therefore, my knowledge, there 
has been no tangible action related to the Areva conditional 
loan in years.
    The other $2 billion in uranium enrichment loan authority 
was previously widely viewed as tied to USEC, and USEC has gone 
through bankruptcy, and the department just closed the project 
in Ohio.
    So question: Why not reclassify the existing $4 billion 
uranium enrichment loan authority for fossil and renewable 
energy rather than seek new loan authority?
    Secretary Moniz. Well, we would similarly need the 
authority of Congress to do that.
    Senator Feinstein. Is that your proposal?
    Secretary Moniz. No, our proposal was $4 billion of 
additional authority, but if one chose instead to try to 
relabel it--as you said, that is for fossil efficiency and 
renewables. The nuclear loan program does have considerable 
amount of remaining authority, but we do not have the authority 
to transfer that to renewables.
    Senator Feinstein. Could the chairman and I and you, could 
we sit down and discuss this?
    Secretary Moniz. Sure, I would be delighted.
    Senator Feinstein. Maybe at the end of the discussion, at 
least I will know exactly the pros and cons of this.
    Secretary Moniz. Yes. Yes.
    Senator Feinstein. Okay. We have yet to receive a proposal 
from the department as to how much crude oil the SPRO intends 
to sell in fiscal year 2017, for the purpose of SPRO 
modernization. When can we expect to see a budget amendment 
from the department proposing that sale?
    Secretary Moniz. We are working to get that as soon as 
possible. The report is due in May, and we would like to try to 
accelerate that. We are working hard at that. I cannot give you 
a fixed date, but we have every motivation to try to get that 
to you as soon as we can.
    Senator Feinstein. Yes, thank you.
    Secretary Moniz. And we would like to start that program in 
fiscal year 2017.
    Senator Feinstein. Okay.
    What do you think the chances are that we could--are we wed 
to that loan guarantee of Areva? Nothing has happened. It is 6 
years, no tangible action.
    Secretary Moniz. I cannot discuss an individual 
application, however----
    Senator Feinstein. It was for USEC.
    Secretary Moniz [continuing]. I would just note that right 
now the whole uranium enrichment market is, if anything, 
oversupplied, and I think there is not a strong commercial 
motivation right now.
    Senator Feinstein. Okay, so what you are saying is that we 
really do not need it, so I assume you will take some action to 
change that.
    Secretary Moniz. I will consult with the program in terms 
of what action we take.
    Senator Feinstein. Thank you.
    Thanks, Mr. Chairman.
    Senator Alexander. Do you have any other questions?
    Senator Feinstein. No, that is fine.
    Senator Alexander. Thanks, Mr. Secretary. It seems to me 
that Senator Feinstein has raised some issues we need to 
pursue.

            INTERNATIONAL THERMONUCLEAR EXPERIMENTAL REACTOR

    The ITER decision, it may be a nice thing to participate 
in, but we have real, pressing budget priorities here that we 
are going to have a hard time meeting, and we are counting on 
you with your background to help us make a correct decision on 
that, not just whether it is something that might be nice, but 
whether it is more important than the other options that we 
have to fund.

      URANIUM ENRICHMENT DECONTAMINATION AND DECOMMISSIONING FUND

    Number two, that $674 million is a problem. You know that. 
I know that. If you really think you want to use some of that 
$1.8 billion to help pay for it, then we need to get resolved 
the authority to do that.
    Secretary Moniz. So we will follow your suggestion about 
presenting some language.

                 MIXED OXIDE FUEL FABRICATION FACILITY

    Senator Alexander. And three, Senator Feinstein and I both 
want to continue a deliberate focus on MOX. We have discussed 
it in-depth before. When we dealt with the uranium facility, we 
had a red team to take a look at it. It came back with a 
recommendation. We adopted the recommendation. We have a cap of 
$6.5 billion and a date of 2025, and we have a path toward 
getting there, so we have resolved that.
    The MOX is a different kind of problem. You have 
recommended that we switch from one way of dealing with the 
plutonium to another. Your red team, that separate red team, 
told us basically that the cost might save us $500 billion a 
year.
    Secretary Moniz. $500 million.
    Senator Alexander. $500 million a year. I have to get my 
b's and m's right. $500 million a year.
    Secretary Moniz. It may be $600 million or $700 million, 
actually.
    Senator Alexander. So you are saying it could be $500 
million to $700 million or $800 million a year for many years 
that might be the difference in spending.
    So we have an obligation to the taxpayer to address that 
question and to do it promptly. I think you are correct to try 
to address it in the budget, and we need to take sufficient 
time to deal with it.
    We know that requires a discussion with Russia. We know 
that we have to have a place to put the plutonium. We also know 
that there is a place to put the plutonium today, as soon as 
WIPP opens, which you would expect to be later this year. Is 
that correct?
    Secretary Moniz. Initial operations.
    Senator Alexander. Initial operations. There is a backlog 
of material to go to WIPP, and the South Carolina plutonium 
would have to get in line. But my understanding is that all 13 
tons of plutonium that are now in South Carolina could go into 
the WIPP facility once it reopens without changing the law and 
adding new land. Is that correct?
    Secretary Moniz. Correct.
    Senator Alexander. But that still leaves open the question 
of what to do about the entire 34 tons that we are obligated to 
deal with and what about an agreement with Russia.
    So Senator Graham and others are right to want an answer to 
that. The taxpayers are going to want to know from us why we 
are spending $500 million to $800 million a year on something 
where we could have saved that much money, if that is true, and 
when we have very pressing other needs, for example, cleaning 
up uranium enrichment, clean energy investment, the Office of 
Science investments.
    So I will be working with Senator Feinstein and Senator 
Graham and others who are interested to set up a scheduled 
discussion to permit us to deal with the MOX issue on a 
deliberate basis.
    Secretary Moniz. Great. I am certainly happy to work with 
you on that.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Alexander. Well, the hearing record will remain 
open for 10 days. Members may submit additional information or 
questions for the record within that time, if they would like. 
The subcommittee requests all responses to questions for the 
record to be provided within 30 days of receipt.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Dr. Ernest J. Moniz
              Questions Submitted by Senator Thad Cochran
    Question. The fiscal year 2016 Energy and Water Appropriations bill 
provided $62,100,000 for the Advanced Fuels program to continue 
implementation of accident tolerant fuels development. It is my 
understanding that implementing the second phase of DOE's proposed fuel 
Development plan, which follows the completion of Phase 1 this fall, 
would require an increase in funding of approximately $15 million. The 
Department's budget request for fiscal year 2017 reduces funding for 
the ATF program by $3 million.
    Can you please explain to the Committee the why Department has not 
requested the necessary funds to this program?
    Answer. The development of advanced light water reactor fuel with 
enhanced accident tolerance continues to be a high priority for the 
Office of Nuclear Energy. The Department is working toward the goal set 
by Congress after the Fukushima accident to install test fuel rods or 
an assembly in a commercial power reactor by 2022. The fiscal year 2017 
Budget Request for the Fuel Cycle R&D Advanced Fuels subprogram 
balances work toward this near term goal with research on longer-term 
Advanced Light Water Reactor (LWR) fuel concepts, long term 
transmutation fuel concepts, cross cutting infrastructure development, 
and modeling and simulation support.
    Phase 2 of the Accident Tolerant Fuel (ATF) program is planned to 
begin in fiscal year 2017 and will be a 6-year effort to develop and 
qualify a small number of the most promising concepts. The number of 
concepts under investigation in fiscal year 2017 and beyond will drop 
sharply relative to the number of concepts that underwent preliminary 
investigations in Phase 1 due to down selecting to the most promising 
concepts from Phase 1.
    Question. Congress has been supportive of the Administration's 
efforts to promote the use of safe and clean nuclear energy, including 
Reactor Concepts Research, Development, and Demonstration (RD&D) 
program. The Committee and the Congress have continued to encourage the 
Department to support the development and evaluation of nuclear power 
technologies that are safer, create less waste, less costly, and more 
proliferation-resistant. It is my understanding that the Department 
recently awarded two contracts through the Advanced Reactor Concepts 
program.
    Please detail for the members of this Subcommittee the projected 
cost of delivered power for each of these applications, in addition to 
the estimated amount and type of waste each applicant's reactor would 
produce.
    Answer. The two awards issued by the Advanced Reactor Technologies 
(ART) program are at the early conceptual design phase, which limits 
the quantitative information available to accurately project costs of 
delivered power and waste generation. At this stage of development, one 
awardee's concept is indicating the potential for the costs of 
delivered power to be lower cost than conventional light water reactor 
technology based on innovative design features and, due to a liquid 
fuel form, it is expected to have a lower volume of waste than 
conventional light water reactor technology. The other awardee's 
concept draws heavily on NE's R&D program and is estimating higher 
efficiency electricity production that could contribute to a lower cost 
of power than conventional light water reactor technology, as well as a 
significant reduction in waste generation through the use of high burn-
up fuel.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
    Question. What are the Department's plans to continue the ongoing 
and vital environmental cleanup operations at the Paducah site 
following July 2017, when the current, 3-year deactivation contract is 
scheduled to end?
    Answer. The Department has an active procurement for a follow-on 
contractor at the Paducah Site that will provide continuity for the 
environmental cleanup operations and facility deactivation. The draft 
Request for Proposal has been made available to the industry. We also 
held an Industry Day from May 17-19, 2016. The Department is actively 
executing a plan that will allow for a seamless transition to the next 
contractor.
    Question. I have concerns about the lack of commitment for ongoing 
clean coal research in the President's fiscal year 2017 budget. For 
example, the President's budget proposes to reprogram $240 million out 
of the Fossil Energy Research and Development budget, which is 
currently committed to a clean coal project in its final stages of 
development. Congress explicitly appropriated funding for clean coal 
projects, like this one. Do you intend to continue funding this project 
to bring it to completion in the current fiscal year?
    Answer. Following an extensive and careful review, DOE's Office of 
Fossil Energy (FE) determined that advancing any additional Federal 
funds would not substantively increase the likelihood of Texas Clean 
Energy Project (TCEP) or Hydrogen Energy California Project (HECA) 
success, and that no additional taxpayer funds should be put towards 
these projects. A recent DOE Office of Inspector General audit report 
reached a similar conclusion to FE's in regards to not advancing any 
additional Federal funds to the TCEP project. DOE previously suspended 
HECA project funding in January 2015 for failing to make sufficient 
progress--most notably, not securing an approved site for the 
sequestration of the site's carbon dioxide after more than 6 years of 
effort. President's proposed fiscal year 2017 budget would use around 
$211 million from TCEP project funds and around $29 million from HECA 
project funds to secure the required $240 million for fiscal year 2017 
FE R&D budget.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
    Question. Domestic manufacturers of residential water heaters in 
the State of Alabama have recently expressed concern about the lack of 
a final rule from the Department of Energy (DOE) relating to new 
efficiency standards. While interim guidance and a subsequent rating 
became effective on July 13, 2015, the DOE has not yet published the 
final conversion factor associated with this rule.
    It is my understanding that DOE is continuing to work on this 
matter and that this conversion factor allows manufacturers to 
correctly rate existing products using the newly-established universal 
efficiency descriptor, or UEF, without incurring the expense of 
physically retesting individual and multiple products. Moreover, this 
new metric also allows consumers to more effectively compare a broad 
selection of water heating products and their efficiency to ensure the 
most appropriate fit for their needs. Such a model was outlined by 
Congress in the American Energy Manufacturing Technical Corrections Act 
(AEMTCA), on December 18, 2012, which also directed the DOE to 
promulgate implementing regulations.
    Secretary Moniz, does the DOE have a timeframe in which a final 
rule and conversion factor will be released? Secondly, can I have your 
assurance that an appropriate period of time, preferably at least 1 
year to phase in all existing models, will be incorporated in any final 
regulation to avoid disruption in the marketplace and compliance under 
the new UEF?
    Answer. The development of a mathematical conversion to a new 
efficiency metric from a prior metric is a complex task that must be 
given careful consideration in order to denominate standards and 
ratings in the new metric that are equivalent to those under the 
previous metric. This process requires a large amount of product 
testing and analysis, and an opportunity for stakeholders to provide 
comments, all of which can be time-intensive activities. The Department 
published a notice of proposed rulemaking (NOPR) on April 14, 2015 that 
proposed a mathematical conversion and accompanying standards 
denominated in the new efficiency metric. 80 FR 20116. The Department 
also convened a public meeting to discuss its proposed conversions as 
set forth in the NOPR, a meeting which generated significant 
stakeholder comment. After the publication of that NOPR, the industry 
trade association--the Air-conditioning, Heating, and Refrigeration 
Institute (AHRI)--provided additional test data to DOE to be used in 
the development of the mathematical conversion factor. During this 
period, DOE also conducted further testing of its own. Accordingly, DOE 
undertook a re-analysis to incorporate such additional data and is 
currently developing a supplemental NOPR that proposes a mathematical 
conversion factor and accompanying standards based on the expanded 
dataset. The Department plans to publish the supplemental NOPR in early 
summer and a final rule later this year.
    EPCA contains requirements to ensure that manufacturers' products 
that currently comply with Federal standards remain compliant after the 
conversion factor is issued. Specifically, EPCA requires that a covered 
water heater must be considered to comply with the final rule and with 
any revised labeling requirements established by the Federal Trade 
Commission to carry out the final rule if the covered water heater was 
manufactured prior to the effective date of the final rule and complied 
with the efficiency standards and labeling requirements in effect prior 
to the final rule (42 U.S.C. 6295(e)(5)(K)). The Department plans to 
adopt an approach that would determine compliance consistent with the 
requirements of EPCA.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
    Question. Secretary Moniz--On March 3, 2016, in response to a 
question by Senator Cassidy about the contractor's commitment to the 
MOX project you said: ``If I--may--if I may say precisely what the 
discussion was, the definition of fixed cost that came back was fixed 
cost unless we go over by a lot, and then you [DOE] pay. It's [the] 
truth.'' Later, on March 9, 2016, in response to my question during the 
Senate Appropriations Subcommittee on Energy and Water hearing, you 
commented on the contractor's commitment to a plan for fixed-cost 
pricing: ``You and I discussed that with them at some point and as we 
know they came back in an unresponsive fashion.''
    It is my understanding that the contractor made you an offer on 
February 20, 2014 to provide fixed cost pricing, in exchange for DOE's 
taking responsibility for changes to project scope or design that are 
ordered by DOE. Are you aware of a last-best offer made to DOE by the 
MOX contractor--in writing--on February 20, 2014? Are you also aware, 
to quote the offer, that it would ``allow [the contractor] to move as 
much as 100 percent of the scope into the fixed price `Bucket' in the 
future? Finally, did DOE ever respond to the contractor's final offer, 
on February 20, 2014, in writing?
    Answer. The Department is aware of the proposal that the MOX 
contractor sent to the Department in February 2014, but considered it 
unresponsive as it still contained exclusions and would at best cover 
only 75 percent of the remaining costs. This risk allocation is 
particularly important given the nature and extent of the remaining 
work to finish construction, startup, and operations of the MOX 
facility leaving approximately $10 billion subject to cost 
reimbursement, with no cost cap and potentially several billion in cost 
overruns as MOX Services has demonstrated on the work they are 
currently performing. In short this proposal did not meaningfully 
reduce risk to the Department since it moved additional scope into the 
fixed price category only after achieving milestones or triggers, many 
of which would not occur until the end of the project. We verbally 
communicated our rejection of it during discussions with the MOX 
contractor.
    Question. Secretary Moniz--On March 1, 2016, during the House 
Appropriations Subcommittee on Energy and Water hearing, you stated 
that an analysis conducted by High Bridge Associates on the potential 
criticality problems at WIPP that may arise from packing 47 metric tons 
of plutonium at the facility, along with the transuranic waste that 
would go to WIPP, was evaluated by the Sandia National Laboratory. Can 
you provide me, along with the appropriate congressional committees, 
with a copy of the Sandia National Laboratory's analysis?
    Answer. Yes, this analysis will be made available. A copy is 
provided for the record.
    Question. Secretary Moniz--On February, 23, 2016 and March 1, 2016, 
respectively, you and NNSA Administrator Klotz hinted at the potential 
need for a secondary repository, other than WIPP, to accommodate the 
total 47 metric tons of plutonium. At the Senate Armed Services 
Subcommittee on Strategic Forces hearing on February 23, 2016, 
Administrator Klotz responded with the following statement regarding my 
question about where DOE would send the diluted Savannah River and MOX-
bound Plutonium: ``We would send it to either WIPP or a repository like 
WIPP.'' Similarly, on March 1, 2016, during the House Appropriations 
Subcommittee on Energy and Water hearing, you stated: ``We're not 
saying that necessarily all of that [Savannah River and otherwise MOX-
bound plutonium] goes to New Mexico.'' Given these statements, has the 
Administration identified potential states and sites for another 
repository? Where are these sites located? What work has been done to 
determine the viability to use alternate disposal sites?
    Answer. In response to the Joint Explanatory Statement accompanying 
S. 1356, the National Defense Authorization Act for fiscal year 2016, 
the Department prepared a report that provides additional information 
relevant to these questions. The Department submitted the report to the 
Senate Armed Services Committee in May 2016.
    Question. Secretary Moniz--In all of your recent testimony to 
Congress regarding the Plutonium Management and Disposition Agreement 
of 2000 (PMDA), you have referred to ``informal discussions'' with both 
the Russian government and with ROSATOM, the Russian-owned nuclear 
power company and government agency responsible for implementing the 
PMDA. It is acknowledged that, in order to uphold the PMDA, the 
abandonment of MOX and a move towards the ``Dilute and Dispose'' 
alternative would require prior approval by the Russians. However, 
there is much debate over whether the Russians would (1) be willing to 
come to the negotiating table and (2) want something in return. If 
Russia does not agree to move forward with the Dilute and Dispose 
option, will the United States still proceed with this alternative 
disposal method?
    Answer. The PMDA (paragraph 1 of Article III) clearly provides a 
path for the Parties to agree on methods of disposition that do not 
entail irradiation as fuel in reactors (``any other methods that may be 
agreed by the Parties in writing''). We expect that Russia will work 
with us as we pursue a different method to achieve what is a mutually 
beneficial goal, just as the U.S. supported Russia's reassessment of 
its plutonium disposition strategy a few years ago.
    The U.S. Government has had an ongoing dialogue with Russian 
officials regarding the multiple analyses of plutonium disposition 
alternatives. The U.S. Government has requested formal consultations 
with Russia regarding the dilute and dispose method under the 
provisions of the PMDA. It is premature to discuss concerns with this 
approach before formal consultations begin.
    Question. Secretary Moniz, while I disagree with your plan for 
cancelling the MOX project, I know you share my feeling that the 
Savannah River Site is a national asset in many areas, including 
national security and innovate technology. Please give me your vision 
for the future of the site over the next 5 years, and the next 10 
years?
    Answer. In support of the DOE Strategic Plan, the Savannah River 
Site (SRS) is in the process of developing a joint Office of 
Environmental Management (EM)/National Nuclear Security Administration 
(NNSA) site-wide Strategic Plan addressing focus areas of Nuclear 
Security, Environmental Stewardship and Science and Energy. Completion 
of the SRS Strategic Plan is expected by the end of calendar year 2016. 
The focus areas of the plan include high level waste cleanup (including 
commissioning and startup of the Salt Waste Processing Facility); 
management and disposition of nuclear materials; continued optimization 
of the Savannah River National Laboratory in support of EM technology 
needs; and national security (e.g., tritium requirements).
                                 ______
                                 
             Questions Submitted by Senator James Lankford
    Question. The Department of Energy closed the public comment period 
for the study on exporting 12-20 bcf/day of LNG in February; this study 
found a ``marginally positive'' impact of higher LNG export volumes. 
When will the Department finish responding to public comments on the 
study?
    Answer. The 2014 EIA LNG Export Study and DOE-commissioned 2015 LNG 
Export Study (together, ``Studies'') examined the effects of LNG 
exports from 12 to 20 billion cubic feet of natural gas per day (Bcf/
day). The Studies and all comments were entered into the legal 
proceedings of all pending non-free trade agreement (FTA) LNG export 
applications. The Department will summarize issues raised in the public 
comments on the Studies and respond to these issues in the next final 
non-FTA LNG export order that would cause cumulative approved non-FTA 
LNG exports to exceed 12 Bcf/d.
    Question. The latest DOE approval brought total authorized exports 
to 11.80 bcf/day, making it likely that the next application before the 
Department will breach the 12 bcf/day volume. When will DOE be able to 
act on applications that would bring the total above 12 bcf/day?
    Answer. The Department has established a pattern of issuing final 
decisions on applications to export LNG to non-FTA countries promptly 
after FERC has issued an order denying rehearing requests on projects 
in which an environmental review was required and in which DOE was a 
cooperating agency. In these cases, DOE had begun work on the public 
interest review of these export applications while the environmental 
review of the project at FERC was ongoing. Accordingly, DOE has begun 
conducting public interest reviews of applications linked to 
proceedings at FERC that are currently pending a FERC final order on 
rehearing. These include applications by Lake Charles Exports, LLC and 
Jordan Cove Energy Project, L.P. In keeping with past practice, DOE 
expects to issue a final order promptly after FERC issues a final order 
on rehearing for either the Lake Charles or Jordan Cove liquefaction 
projects. If DOE authorizes the export volumes requested in one of 
these two applications, the total volume of approved, long-term LNG 
export authorizations to non-FTA countries would exceed 12 Bcf/d.
    Question. DOE provides significant funding in the form of grants, 
particularly out of the Energy Efficiency and Renewable Energy account. 
This year DOE is asking for a 104 percent increase in spending in this 
area, bringing the EERE budget to $4.233 billion for fiscal year 2017. 
Congress and the Department have proper controls in place to ensure 
that the goals of these programs are being met and funds are not being 
used on projects that do not have a Federal interest.
    What controls does DOE have in place to ensure that this money is 
spent on research that would not be done at universities or by the 
private sector without Federal involvement and investment?
    Answer. Applied research areas are defined in both the DOE and EERE 
strategic plans, as well as the multi-year plans maintained by EERE 
technology program offices. EERE regularly hosts workshops and 
publishes Requests for Information to help further define and regularly 
update these plans. All DOE funding for university and private sector 
execution are competitively awarded through Funding Opportunity 
Announcements (FOAs). Elements of the process used for these awards 
include:
  --Deputy Assistant Secretaries approve requirements for FOAs. Their 
        formal approval review assesses every project relative to five 
        core questions:
    --Impact--Is this a high-impact problem? If successfully developed 
            it should make material contributions toward national 
            energy goals.
    --Additionality--Will EERE funding make a large difference relative 
            to existing funding from other sources, including the 
            private sector?
    --Openness--Are we focusing on the broad problem we are trying to 
            solve and open to new ideas, approaches, and performers?
    --Enduring Economic Impact--How will EERE funding result in 
            enduring economic impact for the United States?
    --Proper Role of Government--Why is this investment a necessary, 
            proper, and unique role of government rather than something 
            best left to the private sector to address?
  --Independent experts score proposals during the pre-award merit 
        review process prior to selection and award.
  --Statements of Project Objectives establish milestones and success 
        metrics for each project. Progress and expenditures are managed 
        through EERE's Active Project Management program.
  --A peer review process provides objective progress reviews 
        throughout a project's lifecycle and can inform program 
        decisions going forward. EERE engages experts, including 
        experts from industry and from other Federal agencies, to 
        review our project portfolios for effectiveness, currency and 
        impact.
    Question. Does the Department have guidelines and metrics to 
evaluate the performance of grants once they are awarded? What are 
these metrics?
    Answer. Yes, the Department has put in place the following 
processes to establish metrics and then evaluate the performance of 
financial assistance awards: Statements of Project Objectives establish 
performance milestones throughout the execution phase of projects. 
Those milestones serve as the project metrics for performance 
monitoring and management. Progress and expenditures are managed 
through EERE's Active Project Management program. Project managers 
assess performance against milestones, as well as cost and schedule, 
quarterly.
  --Project managers are required to perform quarterly, written 
        projects assessments, an annual site visit for applicable 
        projects and at least two face-to-face meetings with performers 
        each year.
  --Invoice approval policy requires project manager confirmation of 
        reasonableness and activity completion and separate contracting 
        officer verification of cost allowability. Contracting officers 
        perform final invoice approval.
    Annual peer reviews provide objective performance reviews by 
experts not directly involved in the project's management. EERE engages 
experts, including those from industry and from other Federal agencies, 
to review our project portfolios for effectiveness, currency and 
impact.
    Question. Does the Department have robust cross-agency coordination 
to ensure that another agency is not undertaking the same research, 
such as NSF, EPA, etc.?
    Answer. Yes, EERE has very robust cross-agency coordination through 
a number of activities including Memorandums of Understanding (MOU), 
joint merit reviews and other activities performed as part of long-
range program planning and annual project activities.
    EERE engages with experts during development of our Multi-Year 
Program Plans and technology roadmaps to ensure we are only addressing 
the most pressing issues that require public investment. EERE engages 
industry and government experts prior to publication of Funding 
Opportunity Announcements through workshops, RFIs and pre-funding merit 
reviews. EERE does broad outreach to ensure that we access the most 
diverse set of experts.
    EERE has also partnered with the Department of Interior on an MOU 
for hydropower, with the Department of Commerce for manufacturing, with 
the Department of Agriculture on biomass research, and with the Federal 
Highway Administration for the Smart City Challenge, as well as many 
other collaborative relationships across government and industry. 
Specific examples of inter-agency collaboration include:
    EERE launched the Manufacturing Innovation through Energy and 
Commerce (MITEC) pilot in four states--Georgia, Michigan, Ohio, and 
Virginia. The program will provide small businesses access to the 
advanced tools, technology transfer expertise, and research 
capabilities of the Department of Energy's (DOE) national laboratories 
and to the technical assistance and business development resources of 
the Department of Commerce's Hollings Manufacturing Extension 
Partnership (MEP), which is a program within the National Institute of 
Standards and Technology (NIST). This new interagency partnership 
strives to broaden the commercial impact of the DOE's national labs and 
equip American entrepreneurs and businesses with the resources and 
support they need to develop new products, commercialize clean energy 
technologies and expand into global markets.
  --EERE and DOE partnered with the Department of Transportation (DOT) 
        through an MOU on Smart Transportation Systems and Alternative 
        Fuel Technologies to accelerate research, development, 
        demonstration and deployment of innovative smart transportation 
        systems and alternative fuel technologies.
  --EERE collaborated with the U.S. Environmental Protection Agency 
        (EPA) and SAE International to launch Green Racing, which uses 
        motorsport competition to develop and test cleaner fuels and 
        more efficient vehicle technologies that manufacturers can 
        transfer to consumer vehicles.
  --EERE's battery program collaborates extensively with the 
        Interagency Advanced Power Group, EPA, NASA, the National 
        Science Foundation, DOT and DoD.
    Question. Nuclear energy could become more critical in our nation's 
energy mix should regulations like the EPA's 111b and 111d be upheld by 
the courts. Yet, only a handful of new reactors have been licensed by 
the Nuclear Regulatory Commission since 1979. What is causing the lack 
of new, approved nuclear energy projects?
    Answer. There are several factors that have contributed to the lack 
of new nuclear project starts in the U.S. over the past few decades. 
One issue is that relative to other types of generation, nuclear plants 
have high capital costs (but they tend to have low O&M and fuel costs). 
The upfront costs of nuclear are high in part because the cost of 
commodities (such as steel and concrete) has increased, as has labor, 
and large, specialized nuclear components (such as steam generators and 
reactor coolant pumps). In addition, electricity prices in many regions 
are low, driven largely by low natural gas prices. U.S. utility 
decisions to add or replace electric generation capacity are based on 
these economics, and with the capital cost of building a natural gas 
plant significantly less than that of a similarly sized nuclear plant 
and with no projected rise in gas prices in the near future, nuclear 
power in some cases does not appear to be competitive to the domestic 
utility decision makers. This picture, however, can vary substantially 
by region: the competitiveness of nuclear depends on local factors 
including fuel and power prices, market structures, and policies.
    Question. Each new reactor is estimated to cost between $5 billion 
to $7 billion. What is behind this considerable construction cost? What 
steps could be taken to lower this cost and bring more nuclear energy 
online?
    Answer. Nuclear new build projects have become very expensive 
largely due to strict construction standards, increasing nuclear safety 
regulations, and high labor costs here in the U.S. and abroad. Safety 
features necessary for the current generation of reactors, such as 
massive containment domes and multiply redundant cooling and backup 
systems, make up a significant portion of such costs. The Department 
has taken steps to address the high cost of nuclear builds by 
supporting new designs that: (1) are more passively safe than designs 
in the existing fleet and require fewer redundant safety systems; (2) 
are constructed with modular components that are manufactured in 
factory environments and assembled at the construction site; and (3) 
are standardized (contrasted with the one-off designs of the past that 
have unique components and requirements) and are expected to result in 
consistency in construction, operation and regulation. The Department 
supported the development of two domestic Generation III+ large light 
water reactor (LWR) designs under the Nuclear Power 2010 program, and, 
as a result, four Westinghouse AP1000 reactors are currently being 
built in the Southeastern U.S. The Department is currently supporting 
the development of standardized, passively safe small modular reactors 
(SMRs), which could address many of the cost issues currently impacting 
the industry. SMRs are about a third or less of the size of the large 
LWRs; all components can be fabricated in a factory environment, which 
is expected to improve quality and reduce construction costs; and are 
sized to replace many of the aging fossil power generation plants that 
will be retired over the next decade. The Department expects the first 
SMR project to be constructed in the 2025 timeframe and is currently 
considering program options to continue to accelerate the 
commercialization of SMRs in the U.S.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. Secretary Moniz, I remain concerned with the pattern I am 
seeing within the budget requests for Richland Operations (RL) at 
Hanford. The Administration made a decision to focus cleanup on the 
reactor areas and the 300 Area closest to the Columbia River and City 
of Richland, and you have made great strides with this cleanup under 
the 2015 Vision. However, I fear the fiscal year 2017 budget request, 
as well as last year's budget request, is leaving key projects in the 
2015 Vision unfinished. Specifically, the 324 Building and the 618-10 
burial ground projects have not been funded by the Administration 2 
years in a row. While I recognize that we are operating in times of 
constrained budgets, I ask that you provide me a detailed explanation 
of DOE's rationale for advancing other work within RL's 
responsibilities instead of completing the 2015 Vision.
    Answer. Richland's budget request supports continued cleanup 
progress at the Hanford Site, including the River Corridor. The 
Richland budget request is designed to maintain safe base operations; 
maintain surplus nuclear facilities; continue groundwater remediation; 
continue Plutonium Finishing Plant demolition, capping and 
demobilization; enable progress on River Corridor cleanup activities; 
and support K West Basin sludge removal progress in alignment with Tri-
Party Agreement milestones. At this level, Richland will also fund 
limited work scope associated with infrastructure upgrades and site-
wide essential services for Richland and the Office of River 
Protection.
    Further, the fiscal year 2016 Energy and Water Development and 
Related Agencies Appropriations Act directed the Department to provide 
to Congress a report on its 5-year plan for the River Corridor Closure 
Project that explains any deviations from previously made agreements. 
This report is currently in development, and is anticipated to be 
submitted to Congress later this year.
    Question. Similarly, I am concerned that with the 2015 Vision 
nearing completion, DOE will in turn slow cleanup work at RL and delay 
the projects RL is responsible for on the Central Plateau. Even with 
completion of work along the Columbia River, RL has much work to do on 
the Central Plateau, including remediation and demolition of 1,000 
waste sites, 500 facilities, and contaminated groundwater. Many of 
these are highly contaminated with radioactive and chemical waste, 
posing a risk to the public, environment, and workforce.
    Secretary Moniz, I strongly encourage DOE to develop and begin 
executing the next Vision for RL to address the critical Central 
Plateau cleanup work. Furthermore, I ask that you provide an outline of 
the Central Plateau cleanup plans covering at least the next 5 years 
and the funding needs to advance this work.
    Answer. As directed by Congress in the fiscal year 2016 Energy and 
Water Development and Related Agencies Appropriations Act the 
Department is currently working on a report that will provide a 5-year 
plan for the River Corridor Closure Project that explains any 
deviations from previously made agreements. This report is anticipated 
to be submitted to Congress later this year. The Department is prepared 
to address additional questions regarding future cleanup activities, 
including Hanford's central plateau work scope, through a detailed 
briefing to you or members of your staff.
    Question. Secretary Moniz, I appreciate the commitment DOE has 
shown to protecting the Hanford workforce and addressing the risks 
associated with chemical vapors in the tank farms. We owe the men and 
women who work at Hanford the highest safety standards.
    In February 2015, DOE released an implementation plan for the 
``Hanford Tank Vapor Assessment Report'' (Report) which is split into 
two phases to address the 47 recommendations within the Report. It is 
my understanding that $61 million was provided in fiscal years 2015 and 
2016 funding and that the fiscal year 2017 budget request includes $33 
million to support the implementation plan.
    Secretary Moniz, I commend the actions DOE has already taken. 
However, I understand the workforce remains on supplied-air respirators 
and to date no new personal protective equipment has been deployed for 
use by the workforce. Can you please provide status report on the 
implementation plan and what progress DOE has made to date? Has Phase 1 
been completed? And when does DOE expect to begin Phase 2? Finally, I 
ask that you continue to make funding the implementation plan a 
priority as you develop the fiscal year 2018 budget request.
    Answer. In February 2015, a Vapors Implementation Plan was issued 
by Washington River Protection Solutions LLC to address the vapor 
issues in the Hanford tank farms. DOE's Office of River Protection 
expects Phase 1 of the plan to be completed by the end of fiscal year 
2016. Presently, the Office of River Protection and, Washington River 
Protection Solutions, are testing application of an integrated suite of 
advanced monitoring and detection technology and software to the 
Hanford tank farm area. These technologies include infrared cameras, 
portable area sensors equipped with multiple chemical sensors, in-stack 
and area vapor detection equipment and portable meteorological 
stations. Because these technologies need to be tailored to the hazards 
encountered in the tank farm area, bench scale testing has been 
completed and a pilot scale test will be conducted in the A and AP Tank 
Farms this summer. Full scale deployment with the appropriate 
adaptation will occur after the pilot.
    Bench scale testing can be described as testing conducted under 
laboratory conditions, using simulated vapors, while pilot scale 
testing will be integrated testing conducted at the A and AP tank farms 
to determine the effectiveness in the natural environment. While some 
of these technologies have been used in other industries, they are used 
in configurations that may be different from those anticipated to be 
needed in the tank farm environment; hence, testing is necessary to 
confirm their effectiveness for this application.
    Question. The Texas Clean Energy Project (TCEP), funded under the 
Clean Coal Power Initiative (CCPI), is a first-of-a-kind commercial 
power plant that will employ innovative technology to capture 90 
percent of the plant's carbon emissions. I understand that several 
contracts and agreements, including a key engineering, procurement, and 
construction contract, have been finalized by TCEP since December 2015 
and that TCEP could reach financial close this year. To achieve this, 
Summit Power Group of Seattle, Washington, the developer of TCEP, 
recently requested $11 million in obligated funding under CCPI program. 
This previously awarded CCPI funding would be matched with at least $4 
million in private cost-share contributions. This request has been 
denied by the Department.
    Secretary Moniz, while I recognize it has taken longer than planned 
for TCEP, like many projects in the CCPI program, to reach financial 
close and begin construction, I respectfully request that you 
reconsider this decision given TCEP's recent progress. Further, I ask 
that you provide a full explanation on the Department's initial 
decision to withhold funding this project.
    Answer. Following an extensive and careful review, DOE's Office of 
Fossil Energy (FE) determined that advancing any additional Federal 
funds would not substantively increase the likelihood of Texas Clean 
Energy Project (TCEP) success, and that no additional taxpayer funds 
should be put towards the TCEP project. A recent DOE Office of 
Inspector General audit report reached a similar conclusion to FE's in 
regards to not advancing any additional Federal funds to the TCEP 
project. DOE recently extended the no-cost TCEP cooperative agreement 
through July 1, 2016, so project developers have additional time to 
secure alternative sources of financing.
    Question. Switching gears to the Bonneville Power Administration 
(BPA). Throughout my career I have worked to ensure BPA maintains the 
flexibility it needs to provide reliable, low-cost power in the Pacific 
Northwest.
    Congress explicitly gave BPA its own Federal authorities to carry 
out administrative and operational functions in a business-like manner 
consistent with sound business practices and Federal guidelines.
    Secretary Moniz, I appreciate your work to date in respecting BPA's 
authority to set policies that support the Pacific Northwest and its 
ratepayers. However, as we move to the end of this Administration and a 
time of transition, I ask for your assurances that DOE will continue to 
recognize BPA's unique authorities.
    Answer. The Department appreciates the unique role that BPA plays 
as a Federal electric utility working in a commercial energy market. 
The Department also recognizes that BPA carries out its commercial 
business primarily pursuant to Federal statutes specifically applicable 
to BPA. The Department recognizes that the Federal authorities in these 
statutes cover many administrative and operational functions, to be 
carried out using sound business principles.
    The Department will continue to respect the Federal laws 
specifically applicable to BPA, and will assure that any necessary 
Secretarial delegations of authority or Department directives to the 
BPA Administrator remain consistent with these Federal authorities.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
    Question. I think that you will agree that the country is currently 
witnessing significant transformations in our electricity production. 
In New England, for example, we are seeing a steady shift to natural-
gas fired generation and more and more generation from renewable and 
demand resources. These changes have brought with it a large number of 
proposed projects to build and expand the region's upon current natural 
gas pipeline and electricity transmission infrastructure.
    We have two projects in particular that require Federal siting: 
Northern Pass, a proposed electric transmission line, which requires a 
Presidential Permit from DOE since the line would cross the 
international border into Quebec; and the Kinder Morgan Northeast 
Energy Direct gas pipeline project that currently has an application 
pending with the Federal Energy Regulatory Commission (FERC).
    Through the application process for both projects, I have regularly 
heard from many of my constituents in New Hampshire who are frustrated 
about the lack of information from DOE and FERC about the review 
process, and their belief that public input play only a minimal role in 
the review and approval process for energy infrastructure projects.
    That's why I read with interest the recommendations in your 
agency's 2015 Quadrennial Energy Review (QER) that echoed the concerns 
of Granite Staters and called for more public participation in the 
siting and permitting process. Specifically, the QER recommends that 
the agency deploy initiatives that:
  --prioritizes meaningful public engagement through coordination with 
        state and local governments; and
  --establishes regional and state partnerships to better engage 
        impacted communities.
    Can you discuss the importance of public engagement in the siting 
and permitting process for energy infrastructure projects, and what 
actions has DOE implemented, or will implement in the future, to meet 
the QER recommendations?
    Answer. Public engagement is essential for the credibility of the 
siting and permitting process for energy infrastructure projects. The 
first installment of the Quadrennial Energy Review (QER), which focused 
on energy transmission, storage, and distribution infrastructure, 
identified early and robust stakeholder engagement as a recognized best 
practice that can reduce delays and improve projects. The QER found 
that Federal agencies, by conducting public outreach and engaging with 
diverse sets of stakeholders, can avoid, minimize, and mitigate issues 
that might delay a siting or permitting decision.
    The Department is actively engaged in the implementation of 
recommendations from the QER related to the siting and permitting of 
energy infrastructure, which include:
  --Prioritizing meaningful public engagement through consultation with 
        Indian Tribes, coordination with state and local governments, 
        and facilitation of non-Federal partnerships; and
  --Establishing regional and state partnerships and co-locating 
        dedicated cross-disciplinary energy infrastructure teams.
    As a member of the Administration's Interagency Rapid Response Team 
for Transmission (RRTT), DOE works with eight interagency partners to 
improve the overall quality and timeliness of electric transmission 
infrastructure permitting, review, and consultation by the Federal 
Government on both Federal and non-Federal lands. The Administration 
created the RRTT in 2013, and following the QER's release, the RRTT has 
continued to apply a uniform approach to consultations with Tribal 
governments and to use Integrated Federal Planning to coordinate 
statutory permitting and review among Federal and state agencies. DOE 
also maintains an online dashboard listing the required permits; agency 
points of contact; milestones and due dates; and descriptions of 
progress for seven RRTT pilot projects.
    RRTT initially focused on the selected pilot projects because, when 
constructed, they will help increase electric reliability, integrate 
new renewable energy into the grid, and save consumers money. The pilot 
projects are geographically diverse and cross through 12 states: 
Arizona, Colorado, Idaho, Minnesota, New Mexico, Nevada, Wyoming, Utah, 
New Jersey, Pennsylvania, Oregon, and Wisconsin. They were carefully 
selected from lists produced through American Recovery and Reinvestment 
Act-funded, independent, broad stakeholder processes led by the Western 
Electricity Coordinating Council in the Western Interconnection, and by 
the Eastern Interconnection States' Planning Council for the Eastern 
Interconnection.
    The Department's Office of Electricity Delivery and Energy 
Reliability (OE), working in collaboration with interagency partners 
pursuant to Executive Order 13604 and the June 2013 Transmission 
Presidential Memorandum, sought public input on a draft Integrated 
Interagency Pre-Application (IIP) Process. The proposed IIP Process is 
intended to improve interagency and intergovernmental coordination 
focused on ensuring that project proponents develop and submit accurate 
and complete information early in the project planning process to 
facilitate efficient and timely environmental reviews and agency 
decisions. In February 2016, DOE published a Notice of Proposed 
Rulemaking in the Federal Register (81 FR 5383) to amend its 
regulations for the timely coordination of Federal Authorizations for 
proposed interstate electric transmission facilities pursuant to 
Section 216(h) of the Federal Power Act. The proposed amendments are 
intended to improve the pre-application procedures and result in more 
efficient processing of applications. While the proposed IIP rule does 
not apply to electric transmission projects crossing the Nation's 
international borders with Canada and Mexico, DOE has and will continue 
to encourage potential applicants to engage in pre-application 
coordination activities with DOE, other agencies, and stakeholders.
    DOE is also pursuing future actions to meet the QER's 
recommendations. The Fixing America's Surface Transportation (FAST) Act 
(Public Law 114-94) implemented many of the QER's siting and permitting 
recommendations. Among other things, Title XLI of the law establishes a 
Federal Permitting Improvement Steering Council, of which DOE is a 
member, to oversee the timely processing of permits and reviews. The 
law also enables agencies to recover reasonable costs for such 
activities and standardizes processes for resolving disputes. 
Additionally--and consistent with guidance issued in a September 2015 
Memorandum for Heads of Federal Departments and Agencies (M-15-20) \1\ 
from the Office of Management and Budget and the Council for 
Environmental Quality--the law requires expanded use of an online 
dashboard to track major infrastructure projects under Federal review. 
Use of the Dashboard will improve agencies' communication with project 
sponsors, enhance interagency coordination, and increase the 
transparency and accountability of the permitting process.
---------------------------------------------------------------------------
    \1\ Office of Management and Budget. ``Memorandum for Heads of 
Federal Departments and Agencies: Guidance Establishing Metrics for the 
Permitting and Environmental Review of Infrastructure Projects.'' 
September 22, 2015 (M-15-20). https://www.whitehouse.gov/sites/default/
files/omb/memoranda/2015/m-15-20.pdf.
---------------------------------------------------------------------------
    Sec. 41002 of the FAST Act also requires the interagency governance 
structure to issue annual best practice recommendations that (1) 
enhance early stakeholder engagement provided in public comments; (2) 
increase transparency; (3) reduce information collection requirements 
and other administrative burdens; (4) improve coordination between 
Federal and non-Federal governmental entities, including through the 
development of common data standards and terminology across agencies; 
and (5) create and distribute training materials useful to Federal, 
state, Tribal, and local permitting officials.
    Many of the provisions included in the FAST Act align with the QER 
as well as ongoing Administration activities. The Department will 
continue its work to implement the various provisions and guidance to 
improve public engagement during Federal permitting and review 
processes.
    Question. As a follow-up to the previous question, are there any 
priority actions Congress should be considering that would assist DOE 
in encouraging robust public participation in these permitting and 
siting processes?
    Answer. The QER underscored the value of robust public 
participation and found that the local nature of permitting decisions 
requires close stakeholder interaction and appropriate knowledge of 
local resource concerns to be addressed in the permitting process. 
Collaboration between Federal agencies and state, Tribal, and local 
governments that share permitting and review responsibilities for 
infrastructure projects is essential to moving a project quickly and 
efficiently.
    DOE continues to work with the Administration to build a robust 
infrastructure that safeguards communities and the environment while 
also strengthening the economy and creating new jobs. The 
Administration's ongoing efforts, as well as the permitting provisions 
contained in the FAST Act (Public Law 114-94), underscore the shared 
commitment of the Administration and Congress to improve the Federal 
permit review process for major infrastructure projects. As part of 
this process, DOE is committed to identifying ways to improve public 
participation and looks forward to continuing this work with Congress.
    Question. Last year, at the 21st United Nations Climate Change 
Conference, President Obama and several world leaders launched 
``Mission Innovation'', a landmark commitment to reduce greenhouse gas 
emissions by investing in public-private global clean energy 
innovation. The President's commitment to ``Mission Innovation'' and to 
new funding for a wide range of research, development, and deployment 
activities is significant and impressive.
    How will ``Mission Innovation'' and other cross-cutting U.S. 
programs be implemented to maximize the public's investment, and what 
effect will Mission Innovation have on U.S. leadership in energy 
efficiency and clean energy?
    Answer. Mission Innovation is a government-wide effort and will be 
coordinated and executed as such to help maximize investment and 
effectiveness. Within DOE specifically, Mission Innovation will build 
on the Department's track record of success in developing and 
implementing clean energy research, development and demonstration 
(RD&D) programs. With its world-leading national laboratories and 
through its current role as the international secretariat for Mission 
Innovation collaboration, the Department has a strong foundation on 
which to build its portfolio to help address domestic and global 
opportunities and challenges.
    Over the next two decades, the global clean energy market will come 
to be measured in trillions of dollars, and the U.S. has the tools, the 
talent and the industry to lead this revolution. However, other nations 
are making substantial progress as well, spurred by the combined 
motivations of addressing climate imperatives and winning market share 
in the emerging clean energy economy. Supporting a government-wide 5-
year doubling path for clean energy RD&D funding is critical to ensure 
the Nation's continued leadership in clean energy technology 
development and to keep the U.S. on the cutting edge of potential 
breakthrough technology research.
    Question. President Obama has articulated a goal of doubling U.S. 
energy productivity. The Department of Energy, under your leadership, 
is working to implement policies that will put the U.S. on track to 
meet this goal.
    What is the current status of U.S. efforts to meet this goal, and 
are there any priority actions Congress should be considering that 
would push the U.S. further along its path to meet this goal?
    Answer. In response to the President's goal, the Department 
partnered with the Council on Competitiveness and the Alliance to Save 
Energy (the Partners) to launch the Accelerate Energy Productivity 2030 
Initiative in the fall of 2014. Since the launch, the effort has 
further built awareness and engagement around the President's goal by 
showcasing business and policy strategies within the private sector and 
all levels of government that are driving improvements in energy 
productivity across economic sectors. The Partners led five events and 
a webinar series, collected 11 ``Success Stories,'' and have received 
endorsements for the goal from over one hundred and thirty 
organizations to date. The Partners also released a strategic Roadmap 
(http://www.energy2030.org/roadmap) outlining a set of pathways and 
identifying specific actions that a broad range of stakeholders can 
take to help us achieve the national goal of doubling energy 
productivity by 2030. Moving forward, the initiative will focus on 
operationalizing strategies included in the Roadmap, connecting 
stakeholders with technical assistance resources, and hosting an 
executive roundtable. These efforts will further help identify emerging 
strategies and ultimately inform sound policy that will bolster energy 
productivity in the United States.
    Between 1990 and 2015, the Energy Information Administration 
reports U.S. energy productivity rose by 58 percent. Current efforts 
must accelerate substantially, however, to push the U.S. further along 
its path to meet the goal of further doubling energy productivity by 
2030. Congressional support for the President's Budget Request for 
programs directed at improved energy efficiency will help us build on 
the progress already being made in this area.
                                 ______
                                 
          Questions Submitted by Senator Christopher A. Coons
              iran and international atomic energy agency
    Question. When I visited the IAEA in January, I was told that the 
agency needs a ``reliable, long-term'' source of funding to implement 
the JCPOA and accomplish broader non-proliferation goals. A recent GAO 
report said the IAEA faces potential budget and human resource 
challenges as a result of the JCPOA. Can you describe how the DOE is 
helping the IAEA overcome these challenges? How do our National Labs 
assist the IAEA's recruiting and hiring, which I understand is a very 
long and expensive process?
    Answer. The Department of Energy (DOE) provides technical support 
to the International Atomic Energy Agency (IAEA) and voluntary 
financial contributions to the IAEA through reimbursable work 
agreements with the Department of State in support of the IAEA's 
safeguards mission. With these financial contributions, the IAEA is 
able to hire Americans into cost-free positions for 3-5 year 
assignments in the IAEA's Department of Safeguards supporting 
technology development and evaluation activities, software development 
and analysis positions, as well as IAEA training programs. The IAEA 
also can purchase needed safeguards monitoring equipment with these 
funds. In-kind technical support includes development of safeguards 
technology and concepts, periodic expert consultations, training 
support for IAEA inspectors, and analysis of samples through the IAEA's 
Network of Analytical Laboratories.
    DOE also maintains a program of safeguards human capital 
development activities at our National Laboratories to attract, train, 
and retain experts in nonproliferation and IAEA safeguards efforts. 
This program brings undergraduate and graduate students into the 
laboratories on internships and fellowships and sends laboratory 
specialists out into the university environment to give seminars and 
training classes. The over-arching goal of this program is to ensure 
that there is a pipeline of talented individuals working within the DOE 
complex to support the IAEA; in many cases these individuals take up 
short-term or permanent positions directly with the IAEA.
    As mentioned above, DOE works to ensure there is a pipeline of 
capable safeguards practitioners in the National Laboratory system. In 
support of sending as many of these individuals as practical to Vienna 
to work with the IAEA, DOE and the Department of State provide funding 
to the IAEA to hire our laboratory experts on 3-5 year assignments 
throughout the Department of Safeguards. Brookhaven National Laboratory 
maintains a recruitment list of prospective applicants from the 
laboratory and university systems and ensures that those individuals 
are regularly made aware of employment opportunities.
    Question. Ali Akbar Salehi, head of the Atomic Energy Organization 
of Iran, reportedly announced that Iran will use part of its sanctions 
relief to hire and train a new generation of nuclear scientists. How 
will this training affect Iran's nuclear program in the next 15 years? 
How will an increased number of highly-trained nuclear scientists allow 
Iran to expand its nuclear program after much of the JCPOA ``sunsets'' 
in 15 years?
    Answer. The Joint Comprehensive Plan of Action (JCPOA) 
significantly constrains the research and development that Iran's 
nuclear scientists can pursue. At the same time, the JCPOA redesigns 
and dismantles a significant portion of Iran's infrastructure, 
effectively cutting off Iran's pathways to a nuclear weapon.
    Without the JCPOA, Iran would have an unconstrained R&D program. 
The JCPOA establishes strict limits on advanced centrifuge R&D, 
testing, and deployment in the first 10 years, and after the initial 10 
year period Iran must abide by its enrichment and enrichment R&D plan 
submitted to the IAEA under the Additional Protocol, and pursuant to 
the JCPOA, which will result in certain limitations on enrichment 
capacity and ensure only a measured, incremental growth in its 
enrichment capacity consistent with a peaceful nuclear program.
    The JCPOA in no way authorizes, allows, or encourages future 
Iranian nuclear weapons activity, which will always be prohibited under 
the Treaty on the Non-Proliferation of Nuclear Weapons. Instead, the 
JCPOA provides unparalleled insight into every part of Iran's nuclear 
program. Certain transparency measures will last for 15 years, others 
for 20 to 25 years, and some will last forever--such as Iran's 
adherence to the Additional Protocol. With this transparency, if Iran 
tried to reverse course and break out, we would see it and have time to 
respond with a much greater understanding of their program.
    We expect a gradual development process to take place with respect 
to Iran's nuclear program past year 10. We expect this process to be 
shaped in such a way that it continues to build the world's confidence 
that Iran's program remains exclusively peaceful.
    Certain transparency measures will last for 15 years, others for 20 
to 25 years, and some will last forever--such as Iran's adherence to 
the Additional Protocol. With this transparency, if Iran tried to 
reverse course and break out, we would see it and have time to respond 
with a much greater understanding of their program.

                          SUBCOMMITTEE RECESS

    Senator Alexander. Mr. Secretary, thank you for joining us 
today. The subcommittee will stand adjourned.
    [Whereupon, at 4:20 p.m., Wednesday, March 9, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                       WEDNESDAY, MARCH 16, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:34 p.m. in room SD-138, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Graham, Feinstein, and Udall.

                          DEPARTMENT OF ENERGY

                National Nuclear Security Administration

STATEMENT OF LIEUTENANT GENERAL FRANK G. KLOTZ, U.S. 
            AIR FORCE (Retired), UNDER SECRETARY FOR 
            NUCLEAR SECURITY AND ADMINISTRATOR
ACCOMPANIED BY:
        BRIGADIER GENERAL STEPHEN L. DAVIS, UNITED STATES AIR FORCE, 
            PRINCIPAL ASSISTANT DEPUTY ADMINISTRATOR FOR MILITARY 
            APPLICATIONS
        ANNE HARRINGTON, DEPUTY ADMINISTRATOR FOR DEFENSE
            NUCLEAR NONPROLIFERATION
        ADMIRAL JAMES F. (FRANK) CALDWELL, JR., UNITED STATES NAVY, 
            DEPUTY ADMINISTRATOR FOR OFFICE OF NAVAL
            REACTORS

              OPENING STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. The Subcommittee on Energy and Water 
Development will please come to order.
    As I was saying to Senator Feinstein, my co-chairman in 
effect, both Senator McConnell and Senator Schumer were saying 
yesterday that Senator McConnell hopes to begin the 
appropriations process on the floor on April 18. Senator 
Schumer said he intended to support having an appropriations 
process, and the Democrats have all written Senator McConnell 
saying they want one. It looks like everybody wants an 
appropriations process this year, so we're hoping very much 
that's possible. And Senator Feinstein and I will work with our 
House committee chairs to try to make ours one of the first 
bills that's available to the majority leader to bring to the 
floor. We hope to do it in a bipartisan way. And if there are 
controversial amendments, we hope those will be offered on the 
floor of the Senate rather than in the committee.
    This afternoon, we are having a hearing to review the 
President's fiscal year 2017 budget request for the National 
Nuclear Security Administration. Senator Feinstein and I will 
each have an opening statement. I will then recognize each 
Senator for up to 5 minutes for an opening statement, 
alternating between the majority and the minority in the order 
in which they arrived.
    We will then turn to our witnesses for their testimony. 
General Klotz will present testimony on behalf of the National 
Nuclear Security Administration. And we'll include the full 
written statements of all the witnesses in the record. After 
General Klotz, Senators will then be recognized for 5 minutes 
of questions each.
    First, I would like to thank our witnesses for being here, 
and also Senator Feinstein, an exceptional co-chairman of this 
committee. We work together regardless of which party has the 
majority and usually come up with a pretty good result for the 
country.
    Our witnesses today include Lieutenant General Frank Klotz, 
Administrator of the NNSA (National Nuclear Security 
Administration); Brigadier General S.L. Davis, Principal 
Assistant Deputy Administrator for Military Applications; Ms. 
Anne Harrington, Deputy Administrator for Defense Nuclear 
Nonproliferation; and Admiral Frank Caldwell, Deputy 
Administrator for Naval Reactors.
    NNSA is a semi-autonomous agency within the Department of 
Energy that's responsible for a vital mission, managing our 
nuclear weapons stockpile, reducing global dangers posed by 
weapons of mass destruction, and providing the Navy with safe 
and effective nuclear power. This is the subcommittee's fourth 
hearing this year on the President's budget request.
    NNSA has an important national security mission, but faces 
many challenges. We'll have to make some hard decisions on the 
most important priorities.
    The President's 2017 budget request is $12.9 billion, an 
increase of 2.9 percent over the fiscal year 2016. The focus of 
my questions today will be on four main areas: one, keeping 
critical projects on time and on budget, that is a major 
priority of Senator Feinstein and of mine; two, effectively 
maintaining our nuclear weapons stockpile; three, supporting 
our nuclear Navy; and four, maintaining our vital nuclear 
workforce.

                           PROJECT OVERSIGHT

    NNSA is responsible for three of the largest construction 
projects in the Federal Government: the Uranium Facility in 
Tennessee, the MOX Fuel Fabrication Facility in South Carolina; 
and the Plutonium Facility in New Mexico. Combined, these 
projects could cost more than $20 billion to build, and over 
the past 4 years, Senator Feinstein and I have worked hard to 
keep costs from skyrocketing. We want to make sure that hard-
earned taxpayer dollars are spent wisely and that these 
projects are on time and on budget.
    We have focused most of our oversight on the Uranium 
Facility in Tennessee for the past 5 years. We asked for a Red 
Team review headed by Oak Ridge National Laboratory Chief Thom 
Mason to review the project, which recommended ways to get it 
back on track. We said that the project had to be completed by 
2025 with a cost of no greater than $6.5 billion and that the 
design had to be at least 90 percent completed before we even 
began construction of the nuclear facility. We urged the 
Department to take aggressive steps to get costs under control 
so we could meet these goals.
    The facility is off to a good start, but there is a lot 
more work to do. I am going to ask you more today about the 
Uranium Facility, particularly about your schedule for 
completing the design and when you anticipate construction can 
begin.
    I would also like to discuss the MOX Facility in South 
Carolina. You have proposed that we stop construction of the 
MOX Fuel Fabrication Facility and recommended that Congress 
fund a different process called Dilute and Disposal. You've 
said the Dilute and Disposal alternative will cost less, 
actually a lot less, and get the material out of South Carolina 
much sooner than if we continue to fund MOX.
    General Klotz, I am particularly interested in your plan 
for dealing with the 13 tons of plutonium that are currently in 
South Carolina, and ask that you address this either in your 
opening statement or questions.

                EFFECTIVELY MAINTAINING NUCLEAR WEAPONS

    Another major part of your budget maintains our nuclear 
weapons stockpile, and I want to make sure we're spending those 
dollars effectively. The budget request includes $1.3 billion 
to continue the four ongoing life extension programs, which fix 
or replace components in weapons systems to make sure they're 
safe and reliable. The work must be done, but life extension 
programs are very expensive, so they need to be properly 
managed. I will ask you about that today.

                      SUPPORTING OUR NUCLEAR NAVY

    Naval Reactors is responsible for all aspects of nuclear 
power for our submarines and aircraft carriers. Naval Reactors 
has a lot on its plate right now. They are designing a new 
reactor core for the next class of submarines, refueling a 
prototype reactor, and building a new spent fuel processing 
facility. In addition, you have to support the day-to-day 
operation of 73 submarines and 10 aircraft carriers, including 
a total of 97 operating reactors. You have about the same 
number of operating reactors that we have in the commercial 
world.
    The small nuclear reactors that Naval Reactors designs and 
oversees have had an impeccable safety record for more than 60 
years. There has, I believe, never been a reactor accident.
    While life extension programs provide the opportunity to 
maintain vital skills in many areas, now moving on to those, 
they do not exercise all of the skills needed for a healthy 
weapons program.
    When I had the opportunity to talk to Admiral Caldwell 
about the Naval Reactors program last week, he told me about 
his technical base, the men and women who respond when our 
ships are at sea. I would like to hear more today about that.
    [The statement follows:]
             Prepared Statement of Senator Lamar Alexander
    We're here today to review the president's fiscal year 2017 budget 
request for the National Nuclear Security Administration, a semi-
autonomous agency within the Department of Energy that is responsible 
for managing our nuclear weapons stockpile, reducing global dangers 
posed by weapons of mass destruction, and providing the Navy with safe 
and effective nuclear power.
    This is the Subcommittee's fourth hearing this year on the 
president's budget request, and I look forward to hearing our 
witnesses' testimony.
    The National Nuclear Security Administration, or NNSA, has an 
important national security mission, but faces many challenges. That's 
why we need to do what we were sent here to do--to govern.
    Like last year, we will have to make some hard decisions so we can 
continue to fund the most important priorities.
    The president's fiscal year 2017 budget request for the NNSA is 
$12.9 billion, an increase of $357 million (or 2.9 percent) higher than 
the fiscal year 2016 enacted level.
    Today, I'd like to focus my questions on four main areas:

    1) Keeping critical projects on time and on budget;
    2) Effectively maintaining our nuclear weapons stockpile;
    3) Supporting our nuclear Navy; and
    4) Maintaining our vital nuclear workforce.
            keeping critical projects on time and on budget
    The NNSA is responsible for three of the largest construction 
projects in the Federal government: the Uranium Processing Facility in 
Tennessee; the MOX Fuel Fabrication Facility in South Carolina; and the 
Plutonium Facility in New Mexico.
    Combined, these projects could cost more than $20 billion dollars 
to build, and over the past 4 years, Senator Feinstein and I have 
worked hard to keep costs from skyrocketing. We want to make sure hard-
earned taxpayer dollars are spent wisely and that these projects are on 
time and on budget.
    Senator Feinstein and I have focused much of our oversight on the 
Uranium Processing Facility in Tennessee over the past 5 years.
    We asked for a Red Team review of the project, which recommended 
ways to get it back on track.
    We said the project had to be completed by 2025 with a cost no 
greater than $6.5 billion, and the design had to be at least 90 percent 
completed before we began construction of the nuclear facilities. We 
urged the Department to take aggressive steps to get costs under 
control.
    The Uranium Processing Facility is off to a good start, but there's 
a lot more work to be done.
    I'm going to ask you more today about the Uranium Processing 
Facility, particularly about your schedule for completing the design 
and when you anticipate construction can begin.
    I'd also like to discuss the MOX Fuel Fabrication Facility in South 
Carolina. The NNSA has proposed that we stop construction of the MOX 
Fuel Fabrication Facility and recommended that Congress fund a 
different process, called Dilute and Disposal.
    You have said that the Dilute and Disposal alternative will cost 
less, and get the material out of South Carolina much sooner than it 
would if we continue to fund MOX.
    General Klotz, I am particularly interested in your plan for 
dealing with the 13 tons of plutonium currently in South Carolina, and 
ask that you address this in your opening statement.
              effectively maintaining our nuclear weapons
    Another major part of the NNSA's budget maintains our nuclear 
weapons stockpile, and I want to make sure we are spending taxpayer 
dollars effectively.
    The budget request includes $1.3 billion to continue the four 
ongoing life extension programs, which fix or replace components in 
weapons systems to make sure they're safe and reliable.
    This work must be done--but life extension programs are very 
expensive, so they need to be properly managed.
    I will ask you today whether you will be able to meet your 
production deadlines on time and on budget.
                      supporting our nuclear navy
    Naval Reactors is responsible for all aspects of nuclear power for 
our submarines and aircraft carriers.
    Naval Reactors has a lot on their plate right now--they are 
designing a new reactor core for the next class of submarines, 
refueling a prototype reactor, and building a new spent fuel processing 
facility.
    In addition, Naval Reactors supports the day-to-day operations of 
73 submarines and 10 aircraft carriers--including a total of 97 
operating reactors.
    The small nuclear reactors that Naval Reactors designs and oversees 
have had an impeccable safety record for more than 60 years; there has 
never been a reactor accident.
                maintaining our vital nuclear workforce
    While life extension programs provide the opportunity to maintain 
vital skills in many areas, they do not exercise all of the skills 
needed for a healthy weapons program.
    When I had the opportunity to talk to Admiral Caldwell about the 
Naval Reactors program last week, he told me about his ``technical 
base''--the men and women who respond when our nuclear ships at sea 
have a problem.
    I'd like to hear more from the witnesses today about the challenges 
they face in maintaining the needed skills within their workforce, and 
what they are doing to make sure they have the right skills to meet 
their important missions.

    Senator Alexander. With that, I would recognize Senator 
Feinstein to make her opening statement.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thanks very much, Mr. Chairman, and I 
think you know how much I respect you. And to the panel, I want 
to say welcome. And this is one of the best parts of working in 
the Senate, that you can work with somebody you respect, that 
you work out differences of opinion that he gives on some, I 
give on some, and for some reason, it all works. I wish we 
could do more of that.
    So thank you, Senator Alexander.
    As you said, NNSA's overall request is a 3 percent increase 
in fiscal year 2016, but, and I want to talk about this for a 
minute, the nonproliferation program sees a 7 percent decrease, 
and I am a strong proponent of that program. Compared to 2010, 
the fiscal year 2017 request for weapons is a $2.9 billion 
increase. I think that's very difficult for me. The 
nonproliferation program request is a $300 million decrease 
from its peak in fiscal year 2012, General. The nonprogram is 
down $500 million, while weapons program's budget continues to 
climb. ``Why?'' I ask.
    General, your appearance here today is 2 weeks before the 
final Nuclear Security Summit, where 50 countries will gather 
to discuss ways to further strengthen nuclear security measures 
and cooperation. I think it was in Prague in 2009 that 
President Obama committed to locking down all vulnerable 
nuclear materials in 4 years. That time has passed. The 
administration has made great strides toward that goal and has 
further reduced the dangers of nuclear terrorism since that 
time.
    I'll give you a few examples: removal of over 3,800 
kilograms of plutonium and highly enriched uranium; removal of 
42,000 high-priority radioactive sources, such as cesium and 
kobalt, that can be used in a dirty bomb; conversion of 23 
reactors from use of highly enriched uranium to low-enriched 
uranium; and installation of more than 400 fixed and mobile 
detectors in 43 countries. I congratulate you, and that's very 
important to me. And yet, even with these accomplishments, 
nuclear material is still obtainable and attractive to 
criminals and terrorists.
    A recent article by the Center for Public Integrity brings 
some information on nuclear smuggling out of the shadows. There 
have been 20 reported nuclear material interdictions in Europe 
and Russia since the fall of the Soviet Union. In some cases, 
smugglers were attempting to move significant quantities of 
highly enriched uranium, and in others, it appears to just be 
small samples with the promise of bigger things. It has been 
openly reported that a cache of highly enriched uranium went 
missing in Russia after the end of the Cold War. The 
substantial success in securing border crossings around Russia 
is helping to prevent this material from making its way to the 
United States. The worsening economy in Russia, the rise of the 
Islamic State in particular, and I deal with a lot of that on 
the Intelligence Committee, and the fear that one group or 
another gets some form of dirty bomb, and the chaos spreading 
from the Middle East into Europe tells me now is not the time 
to let down our guard on nuclear security.
    But on the weapons side of NNSA, all I see is unrestrained 
growth. I understand that the nuclear weapons complex needs to 
improve its infrastructure. No problem. NNSA reports a $3.2 
billion facility maintenance backlog, and the $400 million 
increase in its fiscal year 2017 budget request is largely 
dedicated to halting the growth of that maintenance back 
deficit, as I understand, and obviously, I think we both 
support that.
    But the budget for nuclear weapons just seems to keep 
growing. A 45 percent head--excuse me--increase since 2001. I 
almost said ``hedge'' because I very much believe that it's 
very wasteful to have a hedge at 3 to 1, and one day we have to 
have the courage to do something about that. But there is more 
to come. Warhead life extension programs, construction of the 
Uranium Processing Facility, the Plutonium Facility, the 
reactor for the Ohio-class replacement submarine, will all 
demand higher spending levels in the next 5 to 10 years, and 
this doesn't include projects for which NNSA has not budgeted 
for, such as new component manufacturing facilities or new 
science facilities.
    According to your budget request, spending on weapons is 
projected to grow another $1.3 billion over the next 5 years to 
$10.5 billion. I'm really going to have a great deal of trouble 
supporting that. By comparison, the nonproliferation spending 
is projected to grow only $300 million. Importantly, that 
assumes that MOX, funded out of nonproliferation, is stopped, 
deemed to be too costly to continue to proceed with. So the 
question comes, What is the alternative and that cost?
    In the area of warheads and new facilities, NNSA's 
management record, candidly, although I think it's better, does 
not inspire confidence. Rather, the history of cost growth and 
schedule slippages suggests that even more money will be 
required than currently projected. So where does it end and how 
much is enough? Outside of MOX, I don't see tough choices being 
made. I just see more money for weapons and less money for 
everything else.
    Since it met its 2013 goals for locking down nuclear 
materials, NNSA has pushed out the goals and milestones for 
their nonproliferation efforts. For example, work in securing 
4,400 radiological facilities that was to be completed by 2022 
now won't be done until 2033, obviously extended by 10 years. 
In some cases, the work has become more technically and 
diplomatically difficult, and we understand that, but it's also 
true that the nonprobudget has seen a steady decline since 
2012.
    Now, I don't believe we should or can sacrifice our ongoing 
efforts in nuclear security on the altar of our nuclear weapons 
stockpile. So I look forward to discussing this issue with you 
and our witnesses today. And I hope I can count on you to take 
a measured and reasonable approach to these matters.
    So, General, thank you, and I welcome you.
    Senator Alexander. Senator Udall, would you like to make an 
opening statement?

                     STATEMENT OF SENATOR TOM UDALL

    Senator Udall. Yes, just briefly. And I don't think I'll 
take all my time, but I just want to welcome and greet General 
Klotz for being here.
    I really enjoyed visiting with you in my office within the 
last week or so about many of the big issues facing the NNSA 
and the other witnesses here today, Deputy Administrator 
Harrington, Brigadier General Davis, and Admiral Caldwell. 
Thank you for being here and thank you for your service to the 
country. I think it's terrifically important the work that you 
do. And as you know, New Mexico's two national labs are a 
critical part of the NNSA's infrastructure and provide 
indispensable support for your mission to keep the Nation's 
stockpile safe, reliable, and secure.
    At Sandia National Laboratory, they've hired 35 percent of 
their current staff in the last 5 years to support the life 
extension projects that are going on there. And at Los Alamos, 
the lab is embarking on plans to revitalize Cold War era 
infrastructure. And I couldn't agree more with both the 
chairman and the co-chairman that we need to keep our costs 
under control, but we also need to do the job right. I don't 
think there's any doubt about that.
    I'm going to focus my questions today on when we talk about 
cost control, the big project they're working on at Sandia is 
the B61. The B61, the trend has been to keep it within budget 
and to do it on time, and I'm wondering, what are the lessons 
there? Because I think that we have done a good job in that 
respect.
    And then I would like to ask about how much NNSA budgets 
need to increase to address the aging stockpile. You all know 
that that's an issue that's out there. And then there is a GAO 
report on the plutonium infrastructure strategy, and they 
raised some issues there, and I'm going to ask about that and 
where we're headed on that plutonium infrastructure strategy.
    All of this costs money. We need to keep the budgets under 
control, but as I said, we need to do it right. And I thank you 
again for your service.
    Mr. Chairman.
    Senator Alexander. Thanks, Senator Udall.
    At this time, we'll turn to General Klotz, who will present 
testimony on behalf of the National Nuclear Security 
Administration.
    General Klotz.

         SUMMARY STATEMENT OF LIEUTENANT GENERAL FRANK G. KLOTZ

    General Klotz. Thank you, sir.
    Chairman Alexander, Ranking Member Feinstein, Senator 
Udall, thank you for the opportunity to present the President's 
fiscal year 2017 budget request for the Department of Energy's 
National Nuclear Security Administration. We value this 
committee's leadership in national security as well as its 
robust and abiding support for the missions and the people of 
NNSA.
    As you rightly pointed out, our budget request, which 
comprises more than 40 percent of DOE's budget, is $12.9 
billion, an increase of nearly $357 million, or 2.9 percent, 
over the fiscal year 2016 enacted level. The budget request 
continues the administration's unwavering commitment to NNSA's 
important and enduring missions. These missions are defined in 
the NNSA's Strategic Vision, which we released last year and 
which is available on our website, and they include to maintain 
a safe, secure, and effective nuclear weapons stockpile without 
nuclear explosive testing, to prevent, counter, and respond to 
the threat of nuclear proliferation and nuclear terrorism, and 
to support the capability of our nuclear-powered Navy to 
protect American and allied interests around the world.
    To succeed, NNSA must maintain crosscutting capabilities 
that enable each of our core missions. These crosscuts focus on 
advancing science, technology, and engineering, supporting our 
people in modernizing our infrastructure, and developing a 
management culture focused on safety, on security, and on 
efficiency, adopting the best practices in use across the 
government as well as in the commercial world.
    The budget materials and briefings that we have provided 
describe NNSA's major accomplishments in 2015 as well as the 
underlying rationale for our budget proposal for fiscal year 
2017.
    Let me just briefly highlight a few of the points here.

                       NUCLEAR WEAPONS STOCKPILE

    First and foremost, the United States has maintained, as I 
said, a safe, secure, and effective nuclear weapons stockpile 
without nuclear explosive testing now for over 20 years. As a 
result of the funding provided by this Congress and supported 
by this subcommittee, and the significant improvements NNSA has 
made in program management over the past 2 to 3 years, all of 
our life extension programs, or LEPs, and major alterations are 
on schedule and within budget.
    NNSA's science and technology base also continues to yield 
critical modeling and simulation data and to deploy 
increasingly capable high-performance computing in support of 
stockpile stewardship. Last year, for example, the National 
Ignition Facility at Lawrence Livermore Laboratory increased 
its shot rate, its experiment rate, from 191 in 2014 to 356 in 
2015, an 86 percent increase. Our budget request also supports 
the recapitalization of NNSA's aging research and production 
infrastructure, most notably at the facilities where we perform 
our major uranium, plutonium, tritium, and other commodity 
operations. Of significance, NNSA completed the first sub-
project for the Uranium Processing Facility at Oak Ridge, 
Tennessee, on time and millions of dollars under budget.

                    DEFENSE NUCLEAR NONPROLIFERATION

    This year's request for the defense nuclear 
nonproliferation account, as has already been pointed out, is 
6.8 percent lower than the fiscal 2016 enacted level, for two 
reasons. First, prior year carryover balances are available to 
execute several programs in this mission space. And secondly, 
we propose terminating the Mixed Oxide Fuel, or MOX, 
Fabrication Facility project.
    While the administration remains firmly committed to 
disposing of surplus weapons grade plutonium, it is clear from 
independent analyses that the MOX fuel approach is 
unsustainable given the enormous costs involved. The already 
proven Dilution and Disposal alternative would enable the 
plutonium to be disposed of decades sooner than the MOX 
approach and at less than half the cost and with far fewer 
risks. In fact, 4.8 metric tons of plutonium have already been 
diluted and disposed of in this manner, demonstrating beyond 
doubt the feasibility of this approach.
    The new approach will enable us to be more responsible 
stewards of taxpayer dollars while upholding our commitment to 
dispose of surplus weapons grade plutonium more quickly. That's 
why the President's fiscal year 2017 budget request proposes 
that the Department pursue the Dilution and Disposal approach 
as the path forward and begin termination of the MOX project.
    In addition, the Department could dispose of all the 
surplus plutonium in South Carolina using the Dilute and 
Dispose approach under its current authorizations, getting the 
plutonium out of the State decades earlier than under the MOX 
approach.

                         NAVAL REACTORS PROGRAM

    The request for our third appropriations, the Naval 
Reactors program keeps pace with mission needs and continues 
NNSA's commitment to three major initiatives: the Ohio-class 
reactor plant system development, the Land-Based S8G Prototype 
refueling overhaul in upstate New York; and the spent fuel 
handling recapitalization project in Idaho. And, of course, 
Admiral Caldwell is far better prepared than I to answer any 
questions that you may have in this area.

                       MANAGEMENT AND GOVERNANCE

    For each of these missions, NNSA is driving improvements in 
management and governance. For all of our programs, we have 
instituted rigorous analyses of alternatives, defined clear 
lines of authority and accountability for Federal and contract 
program management, improved cost and schedule performance, and 
ensure that Federal project directors and contracting officers 
have the appropriate skill mix and professional certifications 
to effectively manage NNSA's work. Our budget request for 
Federal salaries and expenses reflects an increasing emphasis 
on improving program and project management across all of our 
mission pillars.
    So in closing, the nuclear security enterprise continues to 
make significant process--progress. Through disciplined careful 
planning, consistent funding, and your continued strong 
support, we believe we can make smart investments to build on 
that progress and to meet new challenges in the future.
    Again, thank you for the opportunity to appear before you 
today, and we look forward to addressing your questions.
    [The statements follow:]
        Prepared Statement of Lieutenant General Frank G. Klotz
    Chairman Alexander, Ranking Member Feinstein, and Members of the 
Subcommittee, thank you for the opportunity to present the President's 
fiscal year 2017 budget request for the Department of Energy's (DOE) 
National Nuclear Security Administration (NNSA). It is a pleasure to be 
here this afternoon. We value this Committee's strong support for the 
nuclear security mission, and for the people and institutions that are 
responsible for executing it.
    The President's fiscal year 2017 budget request for NNSA is $12.9 
billion, this is an increase of $357.5 million or 2.9 percent over the 
fiscal year 2016 enacted level. The request is approximately 43 percent 
of the DOE's total budget, and 67 percent of DOE's total 050 budget.
    The NNSA has a unique and special responsibility to maintain a 
safe, secure, and effective nuclear weapons stockpile for as long as 
nuclear weapons exist; to prevent, counter, and respond to evolving and 
emerging nuclear proliferation and terrorism threats; to provide 
nuclear propulsion to our Navy as it protects American and Allied 
interests around the world; and to support our outstanding NNSA Federal 
workforce. By supporting overall growth, this budget request represents 
a strong endorsement of NNSA's vital and enduring missions, and is 
indicative of the Administration's unwavering commitment to a strong 
national defense.
    NNSA's missions are accomplished through the hard work and 
innovative spirit of a highly talented Federal and Management and 
Operating (M&O) workforce committed to public service. To provide this 
team the tools they need to carry out their complex and challenging 
task, both now and in the future, we must continue to modernize our 
scientific, technical, and engineering capabilities and infrastructure. 
In doing so, we are mindful of our obligation to continually improve 
our business practices, and to be responsible stewards of the resources 
that Congress and the American people have entrusted to us.
    The fiscal year 2017 budget request also reflects the close working 
partnership between NNSA and the Department of Defense (DoD). NNSA 
works closely with DoD to meet military requirements, support our 
Nation's nuclear deterrence capabilities and modernize the nuclear 
security enterprise. I would also note, that as in previous years, DoD 
is carrying in its fiscal year 2017 budget request separate funding in 
fiscal year 2018 and beyond that will be reallocated annually to NNSA's 
Weapons Activities and Naval Reactors.
    I want to thank the committee for its support of the fiscal year 
2016 budget request and look forward to your continuing support in 
fiscal year 2017. We have made some tough decisions and tradeoffs to 
meet both military commitments and nuclear security priorities. Without 
congressional support, modernization of our nuclear enterprise, 
implementation of our long-term stockpile sustainment strategy, and 
sustainment of our nonproliferation and prevention and response 
capabilities could be at risk. The program we have proposed is highly 
integrated and interdependent across the four accounts.
    Details of the fiscal year 2017 budget request for the NNSA follow:
                    weapons activities appropriation
    For the Weapons Activities account, the fiscal year 2017 budget 
request is $9.2 billion, an increase of $396.2 million, or 4.5 percent 
above the fiscal year 2016 enacted levels. This account provides funds 
for the Defense Programs portfolio, which is responsible for all 
aspects of the stockpile stewardship, management, and responsiveness 
programs; the enterprise-wide infrastructure sustainment activities 
managed by our Office of Safety, Infrastructure, and Operations; NNSA's 
physical and cybersecurity activities; and the secure transportation of 
nuclear materials.
Maintaining the Stockpile
    Last year, the work of the science-based Stockpile Stewardship 
Program (SSP) allowed the Secretaries of Energy and Defense to certify 
to the President for the 20th time that the American nuclear weapons 
stockpile remains safe, secure, and reliable, without the need for 
underground explosive nuclear testing. This achievement is made 
possible each year by essential investments in state-of-the-art 
diagnostic tools, high performance computing platforms, and modern 
facilities, which are staffed by NNSA's world-class scientists, 
engineers, and technicians.
    For Directed Stockpile Work (DSW), the fiscal year 2017 budget 
request is $3.3 billion, a decrease of $57.3 million, or 1.7 percent 
below the fiscal year 2016 enacted levels. These reductions will not 
restrict NNSA's ability to annually assess system performance and 
reliability or maintain the schedule for Life Extension Programs (LEP).
    The major LEPs are a fundamental part of this account. The $222.9 
million requested for the W76-1 warhead LEP directly supports the Navy 
and will keep the LEP on schedule and on budget to complete production 
in fiscal year 2019. We continue to make good progress on the B61-12 
LEP, which will consolidate four variants of the B61 gravity bomb and 
will improve the safety and security of the oldest weapon system in the 
U.S. nuclear arsenal. With the $616.1 million requested, we will remain 
on schedule to deliver the First Production Unit (FPU) in fiscal year 
2020.
    NNSA is responsible for the refurbishment of the nuclear explosives 
package and new bomb electronics, while the Air Force will provide the 
tail kit assembly under a separate acquisition program. When fielded, 
the B61-12 bomb will support both Air Force strategic long-range 
nuclear-capable bombers and dual-capable fighter aircraft, providing 
extended deterrence to our allies and partners, and allow retirement of 
the last megaton class weapon in the inventory, the B83 gravity bomb.
    In July 2015, we began Phase 6.2 (Feasibility Study and Design 
Options) for the W80-4 cruise missile warhead LEP. The fiscal year 2016 
budget request included $195 million to accelerate the FPU by 2 years 
to fiscal year 2025, a decision made by the Nuclear Weapons Council 
(NWC) in late 2014. The fiscal year 2015 budget request included $10 
million to start the program. We had initially planned a ramp-up of 
Phase 6.2 study activities beginning in fiscal year 2016 to support the 
NWC FPU decision. However, as a result of the fiscal year 2016 
continuing resolution, we were unable to begin the planned ramp-up 
activities until just recently. Furthermore, because of the delay in 
receiving fiscal year 2016 funding, the program cannot execute the full 
fiscal year 2016 enacted amount this year. As a result, a significant 
amount of the program's fiscal year 2016 funding will carry over into 
fiscal year 2017. Consequently, the fiscal year 2017 budget request is 
$25.3 million over the fiscal year 2016 budget request, rather than 
$117 million over the fiscal year 2016 budget request, as previously 
projected. While this delayed start will affect planned technology 
maturation activities in Phase 6.2A (Design Definition and Cost Study), 
we still fully expect to meet the planned FPU date in fiscal year 2025 
to support the Air Force Long Range Stand Off (LRSO) program.
    In fiscal year 2015, the NWC approved additional scope for the W88 
Alteration (ALT) 370 to meet an emerging requirement. NNSA is now 
accelerating the new Conventional High Explosive (CHE) refresh work to 
match the original ALT schedule. As a result, we are synchronizing the 
full program to transition seamlessly to the Production Engineering 
phase in February 2017. In preparation for that phase transition, NNSA 
will publish a baseline cost report by the end of this fiscal year. 
This budget request reflects these efforts and includes $281.1 million 
in fiscal year 2017 to support the FPU in fiscal year 2020.
    Also within DSW, the fiscal year 2017 budget request includes $1.3 
billion for Stockpile Systems and Stockpile Services. These programs 
sustain the stockpile pursuant to the direction given in the 
President's Nuclear Weapon Stockpile Plan (NWSP). In doing so, the 
programs deploy unique skills, equipment, testers, and logistics to 
enable the daily operations of the nation's nuclear deterrent. 
Specifically, these programs produce and replace limited life 
components (LLCs) such as neutron generators and gas transfer systems, 
conduct maintenance, surveillance, and evaluations to assess weapons 
reliability, detect and anticipate potential weapons issues such as the 
recent CHE refresh issue mentioned above, and compile and analyze 
information during the Annual Assessment process.
    The pursuit and application of technological advancements to 
enhance safety and security while reducing life cycle costs of the 
stockpile runs through all of these activities. The development of 
Integrated Surety Architectures enhancing transportation safety and 
security is an example of these efforts.
    Within DSW, the fiscal year 2017 budget request also includes 
$577.8 million for the Strategic Materials account to maintain NNSA's 
ability to produce the nuclear and other materials needed to support 
the enduring stockpile. This program includes Uranium Sustainment, 
Plutonium Sustainment, Tritium Sustainment, Domestic Uranium Enrichment 
(DUE), lithium and other strategic materials. Funding for Uranium 
Sustainment will enable enriched uranium operations in Building 9212, a 
Manhattan Project-era production facility at the Y-12 National Security 
Complex in Oak Ridge, Tennessee, to end in fiscal year 2025, and allow 
the bulk of this obsolete building to shut down. The sustainment and 
modernization of enriched uranium capabilities and the acceleration of 
Area 5 de-inventory will reduce safety and mission risks in the near 
term.
    Plutonium Sustainment funds replacement and refurbishment of 
equipment and the critical skills needed to meet the pit production 
requirements as outlined in the National Defense Authorization Act 
(NDAA) for fiscal year 2015.
    Tritium Sustainment ensures the Nation's capability and capacity to 
provide the tritium necessary to meet national security requirements, 
either through production at Tennessee Valley Authority nuclear power 
plants or by recovering and recycling tritium from returned gas 
transfer systems.
    The DUE program continues its efforts to ensure that we have the 
necessary supplies of enriched uranium for a variety of national 
security needs.
    The fiscal year 2017 budget request also includes $69 million for 
Weapons Dismantlement and Disposition, an increase of $16.9 million, 
32.7 percent above the fiscal year 2016 enacted level, which includes 
funds to support the President's goal to accelerate the dismantlement 
rate of previously retired weapons by 20 percent. This will enable NNSA 
to dismantle the weapons retired prior to fiscal year 2009 by 2021, 
rather than the original goal of 2022. It will also result in increased 
Management and Operating staff at both the Pantex Plant in Amarillo, 
Texas and the Y-12 National Security Complex.
    For Research, Development, Test, and Evaluation (RDT&E), the fiscal 
year 2017 budget request is $1.9 billion, an increase of $36.2 million, 
2 percent above the fiscal year 2016 enacted level. This includes 
$663.2 million for the Advanced Simulation and Computing (ASC) Program, 
an increase of $31 million for the Advanced Technology Development and 
Mitigation (ATDM) subprogram that supports high performance computing 
on the path to exascale, and $87.1 million for Advanced Manufacturing 
Development (AMD), a decrease of $43 million. The decrease reflects a 
realignment from technology development investments to address higher 
NNSA priorities. The budget request focuses on continued investment in 
advanced manufacturing opportunities and improving the manufacturing 
processes for components that support multiple weapons to maximize the 
benefits of these investments. Advanced Manufacturing invests in 
technologies that will reduce the time and cost of current 
manufacturing methods, replaces obsolete processes, and supports 
manufacturing developments for future weapon upgrades. Additive 
Manufacturing, also known as 3-D printing, aids in developing and 
manufacturing components for stockpile and weapon technology 
applications. The overall RDT&E request reflects small increases for 
the Science Program ($442.0 million, an increase of $18.9 million) to 
achieve two subcritical experiments per year before the end of the 
FYNSP, and begin alterations to U1a tunnel complex at Nevada to prepare 
for these experiments: Inertial Confinement Fusion Ignition and High 
Yield Program ($523.9 million, an increase of $11.9 million) and the 
Engineering Program ($139.5 million, an increase of $8.1 million).
    The Inertial Confinement Fusion Ignition and High Yield program has 
spearheaded ongoing improvements in management and operational 
efficiencies at NNSA's major high energy density (HED) facilities, 
including the National Ignition Facility (NIF) at Lawrence Livermore 
National Laboratory (LLNL) in California and the OMEGA facility at the 
University of Rochester in New York. In fiscal year 2015, NIF markedly 
improved its shot-rate efficiency with over 350 key experiments 
performed (compared to 191 in fiscal year 2014) in support of the SSP. 
This level of effort represents an 85 percent increase over the 
previous year and an 18 percent increase over its goal for 2015.
    NNSA has taken major steps in high performance computing to deliver 
on its missions and play a leading role to support the President's 
Executive Order on the National Strategic Computing Initiative (NSCI). 
In 2015, Los Alamos National Laboratory (LANL) and Sandia National 
Laboratories (SNL) received the first hardware delivery for NNSA's next 
generation high performance computer, Trinity. This computer will 
initially have eight times more applications performance than the Cielo 
machine it is replacing. NNSA also continued its CORAL collaboration 
with LLNL, the DOE Office of Science national laboratories at Oak Ridge 
and Argonne, IBM, and other vendors. CORAL will help develop next 
generation computing platforms to dramatically improve our ability to 
run increasingly complex codes and will be a significant step on the 
path to exascale computing.
    NNSA collaborates with the DOE Office of Science while making these 
much needed investments in exascale computing. The fiscal year 2017 
budget request includes $95 million from NNSA for the development of 
capable exascale systems.
    Defense Programs also maintains the vitality of the broader 
National Security Enterprise. An important aspect of this effort is 
investing in Laboratory-, Site- and Plant-Directed Research and 
Development (LDRD/PDRD). Independent reviews have consistently affirmed 
the importance of the program to the long-term vitality of the labs. 
LDRD/PDRD provides basic research funding to foster innovation and to 
attract and retain young scientific and technical talent and is 
critical to the long-term sustainment of our national laboratories. 
Congressional support is essential to ensuring that we have both the 
workforce and the new developments necessary to support the nation's 
security into the future.
Improving Safety, Operations and Infrastructure
    NNSA's ability to achieve its mission is dependent upon safe and 
reliable infrastructure. The age and condition of NNSA's infrastructure 
will, if not addressed, put the mission, the safety of our workers, the 
public, and the environment at risk. More than half of NNSA's 
facilities are over 40 years old while 30 percent of them date back to 
the Manhattan Project era. The fiscal year 2017 budget request for 
Infrastructure and Operations is $2.7 billion, an increase of $442.8 
million, 19.4 percent above the fiscal year 2016 enacted level. This 
funding will help NNSA modernize and upgrade aging infrastructure and 
address safety and programmatic risks through strategic investments in 
both general purpose infrastructure and program-specific capabilities 
that directly support our nuclear weapons and nonproliferation 
programs.
    To support critical programmatic activities, we are making 
important strides in recapitalizing our aging infrastructure and 
capabilities. In fiscal year 2015, NNSA funded new and continuing 
projects to enhance or replace programmatic capabilities and address 
the risks posed by the aging infrastructure. NNSA's investment in these 
projects is vital to the revitalization of the NNSA enterprise. The 
fiscal year 2017 budget request provides funding for more than 70 
recapitalization projects. The request will also support general 
purpose infrastructure and program-specific capabilities through Line 
Item Construction projects. These projects include, for example, the 
Uranium Processing Facility (UPF), the Chemistry and Metallurgy 
Research Replacement (CMRR) project, the U1a Complex Enhancements 
Project (UCEP) in support of the Enhanced Capabilities for Subcritical 
Experiments (ECSE) portfolio, the Albuquerque Complex Project to 
replace the current inadequate facilities, and a project to expand the 
electrical distribution system at LLNL.
    One of the most worrisome of the NNSA infrastructure challenges is 
the excess facilities that pose risks to our workers, the environment, 
and the mission. While many of these facilities will ultimately be 
transferred to the DOE Office of Environmental Management for 
disposition, NNSA is focusing on reducing the risk where it can. In 
fiscal year 2015, NNSA successfully demolished our second non-process 
contaminated building at Y-12 within the past two calendar years. The 
fiscal year 2017 budget request supports a number of activities to 
continue to address excess facilities. These activities include the 
transition of the Kansas City Bannister Federal Complex to the private 
sector for environmental remediation and redevelopment, risk reduction 
activities at Alpha-5 and Beta-4 at Y-12--both of which are highly 
process-contaminated--and disposition of more uncontaminated facilities 
across the NNSA enterprise.
    Our Secure Transportation Asset (STA) program provides safe, secure 
movement of nuclear weapons, special nuclear material, and weapon 
components to meet projected DOE, DoD, and other customer requirements. 
The fiscal year 2017 budget request of $282.7 million includes an 
increase of $45.6 million, 19.2 percent above the fiscal year 2016 
enacted levels, to continue asset modernization and workforce 
capability initiatives. These initiatives include: (1) restoration of 
Federal agent strength levels to meet the goal of 370; (2) the 
Safeguards Transporter (SGT) Risk Reduction Initiatives to manage the 
SGT beyond its design life; (3) development and testing of the selected 
alternative for the SGT replacement, the Mobile Guardian Transporter 
(MGT); and (4) replacement of vehicles and tractors.
    The Office of Defense Nuclear Security (DNS) develops and 
implements sound security programs to protect Special Nuclear Material 
(SNM), people, information, and facilities throughout the nuclear 
security enterprise. The fiscal year 2017 budget request is $670.1 
million, a decrease of $12.8 million, or 1.9 percent below the fiscal 
year 2016 the enacted level of $682.9 million due to one-time dedicated 
increases in fiscal year 2016. After adjusting for an fiscal year 2016 
one-time $30 million designated plus up and $13 million dedicated line 
item construction amounts for each year, the remaining fiscal year 2017 
operating request of $657.1 million is an increase of $17.2 million, or 
2.7 percent above the fiscal year 2016 enacted operating level of 
$639.9 million. The request manages risk among important competing 
demands as NNSA continues to face the challenges associated with an 
aging physical security infrastructure that must be effectively 
addressed in the coming years. To this end, DNS is conducting a Site 
Condition Review (SCR) of the physical security systems at all 
locations to facilitate the development of an enterprise-wide security 
systems upgrade and refresh strategy. This effort will identify and 
manage current and future security improvements and upgrades on a 10-
year planning cycle and includes determining the condition of critical 
security equipment and infrastructure. A final report of this effort 
will provide DOE/NNSA leadership and Congressional stakeholders with 
consolidated and up-to-date information to enable informed decisions 
for fiscal planning and programming.
    The SCR is being conducted within the context of important 
organizational improvements and management strategies published in the 
June 2015 Security Roadmap. The document establishes a clear vision and 
path forward to correcting identified security issues and promoting 
sustained performance within the NNSA security program. The Security 
Roadmap is a multi-year effort that implements key recommendations for 
improvement identified in past assessments; it includes a total of 57 
strategic initiatives covering culture, process, infrastructure, and 
workforce challenges. As of the end of 2015, DNS has completed six of 
the initiatives and is currently working on another 20 initiatives. The 
remaining 31 initiatives are pending formal initiation.
    For Information Technology and Cybersecurity, the fiscal year 2017 
budget request is $176.6 million, an increase of $19 million, or 12.1 
percent above fiscal year 2016 enacted levels. This increase will fund 
much needed improvement to the Information Technology and Cybersecurity 
program, including Continuous Diagnostic and Mitigation (CDM), 
Telecommunications Security, infrastructure upgrades for the Enterprise 
Secure Computing Network (ESN), Public Key Infrastructure (PKI), Energy 
Sciences Network (ESnet) program, and an increased Information 
Technology budget. This cybersecurity program continuously monitors 
enterprise wireless and security technologies (e.g., identity, 
credential, and access management) to meet a wide range of security 
challenges. In fiscal year 2017, NNSA plans to continue the 
recapitalization of the Enterprise Secure Network, modernize the 
cybersecurity infrastructure, implement the Identity Control and Access 
Management project at NNSA Headquarters and site elements, and 
implement all Committee on National Security Systems and PKI 
capabilities.
             defense nuclear nonproliferation appropriation
    The Defense Nuclear Nonproliferation (DNN), fiscal year 2017 budget 
request is $1.8 billion, a decrease of $132.4 million, 6.8 percent 
below the fiscal year 2016 enacted levels. This appropriation covers 
NNSA's nuclear threat reduction mission. DNN addresses the entire 
nuclear threat spectrum by helping to prevent the acquisition of 
nuclear weapons or weapon-usable materials, technologies, and 
expertise, countering efforts to acquire such weapons, materials, and 
technologies, and responding to nuclear and radiological incidents. The 
fiscal year 2017 budget request funds two mission areas under the DNN 
appropriation: the Defense Nuclear Nonproliferation Program and the 
Nuclear Counterterrorism and Incident Response (NCTIR) Program.
Nonproliferation Efforts
    NNSA made significant progress in nuclear threat reduction in 2015. 
Working with foreign partners, the Office of Defense Nuclear 
Nonproliferation removed approximately 170 kilograms of highly enriched 
uranium (HEU) and plutonium from several civilian sites; successfully 
down- blended additional HEU to achieve a cumulative total of 150 
metric tons of U.S. excess, weapons-usable HEU (approximately 6,000 
nuclear weapons worth of material); recovered more than 100,000 curies 
of disused or orphaned radioactive material; ensured the United States 
remains on track to fulfill the commitments made at the 2014 Nuclear 
Security Summit; and supported the Secretary of Energy's efforts to 
develop the Joint Comprehensive Plan of Action (JCPOA) by providing 
scientific expertise and technical options to the United States 
negotiating team.
    The Material Management and Minimization (M\3\) program provides an 
integrated approach to addressing the threat posed by nuclear materials 
through a full cycle of materials management and minimization. The 
primary objective of the program is to achieve permanent threat 
reduction by minimizing and, when possible, eliminating weapons-usable 
nuclear material around the world. The fiscal year 2017 budget request 
is $341.1 million, an increase of $24.5 million, 7.7 percent above the 
fiscal year 2016 enacted levels. This funding increase will accelerate 
reactor conversions in Kazakhstan and in the United States, as well as 
initiate the critical decision process to support the dilute and 
dispose program for domestic plutonium disposition.
    The Global Material Security (GMS) program works with partner 
nations to increase the security of vulnerable nuclear and radiological 
materials and improve their ability to detect, interdict, and 
investigate illicit trafficking of these materials. The fiscal year 
2017 budget request for this program is $337.1 million, a decrease of 
$89.6 million, 21 percent below the fiscal year 2016 enacted level. 
This decrease is possible because GMS is completing its work to protect 
the remaining International Atomic Energy Agency (IAEA) Category I 
radiological sources in the United States to meet our 2014 Nuclear 
Security Summit commitment, and because GMS is committed to reducing 
its prior year carryover balances.
    The Nonproliferation and Arms Control (NPAC) program supports the 
nonproliferation and arms control regimes by developing and 
implementing programs to strengthen international nuclear safeguards; 
control the spread of nuclear and dual-use material, equipment, 
technology and expertise; verify nuclear reductions and compliance with 
nonproliferation and arms control treaties and agreements; and address 
other nonproliferation and arms control challenges. The fiscal year 
2017 budget request will fund safeguards and export control activities, 
including efforts specifically in support of JCPOA implementation. This 
funding also supports statutorily mandated activities such as technical 
reviews of export licenses and interdiction cases, technical support 
for the negotiation and implementation of civil nuclear cooperation 
agreements (123 Agreements), and upgrades to the 10 CFR 810 
authorization process. The fiscal year 2017 budget request for this 
program is $124.7 million, a decrease of $5.5 million, 4.2 percent 
below the fiscal year 2016 enacted level. This decrease primarily 
reflects a return to baseline funding following the one-time increase 
of $3.5 million by Congress in the fiscal year 2016 budget for 
improvements in the export control process, as well as cost-savings in 
export licensing activities achieved through operational efficiencies.
    The DNN Research and Development (DNN R&D) program supports 
innovative unilateral and multi-lateral technical capabilities to 
detect, identify, and characterize (1) foreign nuclear weapons 
programs, (2) illicit diversion of special nuclear materials, and (3) 
nuclear detonations. To meet national and Departmental nuclear security 
requirements, DNN R&D leverages the unique facilities and scientific 
skills of DOE, academia, and industry to perform research, including 
counterterrorism-related R&D. The fiscal year 2017 budget request for 
this program is $393.9 million, a $25.4 million or 6.1 percent decrease 
below fiscal year 2016 enacted levels. The decrease in funding reflects 
projected savings resulting from a reduction in planned activities for 
arms control-related R&D and a return to the baseline Nuclear 
Detonation Detection (NDD) program after development of an initial 
mitigation path for supply chain interruptions.
    Nonproliferation Construction consolidates construction costs for 
DNN projects. Currently, the MOX Fuel Fabrication Facility (MFFF) is 
the only project in this program; however, the fiscal year 2017 budget 
request terminates the MOX project. The Department will complete pre-
conceptual design for the dilute and dispose approach to establish 
Critical Decision-0 (CD-0), Approve Mission Need, and begin conceptual 
design in late fiscal year 2017. The fiscal year 2017 budget request of 
$270 million will be used to bring an orderly and safe closure of the 
MFFF. The scope and costs will be refined in subsequent budget 
submissions when the termination plan for the MFFF project is approved.
Nuclear Counterterrorism and Emergency Operations
    DOE has adopted an enterprise-wide approach to strengthen overall 
preparedness to respond to a broad spectrum of potential emergencies. 
These emergencies include natural phenomena, such as adverse weather 
events or earthquakes, and man-made events, such as accidents or acts 
of terrorism. To better accomplish this mission, in November 2015, NNSA 
reorganized the Office of Emergency Operations and the Office of 
Counterterrorism and Counterproliferation.
    Both of these organizations are supported under the Nuclear 
Counterterrorism and Incident Response (NCTIR) Program. In fiscal year 
2016, the NCTIR program transitioned to the DNN account in order to 
align all NNSA funding to prevent, counter, and respond to nuclear 
proliferation and terrorism. The fiscal year 2017 budget request 
includes $271.9 million to support the NCTIR program, an increase of 
$37.5 million, 16 percent above the fiscal year 2016 enacted level. 
Within NCTIR, NNSA continues to work domestically and around the world 
to prepare for and improve our ability to respond to radiological or 
nuclear incidents.
    Our counterterrorism and counterproliferation programs are part of 
broader U.S. Government efforts assessing the threat of nuclear 
terrorism and to develop technical countermeasures. The scientific 
knowledge generated under this program ensures that NNSA's technical 
expertise on nuclear threat devices, including improvised nuclear 
devices (INDs), supports and informs broader U.S. Government nuclear 
security policy and guides nuclear counterterrorism and 
counterproliferation efforts, including interagency nuclear forensics 
and DoD contingency planning.
    NNSA's emergency response teams must deploy and respond with the 
most up to date equipment. The current equipment is aging, increasing 
maintenance expenses, and has started to impact NNSA's ability to 
perform its emergency response mission. The Radiological Assistance 
Program (RAP) remains the nation's premier first-response resource to 
assess a radiological incident and advise decision-makers on necessary 
steps to minimize hazards, but its effectiveness is beginning to be 
compromised by obsolete equipment. To ensure that NNSA is able to 
execute its radiological emergency response mission, RAP's equipment 
must be recapitalized regularly. Additionally, NNSA is acquiring state-
of-the-art, secure, deployable communications systems that are 
interoperable with our Federal Bureau of Investigation and DoD mission 
partners, ensuring decision makers receive real-time technical 
recommendations to mitigate nuclear terrorist threats.
    The Office of Emergency Operations is now aligned to focus on its 
core Department-wide all- hazards and complex-wide emergency management 
mission. The fiscal year 2017 budget request for this office is $34.7 
million, an increase of $9.6 million, or 38 percent above the fiscal 
year 2016 enacted level. This will improve the emergency management 
system through an enterprise-wide approach that effectively increases 
the Department's all-hazards emergency preparedness and response 
capability during complex, cascading, or enduring incidents, and more 
effectively calls upon and leverages the assets, resources, and skills 
across the DOE complex. The Emergency Operations Center (EOC) will 
continue to be the 24/7/365 single-point-of-contact for Departmental 
and interagency notifications regarding situations requiring 
centralized management such as, national emergencies, heightened 
international tension, Departmental emergencies, natural disasters, or 
acts of terrorism. The program also manages the Emergency 
Communications Network, and Continuity Programs for all of DOE, 
including NNSA. The Office of Emergency Operations will continue to 
work within the DOE to develop plans to replace the existing EOC and to 
improve the Department's capabilities to respond to emergencies.
                      naval reactors appropriation
Advancing Naval Nuclear Propulsion
    NNSA supports the U.S. Navy's ability to protect and defend 
American interests across the globe. The Naval Reactors Program remains 
at the forefront of technological developments in naval nuclear 
propulsion and ensures a commanding edge in warfighting capabilities by 
advancing new technologies and improvements in naval reactor 
performance and reliability.
    In 2015, Naval Reactors enabled U.S. nuclear powered warships to 
operate for another year safely and effectively, steaming more than two 
million miles in support of national security missions. Initial reactor 
start-up was achieved in the lead reactor plant of pre-commissioning 
unit (PCU) Gerald R. Ford (CVN 78), the first new design aircraft 
carrier propulsion plant in 40 years. This historic milestone 
represents the culmination of almost 20 years of dedicated and 
sustained effort by Naval Reactors and its field activities, our 
Department of Energy laboratories, nuclear industrial base suppliers, 
the Navy design team and the nuclear shipbuilders. This is the first 
step in fully testing the integrated operations of the propulsion 
plant, culminating in sea trials this spring. Finally, we continued our 
reactor plant design and reactor core manufacturing development efforts 
in support of the new design Ohio-class Replacement reactor plant, 
including the life-of-ship core.
    The Naval Reactors fiscal year 2017 budget request is $1.42 
billion, an increase of $45 million, 3.2 percent above the fiscal year 
2016 enacted level. In addition to supporting today's operational 
fleet, the requested funding will enable Naval Reactors to deliver 
tomorrow's fleet by funding three national priority projects, and 
recruiting and retaining a highly skilled work force committed to the 
Navy and the nation. The projects include (1) continuing design of the 
new reactor plant for the replacement of the Ohio-class SSBN, which 
will feature a life-of-ship core and electric drive; (2) refueling a 
Research and Training Reactor in New York to facilitate Ohio-class 
Replacement reactor development efforts and provide 20 more years of 
live reactor based training for fleet operators; and (3) building a new 
spent fuel handling facility in Idaho that will facilitate long term, 
reliable processing and packaging of spent nuclear fuel from aircraft 
carriers and submarines.
    Naval Reactors has requested funding in fiscal year 2017 to support 
these projects, and to fund necessary reactor technology development, 
equipment, construction, maintenance, and modernization of critical 
infrastructure and facilities. By employing a small but high-performing 
technical base, the teams at our four Program sites--the Bettis Atomic 
Power Laboratory in Pittsburgh, the Knolls Atomic Power Laboratory and 
Kesselring Site in greater Albany, and our spent nuclear fuel 
facilities in Idaho--we can perform the research and development, 
analysis, engineering and testing needed to support today's fleet at 
sea and develop future nuclear- powered warships. Importantly, our labs 
perform the technical evaluations that enable Naval Reactors to 
thoroughly assess emergent issues and deliver timely responses that 
ensure nuclear safety and maximize operational flexibility. This 
technical base supports more than 15,000 nuclear-trained Navy sailors, 
who safely maintain and operate the 98 nuclear propulsion plants in the 
fleet 24 hours per day, 365 days per year around the globe. It will 
also facilitate delivery, as directed by Congress, of our conceptual 
plan for potential naval application of low enriched uranium.
            nnsa federal salaries and expenses appropriation
    The NNSA Federal Salaries and Expenses (FSE) fiscal year 2017 
budget request is $412.8 million, an increase of $49.1 million, 13.5 
percent above the fiscal year 2016 enacted level. The fiscal year 2017 
budget request provides funding for 1,715 full-time equivalents (FTE) 
and support expenses needed to meet mission requirements. We are 
actively engaged in hiring to that number in a thoughtful and strategic 
manner. The fiscal year 2017 budget request will support 1,715 FTEs, an 
increase of 60 FTEs (25 above the authorized 1,690) above the 
anticipated number of FTEs in fiscal year 2016, and request an 
additional 25 for a total of 1,740 FTEs in fiscal year 2018 and the 
outyears. The exact number of FTEs will be determined following a 
detailed staffing review. It also provides for a 1.3 percent cost of 
living increase and a 5.5 percent increase for benefit escalation. In 
addition, the request provides funding for additional Federal 
Background Investigations for security clearances and provides 
additional funding to the Department's Working Capital Fund, primarily 
for Office of Personnel Management (OPM) credit monitoring and the 
Department's accounting systems (iMANAGE).
    In fiscal year 2017, NNSA will continue its efforts to meet current 
and future workforce needs by analyzing how evolving missions are 
affecting job requirements. Reshaping of the workforce over the next 
several years will be essential, including identifying the right 
staffing size and skill sets and implementing professional development 
plans now and in the future. NNSA will also continue to streamline its 
operations, particularly in travel and support services, to provide a 
lean and efficient organization.
                       management and performance
    To enhance our ability to carry out our mission and execute this 
budget request, we will continue to focus on improving our project 
management and cost estimating capabilities. In keeping with the 
Secretary of Energy's increased focus on Management and Performance, 
NNSA is committed to managing its operations, contracts and costs in an 
effective and efficient manner. The NNSA's Office of Acquisition and 
Project Management (APM) is driving continued improvement in contract 
and project management practices. APM is leading NNSA's effort to 
institute rigorous analyses of alternatives, provide clear lines of 
authority and accountability for Federal and contractor program and 
project management, improve cost and schedule performance, and ensure 
Federal Project Directors and Contracting Officers with the appropriate 
skill mix and professional certifications are managing NNSA's work. 
NNSA participates in the Secretary of Energy's Project Management Risk 
Committee as a means to institutionalize and share best practices 
across the Department. NNSA established the Office of Project 
Assessments, reporting directly to the Principal Deputy Administrator, 
ensuring senior leadership visibility and accountability throughout the 
Enterprise for project performance. This office generated $33 million 
in cost avoidances as a result of their independent project peer 
reviews.
    Since 2011, NNSA has delivered approximately $1.4 billion in 
projects, a portion of NNSAs total project portfolio, $70 million (or 5 
percent) under original budget. Significant examples in the last year 
include the Uranium Processing Facility (UPF) Site Readiness 
Subproject, which delivered $20 million under budget; Y-12's Nuclear 
Facility Risk Reduction Project, which delivered $6 million under 
budget and 11 months ahead of schedule; and LANL's Transuranic Waste 
Facility Project, which is on track to complete $3 million under 
budget. Using the Department's best practices, the UPF and Chemistry 
and Metallurgy Research Replacement Facility Projects were restructured 
into smaller more manageable subprojects, significantly reducing 
project delivery risk.
    NNSA is committed to encouraging competition and increasing the 
universe of qualified contractors, by streamlining its major 
acquisition processes. The most significant example was the competitive 
award of the Kansas City National Security Campus M&O contract, awarded 
without protest, saving taxpayers $150 million and increasing the use 
of small businesses. As an affirmation of the quality of NNSA's 
acquisition management team, only four out of 103 competitive 
procurements were protested, with NNSA winning all protests. Finally, 
NNSA exceeded its small business goal by over 20 percent, awarding $233 
million to small business in fiscal year 2015.
    NNSA will continue to focus on delivering timely, best-value 
acquisition solutions for all of our programs and projects. NNSA will 
use a tailored approach to contract structures and incentives that is 
appropriate for the unique missions and risks at each site. Our M&O 
contractors are responsible for disparate activities, ranging from 
research and development to industrial production. Accordingly, we will 
work to develop the right incentives for each circumstance and for each 
of our contracts.
                 cost estimating and program evaluation
    The Office of Cost Estimating and Program Evaluation (CEPE) 
continues to develop its capabilities to provide trusted independent 
cost and resource analysis of NNSA's programs and projects. As detailed 
in its implementation plan, the number of CEPE Federal staff will grow 
from a target of 15 in fiscal year 2016 to 18 in fiscal year 2017. CEPE 
will conduct independent cost estimates on the B61-12 LEP and W88 Alt 
370 in fiscal year 2016 and the W80-4 LEP in fiscal year 2017. CEPE is 
also institutionalizing best practices for analysis of alternatives and 
leads the corporate process to build the NNSA budget.
                               conclusion
    The NNSA performs vital activities at home and throughout the world 
in support of the nuclear security mission. Its success in addressing 
21st century challenges hinges upon the technology, capabilities, and 
infrastructure entrusted to the organization.
    Again, thank you for the opportunity to appear before you today.
                                 ______
                                 
            Prepared Statement of Admiral James F. Caldwell
    A strong Navy is crucial to the security of the United States. Navy 
warships are deployed around the world every hour of every day to 
provide a credible ``forward presence.'' With over 45 percent of the 
Navy's major combatants being nuclear powered, including 10 aircraft 
carriers, 14 ballistic missile submarines, 55 attack submarines, and 4 
guided missile submarines--it is vital that these ships are ready when 
and where our Nation needs them. In addition to supporting these 
nuclear powered combatants, Naval Reactors has also safely maintained 
and operated two nuclear powered land-based prototypes--both over 38 
years old--to conduct research and development and two Moored Training 
Ships--both over 51 years old--the oldest operating pressurized water 
reactors (PWRs) in the world. These land-based prototypes, Moored 
Training Ships, and Naval Nuclear Power Training Command train over 
3000 sailors per year to operate our naval nuclear propulsion plants.
    Our ballistic missile submarine force remains on patrol, marking 
over 60 years of peacekeeping capability through strategic deterrence. 
The Navy had 34 submarine deployments and 26 strategic deterrent 
patrols during 2015. In addition, at any given time, there were always 
at least 56 of 71 submarines deployed or on stand-by to deploy within a 
few days. Our carriers, USS Carl Vinson (CVN 70) and USS Theodore 
Roosevelt (CVN 71) completed successful deployments to the Central 
Command area of responsibility, and the USS Ronald Reagan (CVN 76) 
turned over with the USS George Washington (CVN 73) to serve as the 
forward-deployed carrier in Japan.
    This past year, we also saw the christening of the attack submarine 
PCU Illinois (SSN 786) and keel laying for the PCU Colorado (SSN 788) 
and PCU Indiana (SSN 789), our fifteenth and sixteenth Virginia-class 
submarines. We've also added another attack submarine to our force by 
commissioning USS John Warner (SSN 785), and began a program that 
delivers two Virginia-class submarines annually. In 2015, we laid the 
keel for the second Ford-Class CVN, PCU John F. Kennedy (CVN 79). We 
currently have 12 submarines and one next generation aircraft carrier 
in various phases of construction at our shipyards. Initial reactor 
start-up was achieved in the lead reactor plant of PCU Gerald R. Ford 
(CVN 78), the first new design aircraft carrier propulsion plant in 40 
years. This historic milestone represents the culmination of almost 20 
years of dedicated and sustained effort by Naval Reactors and its field 
activities, our Department of Energy laboratories, nuclear industrial 
base suppliers, the Navy design team and the nuclear shipbuilders. This 
is the first step in fully testing the integrated operations of the 
propulsion plant, culminating in sea trials this spring. Finally, we 
continued our reactor plant design and reactor core manufacturing 
development efforts to support of the new design Ohio-class Replacement 
reactor plant, including the life-of-ship core.
    The firm support of this subcommittee last year enabled safe 
operation of the fleet, Naval Reactors mandatory oversight, and 
continued progress on key projects. Naval Reactors' budget request for 
fiscal year 2017 will continue this work. The funding request is for 
$1.420 billion, an increase of $45 million (3 percent) over the fiscal 
year 2016 enacted funding level. In addition to supporting today's 
operational fleet, the requested funding will enable Naval Reactors to 
deliver tomorrow's fleet by funding three national priority projects 
and recruiting and retaining a highly skilled work force committed to 
the Navy and the nation. The projects are:
  --Continuing to design the new reactor plant for the replacement of 
        the Ohio-class ballistic missile submarine, which will feature 
        a life-of-ship core and electric drive;
  --Refueling a Research and Training Reactor in New York, to 
        facilitate Ohio-class Replacement reactor development efforts 
        and provide 20 more years of live reactor based training for 
        the fleet operators; and
  --Building a new spent fuel handling facility in Idaho that will 
        facilitate long term, reliable processing and packaging of 
        spent nuclear fuel from aircraft carriers and submarines.
    Naval Reactors has requested funding in fiscal year 2017 to support 
these projects, and to fund necessary reactor technology development, 
equipment, construction, maintenance, and modernization of critical 
infrastructure and facilities. By employing a small but high-performing 
technical base, the teams at our four Program sites--the Bettis Atomic 
Power Laboratory in Pittsburgh, the Knolls Atomic Power Laboratory and 
Kesselring Site in greater Albany, and our spent nuclear fuel 
facilities in Idaho--we can perform the research and development, 
analysis, engineering and testing needed to support today's fleet at 
sea and develop future nuclear-powered warships. Importantly, our labs 
perform the technical evaluations that enable Naval Reactors to 
thoroughly assess emergent issues and deliver timely responses that 
ensure nuclear safety and maximize operational flexibility. This 
technical base supports more than 15,000 nuclear-trained Navy sailors, 
who safely maintain and operate the 97 nuclear propulsion plants in the 
fleet 24 hours per day, 365 days per year around the globe. It will 
also facilitate delivery, as directed by Congress, of our conceptual 
plan for potential naval application of low enriched uranium.
    The requested increase in funding is also required to support the 
planned ramp up of design efforts for the new reactor plant for the 
Ohio-class SSBN Replacement--the Navy's number one acquisition 
priority. Providing unparalleled stealth, endurance, and mobility, our 
ballistic missile submarine force has delivered more than 60 years of 
continuous at-sea deterrence, and continues to be the most survivable 
leg of the nuclear triad. Ohio-class Replacement SSBN activity this 
year includes reactor plant design and component development to support 
procurement of long lead components starting in fiscal year 2019. 
Progress in these areas in fiscal year 2017 maintains schedule 
alignment with the Navy as the program moves forward to construction 
start in fiscal year 2021 while retiring technical risk and targeting 
cost reduction.
    Related to Ohio-class Replacement and the Program's training needs, 
the fiscal year 2017 budget request will support the land-based 
prototype refueling overhaul at the Kesselring Site in upstate New 
York. In fiscal year 2017, Naval Reactors will continue the core 
manufacturing work needed for the refueling overhaul, which will also 
enable timely construction of the life-of-ship core for Ohio-class 
Replacement. Further, plant service-life engineering design will be 
completed in fiscal year 2017 to ensure that the land-based prototype 
overhaul, performed concurrently with refueling, supports 20 additional 
years of research, development and training.
    The Naval Reactors fiscal year 2017 budget request also contains 
funds to continue the Spent Fuel Handling Recapitalization Project. 
After many years of funding reductions, Naval Reactors greatly 
appreciates Congressional support for this much needed project in 
fiscal year 2016, where we received the full request of $86 million. 
Congressional support in 2016 enabled progress, design, and planning 
for site preparations and long lead material procurements in fiscal 
year 2017. We will use the $100 million requested in fiscal year 2017 
to finalize key facility and equipment requirements and advance 
facility design to support establishing the Performance Baseline in 
fiscal year 2018 and the start of construction in fiscal year 2019. 
Continued Congressional support will help ensure that the facility in 
Idaho is ready to receive spent nuclear fuel from the fleet in fiscal 
year 2025. Because the new facility's capabilities are required to 
support aircraft carrier refuelings and defuelings, any delay to the 
project schedule would require procurement of additional shipping 
containers to temporarily store naval spent nuclear fuel at a cost of 
approximately $150 million for each year the project is delayed.
    At the requested funding level, Naval Reactors can safely maintain 
and oversee the nuclear-powered fleet. Naval Reactors can also continue 
to advance the Ohio-class Replacement and Land-based Prototype 
Refueling Overhaul, continue progress on the Spent Fuel Handling 
Recapitalization Project, and meet our environmental responsibilities.
    Naval Reactors is committed to executing our projects on time and 
on budget, and continuing the search for the safest and most cost 
effective way to support the nuclear fleet. I respectfully urge your 
support for aligning funding allocations with the fiscal year 2017 
budget request.

    Senator Alexander. Thanks, General Klotz.
    We will now begin a round of questions.

                      URANIUM PROCESSING FACILITY

    I want to ask about the big construction projects. And let 
me take just a minute on the Uranium Facility before I go to 
MOX. When do you expect the design to be 90 percent complete?
    General Klotz. We expect the design for the project to be 
90 percent complete at the--towards the end of next year, 2017.
    Senator Alexander. So that means you would expect to begin 
construction of the Uranium Facility toward the end of 2017?
    General Klotz. We might not actually begin construction at 
that time. I would have to give you a specific time in terms of 
which we actually begin construction, but as you know, because, 
as you rightly pointed out, we meet routinely with you, 
Senator, and with Senator Feinstein, to go over that. And, in 
fact, our staffs are working to schedule, as soon as we get 
past the budget hearings, a discussion on that. But as you 
know, we have broken the overall project up into several sub-
projects, one of which the site rating sub-project, as I 
mentioned in the opening statement, was completed last year, 
February of last year, for $65 million, which was $20 million 
under the budget.
    Senator Alexander. Well, I congratulate you on that, and I 
think it's important to point out that over the last 5 years 
that project has gone from skyrocketing out of control to a 
managed process. Are you on a path that you believe is on time 
and on budget, meaning no more than $6.5 billion by 2025?
    General Klotz. Yes, sir. As recommended by the Red Team, 
chaired by Dr. Thom Mason, the director of Oak National 
Laboratory, we are implementing every one of the 
recommendations in that, and we are going to deliver that 
facility at $6.5 billion by 2025.

                 MIXED OXIDE FUEL FABRICATION FACILITY

    Senator Alexander. Since we're talking about billions, 
let's go to MOX. You said the Dilute and Dispose procedure 
could be less than half the cost of the current MOX procedure. 
What kind of dollars are we talking about?
    General Klotz. We have conducted several reviews over the 
past year, one by another Red Team chaired by Dr. Mason, of Oak 
Ridge National Laboratory, and two congressionally mandated 
independent assessments by The Aerospace Corporation. 
Consistently these reviews have concluded that the projected 
life-cycle cost of the MOX fuel approach for plutonium 
disposition will be in the range of $30 to $50 billion, and 
possibly even higher, and will require approximately $800 
million to $1 billion annually for decades to come for the life 
of the MOX fuel program.
    Senator Alexander. And the cost of the alternative 
proposal?
    General Klotz. Half or better.
    Senator Alexander. So we're talking about, according to 
those figures, saving a half billion dollars a year?
    General Klotz. Yes, sir. Or as the Secretary testified just 
a week ago at this very same place, perhaps maybe even more.
    Senator Alexander. How much excess plutonium is covered 
under the agreement with Russia?
    General Klotz. Sir, 34 metric tons.
    Senator Alexander. And how much excess plutonium is 
actually in South Carolina?
    General Klotz. Approximately 13 metric tons.
    Senator Alexander. Can all of those 13 tons in South 
Carolina be sent to WIPP (Waste Isolation Pilot Plant), that 
is, in New Mexico, under current law?
    General Klotz. Yes, sir, that is correct. And, in fact, in 
December of just last year, DOE issued its preferred 
alternative for disposing of 6 metric tons at Savannah River, 
not under the Plutonium Management Disposition Agreement that 
you were referring to, by diluting it and disposing of it at 
WIPP. And we are now in the process of finalizing a record of 
decision, announcing the decision to prepare 6 metric tons for 
eventual disposal at WIPP, and we can also, under existing 
statutory authorities, we can put the other 7 metric tons that 
are at Savannah River into WIPP.
    Senator Alexander. So there are 13 tons of plutonium in 
South Carolina.
    General Klotz. That is correct.
    Senator Alexander. Six of them, six of those tons, have 
nothing to do with the Russian agreement.
    General Klotz. Yes, sir.
    Senator Alexander. Seven do.
    General Klotz. Yes, sir.
    Senator Alexander. And you're going to take--which tons go 
first to New Mexico?
    General Klotz. The six that are not part of the agreement.
    Senator Alexander. And under existing agreements, there is 
room in the New Mexico facility for all 13 tons.
    General Klotz. That is correct, sir.
    Senator Alexander. You have previously stated that nearly 5 
tons of plutonium have already been disposed of at WIPP using 
the same process you plan to use for the 6 tons in South 
Carolina that have nothing to do with the Russian agreement. So 
is the process of disposing of plutonium by Dilute and Dispose 
well understood? Are you comfortable with it? Is it a competent 
process?
    General Klotz. Yes, sir. As I said, we have done it before. 
We understand how to do that process, and it's very well 
understood.
    Senator Alexander. How long will it take to complete the 
disposal of the 6 tons of material in South Carolina that are 
not part of the Russian agreement?
    General Klotz. Well, we'll have to do some things to speed 
up our capability of doing that. Right now, DOE plans to ramp 
up operations at Savannah River to dilute a small quantity, 
perhaps 150 kilograms per year of plutonium, over the next 2 to 
3 years. We would also further increase throughput to 
approximately half a metric ton per year for a relatively small 
amount of funding, say, $5 million over 3 years.
    Additionally, NNSA has already begun design work with money 
that was appropriated in the 2016 appropriations bill for two 
additional glove boxes that will increase our ability to dilute 
to over 1 metric ton a year, and we expect these glove boxes to 
be in place during the mid-2020s. So that's when we can really 
seriously begin moving the 6 metric tons to WIPP.
    By comparison, the MOX approach, if we followed that, the 
first metric ton of plutonium would not be processed until the 
2040s, and only if Congress can begin funding the project now 
at about $1 billion a year.
    Senator Alexander. Well, my time is up, but to summarize, 
you have testified that in your opinion and based on 
independent studies, that Congress might spend more than a half 
billion dollars more pursuing the MOX facility as opposed to 
Dilute and Dispose, so it's about half the cost or better. And, 
finally, you've said you could get all 13 tons that are now in 
South Carolina of plutonium, only 7 of which have anything to 
do with the Russian agreement, that you can get them out of 
South Carolina and into the WIPP facility much faster than you 
could using the current MOX procedure, and that under current 
authorities, you have permission--you wouldn't have to change 
the law in order to send those 13 tons to WIPP. Am I correct?
    General Klotz. Yes, sir. That's all correct.
    Senator Alexander. Thank you.
    And thanks to my colleagues for letting me go over a little 
bit.
    Senator Feinstein.
    Senator Feinstein. Thank you, Mr. Chairman.

                         NUCLEAR CRUISE MISSILE

    General Klotz, I recently met with Admiral Haney, the head 
of Strategic Command, regarding the new nuclear cruise missile 
and its refurbished warhead. I came away unconvinced of the 
need for this weapon. The so-called improvements to this weapon 
seem to be designed candidly to make it more usable, to help us 
fight and win a limited nuclear war. I find that a shocking 
concept. I think this is really unthinkable, especially when we 
hold conventional weapons superiority, which can meet 
adversaries' efforts to escalate a conflict. So maybe you can 
succeed where Admiral Haney did not.
    Let me ask you this question, Why do we need a new nuclear 
cruise missile?
    General Klotz. Well, thank you very much for the question, 
Senator, and let me just state at the outset, defining the--but 
I will answer your question--defining the military requirements 
is the responsibility of the Department of Defense, which 
obviously includes the Secretary of Defense, the Joint Chiefs 
of Staff, and the Commander of Strategic Command.
    Senator Feinstein. Don't bucket your view.
    General Klotz. But we accept the responsibility for 
building the warhead that goes in it. But let me just say since 
when I was in uniform, I had command of Air Force Global Strike 
Command, and, therefore, of the cruise missiles that the Air 
Force and the Department of Defense are proposing to replace. 
My sense at the time, and still is the case, is that the 
existing cruise missile, the air-launched cruise missile, is 
getting rather long in the tooth with the issues that are 
associated with an aging weapons system. It was first deployed 
in 1982, and, therefore, it is well past its service life.
    In the meantime, as you know from your work on the 
Intelligence Committee, there has been an increase in the 
sophistication and capabilities, as well as proliferation, of 
sophisticated air missile defenses around the world. Therefore, 
the ability of the cruise missile to pose the deterrent--the 
capabilities necessary to deter is under question. Therefore, I 
think just based on the aging and the changing nature of the 
threat, we need to replace a system which we've had, again, 
for--since the early 1980s with an updated variant.
    I guess I didn't convince you any more than Admiral Haney 
did.
    Senator Feinstein. I'm trying to figure out how to say it 
so that it's polite.
    [Laughter.]
    Senator Feinstein. No, you didn't convince me because this 
just ratchets up warfare and ratchets up deaths, and, you know, 
even if you go to a low kiloton, 6 or 7, it's a huge weapon. 
And I thought there was a certain morality that we should have 
with respect to these weapons. And if it's really mutual 
deterrence, I don't see how this does anything other than it's 
like the drone. The drone has been invented. It's been armed. 
Now every country wants one. So they get more and more 
sophisticated. To do this with nuclear weapons I think is 
awful. And when I talked when I came here--now, I'm probably 
the only one here that was a child when those weapons went off, 
and as the chairman has heard me say before, I was in San 
Francisco, across the Pacific from where it happened, a small 
kid, it made a profound difference to me. You know, I remember 
jumping under the desks, I remember the exploding--Barry 
Goldwater's campaign of the daisy that exploded with one, and I 
saw bodies, I saw what happened to people.
    I know a little bit about the sophistication of our 
weapons, not as much as you do, but I think there is a very 
definite morality in what we have. And I talk to people, well, 
the size is a deterrent. This is not a deterrent. All this 
means is that others will be doing the same thing. I don't want 
North Korea with a 6-kiloton nuclear cruise missile.
    And somehow I think we lose our moral authority when we 
build new nuclear weapons. I don't see any way--you know, 
there's a certain moral code any way I can vote to support 
this, and I want you to know it. If you have anything you would 
like to say, I would love to hear it.
    General Klotz. Well, first of all, Senator, I obviously 
respect your opinion, but I think on this, we have a 
fundamental disagreement. In my view, the moral approach is to 
develop a deterrent capability which poses the prospect to any 
potential adversary that they should never use nuclear weapons 
against the United States or those of our allies across the 
globe. We maintain the capability of having a deterrent by 
having systems which cannot be negated, defeated, nullified by 
any adversary, either by offensive attack or by defensive 
capabilities that they may have. And so as we're faced with the 
prospect of potential adversaries having vastly improved 
conventional--vastly improved missile and air defenses, then we 
need to make sure that----
    Senator Feinstein. Do you admit, Admiral, that we have very 
big conventional weapons?
    General Klotz. Yes, I do.
    Senator Feinstein. The biggest in the world?
    General Klotz. And Air Force Global Strike Command, which I 
used to command, had responsibility for one of those.
    Senator Feinstein. Okay. Isn't that enough?
    General Klotz. In a world armed with nuclear weapons, 
regrettably so, I think that in order to deter nuclear attack 
or the threat of nuclear attack against us or allies, we need a 
corresponding nuclear deterrent. That's my belief.
    Senator Feinstein. Okay. Well, let me go to--can I do one 
other question quickly?
    Senator Alexander. Sure.
    Senator Feinstein. What is the cost of the 3 to 1 hedge? 
Staff has tried to get those numbers, but have been unable to. 
I would like to ask that you provide it.
    General Klotz. We will provide that.
    [The information follows:]

    The U.S. nuclear stockpile is made up of warheads in three 
categories--deployed warheads, logistics spares, and hedge. The 
deployed warheads are warheads located at operational bases, and must 
be fully maintained in a ready-to-use status at all times. Logistics 
spares are warheads retained (by DoD or DOE) to facilitate the 
logistics of warhead surveillance, maintenance, and refurbishment to 
ensure the required number of warheads in the other categories is 
maintained. Hedge warheads mitigate the risk of technical failure of 
any single weapon type or delivery system at a given time.
    The number and type of warheads in the hedge depends on a number of 
factors, including the size and composition of the U.S. stockpile and 
the status of life extension efforts. Additional warheads of a type 
being refurbished may be retained temporarily (unrefurbished) as risk 
mitigation for a potential technical issue in the newly refurbished 
warheads.
    By far the largest cost of maintaining this hedge is the cost of 
refurbishing the warheads that will be retained over the longer term as 
part of the hedge. Based on current life extension program (LEP) 
estimates and projections of the future size and composition of the 
stockpile (as reflected in the Nuclear Weapons Council's current 
Requirements Planning Document), over the next 25 years the cost of 
refurbishing warheads for inclusion in the hedge is approximately $3.5-
$5.6 billion in fiscal year 2016 dollars (or 11-22 percent of the cost 
of LEPs for the warheads that would comprise the hedge at that time). 
Strategies that reduce the number of hedge warheads in future stockpile 
configurations (such as our current 3+2 strategy) will keep this 
refurbishment cost from rising above this level.
    The cost, if any, for specific surveillance and assessment of the 
hedge would be small since the warheads in the hedge are the same as 
those being surveilled and assessed in the other stockpile categories.
    Some small costs may associated with maintenance of hedge warheads 
when included in work scope associated with non-hedge counterparts, 
such as an alteration or modification. In this way they retain 
technical parity with warheads in other categories.
    It is expected that the size of the hedge can be reduced as we 
implement a 3+2 strategy for the stockpile, with three ballistic 
missile warheads and two others, one for the LRSO and another for 
gravity bombs. This strategy will allow the U.S. to minimize the size 
of the stockpile, consistent with our commitments under the Nuclear 
Nonproliferation Treaty, while adequately hedging against technical 
risk.

    Senator Feinstein. Thank you very much.
    Thanks, Mr. Chairman.
    Senator Alexander. Senator Graham, is your schedule such 
that I can go to Senator Udall since he's been here?
    Senator Graham. Absolutely. He can go first.
    Senator Alexander. All right.
    Senator Udall, why don't you go ahead since you came early?
    Senator Udall. Thank you very much, Mr. Chairman.

            NATIONAL NUCLEAR SECURITY ADMINISTRATION BUDGET

    Before we get into some of the details on the upcoming 
budget, I would like to step back and take a look at the 
overall funding picture. How does this budget compare to the 
NNSA's budget request in the year of the previous 
administration, fiscal year 2008? Where are we in terms of up, 
down, on that?
    General Klotz. Well, I think a good round number for how 
much the overall NNSA budget has increased since then is about 
40 percent.
    Senator Udall. 40 percent----
    General Klotz. Maybe closer to 37 percent.

                       NUCLEAR WEAPONS STOCKPILE

    Senator Udall. Okay. And my understanding is that there is 
an incredible amount of scientific and technical work that 
needs to be done in future years as the stockpile ages and 
needs further work to keep it safe, secure, and reliable. Do 
you expect future NNSA budgets to need to increase further to 
continue to address the aging stockpile?
    General Klotz. Yes, sir, we do. And in our budget 
submission for this year, we included our projections for the 
future years' nuclear security program out through the year 
fiscal year 2021, and it shows an increase in all of the budget 
lines each of those years except for 1 year for Naval Reactors.
    And I will say right up front that there will probably be 
some additional costs which we will add there because one of 
the things we have done, and part of the management 
improvements, is to be much more rigorous about how we do 
analysis of alternatives, define mission requirements, and do 
independent cost reviews, and some of the things that are--we 
know we're going to have to pay for in the so-called outyears, 
we still have to baseline those and come in with the costs.

                              CMR FACILITY

    Senator Udall. Now, I would like to move on to the work to 
replace the aging CMR Facility at Los Alamos. The GAO report, 
which was released this month, highlighted the plutonium 
infrastructure strategy, and I'm quoting from them now, 
``Uncertain and possibly underestimated,'' and that, ``This 
uncertainty is due to the fact that NNSA has not yet determined 
the number of additional modular buildings that may be 
required,'' at the Los Alamos Lab. Where are we on this issue? 
Where do you see this going at this point in terms of the 
demands that are on you from various agencies?
    General Klotz. Well, thank you for that question. In fact, 
that is one of the lines in our future years' budget that will 
change as time goes through. And, you know, I agree with the 
GAO's assessment, but one of the reasons why that's the case is 
the GAO has been very clear in reports over the past decade or 
so that the NNSA and the DOE need to do a better job in terms 
of defining requirements, holding to those requirements, doing 
analysis of--rigorous analysis of alternatives cost 
estimations. So we need to do that process with the modules. We 
are beginning the analysis of alternatives of how we create the 
additional space at Los Alamos that we need to carry out the 
congressional mandate to produce--or demonstrate a capability 
to produce war reserve plutonium pits in the years ahead. So 
until we have that and until we can baseline the cost of that, 
we won't know for certain what the costs are.
    There's a tendency in Washington, both on the executive 
side and I would dare say on the congressional side as well, to 
ask for a number very, very early on in a project. I think 
until you have done that kind of analysis, any number you have 
is a guess. We would like to be more precise and more accurate 
in terms of providing what we think the costs will be.
    Senator Udall. And the budget includes funding for the 
initial design and development of a trusted strategic radiation 
hardened advanced microelectronics capability, which Sandia 
plays an important role supporting through the Trusted Foundry 
at the Microsystems and Engineering Science Applications, 
what's called the MESA Complex. Do you agree that the core 
competency on microsystems design at Sandia is an important 
national security asset?
    General Klotz. Absolutely. And, in fact, our only facility 
for producing radiation hardened microelectronics that can 
operate in a nuclear environment is MESA, the Microsystems 
Engineering Science Applications at Sandia National Laboratory. 
It, too, is another facility which has been around for a while 
and is a little long in the tooth, but more importantly, the 
technology in this area continues to evolve. Sandia is still 
producing chips using 6-inch silicon wafers. Industry has 
already moved on to 8-inch and projected to go even further. So 
there are things we need to do to the facility to sustain it. 
There are things we need to do to the capabilities within MESA 
to make sure that we can continue to provide this vital 
capability.
    Senator Udall. Thank you very much, General.
    I yield back, Mr. Chairman.
    Senator Alexander. Thanks, Senator Udall.
    Senator Graham.

                      EXCESS PLUTONIUM DISPOSITION

    Senator Graham. Thank you, General. The agreement with the 
Russians covers how much plutonium?
    General Klotz. 34 metric tons.
    Senator Graham. Where is the 34 metric tons located?
    General Klotz. 7 of those metric tons are at Savannah River 
now. The remainder is primarily in storage at Pantex near 
Amarillo, Texas.
    Senator Graham. So when you talk to Senator Alexander about 
13 tons at the Savannah River site, 6 of it was not covered by 
the agreement. Is that correct?
    General Klotz. That's correct. Yes, sir.
    Senator Graham. So what are we going to do with the 
material in Texas?
    General Klotz. The material in Texas would ultimately be 
slated for being turned into--being processed in a way that it 
could be diluted and then ultimately disposed of ----
    Senator Graham. Where is that going to be done at?
    General Klotz. We expect it would be done in Savannah 
River.
    Senator Graham. Do you require any legal changes to get it 
to the WIPP program?
    General Klotz. We do not require--we have statutory, 
sufficient statutory, authority to dispose of all 13 metric 
tons that are currently at Savannah River.
    Senator Graham. That's not my question. Does the statutory 
authority cover the 21 tons in Texas?
    General Klotz. We expect that we would probably have to do 
some work on statutory authorities associated with that.
    Senator Graham. Do you expect probably maybe?
    General Klotz. Probably.
    Senator Graham. No, absolutely you would.
    General Klotz. Absolutely.
    Senator Graham. Good. Do you have any agreement with the 
Russians to change course?
    General Klotz. We do not have an agreement with the 
Russians to change course, but, as you know, there is a 
provision within the agreement to--for the parties to----
    Senator Graham. Where are we at in that agreement?
    General Klotz. As the Secretary has testified just a week 
ago----
    Senator Graham. So what do the Russians say?
    General Klotz. The Russians are saying when you have a 
solid way forward--first of all, they have--the technical 
people I have talked with indicate an understanding of why we 
would want to do this and the technical aspects of it. 
Basically they've said----
    Senator Graham. So what do the Russians want in return?
    General Klotz. Well, when they--when you are ready to go 
forward----
    Senator Graham. So let's see if I got this. We're going to 
change the entire program, then we're going to go to the 
Russians and see if they're okay with it? Is that the plan?
    General Klotz. I--that is the----
    Senator Graham. That's the plan. That's a lousy plan. That 
is absolutely the dumbest friggin' plan I could think of, to 
change course and hope the Russians would agree and not know 
what they're going to charge you for it. Now, other than that, 
things are going great.
    Now, in 2001, we made a decision about MOX, to reject the 
dual strategy. 2014, or 2010, I guess it was, we signed an 
agreement with the Russians that we're going to MOX out 34 
metric tons. In 2016, we got a building, $5 billion worth, 90 
percent, 70 percent complete, and we're going to stop and start 
all over again. Is that the plan?
    General Klotz. Well, you know, we don't agree that it's 70, 
80, 90 percent.
    Senator Graham. Well, you can come and look at the damn 
thing.
    General Klotz. I have.
    Senator Graham. Okay. Is it big?
    General Klotz. It is big.
    Senator Graham. Well, it cost $5 billion, I can promise you 
that. And I think it's 70 percent. What are we going to do with 
the building?
    General Klotz. We would have to see what--what--if we----
    Senator Graham. Have you talked to anybody from New Mexico 
about their view of taking all this material?
    General Klotz. As the Secretary told you last week, he has 
informally approached----
    Senator Graham. Well, have you----
    General Klotz. Have I personally? I have talked----
    Senator Graham. Excuse me. We've informally talked to New 
Mexico. We now admit that you absolutely have to have a 
statutory change to cover the 21 metric tons. We're talking 
informally to the Russians. We're going to change the entire 
scope of the program and hope they agree with it. Is that 
pretty much where we're at? And we have no clue what we're 
going to do with this building.
    Thank you.
    Senator Alexander. General Klotz, I've got some questions 
on another subject. This--the MOX subject is one that Senator 
Feinstein and I, Senator Graham, as well as Senator McCain and 
Senator Reed, are going to continue to address in the next few 
weeks.

                  INTERIM STORAGE OF USED NUCLEAR FUEL

    Let me ask you and maybe Admiral Caldwell and maybe Ms. 
Harrington, the interim storage for used Navy fuel, building a 
new storage site for used fuel, but Admiral Klotz, that's 
temporary storage, right?
    Admiral Caldwell. Sir, I think that question is directed to 
me, sir.
    Senator Alexander. Okay, sir. That's temporary.
    Admiral Caldwell. The fuel that we're storing in Idaho is 
stored for interim----
    Senator Alexander. That means temporary.
    Admiral Caldwell. Yes, sir; it does.
    Senator Alexander. So you'll need somewhere to put it, an 
additional site. Would that fuel be eligible for Yucca 
Mountain?
    Admiral Caldwell. Yes, sir; it would be. The fuel we have 
out there today is packaged for interim storage, and it's 
packed in steel containers with concrete overpacks. Those steel 
containers are designed to last up to 10,000 years in the 
environment that we did the calculations for. And then the 
overpacks are designed to last at least 100 years.
    Senator Alexander. Yeah. But to reiterate, your site is a 
site for temporary storage.
    Admiral Caldwell. That's correct, sir.
    Senator Alexander. And it needs a permanent repository such 
as Yucca Mountain.
    Admiral Caldwell. That's absolutely correct, sir.
    Senator Alexander. Yeah. Senator Feinstein and I are 
working on as many paths as we can toward places for safe 
storage of used nuclear fuel.
    General Klotz, you proposed work on a separate repository 
for defense waste separate from Yucca Mountain, they would only 
be able to accept waste from our defense sites, which doesn't 
include used fuel from commercial power reactors like the 
reactors that are closed in California with what we call 
stranded fuel. This would have to be built with funds that 
could be used for life extension programs or other 
infrastructure. Why would we build a separate repository for 
defense waste? Why wouldn't we just put all that stuff in Yucca 
Mountain?
    General Klotz. Senator, I know the proposal, but to be 
perfectly honest, that is a project, a program, which resides 
elsewhere within the Department of Energy, not within NNSA. So 
I would have to get back to you on any specifics as far as----
    Senator Alexander. But if we spent money on a separate 
defense waste repository, it would have to come out of some of 
your funds----
    General Klotz. It would depend on which--again, whether 
it's 050 money or not, and I just don't have the granularity of 
knowledge to respond to that.

                    LOW-ENRICHED URANIUM NAVAL CORES

    Senator Alexander. Let me ask one of you on a different 
question. You've done some good work on the last several years 
converting research reactor fuel from highly enriched uranium 
to low-enriched uranium, and you're down now I think to about 
six high-performance reactors that are still fueled with highly 
enriched uranium. Why don't you spend your time and money 
developing a way to have low-enriched fuel for the Navy vessels 
instead of worrying about the last six high-performance 
reactors?
    Admiral Caldwell. Sir, thanks for the question. Low-
enriched uranium, from a military standpoint, there is no 
advantage to using that in a naval reactor plant. We use highly 
enriched uranium today, we've used it for decades, because it 
allows us to put the energy that we need to into a reactor core 
so that we can operate those ships for conceivably the life of 
the ship or for very long periods of time.
    The reason why one might consider pursuing a low-enriched 
uranium naval core would be for the United States to be able to 
take a leadership role in development of low-enriched uranium 
and to be able to do that from a nonproliferation standpoint.
    The other reason why one could consider it is because we 
need to sustain the workforce, the highly skilled workforce, 
that does this work for naval nuclear propulsion plants. That 
workforce is heavily taxed right now with the development of 
the Ohio replacement. Once that work tapers off, we're going to 
need some work to keep that workforce active and viable for 
future reactor plants.
    So where we are today is we are continuing our work on 
highly enriched uranium. If I was to go to low-enriched 
uranium, it would require me to refuel ships more frequently 
than I do today. It would require us to take ships offline and 
remove them from the operational availability. To give you some 
example of that, we're developing the Ohio Replacement to last 
for 42 years without refueling. A low-enriched uranium core 
would require at least one refueling. The Ford reactor plant 
for the new carrier is designed to have one refueling. A low-
enriched uranium core might take two or more, at the cost of 
maybe $1 billion apiece. With the Ohio  Replacement program, 
the fact that we don't refuel it saves the Nation $40 billion 
total ownership cost for that class of submarine.
    So from a military standpoint, we want to have the ships 
operating more, we want to have--reduce the time that they're 
in the yards. If you use low-enriched uranium, we would have to 
deal with even more waste, we would have to deal with different 
types of waste, because the waste generated from low-enriched 
uranium is different from highly enriched uranium. And, 
additionally, the Navy might have to go purchase more ships to 
make up for the lost operational availability. So from a 
military standpoint, highly enriched uranium does what we need 
it to do.
    Now, that all said, we were asked to develop a conceptual 
plan for developing a low-enriched uranium core for naval use. 
We have a draft report that's working its way through the Navy 
and through the Department of Energy; we're coordinating that. 
It lays out a program that would take 10 to 15 years at the 
cost of $1 billion to simply develop a low-enriched uranium 
core. Beyond that, it would take another 10 years to deploy 
that core, actually build it. So you're talking about 
technology that would take 25 years or so before it would come 
to fruition. Success could not be guaranteed, but if the 
conceptual plan lays out a plan to go look at that for 
consideration in a carrier plant, a larger plant, where you can 
put more fuel in it, probably not viable for a submarine plant, 
which is small.
    So that conceptual plant is working its way through. 
Success could not be guaranteed. It costs a substantial amount 
of money. And if I was directed to go do that kind of work, I 
would need money above and beyond what I have today to support 
today's Navy.
    Senator Alexander. Thank you. I get the impression you 
think the idea of low-enriched uranium fuel for the Navy 
vessels isn't such a hot idea.
    Admiral Caldwell. I think there is some value in being able 
to sustain my workforce, so let me amplify that.
    Senator Alexander. Yeah, well, my time is about up, but I 
think that was a good complete answer----
    Admiral Caldwell. There is one aspect of this, though, sir. 
To go to low-enriched uranium, I have to develop an advanced 
fuel system. That advanced fuel system could have benefit for a 
low-enriched uranium core or a highly enriched uranium core. So 
there could be some benefit in going down the path to sustain 
my workforce and expand the technology that we have.
    Senator Alexander. Thank you, Admiral.
    Senator Feinstein, I don't have any other questions, so 
I'll let you ask whatever you would like.

                          DEFERRED MAINTENANCE

    Senator Feinstein. I have one because I mentioned in my 
opening remarks that $3.2 billion in deferred maintenance of 
facilities, a huge sum, I don't think I need to say that, 
actually. So, General Klotz, in your plans, to what extent is 
NNSA looking at alternative approaches for addressing the 
problem, such as reducing the number of facilities or 
consolidating functions?
    General Klotz. Thank you very much. You're right, we have a 
very substantial backlog of deferred maintenance. Again, 
referring to my previous military career, I found that the 
first dollar usually goes to the pointy edge of the spear, or 
for the men and women who carry the spear, and then every year 
a decision is made to accept risk on facilities and 
infrastructures, and, you know, defer it one more year. Well, 
one more year becomes two more years, becomes 10 more years, 
and then ultimately you get to a tipping point in terms of our 
facilities, and I think that's where we are in NNSA and in 
other parts of the deal, in the laboratories that are out there 
with some facilities dating back to the Manhattan Project that 
you referred to earlier.
    So Secretary Moniz laid down a--threw down the gauge a 
couple years ago and said that he wanted to arrest the halt in 
the growth of deferred maintenance for the Department of Energy 
as a whole, including NNSA. So with the fiscal year 2016 budget 
that thankfully you all enacted at the end of last year, we've 
essentially halted it at the 3 point I think 7, is what I would 
say, $3.7 billion level, and with 2017, we actually start to go 
down.
    Now, we're exploring alternative ways of financing new 
facilities to get out of these old facilities that include 
using third-party financing. We have an enormous successful 
example of that in the Kansas City National Security Campus, 
which we reduced, got out of an old building that dated back to 
World War II, reduced our footprint from 3 million down to 1 
million square feet. We've asked for money in this budget to 
demolish that particular facility.
    So we're serious about looking for, whether it's a capital 
construction project or a third-party financing or an operating 
lease approach to do that, we're looking for new facilities to 
get our people in, and at the same time, to reduce the 
footprint and to demolish the buildings that are there now.
    The one problem we do have with demolishing some of our 
buildings is if they are contaminated, we have to go through a 
very long tedious and expensive process of cleaning up the 
contamination before we can turn it over to that part of DOE 
that does the demolition.
    Senator Feinstein. Well, let me--what are your estimates? 
How--the $3.2 billion in deferred maintenance, did you have 
specific plans for meeting that, or are you just going to 
ignore it?
    General Klotz. No, we have a specific plan, and we'd be 
happy to share that plan for you in terms of----
    Senator Feinstein. I would appreciate it.
    General Klotz. Yes, ma'am. I'd be delighted to do it.
    Senator Feinstein. And your staff.
    General Klotz. Yes, absolutely.
    Senator Feinstein. That would be just fine.
    General Klotz. Yes, ma'am.
    Senator Feinstein. Thank you. That's it, I think, unless we 
want to debate a nuclear cruise missile more, which I don't 
think you do.
    [Laughter.]
    General Klotz. I'd love to come up and just sit down with 
you in your office and pursue that further.
    Senator Feinstein. Sure. I'd be happy to, actually.
    Senator Alexander. I might come watch.
    [Laughter.]
    General Klotz. I'll invite Admiral Haney to come over.
    Senator Alexander. It would be better than the Republican 
debates.
    [Laughter.]
    Senator Alexander. Probably more informative.
    Senator Feinstein. I don't belittle people.
    Senator Alexander. No, no, no, you don't. I'm not getting 
into this with--I'm sorry--I'm sorry I even brought it up.
    The hearing record will remain open for 10 days. Members 
may submit additional information or questions for the record 
within that time. The subcommittee requests all responses to 
questions for the record be provided within 30 days.

                         CONCLUSION OF HEARINGS

    I want to thank General Klotz, Admiral Caldwell, Ms. 
Harrington, and General Davis, I want to thank all four of you 
for being here and thank you for the work you do for our 
country. We'll look forward to following up with you.
    The committee will stand adjourned.
    [Whereupon, at 3:35 p.m., Wednesday, March 16, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Alexander, Senator Lamar, U.S. Senator From Tennessee:
    Opening Statements of 



    Prepared Statements of 



Baran, Hon. Jeff, Commissioner, Nuclear Regulatory Commission....     1
Bostick, Thomas P., Lieutenant General, Commanding General and 
  Chief of Engineers.............................................    31
    Prepared Statement of........................................    36
    Questions Submitted to.......................................    91
Burns, Hon. Stephen G., Chairman, Nuclear Regulatory Commission..     1
    Prepared Statement of........................................    11
    Summary Statement of.........................................    10

Caldwell, Admiral James F. (Frank), Jr., United States Navy, 
  Deputy Administrator for Office of Naval Reactors..............   169
    Prepared Statement of........................................   186
Cochran, Senator Thad, U.S. Senator From Mississippi, Questions 
  Submitted by...................................................   156
Coons, Senator Christopher A., U.S. Senator From Connecticut, 
  Questions Submitted by.........................................   166

Darcy, Hon. Jo-Ellen, Assistant Secretary of the Army (Civil 
  Works), Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................    31
    Prepared Statement of........................................    32
    Questions Submitted to.......................................    80
Davis, Brigadier General Stephen L., United States Air Force, 
  Principal Assistant Deputy Administrator for Military 
  Applications...................................................   169
Durbin, Senator Richard J., U.S. Senator From Illinios, Questions 
  Submitted by...................................................    90

Feinstein, Senator Dianne, U.S. Senator From California:
    Questions Submitted by 



    Statements of 






Graham, Senator Lindsey, U.S. Senator From South Carolina, 
  Questions Submitted by.........................................   158

Harrington, Anne, Deputy Administrator for Defense Nuclear 
  Nonproliferation...............................................   169

Iseman, Tom, Deputy Assistant Secretary, Water and Science.......    31
    Prepared Statement of........................................    45

Klotz, Lieutenant General Frank G., U.S. Air Force (Retired), 
  Under Secretary for Nuclear Security and Administrator, 
  Department of Energy...........................................   169
    Prepared Statement of........................................   178
    Summary Statement of.........................................   175

Lankford, Senator James, U.S. Senator From Oklahoma, Questions 
  Submitted by 



Lopez, Estevan R., Commissioner, Bureau of Reclamation, 
  Department of the Interior.....................................    31
    Prepared Statement of........................................    39
    Questions Submitted to.......................................    93

McConnell, Senator Mitch, U.S. Senator From Kentucky, Questions 
  Submitted by...................................................   156
Moniz, Hon. Ernest J., Secretary, Office of the Secretary, 
  Department of Energy...........................................   101
    Prepared Statement of........................................   112
    Questions Submitted to.......................................   156
    Summary Statement of.........................................   110
Murray, Senator Patty, U.S. Senator From Washington, Questions 
  Submitted by 




Ostendorff, Hon. William, Commissioner, Nuclear Regulatory 
  Commission.....................................................     1

Shaheen, Senator Jeanne, U.S. Senator From New Hampshire, 
  Questions Submitted by.........................................   163
Shelby, Senator Richard C., U.S. Senator From Alabama, Questions 
  Submitted by 




Svinicki, Hon. Kristine, Commissioner, Nuclear Regulatory 
  Commission.....................................................     1

Udall, Senator Tom, U.S. Senator From New Mexico, Statement of...   175


                          SUBJECT INDEX

                              ----------                              

                          DEPARTMENT OF ENERGY

                National Nuclear Security Administration

                                                                   Page

CMR Facility.....................................................   193
Cost Estimating and Program Evaluation...........................   186
Defense Nuclear Nonproliferation.................................   177
    Appropriation................................................   182
Deferred Maintenance.............................................   198
Effectively Maintaining Nuclear Weapons 



Excess Plutonium Disposition.....................................   194
Interim Storage of Used Nuclear Fuel.............................   196
Keeping Critical Projects on Time and on Budget..................   172
Low-Enriched Uranium Naval Cores.................................   197
Maintaining our Vital Nuclear Workforce..........................   173
Management and:
    Governance...................................................   177
    Performance..................................................   185
Mixed Oxide Fuel Fabrication Facility............................   188
NNSA Federal Salaries and Expenses Appropriation.................   185
National Nuclear Security Administration Budget..................   193
Naval Reactors:
    Appropriation................................................   184
    Program......................................................   177
Nuclear:
    Cruise Missile...............................................   190
    Weapons Stockpile 



Project Oversight................................................   170
Supporting Our Nuclear Navy 



Uranium Processing Facility......................................   188
Weapons Activities Appropriation.................................   178

                        Office of the Secretary

ARPA-E...........................................................   139
Additional Committee Questions...................................   155
Advancing:
    DOE's Critical Missions......................................   130
    Nuclear Security, Science & Energy, and Environmental Cleanup   112
Agency-to-Agency Research........................................   141
CRENEL Report on National Laboratories...........................   138
Carbon:
    Capture and Sequestration....................................   143
    Use and Reuse................................................   150
Clean Energy 



Columbia River Treaty............................................   143
Contract Transitions at the National Laboratories................   145
Doubling Basic Energy Research 



Energy:
    Efficiency...................................................   147
    Research, Development, Demonstration, and Deployment.........   118
    Subsidies 



Future of Nuclear Energy 



Grants...........................................................   140
Hanford Site.....................................................   141
Integrating Science and Energy Programs across the DOE Enterprise   115
International Thermonuclear Experimental Reactor 



Iran and International Atomic Energy Agency......................   166
Joint Comprehensive Plan of Action...............................   138
Keeping Large Projects on Time and on Budget.....................   107
Large Construction Projects......................................   104
Liquefied Natural Gas Exports....................................   139
Loan Guarantee Program...........................................   153
Management and Performance.......................................   126
Mission Innovation 



    Enabling a Clean Energy Future...............................   114
Mixed Oxide Fuel Fabrication Facility 



National:
    Ignition Facility............................................   151
    Laboratories.................................................   137
Northern Pass....................................................   147
Nuclear:
    Security.....................................................   123
    Waste........................................................   131
        Storage..................................................   132
Office of:
    Science Funding..............................................   130
    Technology Transitions.......................................   145
Priorities.......................................................   102
Science:
    and Energy...................................................   114
    Providing the Backbone for Discovery and Innovation..........   116
Siting and Permitting Energy Projects............................   146
Uranium Enrichment Decontamination and Decommissioning Fund 



Waste Isolation Pilot Project....................................   146
Water Desalination...............................................   151

                     NUCLEAR REGULATORY COMMISSION

Advanced Nuclear Reactors........................................    22
Changing Regulatory Environment..................................    12
Consolidated Interim Storage.....................................    22
Crystal River Nuclear Plant 



Current State of the Power Reactor Fleet.........................    15
Diablo Canyon Power Plant........................................    17
Fiscal Year 2017 Budget Request..................................    13
Fukushima........................................................    29
Lessons Learned From Fukushima 



Licensing:
    Facilities for Used Nuclear Fuel.............................     5
    New Reactors.................................................     6
Making Sure the Nuclear Regulatory Commission is Running 
  Efficiently....................................................     6
Nuclear:
    Materials and Waste Safety...................................    14
    Reactor Safety...............................................    14
Safely Extending Licenses for Existing Reactors..................     6
Safety Record of U.S. Reactors...................................    16
San Onofre Nuclear Generating Station............................    18
Small Modular Reactors...........................................    19
Yucca Mountain Licensing.........................................    28

         U.S. ARMY CORPS OF ENGINEERS AND BUREAU OF RECLAMATION

2016 through 2017 Priority Goals.................................    43
2017 Budget Advances a Record of Achievement.....................    45
Accepting Non-Federal Funding During Emergencies.................    68
Additional Committee Questions...................................    80
Alternative Financing............................................    70
    and Public-Private Partnerships..............................    35
Arctic Deep Port Study...........................................    61
Army Corps Projects and Water Supply.............................    84
Beneficial Use of Clean Dredge Material..........................    86
Boat Turbidity Studies...........................................    73
Bureau of Reclamation............................................    50
California:
    Bay-Delta Restoration........................................    42
    Drought and Army Corps ``Big Picture''.......................    83
Central:
    Utah Project Completion Act..................................    48
    Valley Project Restoration Fund..............................    42
Chickamauga Lock.................................................    55
Completing Construction Projects.................................    78
Construction.....................................................    33
    Program......................................................    37
Corps of Engineers Disposition Studies...........................    67
Deepening and Widening Our Coastal Harbors.......................    50
Delaware:
    Beach Protection.............................................    63
    River Basin Commission.......................................    64
    River Dredging...............................................    63
Emergency Management.............................................    39
Gila River Diversion Project.....................................    66
Harbor Maintenance Trust Fund 



Highlights of the fiscal year 2017 Budget for Water and Related 
  Resources......................................................    40
Implements the President's Climate Action Plan...................    46
Improves Oversight and Use of Federal Dollars....................    46
Indian Water Rights Settlements..................................    42
Inland:
    Waterway Trust Fund..........................................    72
    Waterways 



Investigations Program...........................................    37
Irrigation Water.................................................    53
King Cove........................................................    60
Lake Tschida.....................................................    75
Liquefied Natural Gas Exports....................................    62
Market Rent Surveys..............................................    76
Merced Army Corps Project........................................    88
National Fish Hatchery...........................................    72
Natural Resource Investment Center...............................    47
New Mexico Rural Water Projects..................................    65
Operation and Maintenance........................................    34
    (O&M) Program................................................    38
Permanent Appropriations.........................................    43
Planning Modernization...........................................    33
Policy and Administration........................................    43
Port of Wilmington...............................................    64
Promotes the Conservation and Protection of America's Natural and 
  Cultural Resources.............................................    46
Properly Funding Our Inland Waterway System......................    49
Reclamation Highlights...........................................    47
Red River Flood Protection.......................................    69
Regulatory Program...............................................    35
Rehabilitation Projects..........................................    77
Reimbursable Program.............................................    38
Remaining Items..................................................    35
Research and Development.........................................    35
Responding to the Subcommittee's Questions for the Record........    78
Rural Water Projects.............................................    52
Sabrine-Neches Waterway..........................................    62
San Joaquin River Restoration Fund...............................    42
San Luis Expansion...............................................    74
Section 107 Small Navigation Program.............................    61
Seismic Safety Projects..........................................    74
Shasta Dam and Los Vaqueros......................................    73
South San Francisco Bay Shoreline................................    82
Summary of Fiscal Year 2017 Budget...............................    37
Updating Dam Operation Manuals...................................    87
Veterans:
    Affairs Construction Projects................................    82
    Curation Program.............................................    36
Water:
    Infrastructure Improvements..................................    54
    Pumping Decisions............................................    59
    Related Resources............................................    40
    SMART, Water Conservation Field Services and Title XVI 
      Programs...................................................    47

                                   - 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
